No. ______
IN THE

Supreme Court of the United States
————
LESLIE RUTLEDGE, in her official capacity as
Attorney General of the State of Arkansas, et al.,
v.

Petitioners,

LITTLE ROCK FAMILY PLANNING SERVICES, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
MICHAEL A. CANTRELL
DYLAN L. JACOBS
Assistant Solicitors General
JENNIFER L. MERRITT
Senior Assistant Attorney
General

Counsel for Petitioners
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
The question presented is:
Whether the Fourteenth Amendment bars States
from prohibiting abortions that are sought solely
because of a prenatal diagnosis of Down syndrome.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Petitioners are Leslie Rutledge, in her official
capacity as Attorney General of the State of Arkansas;
Larry Jegley, in his official capacity as Prosecuting
Attorney of Pulaski County; Matt Durrett, in his
official capacity as Prosecuting Attorney of
Washington County; Sylvia D. Simon, in her official
capacity as Chairman of the Arkansas State Medical
Board; Rhys L. Branman, Veryl D. Hodges, Brian T.
Hyatt, Timothy C. Paden, Don R. Phillips, John H.
Scribner, David L. Staggs, and, automatically
substituted under Fed. R. App. P. 43(c)(2), Elizabeth
Anderson, Edward “Ward Gardner,” and Betty
Guhman, in their official capacities as members of the
Arkansas State Medical Board; and, also automatically substituted under Fed. R. App. P. 43(c)(2), Jose
Romero, in his official capacity as Secretary of the
Arkansas Department of Health, the position formerly
known as Director and State Health Officer of the
Arkansas Department of Health, see Transformation
and Efficiencies Act of 2019, sec. 2, 2019 Ark. Acts
5486, 5498 (Apr. 11, 2019) (enacting Ark. Code Ann.
25-43-108(d)(7)). They were defendants-appellants in
the court of appeals.
Respondents are Little Rock Family Planning
Services, Planned Parenthood of Arkansas & Eastern
Oklahoma, d/b/a Planned Parenthood of Great Plains,
Stephanie Ho, and Thomas Tvedten. They were
plaintiffs-appellees in the court of appeals.

iii
RELATED PROCEEDINGS
Little Rock Family Planning Services v. Rutledge,
No. 4:19-cv-00449-KGB (E.D. Ark.) (preliminary
injunction entered Aug. 6, 2019).
In re Rutledge, No. 20-1791 (8th Cir.) (judgment
entered Apr. 22, 2020).
Little Rock Family Planning Services v. Rutledge,
No. 4:20-cv-00470-BSM (E.D. Ark.) (judgment entered
June 11, 2020).
Little Rock Family Planning Services v. Rutledge,
No. 19-2690 (8th Cir.) (judgment entered Jan. 5, 2021).

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDINGS BELOW ...

ii

RELATED PROCEEDINGS ...............................

iii

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ..............................

1

INTRODUCTION ................................................

2

STATEMENT ......................................................

4

A. Down Syndrome and Selective Abortion .

4

B. Arkansas’s Prohibition of Selective
Abortion .....................................................

9

C. Procedural History....................................

10

REASONS FOR GRANTING THE WRIT ..........

12

I. The court of appeals’ decision conflicts
with this Court’s precedent and is
wrong. ........................................................

12

A. Under this Court’s precedent, abortion regulations that reasonably serve
a compelling state interest are
constitutional. ......................................

12

1. Before Casey, abortion regulations
that reasonably furthered compelling interests were valid. ...............

13

(v)

vi
TABLE OF CONTENTS—Continued
Page
2. Under Casey, abortion regulations
that reasonably further compelling interests are valid. ..................

18

3. June Medical did not alter Casey’s
test. .................................................

22

B. Arkansas’s law reasonably furthers
compelling interests in antidiscrimination. .................................................

24

1. Arkansas’s
interests
are
compelling.......................................

25

2. Arkansas’s law reasonably serves
its compelling interests. .................

29

II. The court of appeals’ decision implicates
a circuit split. ............................................

29

III. The question presented is exceptionally
important. .................................................

32

CONCLUSION ....................................................

34

APPENDIX
APPENDIX A: Opinion, Court of Appeals for
the Eighth Circuit (January 5, 2021) .............

1a

APPENDIX B: Preliminary Injunction, District Court for the Eastern District of
Arkansas (August 6, 2019) .............................

21a

APPENDIX C: The Arkansas Down Syndrome Discrimination by Abortion Prohibition Act, Ark. Code Ann. 20-16-2101 to 2107 . 239a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Bellotti v. Baird,
443 U.S. 622 (1979) ...................................

17

Bd. of Dirs. of Rotary Club Int’l v. Rotary
Club of Duarte,
481 U.S. 537 (1987) ...................................

25

Box v. Planned Parenthood of Ind. &
Ky., Inc.,
139 S. Ct. 1780 (2019) ........................ 8-9, 25, 27
Brown v. Bd. of Educ.,
347 U.S. 483 (1954) ................................... 3, 27
Buck v. Bell,
274 U.S. 200 (1927) ...................................

25

City Council of L.A. v. Taxpayers for Vincent,
466 U.S. 789 (1984) ...................................

29

City of Akron v. Akron Ctr. For
Reprod. Health,
462 U.S. 416 (1983) ........... 15, 16, 17, 18, 23, 29
Connecticut v. Menillo,
423 U.S. 9 (1975) (per curiam) ........... 15, 16, 21
EMW Women’s Surgical Ctr., P.S.C. v.
Friedlander,
978 F.3d 418 (6th Cir. 2020) .....................

31

Gary-Northwest Ind. Women’s Servs., Inc.
v. Orr,
451 U.S. 934 (1981) ...................................

16

Heart of Atlanta Motel, Inc. v. United States,
379 U.S. 241 (1964) ...................................

28

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Hodgson v. Minnesota,
497 U.S. 417 (1990) ...................................

17

Hopkins v. Jegley,
968 F.3d 912 (8th Cir. 2020) .....................

30

Hughes v. United States,
138 S. Ct. 1765 (2018) ..............................

30

June Med. Servs. L.L.C. v. Russo,
140 S. Ct. 2103 (2020) ..............................passim
Marks v. United States,
430 U.S. 188 (1977) ............................. 24, 30, 31
Mazurek v. Armstrong,
520 U.S. 968 (1997) (per curiam) .............

22

N.Y. State Club Ass’n, Inc. v. City of
New York,
487 U.S. 1 (1988) .......................................

25

Planned Parenthood Ass’n of Kansas City,
Mo., Inc. v. Ashcroft,
462 U.S. 476 (1983) ...................................

21

Planned Parenthood of Ind. & Ky., Inc. v.
Box,
— F.3d —, 2021 WL 940125 (7th Cir.
2021) .......................................................... 22, 31
Planned Parenthood of Ind. & Ky., Inc. v.
Comm’r of Ind. State Dep’t of Health,
888 F.3d 300 (7th Cir. 2018) ....................

28

Planned Parenthood of Ind. & Ky, Inc. v.
Comm’r of Ind. State Dep’t of Health,
917 F.3d 532 (7th Cir. 2018) .....................

27

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Planned Parenthood of S.E. Pa. v. Casey,
505 U.S. 833 (1992) ..................................passim
Preterm-Cleveland v. Himes,
940 F.3d 318 (6th Cir. 2019), reh’g
en banc granted, opinion vacated,
944 F.3d 630 (2019) ............................ 26, 28, 30
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) ....................... 25, 27, 28, 29
Roe v. Wade,
410 U.S. 113 (1973) ..................................passim
Simopoulos v. Virginia,
462 U.S. 506 (1983) ................................... 16, 21
Strauder v. West,
100 U.S. 303 (1879) ...................................

27

Tennessee v. Lane,
541 U.S. 509 (2004) ...................................

25

Thornburgh v. Am. Coll. of Obstetricians
& Gynecologists,
476 U.S. 747 (1986).................................... 18, 20
Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292 (2016) ...............................

31

Whole Woman’s Health v. Paxton,
972 F.3d 649 (5th Cir. 2020) .....................

31

Whole Woman’s Health v. Paxton,
978 F.3d 896 (5th Cir. 2020),
reh’g en banc granted, opinion vacated,
978 F.3d 974 (2020) ..................................

31

x
TABLE OF AUTHORITIES—Continued
CONSTITUTION

Page(s)

U.S. Const. amend. XIV, sec. 1 ....................

1

STATUTES
28 U.S.C. 1254(1) ..........................................

1

Arkansas Down Syndrome Discrimination
by Abortion Prohibition Act, Ark. Code
Ann. 20-16-2101 to 2107
20-16-2102(1)(B)(i) ....................................

9

20-16-2103(a) ............................................

9

20-16-2103(b)(1) ........................................

9

20-16-2103(b)(2) ........................................

9

20-16-2106(a) ............................................

10

OTHER AUTHORITIES
Peter A. Benn & Audrey R. Chapman,
Practical and Ethical Considerations
of Noninvasive Prenatal Diagnosis, 301
J. Am. Med. Ass’n 2154 (2009) .................

28

Paul Brest, Foreword: In Defense of the
Antidiscrimination Principle, 90 Harv. L.
Rev. 1 (1976)..............................................

27

Data and Statistics on Down Syndrome,
Ctrs. for Disease Control & Prevention,
https://www.cdc.gov/ncbddd/birthdefects/
downsyndrome/data.html .........................

4

Ellyn Farrelly et al., Genetic Counseling for
Prenatal Testing: Where is the Discussion
about Disability?, 21 J. Genetic Couns.
814 (2012) .................................................. 5, 6, 7

PETITION FOR A WRIT OF CERTIORARI
Arkansas Attorney General Leslie Rutledge, two
state prosecutors, members of the Arkansas State
Medical Board, and the Secretary of the Arkansas
Department of Health, respectfully petition for a
writ of certiorari to review the judgment of the
United States Court of Appeals for the Eighth Circuit
in this case.
OPINIONS BELOW
The court of appeals’ opinion (Pet. App. 1a-20a) is
reported at 984 F.3d 682. The district court’s order
(Pet. App. 21a-238a) is reported at 397 F. Supp. 3d 1213.
JURISDICTION
The court of appeals entered judgment on January
5, 2021. The jurisdiction of this Court is invoked
under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Section 1 of the Fourteenth Amendment to the U.S.
Constitution provides:
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens
of the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
The Arkansas Down Syndrome Discrimination by
Abortion Prohibition Act, Ark. Code Ann. 20-16-2101
to 2107, is set forth in the appendix to this petition
(Pet. App. 239a-247a).

2
INTRODUCTION
This case is about whether the Constitution
enshrines a right to have an abortion solely to avoid
having a child diagnosed with Down syndrome. The
majority of the panel below agreed that cannot be
true, but ultimately held that this Court’s precedent
said otherwise. That conclusion threatens the very
existence of people with Down syndrome in this country. And it sends an unmistakable message to people
with Down syndrome that the Constitution, as interpreted by this Court, is indifferent to their survival.
The Court should grant certiorari and reverse the
decision below.
New technology has made it possible for all pregnant women to test their unborn children for Down
syndrome. When they do, false stereotypes and misinformation from doctors with little knowledge of the
condition lead over two-thirds of women who receive
a Down-syndrome diagnosis to choose abortion. The
result is a rapidly disappearing population of Americans
with this already rare condition.
In an effort to prevent that population from being
eliminated, Arkansas narrowly prohibited providers
from performing abortions sought solely because of a
Down-syndrome diagnosis. The courts below held it
could not do so. Taking sides in a growing circuit split,
the Eighth Circuit reluctantly held that after this
Court’s decision in June Medical, a State’s interests no
longer mattered to whether its abortion regulations
were constitutional; all that mattered was whether its
laws imposed a substantial obstacle to obtaining an
abortion. Arkansas’s law did, so it was invalid.
That decision was grievously wrong. From Roe to
Casey and even June Medical, this Court has always

3
held that a State’s compelling interests can justify
its regulation of abortion—even regulations that can
be characterized as a ban. Yet in June Medical’s
fragmented wake, multiple courts of appeals, led
astray by a misreading of the Chief Justice’s opinion,
have held state interests no longer count. The Court
should grant certiorari to make clear that, as is true
everywhere else in constitutional law, state interests
matter and can sustain abortion regulation.
It should then hold that two compelling interests
in antidiscrimination sustain Arkansas’s law. First,
Arkansas has a palpably compelling interest in
preventing selective abortion from eliminating its
population with Down syndrome. No antidiscrimination interest more strongly compels state action than
prohibiting discrimination that threatens a group’s
very existence.
Second, Arkansas has an equally powerful interest
in protecting its citizens with Down syndrome from
the grotesquely stigmatic messages that selective
abortion sends them. When people with Down syndrome see that the vast majority of unborn children
diagnosed with their condition are aborted, the
message they receive from their community is that a
life with Down syndrome is not worth living. For
them, selective abortion “generates a feeling of inferiority as to their status in the community that may
affect their hearts and minds in a way unlikely ever to
be undone.” Brown v. Bd. of Educ., 347 U.S. 483, 494
(1954). The Court should grant certiorari, vindicate
those interests, and uphold Arkansas’s law.

4
STATEMENT
A. Down Syndrome and Selective Abortion
1. Down syndrome is a genetic disorder. Most of us
are born with 23 pairs of chromosomes, but people
with Down syndrome have a third copy of chromosome
21. C.A. App. 804-05; see C.A. App. 1150-52. People
with Down syndrome typically have mild to moderate
cognitive impairment, C.A. App. 804, and their life
expectancies are lower than the general population’s,
C.A. App. 822. But thanks to advances in care and
support, the prognosis for people with Down syndrome
is constantly improving. In 1960, the life expectancy
for someone with Down syndrome was 10 years, Data
and Statistics on Down Syndrome, Ctrs. for Disease
Control & Prevention;1 by 2007, it was 47, id.; today,
it is about 60, C.A. App. 822.
Not only has the medical outlook for people with
Down syndrome dramatically improved; so too has
their quality of life. Though medical professionals
often assume that people with Down syndrome are a
burden to themselves and their families, infra at 5-7,
empirical research debunks that stereotype.
In a groundbreaking series of studies published in
2011 in the American Journal of Medical Genetics,
Brian Skotko, an associate professor at Harvard
Medical School, found that people with Down syndrome are just as happy as their peers and a joy to
their families. In a survey of hundreds of people with
Down syndrome, 99% reported they were happy; 97%
said they liked who they were; 96% said they liked how
they looked; and 86% reported they could make friends
1

https://www.cdc.gov/ncbddd/birthdefects/downsyndrome/dat
a.html.

5
easily, with the minority who said they couldn’t mostly
living in isolated situations. C.A. App. 762.
In a second survey of parents of children with Down
syndrome, Dr. Skotko found that 97% were proud
of their children with Down syndrome. And although
11% reported that their child with Down syndrome
was putting a strain on their marriage or partnership,
that figure was no greater than the share of respondents who reported that a child without Down syndrome had put a strain on their relationship. C.A.
App. 995-96. Those findings echo multiple earlier
studies concluding that parents of children with Down
syndrome have no greater stress, marital difficulties,
or lack of confidence in their parenting, than parents
of children without Down syndrome. C.A. App. 977.
2. Unfortunately, that is not the message pregnant
women who receive a diagnosis of Down syndrome
receive. Counseled by reproductive-health specialists
with scarce education on Down syndrome,2 women are
given an overwhelmingly negative, dated, and inaccurate picture of life with Down syndrome that frequently
veers into outright advocacy of selective abortion.
For example, one study recorded nearly a hundred
simulated counseling sessions between genetic counselors and researchers playing clients. Ellyn Farrelly
et al., Genetic Counseling for Prenatal Testing: Where
is the Discussion about Disability?, 21 J. Genetic
2

In one survey of fellows in the American College of Obstetricians and Gynecologists, 45% rated their training on how to
deliver a prenatal diagnosis of Down syndrome as “barely adequate or non-existent,” and only 28% deemed themselves “wellqualified” to offer prenatal genetic counseling. C.A. App. 800.
Another survey of medical students found that 81% were “not
getting any clinical training regarding individuals with intellectual disabilities” at all. Id.

6
Couns. 814 (2012). Even in that monitored setting,
77% of counselors described Down syndrome as a
severe disability. Id. at 817. Almost invariably, they
discussed the physical and cognitive differences that
can accompany Down syndrome (95% and 87%
respectively). Id. One counselor even advised a
client that children with Down syndrome “all do have
mental retardation.” Id. at 819. Far fewer counselors
(just 27%) talked about their social skills. Id. at 817.
And one counselor advised a client that children with
Down syndrome “have issues and they are longstanding issues and it is a financial drain to have a child
with Down syndrome. That is the blunt and honest
truth and I’m not going to try and pussyfoot around
that.” Id. at 818.
Prenatal-screening literature offers a similarly
pessimistic outlook. As recently as 2009, California
gave mothers with a prenatal Down-syndrome diagnosis a state-produced brochure that stated Down
syndrome “causes mental retardation” and that just “a
few” infants with Down syndrome are only “mildly . . .
retarded.” C.A. App. 844. But in reality, Down syndrome causes only mild intellectual disabilities in over
a third of cases. C.A. App. 844. And a study of
Canadian prenatal-screening pamphlets on Down
syndrome found that 47% of their statements about
the condition were negative, while just 2% were
positive—even counting statements about available
services and support as positive. C.A. App. 851.
Unsurprisingly, that overwhelmingly negative
portrayal of raising a child with Down syndrome often
crosses the line into encouraging women to abort
them. In one survey of hundreds of physicians and
genetic counselors, 13% admitted they overemphasize
the condition’s negative aspects to persuade their

7
patients to abort; another 10%—in spite of the profession’s supposed commitment to nondirective counseling—flatly admitted they “urge” aborting children
with Down syndrome. C.A. App. 801.
Shocking as those admissions are, studies that
don’t rely on self-reporting paint a still darker picture.
In one study of women who gave birth to children
with Down syndrome after a prenatal diagnosis, 24%
reported they carried their pregnancies to term despite
“medical professionals’ insistence on terminating the[ir]
pregnancies.” C.A. App. 881 (emphasis added). And
in the study of simulated genetic-counseling sessions
discussed above, 86% of counselors—before Down
syndrome was even diagnosed—raised abortion as
an option in the event it was. Farrelly, supra, at 819.
By contrast, only 37% mentioned continuing the
pregnancy in that event, 22% mentioned the availability of services for disabled children, and a mere 13%
mentioned adoption. Id.
The individual experiences of Arkansas mothers
bear out these statistics. For instance, one mother
testified below about how she regretted aborting her
third child based solely on a Down-syndrome diagnosis. See C.A. App. 1792-97. Her doctor did not “provide
[her] any information about Down syndrome”—just a
referral to Respondent Little Rock Family Planning
Services, an abortion clinic. C.A. App. 1793-94.
3. The medical profession’s negative portrayal of
Down syndrome and encouragement of women to
abort children diagnosed with it has a predictable
consequence: Women who receive a prenatal diagnosis of Down syndrome overwhelmingly choose abortion. The estimated abortion rate differs from study
to study, but it is—on any account—extraordinarily
high. A weighted average of studies drawing on three

8
States’ birth-defect registries estimates a rate of 67%,
with one study estimating a rate of 93%. C.A. App.
903. And a weighted average of eight studies in large
hospitals estimates a rate of 85%, with individual
hospitals’ rates as high as 89.6%. Id.
Women make these choices, for the most part, not
for self-interested reasons, but because of the false
narrative surrounding the condition. In one study
of women who chose to abort a child with Down
syndrome, 92% said they believed their child would
never be able to function independently, C.A. App.
933, and 83% said they believed the condition’s burden
would be too heavy for the child to bear, id.—
notwithstanding that the vast majority of people with
Down syndrome do not view their lives that way.
The extraordinarily high rates of abortion of
children diagnosed with Down syndrome are rapidly
shrinking the population of Americans with that
condition. The most recent study of selective abortion’s effects in the United States found that by 2007,
abortion had reduced the number of children born with
Down syndrome by 30%. C.A. App. 864. But that
number almost certainly substantially underestimates selective abortion’s effects on the population,
because it predates the 2011 advent of cell-free DNA
testing. C.A. App. 1022. This is a widely available
non-invasive screening test that has two advantages
over past screening tests: It is far more sensitive and,
unlike them, can be performed in the first trimester.
C.A. App. 811-13.
Indeed, in Iceland, since such screening has become
nearly universal, only about one to two babies with
Down syndrome have been born a year—in a nation
with a population of over 300,000. C.A. App. 838-39;
see also Box v. Planned Parenthood of Ind. & Ky., Inc.,

9
139 S. Ct. 1780, 1791 (2019) (Thomas, J., concurring)
(“In Iceland, the abortion rate for children diagnosed
with Down syndrome in utero approaches 100%.”). In
Denmark, where prenatal screening has also become
near-universal, only eighteen babies were born with
Down syndrome in 2019—in a nation with a population of over 5,000,000. Pet. App. 20a (Erickson, J.,
concurring). As the United States’ extremely high
rates of abortion after a Down-syndrome diagnosis
intersect with today’s screening techniques, Down
syndrome in America may largely become a thing of
the past.
B. Arkansas’s
Abortion

Prohibition

of

Selective

To prevent selective abortion from eradicating its
population with Down syndrome, in 2019 Arkansas
enacted the Down Syndrome Discrimination by
Abortion Prohibition Act, Ark. Code Ann. 20-16-2101
to 2107. The Act prohibits practitioners from knowingly performing abortions solely on the basis of a
prenatal diagnosis or indication of Down syndrome.
Id. 20-16-2103(a).
To prevent evasion of that prohibition, abortion
practitioners are required to ask whether a woman
has received a diagnosis of, or test result indicating,
Down syndrome. Id. 20-16-2103(b)(1). If so, the abortion practitioner must inform the woman of the Act’s
prohibition and review her medical records to
determine if she has previously aborted a child
diagnosed with Down syndrome. Id. 20-16-2103(b)(2).
The Act does not prohibit a practitioner from performing an abortion if they find a history of selective
abortion, but such a history is relevant to the practitioner’s knowledge of their patients’ intent.

10
Pregnant women themselves may not be held
criminally or civilly liable under the Act. Id. 20-162106(a). Additionally, though the Act only prohibits
abortions obtained solely because of a Down-syndrome
diagnosis, abortions performed to protect the life or
health of the mother or child are expressly excepted
from the Act’s coverage. Id. 20-16-2102(1)(B)(i).
C. Procedural History
1. In June 2019, four weeks before the Act’s effective date, two Arkansas abortion facilities and two
affiliated practitioners challenged the Act,3 claiming it
unconstitutionally burdened what they alleged was
the right to obtain abortions, for whatever reason, previability. C.A. App. 6-7, 21-22.
The plaintiffs acknowledged they performed abortions sought solely based on a Down-syndrome
diagnosis, and testified that, while they did not ask
their patients their reasons for seeking an abortion,
those whose reason was a Down-syndrome diagnosis
“usually disclose this fact.” Pet. App. 80a. The
plaintiffs also testified that the Act’s prohibition would
be effective; if it went into effect, they testified, they
would not perform abortions that they knew were
sought solely because of a diagnosis of Down
syndrome. Pet. App. 81a.
2. The district court preliminarily enjoined enforcement of the Act, concluding it was facially unconstitutional. Pet. App. 137a. The district court did not
address Arkansas’s interest in antidiscrimination;
rather, it claimed that under this Court’s decision in
3

Subsequently, one of the plaintiff facilities and its practitioner withdrew from the preliminary-injunction motion. C.A.
App. 528.

11
Casey, no state interest could ever sustain any prohibition of pre-viability abortion. Pet. App. 132a. By
merely prohibiting a minute subset of pre-viability
abortions—ones of children diagnosed with Down
syndrome, sought solely because of that diagnosis—
the district court held that Arkansas had sought “to
move the point of viability to conception.” Pet. App.
134a. Indeed, the district court deemed the law
so transparently invalid that it “refus[ed] to apply the
undue burden standard,” which it thought inapplicable to any “prohibition on certain abortions prior to
viability.” Pet. App. 136a.
3. The court of appeals affirmed, but the majority of
the panel lamented the result. In an opinion by Judge
Loken, the court explained that recent circuit precedent had held the Chief Justice’s concurring opinion in
June Medical Services L.L.C. v. Russo, 140 S. Ct. 2103
(2020), was controlling. Pet. App. 5a n.2. And under
that opinion, the court reasoned, a law’s benefits or
the interests it served were only relevant to whether
it survived rational-basis review. If it did, “the only
question for a court is whether a law has the effect of
placing a substantial obstacle in the path of a woman
seeking an abortion of a nonviable fetus.” Pet. App. 9a
(internal quotation marks omitted) (quoting June
Med., 140 S. Ct. at 2138 (Roberts, C.J., concurring)).
Reasoning that the Act is a substantial obstacle for
those women who wish to get an abortion because of
a Down-syndrome diagnosis, the court of appeals
concluded it followed automatically that the Act was
invalid. Pet. App. 10a. Whether or not the State had
a compelling interest in preventing selective abortion
was, in the court’s view, irrelevant.
In two separate concurring opinions, Judges
Shepherd and Erickson lamented that this Court’s

12
precedent, as they understood it, required them to
strike down the Act. Judge Shepherd, joined by
Judge Erickson, wrote that prohibitions of abortion
sought solely because of “an unwanted immutable
characteristic of the unborn child” present “significant
and, as yet, unconsidered issues regarding the balance
of [the State’s] interests” and abortion. Pet. App. 15a
(Shepherd, J., concurring). Yet he reluctantly concluded that “Casey directs that we resolve this inquiry
by considering viability alone.” Pet. App. 16a.
Judge Erickson, joined by Judge Shepherd, argued
at length that the State’s interest in preventing
discriminatory abortion was compelling, reasoning
that if unchecked, such abortion could eliminate the
“population [of] children with Down syndrome,” Pet.
App. 20a (Erickson, J., concurring), and reduce the
“diversity of the human population” generally, Pet.
App. 19a. But reading Casey to only permit prohibitions of abortion that protect viable fetal life, Pet. App.
18a, he concluded with “deep[] regret” that “precedent
forecloses a balancing of the state’s actual interest
against the woman’s right to choose,” Pet. App. 20a.
REASONS FOR GRANTING THE WRIT
I. The court of appeals’ decision conflicts with
this Court’s precedent and is wrong.
A. Under this Court’s precedent, abortion
regulations that reasonably serve a compelling state interest are constitutional.
The court of appeals’ decision invalidating Arkansas’s
prohibition of Down-syndrome-discriminatory abortion
rests on one premise: Under this Court’s precedent,
any law that places a substantial obstacle in the path
of a woman seeking a pre-viability abortion is per se
invalid. That is incorrect.

13
Casey did not find an absolute right against laws
that substantially burden abortion pre-viability. Nor
did it hold that protecting viable fetal life is the only
compelling interest States have in regulating abortion.
Instead, Casey held that only laws that place a
substantial obstacle in the path of a woman seeking
an abortion are potentially invalid. And—as true in
virtually every other context—even laws that have
that effect are permissible if they further a compelling
interest. Indeed, that’s why States may bar late-term
abortions, impose reasonable health and safety
requirements that reduce abortion access, and prohibit
minors who are unable to obtain parental consent or a
judicial bypass from obtaining an abortion.
In sum, to decide whether Arkansas’s law ran afoul
of the right articulated in Roe and Casey, the courts
below had to decide whether Arkansas has a compelling interest in preventing selective abortion of
children diagnosed with Down syndrome. In declining
to apply that standard, the courts below contravened
this Court’s precedent, and this Court should grant
certiorari and reverse the judgment below.
1. Before Casey, abortion regulations that
reasonably furthered compelling interests
were valid.
In the pre-Casey era, this Court reviewed abortion
regulations under a relaxed form of heightened
scrutiny. Laws that reasonably furthered a compelling state interest were valid, whatever their effects.
In Casey, this Court raised the threshold for applying
that standard of review, making it applicable only to
those laws that place a substantial obstacle in the path
of women seeking an abortion.

14
But it did not, as the courts below concluded,
simultaneously lower the threshold for invalidity
and hold that any law that imposed a substantial
obstacle was unconstitutional. Indeed, nothing in
Casey suggests that it intended to overrule previous
cases upholding laws that undoubtedly imposed such
an obstacle. Rather, Casey reaffirmed that a compelling state interest can sustain abortion regulations.
And a review of pre-Casey precedents—which the
Casey Court deemed insufficiently deferential to
States’ interests—demonstrates that under Casey
finding a substantial obstacle is only the first step to
finding an abortion regulation invalid.
a. In Roe, the petitioner argued that “the woman’s
right is absolute and that she is entitled to terminate
her pregnancy at whatever time, in whatever way, and
for whatever reason she alone chooses.” Roe v. Wade,
410 U.S. 113, 153 (1973). “With this [the Court did]
not agree.” Id.
Though the Court “conclude[d] that the right of
personal privacy includes the abortion decision,” id. at
154, it explained that “[t]he pregnant woman cannot
be isolated in her privacy,” id. at 159. For unlike the
contexts in which the Court had recognized a right to
privacy before, the pregnant woman’s privacy was
not “sole,” but shared with the unborn child. Id.
Observing that even limits on enumerated rights “may
be justified . . . by a compelling state interest,” id. at
155 (internal quotation marks omitted), the Court
concluded the right recognized in that case was “not
unqualified and must be considered against important
state interests in regulation,” id. at 154.
Applying that standard to the State’s asserted
interests, the Court determined that States’ interest
in the health of the mother “becomes ‘compelling’ . . .

15
at approximately the end of the first trimester,” before
which the Court believed abortion was less risky. Id.
at 163. After that point, the Court held “a State may
regulate the abortion procedure to the extent that the
regulation reasonably relates to the preservation and
protection of maternal health.” Id. As for “the State’s
important and legitimate interest in potential life,” the
Court held “the ‘compelling’ point is at viability.” Id.
After that point, the Court held States “may go so far
as to proscribe abortion.” Id. In short, States could
regulate when their interests became compelling.
b. The years following Roe are often depicted as an
era when the Court’s review of abortion regulations
was strict in theory but fatal in fact. But it was not
even strict in theory. As the Court promised in Roe,
laws that reasonably furthered States’ compelling
interest in maternal health, not just those narrowly
tailored to it, were upheld. And similarly, in a series
of post-Roe cases, the Court upheld parental-consent
requirements that allowed for a judicial bypass on the
grounds that such laws furthered the States’ compelling interest in safeguarding the welfare of minors.
Beginning with health regulations, in the years
immediately after Roe, the critical question wasn’t
whether a challenged provision impaired abortion
access. Rather, “the determinative question [was]
whether there is a reasonable medical basis for the
regulation.” City of Akron v. Akron Ctr. for Reprod.
Health, 462 U.S. 416, 429 n.11 (1983).
For example, in Connecticut v. Menillo, 423 U.S. 9
(1975) (per curiam), the Court held that laws barring
nonphysicians from performing abortions were per se
valid, even in the first trimester, because Roe’s holding
that first-trimester abortions didn’t require regulation
presumed they would be “performed by medically

16
competent personnel.” Id. at 11. Then in Simopoulos
v. Virginia, the Court held States could require
second-trimester abortions to be performed in hospitals or licensed clinics, simply reasoning that such
laws were “not an unreasonable means of furthering
the State’s compelling interest” in health. 462 U.S.
506, 519 (1983). The Court even summarily upheld a
second-trimester hospitalization requirement because
its challengers failed to prove “it was unreasonable to
require hospitalization.” Akron, 482 U.S. at 433 n.18
(citing Gary-Northwest Ind. Women’s Servs., Inc. v.
Orr, 451 U.S. 934 (1981)).
And when the Court later struck down hospitalization requirements in Akron, it didn’t do so because
they imposed a substantial access burden, which was
conceded, id. at 435, or because the requirements
weren’t narrowly tailored, id. at 438 (disavowing need
for narrow tailoring). Rather, the Court decided those
requirements didn’t “reasonably further the city’s
interest in promoting health.” Id. at 437 n.26.
After Roe, the Court also upheld a litany of parentalconsent and -notification requirements. As above, in
upholding those requirements, the Court didn’t focus
on any lack of burden—since such laws undoubtedly
prevented some minors from obtaining abortions—but
upheld them because they reasonably furthered a
compelling interest.
In analyzing parental-consent and -notification
statutes, the Court began with the premise that States
had a compelling “interest in protecting immature
minors.” Akron, 462 U.S. at 439. And it reasoned that
“the State furthers [that] end by encouraging an
unmarried pregnant minor to seek the help and advice
of her parents in making the very important decision

17
whether or not to bear a child.” Bellotti v. Baird, 443
U.S. 622, 640-41 (1979) (plurality opinion).
At the same time, the Court also held that States
could not “make a blanket determination that all
minors . . . are too immature to make this decision or
that an abortion never may be in the minor’s best
interests without approval.” Akron, 462 U.S. at 440.
That was true, the Court concluded, because such a
blanket determination would not reasonably further
the States’ interest. Id. So the Court required States
to provide a bypass procedure in which a minor could
“demonstrate that she is sufficiently mature to make
the abortion decision herself or that, despite her
immaturity, an abortion would be in her best
interests.” Id. at 439-40.
That requirement did not prevent parental-consent
laws from burdening (or even barring) access to
abortion; minors who couldn’t satisfy the bypass or
obtain consent still couldn’t obtain abortions. Rather,
it “separate[d] the applications of the law which are
constitutional from those which are not” by preventing
parental-consent laws from burdening minors to whom
the State’s interest didn’t apply. Hodgson v. Minnesota,
497 U.S. 417, 500 (1990) (Kennedy, J., concurring in
the judgment in part and dissenting in part).
c. But while the pre-Casey framework was tolerant
of some forms of abortion regulation, even when
burdensome, it was distinctly intolerant of others. In
particular, it was hostile to regulation that advanced
States’ important interest in protecting pre-viability
fetal life. Such regulation inevitably failed heightened
scrutiny because Roe had held that interest was
not compelling. See, e.g., Akron, 462 U.S. at 442-51
(invalidating an informed-consent requirement and
24-hour waiting period).

18
That led Justice O’Connor to pen a series of dissents
arguing that such decisions wrongly invalidated laws
that merely imposed modest access burdens. Instead
of holding such laws invalid merely because they
imposed some modest burden, Justice O’Connor
argued that finding an “undue burden” was a “threshold inquiry that must be conducted before this Court
can require a State to justify its legislative actions
under the exacting ‘compelling state interest’ standard.” Akron, 462 U.S. at 463 (O’Connor, J., dissenting); see also, e.g., Thornburgh v. Am. Coll. of Obstetricians & Gynecologists, 476 U.S. 747, 828 (1986)
(O’Connor, J., dissenting) (arguing that “heightened
scrutiny [should be] reserved for instances in which
the State has imposed an ‘undue burden’ on the
abortion decision”). Justice O’Connor further stressed
that even where a law is unduly burdensome, “the
possibility remains that the statute will withstand
the stricter scrutiny.” Thornburgh, 476 U.S. at 828.
And like the Roe and Akron Courts, she agreed that
even the standard applicable to unduly burdensome
laws was not strict scrutiny, but only required that
those laws be “reasonably related” to a compelling
interest. Akron, 462 U.S. at 467 n.11. Those dissents
laid the groundwork for Casey.
2. Under Casey, abortion regulations that
reasonably further compelling interests are
valid.
In the Casey opinion that this Court has subsequently treated as controlling, Justices O’Connor,
Kennedy and Souter essentially adopted Justice
O’Connor’s approach.
That opinion rejected the Court’s previous holding
that “any regulation touching upon the abortion
decision must . . . further a compelling state interest.”

19
Casey, 505 U.S. at 871 (plurality opinion) (emphasis
added). Instead, it held that “[o]nly where state
regulation imposes an undue burden on a woman’s
ability to [choose abortion] does the power of the State
reach into the heart of the liberty protected by the Due
Process Clause.” Id. at 874. And while the Court
reaffirmed Roe’s holding that the “weight” of the
States’ interest in potential life before viability was
“insufficient[ly]” compelling “to justify a ban on
abortions,” id. at 871, it held that States could pursue
their “profound”—i.e., short of compelling—interest in
pre-viable fetal life as long as they did not impose an
undue burden, id. at 878. Thus, in other words,
consistent with Justice O’Connor’s views, Casey held
that laws that advance the States’ interest in life
before viability are constitutional as long as they don’t
impose a substantial obstacle.
But Casey didn’t overrule previous decisions holding
that even substantially burdensome laws are constitutional if they reasonably advance a compelling
interest—like laws that safeguard maternal health,
protect minors’ welfare, or others the Court might
later recognize. Three aspects of Casey underscore the
point.
First, Casey’s core holding that “the line” after
which States may broadly prohibit abortion “should be
drawn at viability,” id. at 870, is really just the result
of applying heightened scrutiny to the most burdensome of abortion regulations: those that ban abortion
outright. As the Court explained, that holding rested
on its conclusion that the “weight” of the States’
“interest” in life alone “is insufficient to justify a ban
on abortions prior to viability.” Id. at 871. But it then
held that, at viability, “the independent existence of
the [child’s] life can . . . be the object of state protec-

20
tion” and that such an interest can “override[] the
rights of the woman.” Id. at 870. It was on that
ground that the Court reaffirmed Roe’s holding that
after viability, States may “proscribe” abortion. Id. at
879 (quoting Roe, 410 U.S. at 164-65). And that
only makes sense if Casey stands for the proposition
that compelling interests may save even the most
burdensome laws.
Likewise, if the right articulated in Roe simply
expired at viability, rather than being outweighed by
a compelling interest, the Court could not have
required an exception to post-viability bans to protect
the life or health of the mother. See id. The rationale
for that exception is that the State’s interest in fetal
life is insufficient to justify a ban on abortion when
applying that ban would threaten maternal life. See
Thornburgh, 476 U.S. at 768 (holding States cannot
“require a ‘trade-off’ between the woman’s health and
fetal survival”).
Second, Casey plainly applied heightened scrutiny
to the burdensome consent and notification laws at
issue in that case, upholding those laws that it concluded passed that test and invalidating those that did
not. In reviewing Pennsylvania’s spousal-notification
requirement, the Court first determined it would
“impose a substantial obstacle” on the women for
whom that requirement was relevant, 505 U.S. at 89394, and was “an undue burden,” id. at 895. Yet that
did not end the Court’s analysis. Instead, the Court
then distinguished that requirement from parentalnotification requirements that advance the States’
interest in minors’ welfare, id., and considered the
weight of “the father’s interest in the welfare of the
child” for several pages, id. at 896, before finally
rejecting the argument that “the husband’s interest in

21
the fetus’ safety is a sufficient predicate for state
regulation” that “outweighs a wife’s liberty,” id. at 898.
Only then did it hold the law invalid.
By contrast, the Court upheld Pennsylvania’s
parental-consent requirement and bypass procedure
even though the provision would not just burden
minors, but bar ones who could obtain neither consent
nor a bypass from having an abortion. See Planned
Parenthood Ass’n of Kansas City, Mo., Inc. v. Ashcroft,
462 U.S. 476, 504 (1983) (Blackmun, J., concurring in
part and dissenting in part) (observing consent-andbypass laws “permit[] a parental or judicial veto of
a minor’s decision to obtain an abortion”). Far from
suggesting those undisputed burdens rendered the
law unconstitutional, the Court simply “reaffirm[ed]”
its precedents upholding such laws on the grounds
that they reasonably furthered a compelling interest
in minors’ welfare. 505 U.S. at 899.
Third, as a majority of this Court recently noted
in June Medical, when Casey discussed maternal
health laws, it didn’t say that all health regulations
that imposed substantial obstacles were invalid.
See 140 S. Ct. at 2120 (plurality opinion), id. at 2181
(Gorsuch, J., dissenting). Instead, it only said that
“[u]nnecessary health regulations” that imposed
substantial obstacles were invalid. Casey, 505 U.S. at
878 (emphasis added). Thus, under Casey, laws that
impose a substantial obstacle but are necessary to
advance the States’ compelling interest in health are
constitutional.
Were that not true, Casey would have implicitly
overruled several decisions of this Court that upheld
abortion regulations: Menillo, which held States
may always prohibit non-physicians from performing
abortions, and Simopoulos, which held States may

22
always require abortions to be performed in a hospital
or licensed clinic—regardless of effects on access. If
those laws’ validity turned solely on the burdens they
imposed, States with few physician abortion practitioners, or few abortion clinics, might not be able
to enact them. But no one thinks—and this Court has
certainly never held—that Casey made those sorts
of health regulations susceptible to attack. See
Planned Parenthood of Ind. & Ky., Inc. v. Box, — F.3d
—, 2021 WL 940125, at *9 (7th Cir. 2021) (Hamilton,
J.) (“Given [such laws’] health benefits, there is generally no serious doubt about the constitutionality of
[their] burdens.”). To the contrary, when this Court
reviewed a physician-only law after Casey, it reaffirmed its blanket “statements in past cases . . . that
the performance of abortions may be restricted to
physicians.” Mazurek v. Armstrong, 520 U.S. 968, 974
(1997) (per curiam).
Thus, contrary to the court of appeals’ reluctant
conclusion below, Casey does not hold that merely
finding an obstacle automatically renders a law
unconstitutional. Instead, under Casey, that merely
requires a court to decide whether the State’s law
reasonably furthers a compelling interest.
3. June Medical did not alter Casey’s test.
The court of appeals also concluded that under this
Court’s recent decision in June Medical, any law that
creates a substantial obstacle to obtaining an abortion
pre-viability must fall. But June Medical no more
held that than Casey did. Rather, it only clarified that
courts do not weigh abortion regulations’ burdens
against their benefits to decide if their burdens are
undue. It did not hold that every abortion regulation
that imposes an undue burden is invalid, regardless of
the interests it serves.

23
In June Medical, five members of this Court agreed
that whether a burden is undue isn’t relative. To be
undue, a law’s burdens must be substantial; or put
differently, a slight burden does not become undue just
because it outweighs a law’s benefits.4 See June Med.,
140 S. Ct. at 2135-39 (Roberts, C.J., concurring); id. at
2154 (Alito, J., dissenting, joined by Thomas, Gorsuch,
and Kavanaugh, JJ.). But a different majority of at
least five Justices—including four who concurred in
the judgment—agreed that whatever their burdens,
only “unnecessary” health regulations are invalid. Id.
at 2120 (plurality opinion) (alterations omitted)
(quotation marks omitted); id. at 2181 (Gorsuch, J.,
dissenting). As Justice Gorsuch explained, a standard
whereby “even the most compelling and narrowly
tailored medical regulation would have to fail if it
placed a substantial obstacle in the way of abortion
access” would be inconsistent with Casey, which
rejected strict scrutiny as too strict. Id.
Notwithstanding that majority view, the court of
appeals reasoned that the Chief Justice’s concurring
opinion was controlling, and that under that opinion
merely finding a substantial obstacle ends a court’s
inquiry. That misreads the Chief Justice’s opinion.
After all, the Chief Justice “disavowed any test as
strict as strict scrutiny.” Id. at 2138 n.2 (Roberts,
C.J., concurring) (quoting id. at 2181 (Gorsuch, J.,
dissenting)). And a pure burden test would be “stricter
than strict scrutiny,” id. at 2181 (Gorsuch, J., dissent-

4

In this, the Court restored the understanding of the undueburden test’s authors. See Akron, 462 U.S at 465 n.10 (O’Connor,
J., dissenting) (“[I]t is not appropriate to weigh the state interests
at the threshold stage.”).

24
ing); laws that would survive strict scrutiny would fall
so long as they imposed substantial enough burdens.
Moreover, were the court of appeals’ gloss on the
Chief Justice’s opinion correct, that court’s corresponding conclusion that his opinion was controlling
under Marks could not be correct. For on the court of
appeals’ reading, the Chief Justice’s opinion would
contradict the view of a majority of the Court that
compelling interests can save a burdensome abortion
regulation. And—in at least some applications—it
would state broader grounds for June Medical’s result
than the plurality opinion, which considered whether
Louisiana’s law furthered its interest in health before
invalidating it. Accordingly, contrary to the court of
appeals’ conclusion, June Medical did not excise
States’ interests from the standard of review.
B. Arkansas’s law reasonably furthers compelling interests in antidiscrimination.
When Arkansas prohibited the practice of Downsyndrome-based abortion, it was faced with an
unconscionable state of affairs. Of the unborn children
diagnosed with Down syndrome, at least two-thirds—
and very likely more—were being selectively aborted.
That pattern of selective abortion threatened the
very existence of the State’s population with Down
syndrome. And it also sent a powerfully stigmatic
message to those with Down syndrome: that in the
eyes of the majority of their fellow citizens a life with
Down syndrome isn’t worth living. Arkansas therefore
acted to end that practice.
That decision serves manifestly compelling antidiscrimination interests—indeed, interests perhaps more
powerful than any antidiscrimination interest this
Court has ever considered. For what is at stake

25
here is not just a group’s inclusion in public life, as is
usually the case in antidiscrimination law, but
whether the group the State seeks to protect will
continue to exist at all.
1. Arkansas’s interests are compelling.
As this Court has long recognized, States have a
“compelling interest in eliminating discrimination.”
Bd. of Dirs. of Rotary Club Int’l v. Rotary Club of
Duarte, 481 U.S. 537, 549 (1987); see N.Y. State Club
Ass’n, Inc. v. City of New York, 487 U.S. 1, 14 n.5
(1988) (recognizing “the State’s ‘compelling interest’ in
combating invidious discrimination”); Roberts v. U.S.
Jaycees, 468 U.S. 609, 628 (1984) (holding that “acts of
invidious discrimination . . . cause unique evils that
government has a compelling interest to prevent”).
Indeed, antidiscrimination law “serves compelling
state interests of the highest order.” Roberts, 468 U.S.
at 624.
a. That’s even truer here. This Court has previously held States have compelling interests in
protecting women from exclusion from groups like the
Jaycees, Roberts, 468 U.S. at 623-26, or the Rotary
Club, Duarte, 481 U.S. at 549, because of the “leadership skills and business contacts” those groups
provide, id. Those interests are certainly weighty.
But they pale in comparison to Arkansas’s interest
in protecting its population with Down syndrome—a
discrete, insular minority subject to historic discrimination ranging from compulsory sterilization, see
Buck v. Bell, 274 U.S. 200 (1927), to disenfranchisement that persisted into this century, see Tennessee
v. Lane, 541 U.S. 509, 524 (2004)—from neareradication. See also Box 139 S. Ct. at 1784-91
(Thomas, J., concurring) (recognizing this interest).
Of all the forms of discrimination there are, none could

26
present so compelling a need for intervention as
discrimination that threatens a group’s very existence.
In fact, when this Court declined to overturn Roe’s
core holding in Casey, it rested that decision in part
on its view that overruling Roe might allow States to
mandate abortion “to further asserted state interests
in . . . eugenics”—a result Roe’s recognition of reproductive rights was said to prevent. Casey, 505 U.S. at
859. If that’s true, then under Casey itself, States
undeniably have a compelling interest in preventing
private selective abortion that threatens the same
result. Even the majority of the panel below agreed
that had they deemed themselves free to weigh “the
[S]tate’s actual interest against the woman’s right to
choose,” Pet. App. 20a (Erickson, J., concurring, joined
by Shepherd, J.), they would have found Arkansas’s
interest in preventing selective abortion’s “significant
threat” to the “diversity” of the State’s population
compelling, Pet. App. 18a.
b. Regrettably, States’ interest in protecting their
populations with Down-syndrome from elimination
has been dismissed by some lower courts as a “deceptive” recasting of their interest in potential life.
Preterm-Cleveland v. Himes, 940 F.3d 318, 323 (6th
Cir. 2019), reh’g en banc granted, opinion vacated, 944
F.3d 630 (2019). Presumably Respondents will argue
the same. But that characterization entirely misunderstands the interest at stake.
Though Arkansas values fetal life profoundly, the
law at issue here targets a practice that reduces the
numbers of people with Down syndrome in its population. As Judge Easterbrook has observed, if prenatal
genetic editing could be used to the same ends that
selective abortion is today, no one would doubt that
States had compelling interests in stopping that

27
practice, nor would anyone mistake those interests for
an interest in fetal life. See Planned Parenthood of
Ind. & Ky, Inc. v. Comm’r of Ind. State Dep’t of Health,
917 F.3d 532, 536 (7th Cir. 2018) (Easterbrook, J.,
dissenting from denial of rehearing en banc). Yet the
State’s interest here is the same as it would be in that
dystopian hypothetical; the only difference is that in
the real world selection for Down syndrome takes a
more violent form. That should not, perversely, mean
it “evade[s] regulation.” Id.
c. Just as powerful is Arkansas’s interest in preventing selective abortion from stigmatizing people
with Down syndrome. States have a powerful interest
in protecting minority groups from stigmatization.
Indeed, when a government policy stigmatizes minorities, this Court usually deems that policy unconstitutional. See Box, 139 S. Ct. at 1792-93 (Thomas,
J., concurring).
“The prevention of stigmatic harm played a major
role” in many of this Court’s landmark equal protection decisions, Paul Brest, Foreword: In Defense of the
Antidiscrimination Principle, 90 Harv. L. Rev. 1, 8
(1976)—from its rejecting laws in Strauder v. West
Virginia that barred blacks from juries as “an assertion of their inferiority,” 100 U.S. 303, 308 (1879), to
its tragically late recognition in Brown v. Board of
Education that segregating children “generates a
feeling of inferiority as to their status in the community that may affect their hearts and minds in a way
unlikely ever to be undone,” 347 U.S. 483, 494 (1954).
And when the Court held States had a compelling
interest in prohibiting gender discrimination in
Roberts, it reasoned that public-accommodations law
avoided the “stigmatizing injury” and “deprivation of
personal dignity that surely accompanies denials of

28
equal access to public establishments.” 468 U.S. at
625 (quoting Heart of Atlanta Motel, Inc. v. United
States, 379 U.S. 241, 250 (1964)).
Here too, Arkansas’s interest is compelling. Excluding women from the Jaycees undoubtedly causes a
“stigmatizing injury,” but the stigmatic message
selective abortion sends people with Down syndrome
is incalculably more offensive. When people with
Down syndrome see that more than two-thirds of
unborn children diagnosed with their condition are
aborted, the message they receive isn’t just an appalling one that they’re inferior. It’s that “people like
me should not exist”—that “we have too little value
to exist.” C.A. App. 759 (congressional testimony of
Frank Stephens).
It is impossible to imagine a more stigmatic,
dehumanizing message that private discrimination
could send. See Preterm-Cleveland v. Himes, 940 F.3d
318, 328 (6th Cir. 2019) (Batchelder, J., dissenting)
(Ohio’s similar law serves the State’s “interest in
upholding the equal dignity of the Down Syndrome
population by ending discriminatory practices against
that population”); Planned Parenthood of Ind. & Ky.,
Inc. v. Comm’r of Ind. State Dep’t of Health, 888 F.3d
300, 315 (7th Cir. 2018) (Manion, J., concurring in
judgment and dissenting in part) (“Permitting women
who otherwise want to bear a child to choose abortion
because the child has Down syndrome perpetuates the
odious view that some lives are worth more than
others and increases the ‘stigma associated with
having a genetic disorder.’” (quoting Peter A. Benn
& Audrey R. Chapman, Practical and Ethical
Considerations of Noninvasive Prenatal Diagnosis,
301 J. Am. Med. Ass’n 2154, 2155 (2009)). Arkansas
has an overwhelmingly compelling interest in protect-

29
ing its citizens with Down syndrome from receiving
that stigmatizing message.
2. Arkansas’s law reasonably
compelling interests.

serves

its

Arkansas’s selective-abortion ban reasonably furthers its compelling interests in antidiscrimination,
and is therefore valid. Under this Court’s decisions in
Roe, Akron, Casey, and many others, a reasonable
relation to a compelling interest is all that’s required.
Indeed, this Court has never required States to
narrowly tailor their health laws or asked whether
parental-consent laws are narrowly tailored to States’
interest in minors’ welfare. See supra at 15-17, 21.
And under that test, Arkansas’s law plainly survives.
Yet even if narrow tailoring were required,
Arkansas’s law would easily pass muster. Arkansas
has not, as it might have, prophylactically banned
prenatal Down-syndrome testing; it has solely prohibited the precise form of discrimination it has a compelling interest in preventing. As this Court explained
in Roberts, when a State with a compelling antidiscrimination interest “responds precisely to the
substantive problem which legitimately concerns” it
and simply prohibits the discrimination itself, its law
is narrowly tailored. 468 U.S. at 629 (quoting City
Council of L.A. v. Taxpayers for Vincent, 466 U.S. 789,
810 (1984)). Thus, Arkansas’s law is constitutional
under any level of scrutiny and the Court should grant
certiorari and reverse the court of appeals’ judgment.
II. The court of appeals’ decision implicates a
circuit split.
The court of appeals’ pure burden test for reviewing
abortion regulations conflicts with every major abor-

30
tion precedent of this Court from Roe to June Medical.
But it also represents one side of a growing split
among the circuits. As of yet, there’s no circuit split
on the specific question of selective-abortion prohibitions’ constitutionality—though that may not be the
case for long. See Preterm-Cleveland v. Himes, 940
F.3d 318, 323 (6th Cir. 2019) (holding such laws
unconstitutional), reh’g en banc granted, opinion
vacated, 944 F.3d 630 (2019) (argued Mar. 11, 2020).
But there is a circuit split, after June Medical, on
whether courts still can consider state interests in
reviewing abortion laws. And this case presents that
elemental question starkly.
A. In June Medical, the five members of the Court
who concurred in its judgment could not agree on a
single rule. As is often the case when that happens,
the Court’s “4-1-4 decision . . . [has] left significant
confusion in its wake,” Hughes v. United States, 138 S.
Ct. 1765, 1779 (2018) (Sotomayor, J., concurring), and
quickly created a circuit split as the courts of appeals
struggle to apply the famously difficult Marks test.
On one side of that split are the Sixth and Eighth
Circuits, which hold that after June Medical, courts
not only should not weigh a law’s benefits to gauge the
severity of its burdens, but, once having found a
substantial obstacle, cannot consider the interests an
abortion regulation serves at all. Both circuits locate
this new approach to reviewing abortion laws in the
Chief Justice’s opinion in June Medical, which they
deem controlling. The Eighth Circuit first announced
this standard in Hopkins v. Jegley, 968 F.3d 912, 915
(8th Cir. 2020). It then applied it in the decision
below, where, as has been seen, it simply refused to
consider the State’s interest in antidiscrimination
once it identified a substantial obstacle. Pet. App. 10a.

31
The Sixth Circuit, also deeming the Chief Justice’s
opinion controlling, held over Judge Clay’s dissent
that under the Chief Justice’s opinion all laws “that
impose a ‘substantial obstacle’ are unconstitutional.”
EMW Women’s Surgical Ctr., P.S.C. v. Friedlander,
978 F.3d 418, 432 (6th Cir. 2020).
By contrast, the Seventh Circuit, and, at least for
the moment, the Fifth Circuit, hold that the benefit–
burden balancing approach of Whole Woman’s Health
v. Hellerstedt, 136 S. Ct. 2292 (2016), survived June
Medical. The Seventh Circuit, over Judge Kanne’s
dissent, has held that the only Marks holding of June
Medical is that “Whole Woman’s Health was entitled
to stare decisis effect.” Planned Parenthood of Ind. &
Ky., Inc. v. Box, — F.3d —, 2021 WL 940125, at *7
(7th Cir. 2021) (Hamilton, J.). In that court’s view, an
abortion regulation’s benefits are a double-edged
sword; a law with “little or no benefits” might fall even
if its burdens are not severe, but other “regulations
might restrict access and/or raise costs, but do so
in service of legitimate goals and are on balance
justified.” Id. at *9 (citing physician-only laws).
Similarly, the Fifth Circuit, over Judge Willett’s
dissent, held that June Medical contains no Marks
rule at all and that it remained bound by Whole
Woman’s Health. See Whole Woman’s Health v.
Paxton, 972 F.3d 649, 652-53 (5th Cir. 2020). That
holding formally remains law of the circuit. However,
when the same panel reaffirmed that conclusion
(again over Judge Willett’s dissent) in a later stage of
the appeal, 978 F.3d 896, 904-05 (5th Cir. 2020), its
second opinion was vacated for rehearing en banc, 978
F.3d 974 (2020). But whichever way the en banc court
decides the Marks question, the circuit split will only
continue to deepen.

32
B. As that split expands, this Court will undoubtedly be presented with numerous requests to resolve
it. But of all the cases the Court could take to decide
whether States’ interests still count in reviewing
abortion laws, this one is the ideal vehicle to decide
that question because it presents it in stark isolation.
In other cases, States will dispute the severity of their
laws’ burdens, potentially avoiding the need to decide
the relevance of state interests; that’s not true here.
In others, the State’s interest may be weak, allowing
Justices who disagree on the relevance of state
interests to reach the same result—as occurred in
June Medical. Here, the force of Arkansas’s interest
will leave the Court with only two choices: holding
compelling state interests count, or that they don’t.
And even if the Court could somehow decide that
Arkansas’s interest was not compelling, the case will
nevertheless force a decision on the threshold question
of whether burden alone is dispositive. Thus, this case
presents an ideal vehicle for resolving a question that
has deeply divided the lower courts.
III. The question presented is exceptionally
important.
Given what has been said already, little more need
be said about the importance of the question presented. This case asks whether the Constitution bars
States from prohibiting a practice, selective abortion,
that threatens the very existence of a small group
of vulnerable people, and that cruelly stigmatizes
the members of that minority who remain. It also
presents a question of profound doctrinal importance:
whether, after June Medical, a State’s compelling
interests can still justify regulation of abortion. The
validity of not just selective-abortion prohibitions, but
of health-and-safety and parental-consent laws whose

33
constitutionality was thought settled until now, turns
on the answer to that question.
There is, however, one further reason that this
Court’s intervention is needed now. It is tragic enough
that people with Down syndrome must live with the
knowledge that they are so little appreciated by their
communities that their fellow citizens would rather
get an abortion than give birth to a child with their
condition. But it is the cruelest of insults that they are
told the Constitution, as interpreted by decisions of
this Court, enshrines the right to get an abortion solely
to avoid having a child like them.
As has been explained, that is a badly mistaken
understanding of the Constitution and of this Court’s
precedents. But mistaken though it is, it is a stain on
the Court, and the Constitution itself, that will not go
away until the Court acts to correct it. The Court
ought not wait for more circuits to debate whether its
decisions bear that terrible meaning; it should act now
to make clear that they don’t.

34
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center St., Ste. 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@
arkansasag.gov

LESLIE RUTLEDGE
Arkansas Attorney General
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
VINCENT M. WAGNER
Deputy Solicitor General
ASHER STEINBERG
MICHAEL A. CANTRELL
DYLAN L. JACOBS
Assistant Solicitors General
JENNIFER L. MERRITT
Senior Assistant Attorney
General

Counsel for Petitioners

April 9, 2021

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
————
No. 19-2690
————
LITTLE ROCK FAMILY PLANNING SERVICES, et al.
Plaintiffs-Appellees
v.
LESLIE RUTLEDGE, IN HER OFFICIAL CAPACITY AS
ATTORNEY GENERAL OF THE STATE OF ARKANSAS, et al.
Defendants-Appellants
JUSTIN BUCKLEY DYER, PH. D.; STATE OF MISSOURI;
STATE OF ALABAMA; STATE OF ALASKA; STATE OF
GEORGIA; STATE OF IDAHO; STATE OF INDIANA;
COMMONWEALTH OF KENTUCKY; STATE OF LOUISIANA;
STATE OF NEBRASKA; STATE OF OHIO; STATE OF
OKLAHOMA; STATE OF SOUTH CAROLINA; STATE OF
SOUTH DAKOTA; STATE OF TENNESSEE; STATE OF
TEXAS; STATE OF UTAH; STATE OF WEST VIRGINIA
Amici on Behalf of Appellants
SOCIETY FOR MATERNAL- FETAL MEDICINE; AMERICAN
COLLEGE OF OBSTETRICIANS AND GYNECOLOGISTS;
CONSTITUTIONAL LAW SCHOLARS; STATE OF
CALIFORNIA; STATE OF COLORADO; STATE OF
CONNECTICUT; STATE OF DELAWARE; STATE OF
HAWAII; STATE OF ILLINOIS; STATE OF MAINE;
STATE OF MARYLAND; STATE OF MASSACHUSETTS;
STATE OF MINNESOTA; STATE OF NEVADA; STATE OF
NEW MEXICO; STATE OF NEW YORK; STATE OF OREGON;
STATE OF PENNSYLVANIA; STATE OF RHODE ISLAND;

2a
STATE OF VERMONT; STATE OF VIRGINIA;
STATE OF WASHINGTON; DISTRICT OF COLUMBIA;
REPRODUCTIVE JUSTICE ORGANIZATIONS
Amici on Behalf of Appellees
————
Appeal from United States District Court
for the Eastern District of Arkansas - Little Rock
————
Submitted: September 23, 2020
Filed: January 5, 2021
————
Before LOKEN, SHEPHERD, and ERICKSON,
Circuit Judges.
LOKEN, Circuit Judge.
Little Rock Family Planning Services and Dr.
Thomas Tvedten (collectively, “LRFP”) brought this 42
U.S.C. § 1983 action challenging the constitutionality
of three Arkansas statutes enacted in 2019 that relate
to abortions: (1) Act 493, codified at Ark. Code Ann.
§ 20-16-2004, bans providers from performing an
abortion when the “probable age” of the fetus is “determined to be greater than eighteen weeks’ gestation,”
with exceptions for a “medical emergency” or a pregnancy that results from rape or incest. (2) Act 619,
codified at Ark. Code Ann. § 20-16-2103, prohibits a
provider from intentionally performing an abortion
with knowledge that the pregnant woman is seeking
the abortion “solely on the basis” of a test indicating
Down syndrome or any other reason to believe that the
fetus has Down syndrome, with exceptions if the
abortion is necessary to save the woman’s life or to
preserve her health or if the pregnancy is the result of

3a
rape or incest. (3) Act 700, codified at Ark. Code Ann.
§ 20-16-606, provides that a person who performs an
abortion must be a licensed physician “board-certified
or board-eligible in obstetrics and gynecology”
(OBGYN). A provider who violates these statutes
commits a Class D felony and is subject to suspension
or revocation of his or her medical licence. Defendants
are the Attorney General of Arkansas and numerous
other officials acting in their official capacities.
Following an evidentiary hearing at which eight
witnesses testified, the district court issued a 186-page
Preliminary Injunction order preliminarily enjoining
Defendants “from enforcing Act 493 of 2019, Act 619 of
2019, and Act 700 of 2019.” The court applied our
traditional four-part test for the grant of preliminary
injunctions in Dataphase Sys., Inc. v. C L Sys., Inc.,
640 F.2d 109, 113 (8th Cir. 1981) (en banc), as modified
when the moving party seeks to enjoin a state statute
by Planned Parenthood Minn., N.D., S.D. v. Rounds,
530 F.3d 725, 732 (8th Cir. 2008) (en banc). Defendants appeal.1 With the appeal pending, LRFP moved
1

Defendants’ Notice of Appeal also included an order of the
district court judge to whom this case was initially assigned
consolidating the case with Planned Parenthood of Ark. & E.
Okla. v. Jegley, Case No. 4:15-cv-00784-KGB, then pending
before the judge who issued the Preliminary Injunction order.
Defendants did not include this order in their statement of the
issues presented for review or the argument sections of their
brief, as Fed. R. App. P. 28(a)(5) and (8) require. Therefore, we do
not consider this issue, and we deny LRFP’s time-wasting motion
to dismiss that part of the appeal. We also reject as totally
without merit Defendants’ disrespectful argument that we direct
the case be reassigned because the judge who issued the Preliminary Injunction order “has a long history of unlawfully enjoining
Arkansas laws.” In these motion wars, counsel of record for both
sides lost sight of their duties to serve as officers of the court as
well as vigorous advocates for their clients.

4a
to dismiss as moot Defendants’ appeal of the injunction against enforcing Act 700, explaining that Plaintiffs now comply with the statute’s OBGYN requirement. After careful, de novo review, we affirm the
order preliminarily enjoining enforcement of Act 493
and Act 619. We dismiss as moot the appeal of that
part of the order that preliminarily enjoined enforcement of Act 700 (the OBGYN requirement) and
remand with instructions to vacate that part of
the Preliminary Injunction order and its supporting
findings and conclusions.
I. ACTS 493 AND 619, THE PRE-VIABILITY
ABORTION BANS.
As the district court recognized, the law governing
the constitutionality of two of the three statutes at
issue -- Act 493 and Act 619 -- though obviously subject
to change in the future, is well established in this
Circuit today:
Before viability, a State “may not prohibit any
woman from making the ultimate decision
to terminate her pregnancy.” It also may
not impose upon the right an undue burden,
which exists if a regulation’s “purpose or
effect is to place a substantial obstacle in the
path of a woman seeking an abortion before
the fetus attains viability.” On the other
hand, “[r]egulations which do no more than
create a structural mechanism by which the
State, or the parent or guardian of a minor,
may express profound respect for the life of
the unborn are permitted, if they are not a
substantial obstacle to the woman’s exercise
of the right to choose.”

5a
MKB Mgmt. Corp. v. Stenehjem, 795 F.3d 768, 772
(8th Cir. 2015), cert. denied, 136 S. Ct. 981 (2016),
quoting Gonzales v. Carhart, 550 U.S. 124, 146 (2007),
in turn quoting Planned Parenthood of S.E. Pa. v.
Casey, 505 U.S. 833, 879, 878, and 877 (1992). The
Supreme Court has defined viability as “the time at
which there is a realistic possibility of maintaining
and nourishing a life outside the womb, so that the
independent existence of the second life can in reason
and all fairness be the object of state protection that
now overrides the rights of the woman.” Casey, 505
U.S. at 870. “Before viability,” the Court declared, “the
State’s interests are not strong enough to support a
prohibition of abortion or the imposition of a
substantial obstacle to the woman’s effective right to
elect the procedure.” Id. at 846. “The woman’s right to
terminate her pregnancy before viability . . . . is a rule
of law and a component of liberty we cannot renounce.”
Id. at 871 (citation omitted).
The Supreme Court has repeatedly stated that
its pre-viability rule is categorical: “Regardless of
whether exceptions are made for particular circumstances, a State may not prohibit any woman from
making the ultimate decision to terminate her pregnancy before viability.” Casey, 505 U.S. at 879; see
Gonzales, 550 U.S. at 146; cf. June Med. Servs. L.L.C.,
v. Russo, 140 S. Ct. 2103, 2135 (2020) (Roberts, C.J.,
concurring).2 We have applied the rule categorically,
even while recognizing “that viability varies among
pregnancies and that improvements in medical technology will both push later in pregnancy the point at
2

Chief Justice Roberts’s concurring opinion is controlling.
Hopkins v. Jegley, 968 F.3d 912, 915 (8th Cir. 2020), citing Marks
v. United States, 430 U.S. 188, 193 (1977), and Gregg v. Georgia,
428 U.S. 158, 169 n.15 (1976).

6a
which abortion is safer than childbirth and advance
earlier in gestation the point of fetal viability.”
Edwards v. Beck, 786 F.3d 1113, 1117 (8th Cir. 2015)
(citations omitted) (invalidating an Arkansas statute
banning abortions after twelve weeks’ gestation
because the Act “prohibits women from making the
ultimate decision to terminate a pregnancy at a point
before viability”).
A. Act 493, The 18-Week Ban. Act 493 provides
that a person “shall not intentionally or knowingly
perform, induce, or attempt to perform or induce an
abortion of an unborn human being if the probable
gestation age of the unborn human being is determined to be greater than eighteen (18) weeks’ gestation.” Ark. Code Ann. § 20-16-2004(b). The district
court preliminarily enjoined enforcement of this statute based on uncontroverted medical testimony that
“no fetus is viable at 18 weeks,” and that “[i]t is commonly accepted in the field of OBGYN that a normally
developing fetus will not attain viability until at least
24 weeks.” This testimony has strong support in governing case law. See MKB Mgmt., 795 F.3d at 774
(“[t]oday, viability generally occurs at 24 weeks”);
accord Casey, 505 U.S. at 860.
On appeal, Defendants do not contest the district
court’s conclusion that LRFP is likely to succeed on the
merits of its claim that Act 493 prohibits LRFP and
other providers from performing pre-viability abortions. Rather, they argue that Arkansas may ban
abortions eighteen weeks after gestation because the
statute “responds to evidence linking increased maternal risk to increased gestational age” and “recognizes”
that, by eighteen weeks, “an unborn child has taken
on the human form in all relevant respects.” But this
argument simply brushes aside the governing legal

7a
principle: “[b]efore viability the State’s interests are
not strong enough to support a prohibition of abortion.” Casey, 505 U.S. at 846. As Defendants presented
no generally accepted medical evidence that the
attainment of viability has shifted to before eighteen
weeks after gestation, we must affirm the district
court’s order preliminarily enjoining enforcement of
Act 493, which effectively prohibits a substantial
universe of pre-viability abortions.
B. Act 619, The Down Syndrome Ban. Act 619
prohibits a physician from performing or attempting
to perform an abortion “with the knowledge that a
pregnant woman is seeking an abortion solely on the
basis of: (1) A test result indicating Down syndrome in
an unborn child; (2) A prenatal diagnosis of Down
syndrome in an unborn child; or (3) Any other reason
to believe that an unborn child has Down syndrome.”
Ark. Code Ann. § 20-16-2103(a). Based on undisputed
evidence that “post-viability abortions are not performed in Arkansas currently,” the district court
concluded that Act 619 “unconstitutionally restricts
pre-viability abortions” and preliminarily enjoined
Defendants from “enforcing . . . Act 619.”3
On appeal, Defendants argue we should reverse the
preliminary injunction because the district court
erroneously declared a “novel, absolute right to pre3

The court’s Preliminary Injunction order stated that,
because there is no evidence post-viability abortions are performed in Arkansas, “the court will not examine whether Act 619
is constitutional as applied to post-viability abortions at this
stage of the proceedings.” At oral argument, LRFP confirmed that
Plaintiffs do not perform post-viability abortions and do not
challenge Act 619 in that regard. Both counsel agreed that the
preliminary injunction does not affect Act 619 as it may apply to
post-viability abortions, so we need not address that issue.

8a
viability abortion.” According to Defendants, in both
Casey and Gonzales the Supreme Court upheld previability abortion bans -- in Casey, the Court upheld
a Pennsylvania parental-consent requirement that
“entirely barred” minors from electing pre-viability
abortions unless they obtained a “judicial bypass,” and
in Gonzales, the Court upheld bans on “certain kinds”
of pre-viability abortions. Defendants argue that Act
619 is constitutional because it furthers the State’s
valid interest in preventing discrimination on the
basis of Down syndrome. They assert that this issue is
not controlled by Casey, citing Box v. Planned
Parenthood of Ind. & Ky., Inc., 139 S. Ct. 1780, 1792
(2019) (Thomas, J., concurring in the denial of a
writ of certiorari to consider the issue) (“Whatever
else might be said about Casey, it did not decide
whether the Constitution requires States to allow
eugenic abortions.”).
Defendants misconstrue Casey and Gonzales. These
decisions did not uphold complete bans on pre-viability
abortions. In Casey, the Court upheld the parental
consent regulation at issue because the judicial bypass
procedure ensured that minors were not completely
banned from obtaining pre-viability abortions. 505
U.S. at 899. In Gonzales the Court upheld a law
banning physicians from performing a particularly
brutal method of abortion; the Court noted the statute
“still allows, among other means, a commonly used
and generally accepted method [to perform abortion],
so it does not construct a substantial obstacle to the
abortion right.” 550 U.S. at 165 (2007). The Court
expressly stated that it “assume[d] the following principles for the purposes of this opinion. Before viability,
a State ‘may not prohibit any woman from making the
ultimate decision to terminate her pregnancy.’” Id. at

9a
146, quoting Casey, 505 U.S. at 879. A majority of the
Supreme Court recently reaffirmed these principles:
Both [parties] agree that the undue burden
standard announced in Casey provides the
appropriate framework to analyze Louisiana’s
law.
Casey reaffirmed the most central principle
of Roe v. Wade, a woman’s right to terminate
her pregnancy before viability. At the same
time, it recognized that the State has
important and legitimate interests in protecting . . . the potentiality of human life. . . . To
serve the latter interest, the State may,
among other things, enact rules and regulations designed to encourage her to know that
there are philosophic and social arguments of
great weight that can be brought to bear in
favor of continuing the pregnancy to full term.
* * * * *
Casey discussed [the] benefits [of a particular
regulation] in considering the threshold
requirement that the State have a “legitimate
purpose” and that the law be “reasonably
related to that goal.” So long as that showing
is made, the only question for a court is
whether a law has the “effect of placing a
substantial obstacle in the path of a woman
seeking an abortion of a nonviable fetus.”
* * * * *
Here the plurality expressly acknowledges
that we are not considering how to analyze an
abortion regulation that does not present a
substantial obstacle. . . . In this case, Casey’s

10a
requirement of finding a substantial obstacle
before invalidating an abortion regulation is
therefore a sufficient basis for the decision . . . .
I would adhere to the holding of Casey,
requiring a substantial obstacle before striking down an abortion regulation.
June Med. Servs., 140 S. Ct. at 2135, 2138-39 (2020)
(Roberts, C.J., concurring) (cleaned up).
In this case, it is undisputed that Act 619 is a
substantial obstacle; indeed, it is a complete prohibition of abortions based on the pregnant woman’s
reason for exercising the right to terminate her pregnancy before viability. We agree with our sister
circuits that it is “inconsistent to hold that a woman’s
right of privacy to terminate a pregnancy exists if . . .
the State can eliminate this privacy right if [she]
wants to terminate her pregnancy for a particular
purpose.” Planned Parenthood of Ind. & Ky., Inc. v.
Comm’r, Ind. State Dep’t of Health, 888 F.3d 300, 307
(7th Cir. 2018), rev’d in part on other grounds sub
nom., Box v. Planned Parenthood of Ind. & Ky., Inc.,
139 S. Ct. 1780 (2019); accord Jackson Women’s
Health Org. v. Dobbs, 945 F.3d 265, 274 (5th Cir.
2019). Though the Supreme Court may of course
decide to revisit how Casey should apply to purposebased bans on pre-viability abortions, the district
court did not abuse its discretion by preliminarily
enjoining enforcement of Act 619 under current governing law. That portion of the preliminary injunction
is affirmed.
II. ACT 700, THE OBGYN REQUIREMENT.
Act 700 provides that abortions in Arkansas must be
performed by a licensed physician who is a boardcertified or board-eligible OBGYN. Ark. Code Ann.

11a
§ 20-16-606(a). After Defendants appealed the district
court’s order preliminarily enjoining enforcement of
Act 700, all plaintiffs moved to dismiss this part of the
appeal as moot because LRFP has hired a boardcertified OBGYN to provide abortion care at LRFP,
making the injunction unnecessary at this time.
Plaintiff Tvedten, who has provided abortion services
at LPRF for many years and is not OBGYN-certified,
joined in the motion to dismiss. Defendants argue the
appeal is not moot because “Plaintiffs will seek yet
another preliminary injunction from the district court
as soon as they decide again that litigation would be
more fruitful than compliance.” LRFP replies that, if
it does seek injunctive relief in the future, “their
entitlement to relief will depend on the facts presented
at that time.”4
We have jurisdiction of an appeal from an interlocutory order granting a preliminary injunction. 28
U.S.C. § 1292(a)(1). The “purpose of a preliminary
injunction is merely to preserve the relative positions
of the parties until a trial on the merits can be held.”
University of Texas v. Camenisch, 451 U.S. 390, 395
(1981). The mootness doctrine “has its origins in the
article III case or controversy requirement” and also
serves “as a check against the unnecessary use of
judicial resources . . . and against the creation of
unnecessary precedent.” Olin Water Servs. v. Midland
Research Laboratories, Inc., 774 F.2d 303, 305 & n.2
(8th Cir. 1985) (citations omitted). “Mootness occurs
when the parties ‘lack a legally cognizable interest in
the outcome.’” Id. If a judgment or interlocutory order
4

The recognized exception to mootness for issues “capable of
repetition, yet evading review,” does not apply to moot appeals of
preliminary injunctions. Bierman v. Dayton, 817 F.3d 1070, 1074
(8th Cir. 2016) (citation omitted).

12a
becomes moot while awaiting appellate review, the
appellate court “may not consider its merits, but may
make such disposition of the whole case as justice may
require.” U.S. Bancorp Mtg. Co. v. Bonner Mall P’ship,
513 U.S. 18, 21 (1994).
Here, the preliminary injunction preserved the status quo by allowing LRFP to continue providing abortion services by doctors who are not OBGYN-certified.
Having been granted this preliminary relief, LRFP
argues Defendants’ appeal is moot because LRFP is
now complying with Act 700 and therefore Plaintiffs
are not adversely affected by the statute. Though the
premise is certainly open to question,5 we agree that
this part of the controversy is now moot. “Plaintiffs are
masters of their complaints and remain so at the
appellate stage of a litigation,” and their argument
“amounts to a decision to no longer seek” a preliminary
injunction. Webster v. Reproductive Health Servs.,
492 U.S. 490, 512 (1989). Defendants cite no practical
reason why there is an actual controversy at this
time. Defendants argue that LRFP may seek future
preliminary injunctive relief if its OBGYN-certified
providers go elsewhere. But a “conjectural or hypothetical” possibility of future harm is insufficient to
satisfy the case-or-controversy requirement for seeking injunctive relief. Brazil v. Ark. Dep’t of Human
Servs., 892 F.3d 957, 960 (8th Cir. 2018) (citation
5

When the motion to dismiss this part of the appeal as moot
was filed, Dr. Tvedten’s license to practice medicine had been
temporarily suspended due to a complaint unrelated to abortion
services. We are advised that the suspension was recently lifted,
which presumably means that, if the preliminary injunction is
vacated, Act 700 will again preclude him from providing abortion
services. However, it is undisputed that Dr. Tvedten joined
LRFP’s motion to dismiss.

13a
omitted). In these circumstances, their opposition to
dismissal simply urges an unnecessary use of judicial
resources and the creation of unnecessary precedent.
The more important question, which invariably
arises when the party that prevailed in the district
court takes voluntary action that moots an appeal,
is whether to remand with directions to vacate the
mooted order. See generally Perficient, Inc. v. Munley,
973 F.3d 914 (8th Cir. 2020). The Supreme Court has
instructed us to “dispose[] of moot cases in the manner
most consonant to justice in view of the nature and
character of the conditions which have caused the case
to become moot.” U.S. Bancorp, 513 U.S. at 24 (cleaned
up). Applying that general principle, the Court declared that the “equitable tradition of vacatur” should
normally be invoked when a party “seeks review of the
merits of an adverse ruling, but is frustrated [when]
mootness results from unilateral action of the party
who prevailed below.” Id. at 25.
We conclude that vacatur is the appropriate disposition in this case for many reasons. First, the timing
of LRFP’s actions strongly suggest an intent to avoid
appellate review. Second, the merits of LRFP’s challenge to Act 700 remain to be decided in the district
court, and it would be inappropriate to have those
unresolved issues affected by the district court’s
findings and conclusions in a preliminary injunction
order LRFP’s actions prevented us from reviewing.
See Perficient, 973 F.3d at 917. Third, and perhaps
most important, in preliminarily enjoining Act 700,
the district court employed the undue burden analysis
based upon Whole Woman’s Health v. Hellerstedt, 136
S. Ct. 2292 (2016), that it used in Hopkins, which we
recently reversed and remanded for further consideration in light of June Medical Services. 968 F.3d at

14a
915-16. As LRFP’s voluntary action has caused the
preliminary injunction of Act 700 to become moot, we
accomplish the same result in this case by remanding
to the district court with directions to vacate as moot
the part of its order preliminarily enjoining Act 700
together with the findings of fact and conclusions of
law supporting that equitable relief.
III. CONCLUSION.
For the forgoing reasons, we affirm the district
court’s order preliminarily enjoining enforcement of
Act 493 and Act 619. We dismiss as moot the appeal
of the preliminary injunction of Act 700 and remand
to the district court with instructions to vacate
this part of its Preliminary Injunction order. We
dismiss Defendants’ appeal from the district court’s
consolidation orders and deny their request that the
case be reassigned on remand. We deny as frivolous
LRFP’s motion to exclude from the record on appeal
the files from Planned Parenthood of Ark. & E. Okla.
v. Jegley that Defendants included in their Designation of Record. See fn.1 supra. The parties will each
bear their own costs of appeal. There is no “prevailing
party” for purposes of 42 U.S.C. § 1988(b).

15a
SHEPHERD, Circuit Judge, with whom ERICKSON,
Circuit Judge, joins, concurring.
Because the Court’s opinion applies binding
Supreme Court precedent, I join it in full. I write separately, however, to reiterate my view that “good reasons exist for the [Supreme] Court to reevaluate its
jurisprudence” regarding the viability standard as
announced in Planned Parenthood of Southeastern
Pennsylvania v. Casey, 505 U.S. 833 (1992). See MKB
Mgmt. Corp. v. Stenehjem, 795 F.3d 768, 773 (8th
Cir. 2015).
In MKB Management Corp., this Court discussed at
length the reasons that the viability standard has
proven unsatisfactory, including that it “gives too little
consideration to the ‘substantial state interest in
potential life throughout pregnancy’” by tying the
interests to scientific advancements in obstetrics and
“not to developments in the unborn”; that it deprives
state legislatures of the opportunities to determine the
appropriate interest in protecting unborn children by
substituting the Supreme Court’s “own preference to
that of the legislature”; and that the factual underpinnings of Roe v. Wade, 410 U.S. 113 (1973), and Casey
may have changed. Id. at 774-75 (citations omitted). I
continue to believe that these reasons warrant
reconsideration of the viability standard. But this case
presents yet another reason why the viability standard is unsatisfactory and worthy of reconsideration.
Act 619, which prohibits a physician from performing
or attempting to perform an abortion based on a
diagnosis or suspicion of Down Syndrome involves
significant and, as yet, unconsidered issues regarding
the balance of interests when the sole reason a woman
seeks an abortion is what she deems an unwanted
immutable characteristic of the unborn child. And

16a
Casey directs that we resolve this inquiry by considering viability alone.
In Box v. Planned Parenthood of Indiana & Kentucky,
Inc., 139 S. Ct. 1780, 1782 (2019) (per curiam), the
Supreme Court granted certiorari and reversed the
judgment of the Seventh Circuit regarding an Indiana
statute governing the disposition of fetal remains, but
declined to grant certiorari to a second question,
regarding another Indiana statue prohibiting abortion
providers from providing abortions sought on the basis
of the sex, race, or disability of the unborn child.
In a separate concurring opinion, Justice Thomas
expressed his view that the latter law “and other laws
like it promote a State’s compelling interest in
preventing abortion from becoming a tool of modernday eugenics,” and acknowledged that “with today’s
prenatal screening tests and other technologies, abortion can easily be used to eliminate children with
unwanted characteristics.” Id. at 1783, 1790 (Thomas,
J., concurring). Justice Thomas agreed, however, with
the Court’s decision to decline to grant certiorari
because “further percolation may assist our review of
this issue of first impression.” Id. at 1784. But in
closing, Justice Thomas noted that “[a]lthough the
Court declines to wade into these issues today, we
cannot avoid them forever. Having created the constitutional right to an abortion, this Court is dutybound
to address its scope.” Id. at 1793.
Others have taken note of the fact that “Casey did
not consider the validity of an anti-eugenics laws.”
Planned Parenthood of Ind. & Ky., Inc. v. Comm’r of
Ind. State Dep’t of Health, 917 F.3d 532, 536 (7th Cir.
2018) (Easterbrook, J., dissenting). In the Seventh
Circuit proceedings prior to Box, Judge Easterbook
noted in dissent that

17a
Casey and other decisions hold that, until a
fetus is viable, a woman is entitled to decide
whether to bear a child. But there is a difference between “I don’t want a child” and “I
want a child, but only a male” or “I want
only children whose genes predict success in
life.” Using abortion to promote eugenic goals
is morally and prudentially debatable on
grounds different from those that underlay
the statutes Casey considered.
Id. Today’s opinion is another stark reminder that the
viability standard fails to adequately consider the
substantial interest of the state in protecting the lives
of unborn children as well as the state’s “compelling
interest in preventing abortion from becoming a tool of
modern-day eugenics.” Box, 139 S. Ct. at 1783
(Thomas, J., concurring). The viability standard does
not and cannot contemplate abortions based on an
unwanted immutable characteristic of the unborn
child. However, because we must apply the ill-fitting
and unworkable viability standard to an act aimed at
preventing eugenics-based abortions unless and until
the Supreme Court dictates otherwise, I concur in the
Court’s opinion holding Act 619 unconstitutional.

18a
ERICKSON, Circuit Judge, with whom SHEPHERD,
Circuit Judge, joins, concurring.
I concur in the Court’s opinion and in Judge
Shepherd’s concurrence, but write separately to
emphasize my belief that there are important reasons
for the Supreme Court to revisit its precedent in
Planned Parenthood of Southeastern Pennsylvania v.
Casey, 505 U.S. 833 (1992). Viability as a standard is
overly simplistic and overlooks harms that go beyond
the state’s interest in a nascent life alone.
The great glory of humanity is its diversity. We are,
as a species, remarkably variant in our talents,
abilities, appearances, strengths, and weaknesses.
The human person has immense creative powers, a
range of emotional responses that astound the
observant, and a capacity to love and be loved that is
at the core of human existence. Each human being
possesses a spirit of life that at our finest we have all
recognized is the essence of humanity. And each
human being is priceless beyond measure. Children
with Down syndrome share in each of these fundamental attributes of humanity.
While the state’s interest in nascent life has been
recognized to give way to the right of a woman to be
free from “unduly burdensome interference with her
freedom to decide whether to terminate her pregnancy” id. at 874 (quoting Maher v. Roe, 432 U.S. 464,
473–74(1977)), it is apparent that the right is not, and
should not be, absolute. By focusing on viability alone,
the Court fails to consider circumstances that strike at
the core of humanity and pose such a significant threat
that the State of Arkansas might rightfully place
that threat above the right of a woman to choose to
terminate a pregnancy.

19a
As Judge Easterbrook recognized in his dissent in
Planned Parenthood of Indiana & Kentucky, Inc. v.
Comm’r of Indiana State Dep’t of Health, 917 F.3d
532, 536 (7th Cir. 2018) (Easterbrook, J., dissenting),
eugenics pose a question that is different in both
degree and kind from the interest of the state in
nascent life. One of the great curses of the 20th
century was the rise of the eugenics movement. It gave
a patina of acceptability to such horrors as genocide,
forced sterilization, the development of a master race,
and the death of millions of innocents.
The new eugenics movement is more subtle, but a
state could nonetheless conclude that it poses a great
and grave risk to its citizens. A core value of eugenics
is the notion that diversity in the human population
should be reduced to maximize and eventually realize
the “ideal” of a more “perfect person.” Inherent in this
concept is the goal of controlling genetic diversity of a
population in order to create a super race: one that is
deemed to be healthier, smarter, stronger, and more
beautiful. The creation of such a cadre of people would
undoubtedly lead to greater discrimination against
people who are deemed to be “inferior,” resulting in a
broad attack on diversity of the human population.
Recent history demonstrates biases broadly prevalent in the society related to race, gender, sexual
orientation, and medical or intellectual infirmities
that could in the not-too-distant future be the subject
of genetic manipulation, either in the laboratory or by
termination of pregnancies. The State of Arkansas
could decide that the risk posed by such practices
presents a greater risk to humanity than a burden
placed on a woman’s right to choose to terminate her
pregnancy–but such a decision is foreclosed by our
current precedent based on viability alone. The State

20a
of Arkansas could decide that addressing social
inequalities and disparities is a far more appropriate
response to marginalized populations than embracing
the neo-eugenics movement.
In Western society, there is currently no more
threatened population than children with Down syndrome. While there are still 6,000 children born
annually in the United States with Down syndrome,
the same is not the case in other western democracies.
Centers for Disease Control & Prevention, Data &
Statistics on Down Syndrome, https://www.cdc.gov
/ncbddd/birthdefects/downsyndrome/data.html (last
accessed on December 29, 2020). For example, since
Denmark adopted universal prenatal screening for
Down syndrome, the number of parents who chose to
continue a pregnancy after a diagnosis of Down
syndrome has ranged from 0–13. Last year in 2019,
only seven pregnancies proceeded to term after
diagnosis of Down syndrome and another 11 infants
undiagnosed by the testing were born. That is a total
of 18 infants with Down syndrome being born in all of
Denmark. The State of Arkansas could decide that this
kind of eugenics is dangerous and poses a threat to its
citizens.
I deeply regret that precedent forecloses a balancing
of the state’s actual interest against the woman’s right
to choose in enacting Act 619.

21a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
[Filed August 6, 2019]
————
Case No. 4:19-cv-00449-KGB
————
LITTLE ROCK FAMILY PLANNING SERVICES, et al.,
Plaintiffs,
v.
LESLIE RUTLEDGE, in her official capacity as
Attorney General of the State of Arkansas, et al.,
Defendants.
————
PRELIMINARY INJUNCTION
Before the Court is a motion for a temporary
restraining order and/or preliminary injunction filed
by separate plaintiffs Little Rock Family Planning
Services (“LRFP”) and Thomas Tvedten, M.D., on
behalf of himself and his patients (Dkt. No. 2).1 The
Court held a hearing on July 22, 2019, and entered a
temporary restraining order on July 23, 2019 (Dkt. No.
83). In the temporary restraining order, the Court held
plaintiffs’ request for a preliminary injunction under
advisement. For the reasons set forth below, the Court
grants plaintiffs’ request for a preliminary injunction.
1

Not all named plaintiffs in this lawsuit join the motion for
temporary restraining order and/or preliminary injunction (Dkt.
Nos. 2, 32).

22a
Plaintiffs bring this action seeking declaratory and
injunctive relief on behalf of themselves and their
patients under the United States Constitution and 42
U.S.C. § 1983 to challenge three Acts passed by the
Arkansas General Assembly: (1) Arkansas Act 493 of
2019, which bans abortion “where the pregnancy is
determined to be greater than 18 weeks,” as measured
from the first day of a woman’s last menstrual period
(“LMP”) in nearly all cases (“Act 493”); Arkansas Act
619, which prohibits a physician from intentionally
performing or attempting to perform an abortion “with
the knowledge” that a pregnant woman is seeking an
abortion “solely on the basis” of: a test “indicating”
Down syndrome; a prenatal diagnosis of Down syndrome; or “[a]ny other reason to believe” the “unborn
child” has Down syndrome (“Act 619”); and (3) Arkansas
Act 700 of 2019, which provides that “[a] person shall
not perform or induce an abortion unless that person
is a physician licensed to practice medicine in the state
of Arkansas and is board-certified or board-eligible in
obstetrics and gynecology.” (“Act 700” or the “OBGYN
requirement”). This Court has jurisdiction under 28
U.S.C. §§ 1331 and 1343(a)(3).
I. PROCEDURAL HISTORY
Plaintiffs filed their complaint and motion for a
temporary restraining order and/or preliminary
injunction on June 26, 2019 (Dkt. Nos. 1, 2). The
challenged Acts were to take effect on July 24, 2019.
The Court held the hearing on plaintiffs’ motion for
temporary restraining order and/or preliminary
injunction on July 22, 2019 (Dkt. No. 78).
In response to a motion for expedited prehearing
discovery filed by defendants, the Court instructed the
parties to meet and confer regarding any outstanding
discovery requests and to file a joint status report on

23a
July 12, 2019 (Dkt. No. 34). On July 10, 2019,
plaintiffs filed a supplemental declaration from Jason
Lindo, Ph.D., and in response defendants sought to
strike the supplemental declaration or to extend the
time to respond to the motion for temporary restraining order and/or preliminary injunction (Dkt. Nos. 37,
38). Plaintiffs opposed the motion to strike the
supplemental declaration and the request to extend
the time to respond to the motion (Dkt. No. 39). The
Court denied the motion to strike or request for
additional time to respond to the motion, observing in
part that any alleged prejudice would be limited and
mitigated if the Court “treats plaintiffs’ motion as one
for temporary restraining order, then such an order—
whether granted or denied—would expire 14 days
from the date it is entered, and the Court may permit
all parties to address further the merits of this expedited matter prior to a hearing on plaintiffs’ request
for a preliminary injunction.” (Dkt. No. 41, at 2).
The parties timely filed their joint status report on
July 12, 2019, and reported that they required the
Court to resolve three remaining discovery disputes
(Dkt. No. 40). In that same status report, the parties
represented that certain information would be turned
over contingent upon the entry of a protective order
that was still being negotiated by the parties. The
Court then entered an order denying without prejudice defendants’ motion for expedited prehearing
discovery, resolving only the three remaining discovery disputes the parties had been unable to resolve at
that time (Dkt. No. 42).
On July 18, 2019, defendants filed a renewed motion
for expedited prehearing discovery (Dkt. No. 56). In
that motion, defendants argued that, because plaintiffs insisted upon an “unreasonably broad definition

24a
of ‘confidential information,’” the parties could not
agree on the terms of a protective order, and therefore
defendants had not received agreed-upon discovery
(Id., at 1). In response, plaintiffs pointed out that they
sent a proposed protective order to defendants on July
10, 2019, but defendants did not respond until July 15,
2019, with a counterproposal (Dkt. No. 60, at 4).
Plaintiffs responded on July 16, 2019, rejecting the
counterproposal (Id.). Defendants did not file a
renewed motion until July 18, 2019, after filing a written response to the motion for temporary restraining
order and/or preliminary injunction. On July 19, 2019,
the Court denied defendants’ renewed motion for expedited prehearing discovery and entered a protective
order (Dkt. Nos. 69, 70).
On Saturday, July 20, 2019, a day after the deadline
for disclosing rebuttal exhibits and witnesses in
advance of the July 22, 2019, hearing had elapsed,
defendants filed a new declaration that totaled 272
pages, with attachments; plaintiffs also filed a supplemental rebuttal witness list (Dkt. Nos. 73, 74). Then,
on Sunday, July 21, 2019, plaintiffs filed a motion to
strike certain declarations introduced by defendants,
including the declaration filed on Saturday, July 20,
2019 (Dkt. No. 75). Also on Sunday, July 21, 2019,
defendants filed a motion to strike certain declarations
introduced by plaintiffs and to strike plaintiffs’ reply
brief (Dkt. No. 76).
The hearing was held on July 22, 2019 (Dkt. No. 84).
Plaintiffs called Frederick Hopkins, M.D., Linda Prine,
M.D., Lori Williams, Dr. Lindo, and Thomas Tvedten,
M.D. Defendants called Janet Cathey, M.D., Tumulesh
K.S. Solanky, Ph.D., Donna Harrison, M.D., and Judy
McGruder. Plaintiffs recalled Dr. Prine for rebuttal,
after which defendants did not cross examine her.

25a
Plaintiffs also recalled Dr. Lindo for rebuttal, and
likewise defendants did not cross examine him on his
rebuttal testimony. Neither party identified additional
witnesses they wished to have called. Furthermore,
neither party utilized the full time granted by the
Court to question the witnesses who appeared at
that hearing.
The day after the July 22, 2019, hearing, plaintiffs
filed a notice of correction of the record in which they
attached a supplemental declaration by Dr. Lindo that
corrected duplicate entries within Excel files that had
been produced to defendants (Dkt. No. 79, at 1).
Defendants then filed a motion to strike this declaration, arguing that the Court should strike the latest
declaration and allow defendants further discovery by
deposing Dr. Lindo (Dkt. No. 80). The Court denied
defendants’ motion to strike this declaration and their
request to depose Dr. Lindo (Dkt. No. 96).
On July 23, 2019, the Court entered a 14-day temporary restraining order enjoining the enforcement of
Acts 493, 619, and 700. On July 25, 2019, defendants
filed a motion for expedited preliminary-injunctionproceeding discovery, in which defendants sought the
Court’s permission to propound discovery requests on
plaintiffs regarding Planned Parenthood of Arkansas
and Eastern Oklahoma’s (“PPAEO”) ability to provide
abortions in Little Rock, PPAEO’s efforts to provide
surgical abortions in Arkansas, building requirements
applicable to surgical abortions, and data on out-ofstate abortion clinics (Dkt. No. 86). Defendants also
sought permission to issue a Federal Rule of Civil
Procedure 30(b)(6) deposition notice on PPAEO (Id.).
Plaintiffs responded to the motion for expedited discovery (Dkt. No. 92), and the Court denied defendants’
motion (Dkt. No. 97).

26a
At the hearing, plaintiffs objected to defendants’
request to introduce as a hearing exhibit in this matter
the entire record from Planned Parenthood Arkansas
and Eastern Oklahoma v. Jegley, Case No. 4:15-cv00784-KGB, on the basis that defendants failed to
refer to, or move to introduce, any specific portions of
that record in response to plaintiffs’ motion for temporary restraining order and/or preliminary injunction
here. The Court entered a written Order recounting
the parties’ positions with respect to Jegley and the
current case, declining defendants’ oral motion to
incorporate the entire record from Jegley into this
matter, and directing the parties to cite to specific
portions of the Jegley record for the Court’s consideration in this matter (Dkt. No. 94).
Defendants also requested a second hearing, and the
Court denied this request (Dkt. No. 111). The Court
noted, in part, that the matters defendants wished to
raise at a second hearing were known to defendants at
the July 22, 2019, hearing and that the defendants had
an opportunity to cross examine plaintiffs’ witnesses
on these matters at that time (Id.). In ruling on
plaintiffs’ motion for preliminary injunction, the Court
has considered the record before it as of August 6,
2019. Further, given the limited nature of a preliminary injunction order, the Court declines to strike the
declarations filed by any party and instead will give
them the weight to which they are entitled at this
stage of the proceedings. See Wounded Knee Legal
Def./Offense Comm. v. Fed. Bureau of Investigation,
507 F.2d 1281, 1286-87 (8th Cir. 1974).

27a
II. FINDINGS OF FACT
The Court makes the following findings of fact.2
1. Charlie Browne, M.D., a board-certified
obstetrician-gynecologist (“OBGYN”) offers an affidavit in support of plaintiffs’ motion (Dkt. No. 2, at 2428; Decl. of Charlie Browne, M.D., ¶ 1). Dr. Browne is
a Clinical Assistant Professor at the University of
Washington Medical Center, Department of Obstetrics and Gynecology in Seattle, Washington, and
Clinical Faculty at Pacific Northwest University
College of Osteopathic Medicine in Yakima, Washington
(Id.). He is also the Medical Director of All Women’s
Care in Seattle Washington, the Medical Director of
All Women’s Health in Tacoma, Washington, and the
Director of Second-Trimester Services of Planned
Parenthood of Greater Washington & Northern Idaho
(Id.). In these positions, Dr. Browne provides abortion
care and other gynecological services (Id.).
2. Dr. Browne avers that, based upon his experience and training, a medical provider does not need to
2

To the extent the findings of fact in this Order contradict the
findings of fact made in the Court’s prior Orders, the findings of
fact in this Order control. Further, the Court will address these
and additional factual matters in the context of its discussion of
the legal issues; in that context, the Court also makes findings of
fact. In making the following findings of fact and conclusions of
law, the Court has considered the record as a whole. The Court
has observed the demeanor of witnesses and has carefully
weighed their testimony and credibility in determining the facts
of this case and drawing conclusions from those facts. All findings
of fact contained herein that are more appropriately considered
conclusions of law are to be so deemed. Likewise, any conclusions
of law more appropriately considered a finding of fact shall be so
classified. The Court has considered and weighed all the evidence
presented in the record at this stage; the Court has resolved any
disputes consistent with the statements in this Order.

28a
be a board-certified or board-eligible OBGYN to have
the education, training, and skills necessary to provide
safely and competently abortion care (Decl. of Charlie
Browne, M.D., ¶ 6). In his experience, there is no
difference in the abilities, qualifications, or skills of
non-OBGYN practitioners and OBGYNs who have
received the necessary training to provide abortion
care (Id.).
3. Dr. Browne further avers that being a boardeligible or board-certified OBGYN does not make an
abortion provider any more equipped to handle the
“rare complications that may arise from an abortion.”
(Id., ¶ 7). Dr. Browne explains that “in the rare event
of a serious complication, the patient would need to be
transferred to a hospital for emergency care, regardless of whether the physician providing abortion care
is a board-certified OBGYN.” (Id.). In his experience,
serious complications arising from either medication
or surgical abortions are rare (Decl. of Charlie Browne,
M.D., ¶ 7).
4. From August 2010 to December 2010, Dr.
Browne provided abortion care for LRFP approximately once every four to six weeks for two to three
days at a time (Id., ¶ 8). Between 2011 and July 2012,
he also provided abortion care at LRFP approximately
two to three weeks per year (Id.). After 2012, Dr.
Browne had to stop providing abortion care at LRFP
since it takes him approximately six to seven hours to
travel to LRFP from his home and because the time
away from his home was disruptive professionally (Id.,
¶¶ 9-10).
5. Dr. Browne also avers that providing abortion
care at LRFP was difficult and stressful due to harassment he experienced while working at the clinic (Decl.
of Charlie Browne, M.D., ¶ 11). Every time Dr. Browne

29a
traveled to LRFP, he encountered protestors attempting to block the entrance to LRFP’s parking lot (Id.).
He also states that the harassment and stigma he
experienced in Arkansas was “far more prevalent and
aggressive than any [he had] experienced as an abortion provider elsewhere.” (Id., ¶ 12). For these reasons,
Dr. Browne has not returned to LRFP for the past
seven years (Id., ¶ 13).
6. Dr. Browne states that LRFP staff reached out
to him in March 2019 to see if he would be willing to
provide abortion care at LRFP when the OBGYN
requirement is set to take effect (Decl. of Charlie
Browne, M.D., ¶ 14). Dr. Browne has agreed to do so
but only for two to three days in July 2019 (Id.). He
cannot commit to providing care after that time given
his professional and personal obligations in Seattle,
Washington (Id.).
7. Janet Cathey, M.D., a board-certified OBGYN
licensed to practice medicine in Arkansas and
Oklahoma, has presented her declaration in support of
plaintiffs’ motion (Dkt. No. 2, at 36-41, Decl. of Janet
Cathey, M.D.)). Dr. Cathey avers that she provides medical services, including medication abortion, at PPAEO
health center in Little Rock, Arkansas (Id., ¶ 1).
8. In early 2018, Dr. Cathey was asked by PPAEO
to provide reproductive health care services at
PPAEO’s health center in Little Rock (“PPAEO Little
Rock”), and in May 2018, she began working at the
health center in Little Rock (Id., ¶ 3).
9. At LRFP’s Little Rock health center, Dr. Cathey
provides family planning services, transgender care,
and medication abortions (Id., ¶ 4). She also has
administrative responsibilities, including overseeing
clinical staff, teaching medical students, and acting

30a
as director of Planned Parenthood Great Plains’
(“PPGP”) transgender care program (Decl. of Janet
Cathey, M.D., ¶ 4). Since she started in this position
through April 30, 2019, she has provided 229
medication abortions (Id., ¶ 5).
10. Dr. Cathey is one of only two physicians providing medication abortion at PPAEO’s Little Rock health
center (Id., ¶ 6). The other physician, Dudley Rodgers,
M.D., is a board-certified OBGYN who provides only
medication abortions approximately one day per week
(Id.). Dr. Rodgers is semi-retired and does not provide
medical care anywhere else, due in part to health
issues that prevent him from providing patient care
for long hours or multiple days a week (Id.).
11. Dr. Cathey currently provides medical care at
PPAEO’s Little Rock health center three days per
week for approximately eight to ten hours a day (Decl.
of Janet Cathey, M.D., ¶ 7). She also works as
a medical consultant for Social Security disability
reviews and completes PPAEO administrative responsibilities two other days per week (Id.). Dr. Cathey’s
administrative responsibilities include providing
non-clinical services to her transgender patients,
mentoring medical students regarding abortion care,
transgender care, and other medical care, including
gynecological procedures (Id.). Dr. Cathey also avers
that she expects her non-clinical responsibilities to
increase (Id.).
12. Dr. Cathey avers that, during the three
days that she provides patient care, her schedule
is at capacity (Decl. of Janet Cathey, M.D., ¶ 8). Due
to patient demand, Dr. Cathey is planning to add
another half day a week to provide patient care,
including care to patients seeking medication
abortions, transgender care, and family planning (Id.).

31a
She states that providing care three and a half days
per week “is the absolute maximum amount of time”
she can devote to patient care (Id.).
13. Dr. Cathey also notes that she cannot take on
additional hours to provide medical care because of
physical limitations resulting from a spinal cord injury
she sustained in a 2009 car accident (Id., ¶ 9). Because
of her injuries, she originally stopped providing
patient care, and though she now practices medicine,
she continues to have physical restrictions (Decl. of
Janet Cathey, M.D., ¶ 9).
14. Dr. Cathey also avers that she sees a significant number of transgender and family planning
patients and that she is the only physician at PPAEO’s
Little Rock health center who provides care for these
patients (Id., ¶ 10). It is Dr. Cathey’s understanding
that the only other health center in Arkansas that
maintains a dedicated transgender care program is
the University of Arkansas for Medical Sciences
(“UAMS”) clinic, which provides transgender care
“only one half day per week.” (Id.).
15. In sum, due to her other personal and
professional responsibilities, Dr. Cathey cannot see
any more medication abortion patients other than
those she is able to see in three and a half days per
week (Id., ¶ 11).
16. Dr. Cathey also avers that, based upon her
experience, she does not believe that requiring all
abortion providers to be board-certified or boardeligible OBGYNs provides “any benefit whatsoever to
patients.” (Decl. of Janet Cathey, M.D., ¶ 12). She
notes that clinicians from a range of specialties,
including family medicine, can become trained to
provide abortion care (Id.). She maintains that there

32a
is nothing about being a board-certified or boardeligible OBGYN that makes a physician better, safer,
or more effective at providing abortion care (Id.). Dr.
Cathey testified at the hearing that, during her
time at UAMS, she observed the training of
OBGYN residents, and she noted that very few of them
received training in abortion care (Dkt. No. 84, at
203:1-2). She also noted that most, but not all, of the
OBGYN residents were able to provide miscarriage
management by the end of their residency (Id.).
17. Dr. Cathey states that many family medicine
physicians and other clinicians undergo training to
provide safely abortion care (Decl. of Janet Cathey,
M.D., ¶ 13). She further states that family medicine
medical students are “just as skilled and qualified to
provide abortion care as the OBGYN students.” (Id.,
¶ 14).
18. Dr. Cathey states that “restricting the number
of clinicians who can provide abortion in the state to
only board-certified or board-eligible OBGYNs will
actually harm patients, as it can force patients to
unnecessarily delay their access to care or prevent
them from obtaining an abortion altogether.” (Id., ¶ 15
(emphasis in original)).
19. Dr. Cathey notes that there are already
very few abortion providers in Arkansas, which she
attributes to “the intense stigma and harassment that
abortion providers face here.” (Id., ¶ 16). When her
children were younger and in school, Dr. Cathey did
not want to provide abortions because she feared the
harassment that her children would likely face (Id.).
20. At the hearing, defendants’ counsel asked Dr.
Cathey if she would perform an abortion if the woman
seeking the abortion indicated that she was seeking an

33a
abortion because the fetus was transgendered or based
upon the fetus’ race (Dkt. No. 84, at 201:1-202:9).
Defendants did not ask Dr. Cathey about her capacity
to provide abortions for PPAEO or about the capacity
of PPAEO’s new facility in Little Rock. Defendants did
not argue that they did not have enough time to
question Dr. Cathey, nor did they ask the Court to
direct Dr. Cathey to answer any questions.
21. Lori Freedman, Ph.D., an associate professor
in the Department of Obstetrics, Gynecology and
Reproductive Sciences at the University of California,
San Francisco, offers her declaration in support of
plaintiffs’ motion (Dkt. No. 2, at 47-57, Decl. of Lori
Freedman, Ph.D.). Dr. Freedman’s work focuses on
qualitative health research, clinician training and
practice, medical ethics in reproductive health, and
health care practices of religiously affiliated institutions (Id., ¶ 3). She has studied barriers to the
provision of abortion care (Id.). In particular, she has
researched “why doctors with abortion training do not
integrate abortion care into their practice postresidency.” (Id.).
22. In her opinion, in addition to violence and
harassment, the intense stigmatization of abortion
providers makes it difficult, if not impossible in certain
areas, to find and retain abortion providers (Decl. of
Lori Freedman, Ph.D., ¶ 4).
23. Dr. Freedman explains that “no-abortion”
policies in private practice groups, hospital maintenance organization (“HMOs”), and hospitals often
prevent physicians from providing abortions (Id.,
¶ 11). She also states that physicians are often asked
to sign contracts stating that they will not provide
abortions at the offices of their practice and that they
will not provide abortions offsite (Id.).

34a
24. Of five doctors who had been asked to be
medical directors at an abortion clinic, four of them
told Dr. Freedman that they had declined because
their own group practices would not permit it
(Id.). Additionally, Dr. Freedman states that, in her
research, she has encountered situations where senior
physicians threatened to ostracize younger physicians
who performed abortions (Decl. of Lori Freedman,
Ph.D., ¶ 12). She also states that physicians interviewing for post-residency positions have told her that they
fear broaching the subject of abortion with potential
employers (Id.).
25. Dr. Freedman also avers that physicians who
provide abortions frequently lose referrals from medical providers who oppose abortion, thereby placing
their practices in jeopardy (Id., ¶ 13). Additionally, Dr.
Freedman notes that doctors may decline to provide
abortions because they worry about losing existing
patients who are opposed to abortion (Id.).
26. Furthermore, Dr. Freedman points out that
physicians who wish to perform abortions often must
choose whether to maintain a general obstetrics and
gynecology (“OBGYN”) practice or provide abortions,
but not both (Decl. of Lori Freedman, Ph.D., ¶ 14).
27. Dr. Freedman also notes that abortion providers are routinely ostracized in their communities
through acts such as being denied membership to
social organizations and the bullying of their children
at school (Id., ¶ 15). She also states that physicians
cite the effects of picketing by protestors as a reason
not to provide abortions (Id.).
28. Dr. Freedman states that violence against
abortion providers is an ongoing concern and that, as
recently as 2015, there were three murders and nine

35a
attempted murders of abortion clinic staff in the
United States (Id., ¶ 18 (citing Nat’l Abortion Fed’n,
2017 Violence and Disruption Statistics 6 (2017),
available at https://prochoice.org/wp-content/uploads/
2017-NAF-Violence-and-Disruption-Statistics.pdf)). She
states that the threat of violence “significantly deters
many physicians from providing abortion and increases physicians’ reluctance to associate themselves
with abortion clinics and providers in any way.” (Decl.
of Lori Freedman, Ph.D., ¶ 19).
29. Dr. Freedman states that Arkansas “fits the
profile of a state hostile to the provision of abortion
care where abortion providers are likely to experience
the highest levels of stigma and harassment.” (Id.,
¶ 20).
30. Dr. Freedman also states that further evidence
she has reviewed indicates that abortion providers in
Arkansas experience extreme levels of harassment
and effects of stigma, including being forced by their
partners to choose between private practice and
continuing to provide abortion care, being subjected to
picketing and harassment, and being unable to attract
qualified OBGYNs or other providers to work at their
clinics (Id., ¶ 21).
31. Dr. Freedman avers that abortion providers
are less likely to be able to resist the effects of stigma
and harassment in Arkansas cities that lack a
professional community that normalizes abortion care
(Id., ¶ 23).
32. Stephanie Ho, M.D., a board-certified family
medicine physician, offers her declaration in support
of plaintiffs’ motion (Dkt. No. 2, at 89-103; Decl. of
Stephanie A. Ho, M.D.)).

36a
33. Dr. Ho states that she cannot become a boardcertified or board-eligible OBGYN because she did
not complete a residency in OBGYN and that she
cannot do so now due to the time and resources necessary to conduct a residency at this stage of her career
(Id., ¶ 7).
34. Dr. Ho further states that, at the time she
submitted her declaration, surgical abortions could
not be performed at PPAEO’s Fayetteville health center (“PPAEO Fayetteville”) because that facility did
not meet the state’s requirement governing facilities
where surgical abortions are performed (Id., ¶ 10).
35. Dr. Ho explains that Arkansas law requires
women who seek abortion care to come to the health
center to receive certain state-mandated information
in person from a physician and then to wait at least 48
hours before having an abortion (Id., ¶ 14).
36. Dr. Ho further explains that a patient seeking
medication abortion services must therefore come to
the health center for one appointment, and at least 48
hours later, she must return to take a mifepristone pill
and be given four misoprostol pills to administer at
home (Decl. of Stephanie A. Ho, M.D., ¶ 15). The
patient must also make a follow-up appointment for
approximately two weeks later (Id.).
37. Dr. Ho further states that medication abortion
is extremely safe and that 97.4% of medication
abortion cases are successful under the regimen just
described (Id., ¶ 16 (citing Daniel Grossman et al.,
Effectiveness and Acceptability of Medical Abortion
Provided Through Telemedicine, 118 Obstetrics &
Gynecology 296, 300 (2011))).
38. Dr. Ho notes that a woman who takes mifepristone at a PPAEO health center has access to a 24-hour

37a
hotline number that she can call with any questions or
concerns and that patients are provided with the name
and number of a contracted OBGYN physician who
has agreed to serve as the collaborative medical doctor
to PPAEO abortion providers in Fayetteville and Little
Rock (Id., ¶ 17).
39. Dr. Ho states that most patients who call the
hotline “simply need reassurance that their symptoms
(like bleeding and cramping) are normal and will
subside.” (Decl. of Stephanie A. Ho, M.D., ¶ 18). In the
“exceedingly rare case” that the nurse or physician on
the hotline believes that immediate medical treatment
is necessary, the patient is referred to the nearest
emergency room, one of PPAEO’s physicians is
notified, and health center staff follow up with the
patient within 24 hours (Id.).
40. Dr. Ho notes that, during the course of her
medical career, she has performed procedures that are
much more complicated and have higher complication
rates than medication abortion, including: induced
and managed labor, delivery of babies, and tubal
ligations (Id., ¶ 20). Dr. Ho also states that the
national risk of maternal mortality associated with
live birth is approximately fourteen times higher than
that associated with induced abortions (Id. (citing
Elizabeth G. Raymond & David A. Grimes, The
Comparative Safety of Induced Abortion and Childbirth in the United States, 119 Obstetrics & Gynecology 215 (2012))). She also notes that, in Arkansas, the
maternal mortality rate is even worse, with Arkansas
ranked 44th in the nation for maternal mortality
compared to other states in 2018 (Id. (citing United
Health Foundation, 2018 Health of Women and
Children Report (2018), https://www.americashealth

38a
rankings.org/learn/reports/2018-health-of-women-andchildren-report/state-summaries-arkansas)).
41. Dr. Ho further states that PPAEO drafted a job
opening for a board-certified or board-eligible OBGYN
to provide abortion care at the Fayetteville health
center (Id., ¶ 23). This posting was listed on social
media, and a letter was sent to all identified OBGYNs
in Arkansas (Decl. of Stephanie A. Ho, M.D., ¶ 24).
42. PPAEO also took out an ad in the Journal of
the Arkansas Medical Society seeking a boardcertified or board-eligible OBGYN (Id., ¶ 25). PPAEO
staff personally contacted physicians to see if they
would provide abortion services (Id.).
43. In May 2019, Kathleen Paulson, M.D., a boardcertified OBGYN, contacted PPAEO to state that she
would be willing to provide medication abortion at the
Fayetteville health center on a volunteer basis if the
OBGYN requirement were to go into effect (Id., ¶ 26).
44. To date, no other OBGYNS have responded to
PPAEO’s efforts to locate a board-certified or boardeligible OBGYN willing to provide medication abortion
at PPAEO’s health centers (Decl. of Stephanie A. Ho,
M.D., ¶ 29).
45. Dr. Ho states that she has experienced stigma
as an abortion provider in Arkansas, including being
informed by a potential employer that the potential
employer was not interested in being associated with
an abortion provider (Id.).
46. Frederick W. Hopkins, M.D., M.P.H., a boardcertified OBGYN, offers his declaration in support of
plaintiffs’ motion (Dkt. No. 2-1, at 119-136; Decl. of
Frederick W. Hopkins, M.D., M.P.H.).

39a
47. Dr. Hopkins points out that, during his
OBGYN residency, he did not receive any formal
training in abortion care and that “[a]bortion care is
not a requirement to complete an OBGYN residency,
and most OBGYN residencies did not provide that
training.” (Id., ¶ 13).
48. Dr. Hopkins states that “[l]egal abortion is one
of the safest medical procedures in the United States”
and that “approximately 1 in 4 women in the U.S.
obtains an abortion by the age of 45.” (Id., ¶ 21). As
authorities for these statistics, Dr. Hopkins cites the
National Academy Consensus Study prepared by the
National Academy of Sciences, Engineering, and
Medicine and reports by the Guttmacher Institute. See
National Academy of Sciences, Engineering, and
Medicine, The Safety and Quality of Abortion Care in
the United States 2018, at 11, 74-75, available at
https://doi.org/10.17226/24950) (hereinafter “National
Academy Consensus Study Report”); The Guttmacher
Institute, Induced Abortion in the United States
(January 2011), https://www.guttmacher.org/sites/
default/files/factsheet/fb_induced_abortion.pdf; The
Guttmacher Institute, Abortion is a Common Experience for U.S. Women, Despite Dramatic Declines in
Rates (Oct. 2017), https:www.guttmacher.org/newsrelease/2017/abortion-common-experience-us-womendespite-dramatic-declines-rates. Dr. Hopkins further
explains that a “majority of women having abortions
in the United States already have one child.” (Id.
(citing The Guttmacher Institute, Characteristics of
U.S. Abortion Patients in 2014 and Changes Since
2008 (May 2016), https://www.guttmacher.org/report/
characteristics-us-abortion-patients-2014)). Testimony
consistent with this declaration was offered at the
hearing and was subject to cross-examination.

40a
49. Dr. Hopkins further states that there are two
types of abortions in the United States: medication
abortion and surgical abortion (Id., ¶ 23).
50. Dr. Hopkins also states that, regardless of
the method of abortion, “serious complications are
extremely rare, occurring in less than 0.5% of all
cases.” (Decl. of Frederick W. Hopkins, M.D., M.P.H.,
¶ 26 (citing Upadhyay, Ushma D., et al., Incidence of
Emergency Department Visits and Complications After
Abortion, 125 Obstetrics and Gynecology 175 (2015)).
The types of complications that may occur following an
abortion include infection, prolonged heavy bleeding,
uterine perforation, cervical laceration, and retained
tissue (Id., ¶ 27). Dr. Hopkins states that in the “vast
majority of cases” such complications can be handled
in an outpatient office setting (Id.). Testimony
consistent with this declaration was offered at the
hearing and was subject to cross-examination.
51. Dr. Hopkins also explains that a woman’s risk
of pregnancy-related death is estimated to be 8.8 per
100,000 live births, whereas less than one woman dies
for every 100,000 abortion procedures (Id., ¶ 28 (citing
National Academy Consensus Study Report at Table
2-4, 2-24; Zane, S., et al., Obstetrics and Gynecology,
Abortion-related mortality in the United States: 19982010, at 258-65, available at http://www.ncbi.nlm.nih.
gov/pubmed/26241413; Bartlett, L.A., et al., Obstetrics
and Gynecology, Risk Factors for legal induced
abortion-related mortality in the United States, at 72937, available at https://www.ncbi.nlm.nih.gov/pubmed/
15051566)). Testimony consistent with this declaration was offered at the hearing and was subject to
cross-examination.
52. Additionally, according to Dr. Hopkins, abortionrelated mortality is significantly lower than mortality

41a
for other common outpatient procedures, including
colonoscopies, plastic surgery, dental procedures, or
adult tonsillectomies (Decl. of Frederick W. Hopkins,
M.D., M.P.H., ¶ 28 (citing National Academy Consensus Study Report, Table 2-4, 2-24)). Testimony consistent with this declaration was offered at the hearing
and was subject to cross-examination.
53. Dr. Hopkins asserts that “no fetus is viable at
18 weeks LMP.” (Id., ¶ 29). Instead, he notes that “[i]t
is commonly accepted in the field of OBGYN that a
normally developing fetus will not attain viability
until at least 24 weeks LMP,” and he also explains that
not all fetuses attain viability even at that stage (Id.).
54. Dr. Hopkins states that patients can delay
abortions for several reasons, including because they
do not realize that they are pregnant until later in
their pregnancy, difficulty in obtaining funds for the
abortion and related expenses, and Arkansas’ mandated waiting period (Id., ¶¶ 30-31).
55. Additionally, Dr. Hopkins explains that some
patients seek abortions at or after 18 weeks LMP
because they discover a fetal anomaly, some of which
cannot be tested for until 18 to 20 weeks LMP (Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 32). In other
circumstances, the results from prenatal tests performed at 18 to 20 weeks LMP are inconclusive and
require referrals to other medical professionals and
additional testing, all of which can lead to further
delay (Id.). Finally, some women seek abortions at or
after 18 weeks LMP because they have a medical
condition that does not become apparent until that
time or an existing medical condition that worsens
during the course of pregnancy (Id., ¶ 33).

42a
56. Dr. Hopkins further states that, if Act 493
takes effect, he will be forced to stop providing safe and
effective pre-viability abortion care that his patients
want and need (Id., ¶ 34). He further states that, as a
result of Act 493 taking effect, some of his patients will
be forced to delay their abortion care, at risk to their
health, while they attempt to obtain an abortion out of
state (Decl. of Frederick W. Hopkins, M.D., M.P.H.,
¶ 34). He also states that others will be prevented from
obtaining an abortion altogether and be forced to carry
their pregnancies to term against their will, at the
expense of their health (Id.).
57. Dr. Hopkins states that, if the OBGYN requirement goes into effect, Dr. Tvedten, Dr. Horton, and Dr.
Ho will be unable to provide abortions (Id., ¶ 35).
58. In Dr. Hopkins’ experience training nonOBGYNs to provide abortions, “there is no difference
in the abilities or skills between non-OBGYN practitioners and OBGYNs who have received the necessary
training.” (Id., ¶ 36). Dr. Hopkins points out that the
OBGYN requirement would allow a physician with no
training in abortion to perform abortions while
preventing other qualified clinicians with actual
training and competency in abortion from providing
such care (Decl. of Frederick W. Hopkins, M.D.,
M.P.H., ¶ 36). Testimony consistent with this declaration was offered at the hearing and was subject to
cross-examination.
59. Dr. Hopkins further states that it is not
necessary to be an OBGYN, much less a boardcertified or board-eligible OBGYN, to be a competent
abortion provider (Id., ¶ 37). According to Dr. Hopkins,
the American College of Obstetricians and Gynecologists (“ACOG”), a “highly regarded, reliable, and
extensively cited authority in my field,” recommends

43a
expanding the trained pool of non-OBGYN abortion
providers, including family physicians and advanced
practice physicians (Id. (citing Am. Coll. of Obstetricians and Gynecologists, Committee Op. No. 612 (Nov.
2014), available at https://www.acog.org/ClinicalGuidance-and-Publications/Committee-Opinions/Com
mittee-on-Health-Care-for-Underserved-Women/Abor
tion-Training-and-Education)). Dr. Hopkins also notes
that board-eligibility and board-certification are not
required to practice medicine, and he also notes that
“[a]t no point in the OBGYN board-eligibility or boardcertification process must a physician demonstrate
competence in the performance of abortions.” (Id., ¶ 35
n.13). Dr. Hopkins also states that studies recognize
that non-OBGYNs are just as qualified and skilled in
abortion care as OBGYNs (Decl. of Frederick W.
Hopkins, M.D., M.P.H., ¶ 37 (citing National Academy
Consensus Study Report, at 11, 14, 79, 95)). Testimony
consistent with this declaration was offered at the
hearing and was subject to cross-examination.
60. Dr. Hopkins states that “[a]ny clinician with
adequate training in abortion care can safely and
effectively handle” the most common abortion complications, even though such complications are rare
(Id., ¶ 38). Testimony consistent with this declaration
was offered at the hearing and was subject to crossexamination.
61. In the event a significant complication does
arise from an abortion, Dr. Hopkins states that an
abortion provider would transfer or direct the patient
to the nearest hospital to receive the required care (Id.,
¶ 39). If the complication is retained tissue following a
medication abortion, Dr. Hopkins states that ACOG
Practice Bulletin 143 states that the abortion provider
should be trained in surgical abortion “or should be

44a
able to refer to a clinician trained in surgical abortion.”
(Id. (citing Am. Coll. of Obstetricians and Gynecologists, Practice Bulletin 143 (Mar. 2014), available at
https://www.acog.org/-/Practice-Bulletins/Committeeon-Practice-Bulletins----Gynecology/Public/pb143.pdf)
(“ACOG Practice Bulletin No. 143”)). Testimony consistent with this declaration was offered at the hearing
and was subject to cross-examination.
62. Dr. Hopkins travels to Arkansas to provide
care at LRFP only approximately once every two
months (Decl. of Frederick W. Hopkins, M.D., M.P.H.,
¶ 42). When he comes to Arkansas, he does so for
“three to four days every other month.” (Id., ¶ 44).
Since Dr. Hopkins lives in California, each visit to
Arkansas requires a day to arrive and to return, so his
total duration away from California is five to six days
for each visit (Id.). Testimony consistent with this
declaration was offered at the hearing and was subject
to cross-examination.
63. Due to Arkansas’ 48-hour mandated delay
for abortion patients, LRFP treats patients only on
Wednesdays, Fridays, and Saturdays, so Dr. Hopkins
does not see patients for the entire time he is in
Arkansas (Id., ¶ 45). Typically, patients will come in
one day for the mandated counseling and two days
later for the abortion (Decl. of Frederick W. Hopkins,
M.D., M.P.H., ¶ 45). At the hearing, Dr. Hopkins testified that other physicians could perform patient counseling, but he also testified that the counseling is one
of the reasons he likes seeing patients and that he does
not want to work somewhere where he does not get to
provide counseling to patients (Dkt. No. 84, at 47:1-8).
64. If the 48-hour waiting period is extended to 72hours, then Dr. Hopkins will attempt to remain in
Arkansas for a full five days, versus his regular three

45a
to four days (Decl. of Frederick W. Hopkins, M.D.,
M.P.H., ¶ 47). But, due to his professional obligations
in California, he cannot visit Arkansas more frequently than he currently does (Id.). This is because
he holds several clinical and teaching positions in
California (Id., ¶ 48). He is unable to give up his
current positions and relationships with patients who
rely upon him in California (Id., ¶ 49).
65. Additionally, Dr. Hopkins will not relocate to
Arkansas because his ability to earn a living in
Arkansas would be “extremely uncertain.” (Id., ¶ 50).
He predicts that, if he moved to Arkansas, then the
Arkansas legislature would pass a new law designed
to prevent him from providing abortion care (Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 50). Testimony
consistent with this declaration was offered at the
hearing and was subject to cross-examination. Dr.
Hopkins also testified that LRFP has never offered his
more money and that, regardless of how much money
LRFP might offer him, he could not relocate to Arkansas
because that would require him to give up his entire
career in California (Dkt. No. 84, at 37:1-10). Dr.
Hopkins specifically stated that he would not be
willing to relocate to Arkansas and work at LRFP even
if they paid him a million dollars (Id., at 37).
66. Dr. Hopkins also notes that there are usually
protestors outside of LRFP (Id., ¶ 51). He is personally
familiar with other abortion providers who have been
murdered and attacked (Decl. of Frederick W. Hopkins,
M.D., M.P.H., ¶ 51). These dangers are “constantly” on
Dr. Hopkins’ mind when he travels to Arkansas, and
this is another reason he cannot move to Arkansas to
provide full-time care at LRFP (Id.).
67. Thomas Russell Horton, Jr., M.D., a staff
physician at LRFP and an abortion care provider in

46a
Memphis, Tennessee, offers his declaration in support
of plaintiffs’ motion (Dkt. No. 2-1, at 145-155; Decl. of
Thomas Russell Horton, Jr., M.D.). Dr. Horton did not
testify at the July 22, 2019, hearing.
68. Dr. Horton completed his residency in
OBGYN, but he is not board-certified or board-eligible
in OBGYN (Id., ¶ 5). Dr. Horton will not be able to
provide abortion care if the OBGYN requirement goes
into effect (Id.).
69. Dr. Horton began working as a staff physician
with LRFP in February 2010 (Id., ¶ 11). Previously,
Dr. Horton had provided abortion care in Tennessee
up to approximately 15 weeks LMP, so he received
training from Dr. Tvedten for performing surgical
abortions up to 21.6 weeks LMP (Decl. of Thomas
Russell Horton, Jr., M.D., ¶ 11).
70. As a staff physician for LRFP, Dr. Horton
works “one day per week and primarily perform[s]
one-day surgical procedures, up to 18 weeks LMP.”
(Id., ¶ 12). He also performs multi-day procedures up
to 21.6 weeks LMP when he works two or more days
per week (Id.).
71. Dr. Horton has performed thousands of abortions at LRFP “with a very low rate of complications.”
(Id., ¶ 13).
72. Dr. Horton states that becoming a boardcertified OBGYN would not make him any more
qualified to perform or to handle appropriately the
rare complications that may arise following an
abortion (Decl. of Thomas Russell Horton, Jr., M.D.,
¶ 18). According to Dr. Horton, “training and competence in abortion procedures is not a requirement
for either board certification or board eligibility in
OBGYN.” (Id.). He also notes that abortion care is not

47a
a requirement for completing an OBGYN residency
and that many OBGYNs never receive any training for
providing abortion care (Id.).
73. Dr. Horton further explains that, to become a
board-certified or board-eligible OBGYN, a physician
must first complete his or her residency in OBGYN
and then pass a written examination known as
the American Board of Obstetrics and Gynecology
(“ABOG”) Qualifying Examination (Id., ¶ 19).
74. After a physician becomes board-eligible, the
physician has eight years from the date of completing
his or her residency to become board-certified (Decl. of
Thomas Russell Horton, Jr., M.D., ¶ 20). If the
physician does not become board-certified within those
eight years, the physician loses his or her boardeligible status and must complete, at a minimum, an
additional six months of supervised practice and
assessment in a hospital associated with an accredited
OBGYN residency program before he or she may
become eligible for certification again (Id.).
75. Further, to become an ABOG board-certified
OBGYN, a physician must: (1) be board-eligible; (2)
satisfy certain prerequisites to becoming a candidate
for certification, which includes preparing a comprehensive case list and obtaining unrestricted hospital
privileges; and (3) sit for and pass another oral
examination (Id., ¶ 21).
76. Dr. Horton completed his residency in OBGYN
and passed the written examination for ABOG in June
2002 and June 2013, but he never obtained the
necessary case list that is required to be a candidate
for board certification (Id., ¶ 22). Dr. Horton states
that being a board-certified OBGYN is not relevant or
necessary to the provision of abortion care, and he also

48a
notes that completing the prerequisites for boardcertification would have required him to take significant time away from providing care to his patients
(Decl. of Thomas Russell Horton, Jr., M.D., ¶ 22).
77. Since Dr. Horton did not become boardcertified within eight years of completing his residency, he is no longer board-eligible; to retain his
board eligibility, he would have to complete a minimum of six months of supervised training (Id., ¶ 23).
Dr. Horton states that this is not a feasible option
for him because he cannot leave his practice for the
required six months to complete the training (Id.). He
notes that the required training would provide no
medical benefits to his patients (Id.).
78. Dr. Horton states that, if the OBGYN requirement goes into effect, he will no longer be able to
provide abortion care in Arkansas since he is not and
cannot become either a board-certified or boardeligible OBGYN (Decl. of Thomas Russell Horton, Jr.,
M.D., ¶ 24).
79. Dr. Horton also states that he “regularly”
experiences harassment due to his work as an abortion
provider (Id., ¶ 26). He notes that every day he has
worked at LRFP “there have been protestors and
picketers attempting to block the entrance to the
parking lot.” (Id.). He further notes that the “protestors often shout at me upon arrival and say things
such as: ‘Don’t kill those babies, Dr. Horton.’” (Id.).
80. On June 10, 2009, Dr. Horton was the subject
of a bomb threat at the Memphis Center for Reproductive Health (“MCRH”) in Memphis, Tennessee (Decl.
of Thomas Russell Horton, Jr., M.D., ¶ 27). An individual called MCRH and informed the clinic staff that

49a
there was a bomb in Dr. Horton’s car (Id.). The clinic
staff were forced to evacuate the clinic (Id.).
81. Dr. Horton’s ability to maintain or find a job in
private practice have been directly affected by his
work as an abortion provider (Id., ¶ 28). Around 2004
and 2005 in Memphis, Dr. Horton applied to several
jobs as a generalist in private practice, but he did not
receive any job offers and was not able to find other
work due to his work as an abortion provider (Decl. of
Thomas Russell Horton, Jr., M.D., ¶ 28). In 2005, Dr.
Horton was in the final round of interviews for a
position in private practice in Richmond, Virginia,
when he asked the prospective employer if he would
be allowed to continue providing abortion care in
Memphis while working in private practice; he did not
receive a job offer and never heard from that prospective employer again (Id.). In 2005, while working
at the Baptist Memorial Hospital-Crittenden in
Arkansas, he was approached by one of the labor-anddelivery nurses at the hospital regarding abortion care
(Id.). Afterward, he was informed that his services
were no longer needed at that hospital (Id.). He later
found out that a different OBGYN resident filled the
position Dr. Horton had occupied at that hospital
(Decl. of Thomas Russell Horton, Jr., M.D., ¶ 28).
82. Many of Dr. Horton’s patients at LRFP are
low-income and have a difficult time paying for an
abortion (Id., ¶ 30). His patients may have to borrow
money from a friend or a family member for the
abortion or to rent a car or pay for a hotel in Little
Rock (Id.). His patients often delay their care while
they raise the necessary funds and make logistical
arrangements (Id.).
83. Patients who are poor or low-income usually
have jobs in which they do not get vacation or sick

50a
time, and it is difficult for such patients to take even a
half day off work to be seen at LRFP (Id., ¶ 31). Dr.
Horton states that, if such patients must take
significant time off to travel out of state for a surgical
abortion, they may lose their jobs (Decl. of Thomas
Russell Horton, Jr., M.D., ¶ 31). Additionally, patients
often have difficulty obtaining child care; Dr. Horton
states that on several occasions, patients have brought
young children with them to their appointments at
LRFP (Id., ¶ 32). He also states that, for women who
do not want to or cannot bring their children with
them to their appointments, finding child care for a
whole day or more to travel out of state would be
extremely difficult, if not impossible (Id.).
84. Dr. Horton states that, if the OBGYN
requirement goes into effect, then those patients who
cannot obtain sufficient funds to travel out of state will
be forced to either attempt to self-induce an abortion
or carry their pregnancies to term against their will
(Id., ¶ 33).
85. Sheila M. Katz, Ph.D., offers her declaration in
support of plaintiffs’ motion (Dkt. No. 2-1, at 162-189;
Decl. of Sheila M. Katz, Ph.D.). Dr. Katz is an assistant professor of sociology at the University of
Houston, in Houston, Texas (Id., ¶ 9). Her research
has included qualitative methods and data analysis
regarding women’s experiences of poverty, and her
expertise includes the consequences and social policy
determinants of women’s poverty nationwide, as well
as regional and geographical similarities and differences across the United States (Id.).
86. The United States Department of Health and
Human Services defines the federal poverty guideline
as an income of under $12,490.00 per year for a single

51a
person, with $4,420.00 added per year for each
additional member of the household (Id., ¶ 12).
87. According to 2017 Census Bureau data,
Arkansas is the fifth poorest state in the United States,
and its official poverty rate was 18.1% statewide (Decl.
of Sheila M. Katz, Ph.D., ¶ 14). The poverty rate for
women in Arkansas is even higher, at 19.5% (Id.).
88. The federal poverty guideline, while widely
used, is considered by some to be an inadequate measure of poverty in the United States (Id., ¶ 17). Thus, in
addition to those who fall below the federal poverty
line, most poverty researchers consider individuals
and family between 100% and 200% of the federal
poverty line to be “low-income.” (Id., ¶ 18).
89. In Arkansas, 46.8% of families headed by
single mothers with dependent children are living at
or below 125% of the federal poverty line, and 37.5%
are living at less than 100% of the federal poverty line
(Decl. of Sheila M. Katz, Ph.D., ¶ 19).
90. Further, many poor individuals are part of the
“working poor,” which Dr. Katz defines as those working at minimum wage or earning so little that they
cannot meet basic needs for themselves or their family
(Id., ¶ 20). The Bureau of Labor Statistics defines the
“working poor [as] people who spent at least 27 weeks
in the labor force . . . but whose incomes still fell below
the official poverty level.” (Id.).
91. According to Dr. Katz, a woman working fulltime (40 hours a week) earning minimum wage
in Arkansas now has annual earnings of approximately $19,240.00, which is just above the federal
poverty threshold if she has one child in her household
and below the poverty line if she has more children
(Id., ¶ 21).

52a
92. Dr. Katz states that the fair market rent, as
designated by the United States Department of
Housing and Urban Development, is $702.00 for a onebedroom apartment and $831.00 for a two-bedroom
apartment in Little Rock, Arkansas (Decl. of Sheila M.
Katz, Ph.D., ¶ 22). If a woman in Little Rock has a fulltime job earning the minimum wage, she would pay
approximately 44% of her monthly income for a onebedroom apartment and approximately 52% of her
monthly income for a two-bedroom apartment (Id.).
93. In Arkansas, 17.6% of families headed by
single mothers are living in “deep poverty,” which Dr.
Katz characterizes as a household that lives at or
below 50% of the federal poverty line (Id., ¶ 24).
94. In addition, 17 counties in Arkansas suffer
from “persistent poverty,” which Dr. Katz defines as a
county where the poverty rate has been at or above
20% for the past 30 years (Id., ¶ 25).
95. Dr. Katz explains that Arkansas women living
in deep or persistent poverty face the greatest logistical, financial, and psychological hurdles to accessing
health care services since they are the least likely to
have adequate transportation, childcare, and financial
resources and support (Decl. of Sheila M. Katz, Ph.D.,
¶ 26).
96. Over two-thirds of women who obtain abortions in Arkansas already have at least one child (Id.,
¶ 27).
97. Dr. Katz states that it is her understanding
that women in and around Little Rock who can now
obtain both medication and surgical abortion through
21.6 weeks LMP at LRFP may be forced to travel out
of state to obtain that care from the next closest
provider (Id., ¶ 28). She states that the next-closest

53a
abortion provider is in Memphis, Tennessee, which is
an approximately 300-mile round trip journey from
Little Rock (Id.). Dr. Katz also states that such a
journey would have to be made twice, as Tennessee
requires “multiple, in person visits to the abortion
clinic separated by at least 48 hours before a woman
can obtain an abortion (Decl. of Sheila M. Katz, Ph.D.,
¶ 28).
98. Dr. Katz is familiar with the research analyzing the effect of increased travel on women’s ability to
obtain abortions, and she states that this research
shows that increasing the distance that women must
travel to access abortion services presents significant
logistical and financial hurdles (Id., ¶ 30).
99. Dr. Katz states that for those women who do
not own or have access to vehicles, the only significant
intercity transportation between Little Rock and
Memphis—other than flying—is a private bus service,
such as Greyhound (Id., ¶ 34). A single round-trip
Greyhound bus ticket between Little Rock and
Memphis costs between $24.00 and $85.00 (Id.). If a
woman must bring someone to accompany her in the
event a sedative is used, this cost doubles (Decl. of
Sheila M. Katz, Ph.D., ¶ 34). Further, a woman
traveling by private bus may have to pay for the cost
of taxi or bus fares to and from the private bus station
in both Little Rock and Memphis (Id.). Moreover,
given Tennessee’s 48-hour waiting requirement,
either two bus trips would be required, or the woman
would have to pay for two nights hotel accommodations in Memphis, which Dr. Katz says cost anywhere
from $50.00 to $75.00 per night (Id.).
100. Dr. Katz also points out that many poor and
low-income women in Arkansas “likely do not own or
have access to cars that are reliable enough to make a

54a
trip of the length required.” (Id., ¶ 36). Dr. Katz notes
that, even if a low-income woman owns a car, it may
be shared among adults, and it may not be reliable
enough for intercity trips (Decl. of Sheila M. Katz,
Ph.D., ¶ 36). Dr. Katz also points out that the cost of
gas for round-trip car travel from Little Rock to
Memphis is approximately $23.00 (Id., ¶ 37).
101. Dr. Katz explains that low-wage workers
often have no access to paid time off or sick days and
that seeking uncompensated time off can be a struggle
for low-wage workers who often have less autonomy in
setting their work schedules (Id., ¶ 39). Further, lowwage workers often work unpredictable, varied, or
evening jobs (Id.). Dr. Katz states that the additional
time off required by travel may make it difficult for a
poor or low-income woman to keep her abortion
confidential from her supervisor or other employees
(Decl. of Sheila M. Katz, Ph.D., ¶ 39).
102. Also, Dr. Katz points out that intercity travel
for an abortion requires a woman to miss work (Id.,
¶ 40). In the event a woman can get time off, she is
likely to forego wages in addition to paying for transportation and lodging (Id.). At the minimum wage in
Arkansas of $9.25, foregoing two eight-hour shifts to
travel to and attend abortion counseling and procedure appointments would result in $148.00 in lost
wages, which is almost 10% of a woman’s monthly
income if she works a full-time minimum wage job
(Id.). These lost wages are on top of the cost of the
abortion and other logistical costs (Decl. of Sheila M.
Katz, Ph.D., ¶ 40).
103. Dr. Katz points out that, for those two-thirds
of women seeking an abortion who already have a
child, they must either pay the cost of an additional
round-trip bus ticket for her child or pay the cost of

55a
childcare for the entire time she is traveling (Id., ¶ 41
(citing Tara C. Jatlaoui et al., Ctrs. for Disease Control
and Prevention, Abortion Surveillance—United States
2015, 67 MMWR Surveill. Summ. 1, at Table 16
(2018)). Alternatively the woman may be able to leave
her child with a trusted family member or friend,
though this may require that the woman disclose why
she is traveling (Id.).
104. In sum, according to Dr. Katz, the total
additional financial burden that a woman in or around
Little Rock would have to incur to obtain a surgical
abortion if she were forced to travel to Memphis would
amount up to approximately $468.00, including lost
wages, but not including childcare, food, or the cost of
the procedure itself (Id., ¶ 44). For a woman working
full-time and making Arkansas minimum wage, this
is over a quarter of her monthly salary of $1,603.00
(Decl. of Sheila M. Katz, Ph.D., ¶ 44).
105. Dr. Katz also points out that a low-income
woman may never have traveled outside the metropolitan or rural area where she lives, so even if she is
able to gather the money necessary to make the trip,
“the social-psychological hurdles of making multiple
trips to an unfamiliar city, where she may know no
one, may impede her.” (Id., ¶ 47). Accordingly to Dr.
Katz, many of the women she has spoken to in her
research indicate that, if a service is not available in
their town or within a reasonable distance, “that
service might as well not exist.” (Id.).
106. Dr. Katz points out that poor and low-income
women attempt to meet unexpected expenses in three
ways: (1) by making sacrifices in other areas, such as
by not paying rent or utilities, drastically reducing
food budgets, or foregoing needed medical care; (2) by
borrowing money through payday loans; and (3) by

56a
borrowing money from a boyfriend or partner (Id.,
¶¶ 50-52). Dr. Katz explains that in her own interviews with poor and low-income women, such women
talk about the economic necessity of relying on or
returning to an abusive ex-boyfriend to help make
ends meet when faced with an unexpected crisis (Decl.
of Sheila M. Katz, Ph.D., ¶ 52).
107. Dr. Katz is also familiar with studies analyzing the effect of increased travel on women’s ability
to obtain abortions (Id., ¶ 54). The “Turnaway Study”
found that the most common reason women were
delayed in accessing abortion care was because of
travel and procedure costs (Id., ¶ 55 (citing Upadhyay,
Ushma D., et al., Denial of abortion because of provider
gestational age limits in the United States, 104.9 Am.
J. of Pub. Health 1687, 1697-94 (2014)). Furthermore,
that study also cited that women reported that they
experienced delay as a result of having to get time off
work, finding child care, and not having anyone to
travel with them (Id.).
108. Another study found that the most common
reason for delay was that it took a long time to make
abortion care arrangements and that poverty made
women twice as likely to be delayed in making the
arrangements to seek an abortion (Decl. of Sheila M.
Katz, Ph.D., ¶ 56).
109. In the “Shelton Study,” researchers concluded
that “the farther a woman has to travel to obtain an
abortion, the less likely she is to obtain one.” (Id.,
¶ 57). Furthermore, a recent study of Texas women
seeking an abortion after the implementation of a law
restricting abortion access documented that women
were worried that they would suffer stigma if they
utilized their social networks to overcome the barriers

57a
of traveling long distances to obtain abortion care (Id.,
¶ 58).
110. Jason Lindo, Ph.D., a professor of economics
at Texas A&M University, presents his declaration in
support of plaintiffs’ motion (Dkt. No. 2-1, at 200-237;
Decl. of Jason Lindo, Ph.D.). He has been a research
associate at the National Bureau of Economic
Research (“NBER”) since 2014 (Id., ¶ 5). Dr. Lindo
testified at the July 22, 2019, hearing.
111. It is Dr. Lindo’s understanding that there
are three types of abortions currently provided in
Arkansas: (1) medication abortions that are available
only up to 10 weeks LMP; (2) aspiration surgical
procedures that are available until approximately 13
weeks LMP; and (3) dilation and evacuation (“D&E”)
surgical procedures, which are performed until 21.6
weeks LMP (Id., ¶ 11).
112. Dr. Lindo explains that it is his understanding that medication abortions in Arkansas require
three trips and that, under a new law set to take effect
on July 24, 2019, the mandated delay between the first
and second visits will increase to 72 hours (Id., ¶ 12).
113. As for surgical abortions, Dr. Lindo explains
that two trips are required, though a third visit may
be necessary for some D&E procedures performed
later in the second trimester (Decl. of Jason Lindo,
Ph.D., ¶ 13).
114. Dr. Lindo notes that LRFP is owned and
operated by Dr. Tvedten, who provides approximately
61% of the abortion care at LRFP (Id., ¶ 14(a)). Dr.
Horton provides approximately 33% of the clinic’s
abortion care, and the remaining six percent of the
clinic’s abortion care has been provided by Dr. Hopkins

58a
(Id.). Neither Dr. Tvedten nor Dr. Horton are boardcertified or board-eligible OBGYNs (Id.).
115. Dr. Rodgers and Dr. Cathey provide
medication abortions at PPAEO’s Little Rock health
center (Decl. of Jason Lindo, Ph.D., ¶ 14(b)). Through
April 2019, Dr. Cathey has provided 229 medication
abortions while Dr. Rodgers has provided 199 medication abortions in the same time (Id.).
116. Between May 1, 2016, and April 30, 2019,
LRFP provided 7,010 abortions, including 6,128 (or
87%) to Arkansas residents, 483 (or 7%) to Tennessee
residents, and 188 (or 2.7%) to Mississippi residents
(Decl. of Jason Lindo, Ph.D., ¶ 15).
117. Between 2016 and 2019, approximately
75.5% of LRFP’s procedures were aspiration abortions
(5,291); approximately 19.2% were D&E abortions
(1,346), and approximately 5.3% were medication
abortions (376) (Id., ¶ 16).3
118. Dr. Lindo analyzed several academic studies
published in peer-reviewed journals that have documented that abortion regulations can have impacts on
women’s ability to access abortion care (Id., ¶ 21).
While there are some differences across these studies
in terms of the data that were used and the set of
outcomes that were evaluated, all three determined
that increases in distance to the nearest clinic
caused by regulation-induced clinic closures caused

3

As plaintiffs have demonstrated that the Excel files provided
to Dr. Lindo did not include the merger error from April 2018,
and based upon the Court’s review of all record evidence in this
case, the Court finds no reason to doubt the numerical estimates
provided by Dr. Lindo.

59a
significant reductions in abortions obtained from
medical professionals (Id., ¶ 24).
119. Dr. Lindo also evaluated the effects in
Arkansas when the contracted physician requirement
eliminated the availability of medication abortion in
Arkansas from May 31 through June 18, 2018 (Decl.
of Jason Lindo, Ph.D., ¶ 32). Dr. Lindo concludes that
the contracted physician requirement reduced the
number of abortions obtained from Arkansas providers by Arkansas residents by 17-27% (Id., ¶ 35).
120. Dr. Lindo also projects that Dr. Hopkins will
likely be able to serve 42 women every other month,
an estimate based upon the fact that Dr. Hopkins has
served, at most, 21 women in any given day in the last
three years (Id., ¶ 49(c)).
121. Dr. Lindo projects that Dr. Paulson will be
able to provide abortions to a maximum of 12 patients
per week (Id.).
122. Based upon his past capacity to provide
abortions, Dr. Lindo estimates that Dr. Rodgers will
be able to provide 480 medication abortions annually
(Decl. of Jason Lindo, Ph.D., ¶ 50 (Table 8)). Furthermore, taking into account that Dr. Cathey intends to
add a half day to her provision of abortion care, Dr.
Lindo estimates that she will be able to provide 476
medication abortions annually (Id.). Testimony consistent with this declaration was offered at the hearing
and was subject to cross-examination.
123. Dr. Lindo has examined the likely effects of
the OBGYN requirement on Arkansas women’s ability
to access abortion care (Id., ¶ 41). To do so, Dr. Lindo
presents his supplemental declaration (Dkt. No. 37;
Supp. Decl. of Jason Lindo, Ph.D.).

60a
124. Dr. Lindo points out that he has learned that,
during the week of July 1, 2019, PPAEO stopped
providing medication abortions at its Fayetteville
health center (Id., ¶ 2). Accordingly, he has evaluated
the likely effects of the OBGYN requirement under the
current changed circumstances where PPAEO Little
Rock and LRFP are the only providers of abortion care
in Arkansas (Id.).
125. Dr. Lindo evaluates the effects of the OBGYN
requirement under these changed circumstances in
three different scenarios: (1) no OBGYN requirement;
(2) the OBGYN requirement goes into effect and LRFP
is forced to close; and (3) the OBGYN requirement goes
into effect and LRFP stays open, allowing Dr. Hopkins
to provide abortions every other month (Id., ¶ 3).
126. In order to ensure that he does not conflate
the effects of PPAEO Fayetteville not offering abortions with the effects of the OBGYN requirement, Dr.
Lindo’s supplemental declaration focuses upon women
who have historically been served by LRFP and
PPAEO Little Rock (Supp. Decl. of Jason Lindo, Ph.D.,
¶ 8). In particular, his supplemental declaration
focuses “on the 2,614 women annually served at these
two locations over the past three years.” (Id.). Thus,
according to Dr. Lindo, he is providing a conservative
estimate of the effect of the OBGYN requirement since
more than 2,614 women are likely to seek abortions in
Little Rock annually, given that medication abortions
are no longer available at PPAEO Fayetteville (Id.).
127. Dr. Lindo also explains that, based upon an
average from 2016 to 2019, 2,779 Arkansas residents
obtain an abortion each year (Decl. of Jason Lindo,
Ph.D., ¶ 51). Dr. Lindo’s declaration also states that,
based upon a three-year average, 1,927 Arkansas

61a
women seek surgical abortions in Arkansas annually
(Id., ¶ 61).4
128. Dr. Lindo concludes that, of the 2,212 women
who annually obtain surgical abortions in Arkansas,
none of them will be able to do so if the OBGYN
requirement goes into effect and LRFP is forced to
close (Supp. Decl. of Jason Lindo, Ph.D., ¶ 10). Put
another way, of the 2,614 women who obtain abortions
in Little Rock annually, 2,212 (or 85%) of those women
will not be able to obtain the same type of care in
Arkansas that they otherwise would, absent the
OBGYN requirement (Id., ¶ 10).
129. Dr. Lindo also performed calculations that
assume that some women who would have received
surgical abortions will substitute for medication
abortions. Dr. Lindo estimates that LRFP and PPAEO
Little Rock currently have the capacity to provide up
to 4,664 abortions annually and that, if the OBGYN
requirement goes into effect and LRFP is forced to
close, that number will fall to 956,5 which is the sum
of Dr. Rodgers and Dr. Cathey’s total estimated
capacity (Id., ¶ 11). Accordingly, 1,658 (or 63%) of the
2,614 women who otherwise would obtain abortion
care in Little Rock annually will not be able to access
any type of abortion care in Arkansas if the OBGYN
requirement goes into effect and LRFP closes (Id.).
And 1,658 (or 52%) of the 3,167 women who have
historically obtained abortion care in Arkansas
4

The Court calculates this sum from Table 11 in Dr. Lindo’s
declaration. Dr. Lindo states that 1,134 Arkansans received surgical abortions in Arkansas at less than or equal to 10 weeks LMP
and that 793 Arkansas residents obtained surgical abortions in
Arkansas at greater than 10 weeks LMP.
5

480+476=956.

62a
annually (including at PPAEO Fayetteville) will not be
able to access any type of abortion care in Arkansas
(Supp. Decl. of Jason Lindo, Ph.D., ¶ 11).
130. Dr. Lindo also projects that, if the OBGYN
requirement goes into effect and LRFP does not close,
the availability of surgical abortions at LRFP will
increase from 0 to 252 compared to the scenario where
LRFP closes (Id., ¶ 12). Accordingly, in this scenario,
all but 252 of the women who would otherwise seek
surgical abortions would have no provider in Arkansas
(Id., ¶ 13). Typically, 2,212 women have obtained
surgical abortions each year in Little Rock (Id., ¶ 12).
Testimony consistent with this declaration was offered
at the hearing and was subject to cross examination.
131. As such, according to Dr. Lindo, 1,960 (or
75%) of the 2,614 women who obtain abortions in
Little Rock annually will not be able to obtain the
same type of care in Arkansas that they would
otherwise seek, absent the OBGYN requirement
(Supp. Decl. of Jason Lindo, Ph.D., ¶ 13). Additionally,
these 1,960 are 62% of the 3,167 women who would
historically have obtained abortion care in Arkansas
annually (including PPAEO Fayetteville) but who
will not be able to obtain the same type of care in
Arkansas that they would have, absent the OBGYN
requirement (Id.).
132. Dr. Lindo does account for the possibility that
PPAEO Little Rock could provide up to 956 medication
abortions annually for women who would historically
have obtained abortion care in Arkansas. In conjunction with the 252 surgical abortions that LRFP could
provide it if remains open despite the OBGYN
requirement, this means that 1,406 (or 54%) of the
2,614 women who otherwise would obtain care in
Little Rock annually will not be able to access any type

63a
of abortion care in Arkansas (Id., ¶ 14). Furthermore,
1,406 (or 44%) of the 3,167 women who have historically obtained abortion care in Arkansas annually
(including at PPAEO Fayetteville) will not be able to
obtain any type of abortion care in Arkansas (Id.).
133. Upon cross examination, Dr. Lindo testified
that his conclusions were based upon information
provided to him by plaintiffs and that, depending upon
the assumptions made, his conclusions could change
(Dkt. No. 84, at 144:14-16). Dr. Lindo also noted
during his testimony that the capacity to provide
abortions in his calculations are determined by the
physicians who can provide abortion care (Id., at
150:1-4).
134. Kathleen Paulson, M.D., a board-certified
OBGYN licensed to practice medicine in Arkansas,
offers her declaration in support of plaintiffs’ motion
(Dkt. No. 2-1, at 248-250; Decl. of Kathleen Paulson,
M.D.). Dr. Paulson provides medical services, including outpatient gynecologic care and women’s wellness
care, at a medical center in Fayetteville, Arkansas
(Id., ¶ 1).
135. Linda W. Prine, M.D., a board-certified family
physician, offers her declaration in support of plaintiffs’ motion (Dkt. No. 2-1, at 252-261; Decl. of Linda
W. Prine, M.D.). Dr. Prine is a professor of family
medicine and community health at the Icahn School of
Medicine at Mount Sinai, and she also holds teaching
positions at the Harlem Family Medicine Residency
Program and the Mount Sinai Downtown Residency in
Urban Family Medicine (Id., ¶ 4). She also maintains
an active medical practice, including as a clinician at
Planned Parenthood of New York City (Id.). Dr. Prine
has provided medication and surgical abortion care to
women up to sixteen weeks LMP, and over the last

64a
eighteen years, she has trained thousands of clinicians
to provide abortion care (Id., ¶ 5). She states that those
clinicians have come from several specialties,
including family medicine, pediatrics, OBGYN, and
internal medicine (Decl. of Linda W. Prine, M.D., ¶ 5).
Dr. Prine testified at the July 22, 2019, hearing.
136. Dr. Prine knows of numerous family medicine
practitioners who provide abortion care up to 24 weeks
or more LMP (Id., ¶ 7). Furthermore, she has trained
advanced practice clinicians, such as nurse practitioners, to provide abortion care (Id., ¶ 8). She states that
it is well established that advanced practice clinicians
can provide surgical abortion as safely and effectively
as physicians (Id.). Testimony consistent with this
declaration was provided at the hearing and was
subject to cross examination (Dkt. No. 84, at 51:8-12).
137. Dr. Prine explains that the scope of practice
for family medicine practitioners is significantly more
complex than abortion care; specifically, she notes that
managing a patient’s diabetes, heart disease, hypertension, and/or HIV/AIDS, or performing any number
of other minor outpatient surgical procedures is more
complex than abortion care (Decl. of Linda W. Prine,
M.D., ¶ 16). She further notes that family practitioners provide miscarriage management, prenatal care,
and delivery to low-risk patients (Id.). Dr. Prine states
that miscarriage management involves many of the
same skills required for abortion providers and that
delivery, even to low-risk patients, has a higher
complication rate than providing abortions (Id., ¶ 17
(citing Raymond & Grimes, supra, at 216-17)).
138. In Dr. Prine’s experience, residents from all
specialties can become qualified abortion providers
(Id., ¶ 20). According to Dr. Prine, one third of abortion
providers in this country come from specialties other

65a
than OBGYN and that, based upon her experience,
there is no difference in the training of an OBGYN
resident and other clinicians in these skills (Decl. of
Linda W. Prine, M.D., ¶ 20 (citing Katharine O’Connell,
et al., First-Trimester Surgical Abortion Practices: A
Survey of National Abortion Federation Members, 79
Contraception 385 (2009); Katharine O’Connell, et al.,
Second-Trimester Surgical Abortion Practices: A
Survey of National Abortion Federation Members, 78
Contraception 492 (2008))).
139. Dr. Prine points out that ACOG characterizes
requirements “that clinic physicians be board certified
obstetricians-gynecologists despite the fact that
clinicians in many medical specialties can provide safe
abortion services” as “medically unnecessary requirements designed to reduce access to abortion.” (Id., ¶ 21
(citing Am. Coll. of Obstetricians and Gynecologists,
Committee Op. No. 613 (Nov. 2014), https://www.acog.
org/Clinical-Guidance-and-Publications/CommitteeOpinions/Committee-on_health-Care-for-UnderservedWomen/Increasing-Access-to-Abortion)). Additionally,
the American Academy of Family Physicians (“AAFP”)
adopted in 2014 a resolution opposing laws that
“impose[] on abortion providers unnecessary requirements that infringe on the practice of evidence-based
medicine.” (Id., ¶ 22 (citing Am. Acad. of Family
Physicians, Resolution No. 10001, Oppose Targeted
Regulation Against Abortion Providers (TRAAP laws)
(2014), http://www.aafp.org/about/constituencies/pastncsc/2014.html)). Dr. Prine opines that the OBGYN
requirement is the type of unnecessary requirement to
which the AAFP policy refer, as it restricts access to
abortion care with no medical benefit to patients (Id.).
Dr. Prine also points out that the American Public
Health Association likewise recognizes that training,
not specialty, determines competence in providing

66a
abortion care (Id., ¶ 24 (citing Am. Public Health
Ass’n, Policy Statement: Provision of Abortion Car by
Advanced Practice Nurses and Physician Assistants,
https://www.apha.org/policies-and-advocacy/publichealth-policy-statements/policy-database/2014/07/28/
16/00/provision-of-abortion-care-by-advanced-practicenurses-and-physician-assistants)).
140. Dr. Prine cites a comprehensive report by the
National Academies of Sciences, Engineering, and
Medicine that states that family medicine physicians,
among other clinicians, can “safely and effectively”
provide medication and surgical abortions (Decl. of
Linda W. Prine, M.D., ¶ 26 (citing National Academy
Consensus Study Report, at 14)). This report concluded medication and suction aspiration abortions
performed by family medicine physicians had high
success rates and that “[a]ll complications were minor
and managed effectively at rates similar to those in
OB/GYN practices and specialty abortion clinics.” (Id.,
¶ 27 (citing National Academy Consensus Study
Report, at 105)). The report further concluded that
“OB/GYNs, family medicine physicians, and other
physicians with appropriate training and experience
can provide D&E abortions.” (Id. (citing National
Academy Consensus Study Report, at 14)).
141. Dr. Prine concludes that restricting the
provision of abortion care to board-certified or boardeligible OBGYNs is not medically justified and provides no medical benefit (Id., ¶ 29). At the hearing, Dr.
Prine testified that the National Academy Consensus
Study Report confirmed that competencies do not
depend on board certification but rather on the training and experience of the individual physician (Dkt.
No. 84, at 62:8-12).

67a
142. Dr. Prine also submits a supplemental declaration in support of plaintiffs’ motion (Dkt. No. 62-1;
Supp. Decl. of Linda W. Prine, M.D.). Dr. Prine
“strongly disagree[s]” with any contention that abortion creates or causes psychological or emotional
problems that do not already exist or would have
arisen regardless of the procedure (Id., ¶¶ 2-3). Citing
reports from the National Academies of Sciences,
Engineering and Medicine, the American Psychological Association (“APA”) Task Force on Mental Health
and Abortion, and the Academy of Medical Royal
Colleges, Dr. Prine states that “the rates of mental
health problems for women with an unwanted
pregnancy are the same whether they have an
abortion or give birth” and that “there is no evidence
that abortion gives rise to serious psychological and
emotional harms.” (Id., ¶ 5 (citing Am. Psychological
Ass’n, Task Force on Mental Health and Abortion,
Report of the Task Force on Mental Health and
Abortion, at 7-8 (2008), available at http://www.apa.
org/pi/wpo/mental-health-abortion-report.pdf)).
143. Alison Stuebe, M.D., M.Sc., Fellow of the
American College of Obstetrics and Gynecology
(“F.A.C.O.G.”), provides her declaration in support of
plaintiffs’ motion (Dkt. No. 2-1, at 290-301; Decl. of
Alison Stuebe, M.D., M.Sc. F.A.C.O.G.). Dr. Stuebe is
a board-certified maternal-fetal medicine specialist
(“MFM”) and OBGYN (Id., ¶ 1). As an MFM, Dr.
Stuebe specializes in the management of high-risk
pregnancies; MFMs obtain three additional years of
fellowship training, beyond the standard residency
period for an OBGYN (Id.).
144. Dr. Stuebe is an associate professor in the
Department of Obstetrics and Gynecology and the
Department of Maternal and Child Health at the

68a
University of North Carolina (“UNC”) School of
Medicine (Id., ¶ 3). She also serves as the Associate
Director for Research and Development at the UNC
Center for Maternal and Infant Health (Decl. of Alison
Stuebe, M.D., M.Sc. F.A.C.O.G., ¶ 3). Since 2008, Dr.
Stuebe has trained hundreds of medical students,
residents, and fellows in OBGYN (Id.).
145. Dr. Stuebe also maintains an active clinic
practice focusing on care for women with high-risk
pregnancies (Id., ¶ 5). A substantial part of her clinical
work consists of conducting ultrasound and prenatal
diagnostic tests and counseling women about fetal
abnormalities (Id.).
146. Since UNC is a state hospital, Dr. Stuebe
cares for patients from a wide range of socioeconomic
and cultural backgrounds, including women who are
undocumented immigrants without health insurance
and women who are UNC employees with private
insurance (Decl. of Alison Stuebe, M.D., M.Sc.
F.A.C.O.G., ¶ 6).
147. While Dr. Stuebe currently does not provide
medication or surgical abortions as part of her clinical
practice, she does currently assist women in terminating pregnancies involving fetal anomalies through
medical induction of labor at the hospital (Id., ¶ 7).
148. In her MFM practice, Dr. Stuebe regularly
treats and counsels with pregnant women about
genetic and other fetal anomalies (Id., ¶ 12). Because
of her education, training, and clinic work, Dr. Stuebe
is very familiar with the genetic anomaly Trisomy 21,
which is commonly referred to as Down syndrome (Id.,
¶¶ 12-13). While there are various risk factors for
Down syndrome, Dr. Stuebe states that there is no
way to predict before pregnancy whether a woman will

69a
have a fetus with Down syndrome (Decl. of Alison
Stuebe, M.D., M.Sc. F.A.C.O.G., ¶ 14).
149. Dr. Stuebe explains that there are a number
of screening and diagnostic tests available to determine the presence of certain genetic, chromosomal,
and structural anomalies, including Down syndrome
(Id., ¶ 17). Screening tests cannot diagnose any
anomaly and only indicate a likelihood or probability
that one or more anomalies exist (Id., ¶ 18). Screening
tests usually screen for a range of anomalies at the
same time and may indicate a likelihood of more than
one anomaly at once (Id.). Diagnostic tests, on the
other hand, determine the existence or non-existence
of anomalies with near certainty (Decl. of Alison
Stuebe, M.D., M.Sc. F.A.C.O.G., ¶ 18).
150. There are multiple Down syndrome screening
tests used during pregnancy: the fetal cell-free DNA
test; nuchal translucency and serum-marker screening tests; maternal serum quadruple marker (“Quad
Screening”) tests; and targeted ultrasound examination (Id., ¶ 22).
151. Cell-free DNA testing can be performed as
early as 10-12 weeks LMP, and results are usually
available within 7 days (Id., ¶ 22(a)). Cell-free DNA
tests detect approximately 99% of pregnancies affected
with Down syndrome, though false positive results are
higher for low-risk women (Id.). ACOG, therefore,
advises that women should not take irreversible action
based upon a cell-free DNA test result alone (Decl. of
Alison Stuebe, M.D., M.Sc. F.A.C.O.G., ¶ 22(a) (citing
ACOG Practice Bulletin No. 163)).
152. If a screening test indicates an increased
probability of a fetal genetic condition or aneuploidy,
Dr. Stuebe offers a diagnostic test to confirm whether

70a
the genetic condition indicated by the screening test is
present (Id., ¶ 23). There are two techniques for
obtaining fetal cells for diagnostic testing: chorionic
villus sampling (“CVS”) and amniocentesis (Id., ¶ 24).
153. Dr. Stuebe states that most women do not
receive a confirmed diagnosis of Down syndrome until
well into the second trimester of pregnancy (Id., ¶ 25).
Further, amniocentesis is more widely available than
CVS and cannot be performed until 15 weeks LMP,
and test results from amniocentesis are often unavailable until 17 weeks LMP (Decl. of Alison Stuebe,
M.D., M.Sc. F.A.C.O.G., ¶ 25). Furthermore, a clinician performing an ultrasound may not be able to
detect any associated anatomical abnormalities before
approximately 18 weeks LMP (Id.).
154. Dr. Stuebe states that Act 619 will encourage
women to withhold screening and diagnostic test
results from medical providers the women visit for
care, which could have negative consequences for both
the clinician-patient relationship and women’s health,
especially since understanding the meaning and
reliability of various screening and diagnostic tests
can be difficult (Id., ¶ 29).
155. Additionally, Dr. Stuebe states that Act 493
will “make it extremely difficult, if not impossible, for
women to take the time necessary to confirm a
diagnosis of Down syndrome or another fetal anomaly,
and make an informed, autonomous decision regarding whether to carry to term or terminate the
pregnancy.” (Id., ¶ 30). Specifically, amniocentesis
results are unavailable before 16-17 weeks LMP, and
targeted ultrasound examinations cannot be performed reliably until approximately 18 weeks LMP, at
the earliest (Decl. of Alison Stuebe, M.D., M.Sc.
F.A.C.O.G., ¶ 30). Dr. Stuebe states that Act 493

71a
creates artificial time pressure that could lead women
and their families to rush their decision-making
process for no medically justified reason (Id.).
156. Thomas Tvedten, M.D., the part owner and
Medical Director of LRFP, provides his declaration in
support of plaintiffs’ motion (Dkt. No. 2-1, at 371-384;
Decl. of Thomas Tvedten, M.D.). Dr. Tvedten testified
at the July 22, 2019, hearing.
157. Dr. Tvedten first began training to provide
abortion care in 1985 at Women’s Community Health
in Little Rock, a clinic that used to provide abortion
care in Arkansas (Id., ¶ 5). Dr. Tvedten was trained by
an experienced abortion provider and family medicine
physician who had been providing abortion care in
Arkansas since the 1970s (Id.). Dr. Tvedten began by
first learning, and then providing, first trimester
abortion care (Id., ¶ 6). After speaking to other providers and observing them perform second trimester
procedures, Dr. Tvedten expanded the scope of his
practice to second trimester procedures, eventually
performing procedures up to approximately 21 weeks,
6 days LMP (Decl. of Thomas Tvedten, M.D., ¶ 7). Dr.
Tvedten has consistently provided abortion care up to
21.6 weeks LMP for more than 15 years (Id.).
158. Starting in 2004, after the Federal Drug
Administration (“FDA”) approved Mifeprex for
combined use with misoprostol for early non-surgical
abortion, Dr. Tvedten began providing medication
abortion up to 10 weeks LMP (Id., ¶ 8).
159. Dr. Tvedten has also trained numerous
providers to provide both medication and surgical
abortions (Id., ¶ 9). Family planning and OBGYN residents and medical students regularly come to LRFP to
observe Dr. Tvedten performing abortion procedures

72a
and to receive training (Decl. of Thomas Tvedten, M.D.,
¶ 9). Furthermore, many OBGYNs in Arkansas refer
patients to Dr. Tvedten for abortion care that they are
not trained to or are unable to provide (Id., ¶ 10).
160. Dr. Tvedten states that, while complications
arising from either medication or surgical abortion are
extremely rare, he is trained to handle effectively and
safely any issue that may arise, either by providing the
follow-up care himself or by referring his patients to a
“tertiary care facility.” (Id., ¶ 11).
161. Dr. Tvedten takes steps to ensure that he is
always up to date on the latest advances in abortion
care (Id., ¶ 12). For example, he attends yearly conferences on abortion care to further his education (Decl.
of Thomas Tvedten, M.D., ¶ 12). He also discusses
abortion care and complex abortion cases with other
providers, including his OBGYN colleagues, and he
reads practice bulletins issued by medical authorities
such as ACOG (Id.). He also reviews articles published
in peer-reviewed medical journals, such as Obstetrics
& Gynecology, Contraception, the Journal of the
American Medical Association, and other sources on
this topic (Id.).
162. At LRFP, Dr. Tvedten and two other physicians provide surgical abortions up to 21.6 weeks LMP
and medication abortions up to 10 weeks LMP (Id., ¶ 15).
LRFP is one of three abortion clinics in Arkansas and
is the only one that offers surgical abortions (Decl. of
Thomas Tvedten, M.D., ¶ 15). Accordingly, LRFP is
the only option for women seeking abortion care after
10 weeks LMP in Arkansas (Id.).
163. Dr. Tvedten points out that Arkansas law
currently requires that LRFP patients who seek an
abortion must make at least two-in-person trips to the

73a
clinic—first for the state-mandated informed consent
process, including a non-directive discussion regarding their options, and the second for additional, nondirective counseling and the abortion itself, after a
mandatory delay of at least 48 hours (Id., ¶ 20). For
patients receiving abortion care at 18 to 21.6 weeks
LMP, which is a two-day procedure, that law results
in at least three trips (Id.). Dr. Tvedten points out that
a new law, set to take effect on July 24, 2019, increases
the mandatory delay period to at least 72 hours (Decl.
of Thomas Tvedten, M.D., ¶ 20 (citing Ark. Act. 801, to
be codified at §§ 20-16-1109, -1703(b), -1706)).
164. Dr. Tvedten is not a board-certified or boardeligible OBGYN (Id., ¶ 23). He cannot become either
because he did not complete an OBGYN residency and
cannot feasibly do so now, given “the extraordinary
time and resources that would be needed to pursue a
new specialty at this stage” of his career (Id. (citing
Am. Bd. of Obstetrics & Gynecology, Candidate
Requirements & General Details, Becoming an ABOG
Registered Residency Graduate, https://www.abog.org/
specialty-certification/general-cert-requirements-andinfo#Content_C009_Col00)). If the OBGYN requirement goes into effect, Dr. Tvedten will be forced to
stop providing abortion care to his patients or risk
incurring significant penalties (Id.).
165. Dr. Tvedten also states that the only other
physician currently providing abortions at LRFP every
week is Dr. Horton, who lives in Memphis, Tennessee,
and generally provides care at LRFP approximately
one day a week (Decl. of Thomas Tvedten, M.D., ¶ 24).
166. Dr. Tvedten further states that LRFP does
not employ on a full-time basis or receive fulltime assistance from any physicians who are boardcertified or board-eligible OBGYNs (Id., ¶ 25). The

74a
only board-certified or board-eligible OBGYN who
provides care at LRFP is Dr. Hopkins, but he can
travel to Arkansas to provide abortion care at LRFP
only approximately once every-other month (Id., ¶ 26).
167. Dr. Tvedten states that, over the past four
years, LRFP has undertaken significant efforts to try
to find an OBGYN who would be willing to assist
LRFP in continuing to provide abortion care, including
by providing abortions at LRFP or on a part-time or
full-time basis (Id., ¶ 27). These efforts included
renewed efforts after the Arkansas legislature passed
the OBGYN requirement (Decl. of Thomas Tvedten,
M.D., ¶ 27). Despite their efforts, LRFP has not been
able to identify a single board-certified or boardeligible OBGYN provider who can provide full-time or
near-full-time care at LRFP (Id.).
168. In Dr. Tvedten’s experience, many of the
physicians who provide abortion care in Arkansas
permanently reside in other states and only travel to
Arkansas to provide abortion care because there are
no local physicians willing to provide abortion care
here (Id., ¶ 28).
169. According to Dr. Tvedten, locally-based physicians who do provide abortion care in Arkansas face
stigmatization that may jeopardize their ability to
continue to provide other care, retain positions or
admitting privileges at hospitals, and protect their
families from harassment (Id., ¶ 29).
170. Dr. Tvedten states that one of the Arkansas
physicians from whom he first received training in
abortion care, Dr. James Guthrie, was forced to abandon his provision of abortion care altogether because
of the harassment that he and his family practice
partners faced at the hands of the anti-abortion

75a
activists who picketed his family practice clinic and
the homes of the physicians with whom he shared this
practice (Decl. of Thomas Tvedten, M.D., ¶ 30).
171. Dr. Tvedten agreed to assist Dr. Guthrie in
finding a replacement provider, and he eventually
stayed on to provide abortion care on a permanent
basis (Id., ¶ 31).
172. Dr. Tvedten recalls conversations with his
former medical school classmates, and he relates that
“they scoffed at the idea of providing abortion care in
the state, given the stigma associated with it and the
accompanying risk that providing abortion would
harm their ability to maintain the private practices
and positions at hospitals.” (Id.).
173. Dr. Tvedten also gave up his family practice
in large part because of his knowledge that the
political climate and stigma surrounding abortion care
would make it extremely difficult, if not impossible, to
attract potential partners and patients to a separate
practice while he continues to provide abortion care
(Id., ¶ 33).
174. Dr. Tvedten states that, just a few years ago,
anti-abortion activists found out where his children
attend school and distributed flyers at the school
grounds with his name, picture, and home address on
them, labelling him as “complicit in murder.” (Decl. of
Thomas Tvedten, M.D., ¶ 34). He and his family have
also been subject to picketing at their private
residence (Id.).
175. Dr. Tvedten has, in recent years, had conversations with local physicians who, despite considering themselves pro-choice and supportive of the full
range of reproductive health care, including abortion
care, have abandoned any idea of providing abortion

76a
care in Arkansas given the stigma associated with it
(Id., ¶ 35).
176. Dr. Tvedten states that, due to LRFP’s
inability to attract another full-time provider who is a
board-certified or board-eligible OBGYN, LRFP will
almost certainly have to be shut down entirely, absent
some unanticipated development (Id., ¶ 36). He also
states that, if LRFP remains open due to Dr. Hopkins’
provision of care, LRFP would still have to restrict
significantly its provision of abortion care (Decl. of
Thomas Tvedten, M.D., ¶ 36).
177. Indeed, in Dr. Tvedten’s opinion, even if
LRFP is not forced to close immediately, if LRFP
cannot employ a full-time board-certified or boardeligible OBGYN, then LRFP will be forced to close
eventually (Id., ¶ 37).
178. In the event Act 493 takes effect, Dr. Tvedten
and other physicians at LRFP will stop performing
abortions in cases where the pregnancy is determined
to be greater than 18 weeks LMP (Id., ¶ 42).
179. Dr. Tvedten is aware that some of LRFP’s
patients seek abortions after receiving a fetal diagnosis, including diagnoses of Down syndrome (Id., ¶ 44).
In order to avoid the penalties set forth in Act 619, Dr.
Tvedten states that he and the other physicians at
LRFP will have no choice but to stop performing
abortions when they have “knowledge” that the
woman is seeking the abortion “solely” due to a test
result indicating Down syndrome (Decl. of Thomas
Tvedten, M.D., ¶ 46).
180. At the hearing, Dr. Tvedten noted that he has
twice been sued for medical malpractice and that both
of those cases were settled out of court (Dkt. No. 84, at
173:8-174:11). Dr. Tvedten also noted that his medical

77a
license was once suspended for three months in 1983
(Id., at 174:19).
181. Dr. Tvedten also testified that medical
students shadow him and that he has lectured at
UAMS (Id., at 176:5-13).
182. Dr. Tvedten also testified that he is not
surprised that LRFP has not been able to find a
board-certified or board-eligible physician to work at
LRFP (Dkt. No. 84, at 178:13-22). He testified that the
stigma associated with being an abortion provider
in Arkansas reaches “way beyond your medical
practice . . . .” (Id.).
183. Lori Williams, M.S.N., A.P.R.N., a nurse
practitioner and Clinical Director of LRFP, offers her
declaration in support of plaintiffs’ motion (Dkt. No.
2-1, at 388-403; Decl. of Lori Williams, M.S.N.,
A.P.R.N.). Ms. Williams has worked at LRFP since
2004 and has been the Clinical Director since 2007
(Id.). Since 2010, she has been a part owner of LRFP
(Id., ¶ 5).
184. As LRFP’s Clinical Director, Ms. Williams is
responsible for all aspects of the day-to-day operations, including overseeing patient care in coordination with the physicians and other health-care professionals, supervising staff, maintaining policies and
procedures, and ensuring that LRFP complies with all
laws and regulations (Id., ¶ 8).
185. Ms. Williams states that “[a]bortion is one of
the safest medical procedures currently available to
women in the United States” and that “[i]t is substantially safer than giving birth . . . .” (Decl. of Lori
Williams, M.S.N., A.P.R.N., ¶ 9 (citing National
Academy Consensus Study Report, at 74-75)).

78a
186. Ms. Williams states that only three physicians currently provide care at LRFP: Dr. Tvedten, Dr.
Horton, and Dr. Hopkins (Id., ¶ 11). She states that all
three of these doctors are extremely experienced in
abortion care and that they can handle any complications that may arise, including by providing treatment
at LRFP and by referring patients to a local hospital
when necessary (Id.).
187. LRFP offers medication abortion from the
point in pregnancy when an intrauterine pregnancy
can be confirmed (typically 5-6 weeks LMP) to 10
weeks LMP (Id., ¶ 13). LRFP offers aspiration
abortion from approximately 3-4 weeks LMP through
approximately 13 weeks LMP and typically performs
a D&E procedure beginning around 14 weeks LMP
through 21.6 weeks LMP (Decl. of Lori Williams,
M.S.N., A.P.R.N., ¶ 14). Ms. Williams notes that
aspiration and D&E abortions do not involve
incisions (Id.).
188. Ms. Williams states that it is common for a
woman who can choose between a medication and
surgical abortion to have a strong preference for a
surgical abortion (Id., ¶ 15). She states that while
there are many reasons for this, “many women prefer
the surgical option because it requires fewer visits to
the clinic, and thus is associated with a lower burden
in terms of funding and time.” (Id.).
189. LRFP currently provides patient care three
days per week, and to accommodate the 48-hour
mandated waiting period, LRFP typically provides
care on three staggered days each week (Decl. of Lori
Williams, M.S.N., A.P.R.N., ¶ 17). She also states
that LRFP can safely and effectively “provide abortion
care up to approximately 20-25 women each day,

79a
depending on the variables associated with the specific
patient-care needs presented on any given day.” (Id.).
190. LRFP operates with substantial fixed costs
each month, the most significant of which is overhead
related to LRFP’s 13 full-time staff members (Id., ¶ 19).
191. Ms. Williams states that, in 2018, LRFP
provided approximately 170 second trimester abortions after 18 weeks LMP (Id., ¶ 21).
192. At the hearing, Ms. Williams testified that
LRFP has patients who currently receive abortions
that would no longer be able to obtain those services
with LRFP if Act 493 goes into effect (Dkt. No. 84, at
100:16-18).
193. Ms. Williams further states that, if Act 493
takes effect, LRFP will stop providing abortions after
18 weeks LMP, and she asserts that this will force
women to travel out of state for another abortion care
provider (Decl. of Lori Williams, M.S.N., A.P.R.N.,
¶¶ 22-23). Ms. Williams notes that a significant number of LRFP’s patients are poor or low income and
receive financial assistance to cover part of the costs of
their abortion care (Id., ¶ 23).
194. Ms. Williams also states that, from conversations with patients, she understands that the efforts
required to make the necessary plans to come to LRFP
cause anxiety and stress, which are exacerbated by
travel and logistical arrangements (Id., ¶ 24). She
notes that the need to arrange for time off work on
multiple days can be challenging and that many LRFP
patients are in low-wage jobs where they are unlikely
to receive vacation or sick days (Id.). She notes that
her patients report that they risk their employment
and confidentiality by asking for time off (Decl. of Lori
Williams, M.S.N., A.P.R.N., ¶ 24).

80a
195. Furthermore, based upon her counseling with
patients, Ms. Williams knows that making the necessary arrangements and raising funds for travel and
other costs associated with coming to LRFP can force
patients to delay seeking care (Id., ¶ 25). She also
notes that transportation presents a major challenge
in rural Arkansas, as there are few public-transportation options and rural residents often live far away
from health-care providers (Id.). According to Ms.
Williams, “[n]umerous patients who come to the clinic
for abortion care in the second trimester, including
after 18 weeks LMP, have conveyed to me during the
counseling process that they would have preferred to
have obtained an abortion sooner but were delayed
due to the logistical challenges described above (Id.).
196. At the hearing, Ms. Williams testified that
LRFP knows which of its patients qualify for financial
assistance based on income (Dkt. No. 84, at 82:21-23).
According to Ms. Williams, the NAF provides funding
to patients who are at 100 or 110% of the federal
poverty line and that approximately 30% of LRFP’s
patients qualify for NAF funding (Id.).
197. Ms. Williams also notes that the risks
associated with abortion procedures increase as the
pregnancy progresses and that delay may worsen any
maternal health conditions associated with the pregnancy (Decl. of Lori Williams, M.S.N., A.P.R.N., ¶ 26).
198. Ms. Williams states that she is “aware
that some of our patients seek abortions after
receiving a fetal diagnosis, including Down syndrome.”
(Id., ¶ 29). She notes that while LRFP does ‘not require
patients . . . to tell us the reason or reasons they are
seeking an abortion, patients who are seeking an
abortion after a fetal diagnosis usually disclose this
fact . . . .” (Id.). She also notes that these patients come

81a
to LRFP “from across Arkansas and out-of-state, with
many referred . . . from Maternal Fetal Medicine
specialists.” (Id.). Ms. Williams avers that, if Act 619
goes into effect, the physicians at LRFP will stop
performing abortions when they know that a patient
is seeking an abortion solely based on a test result
indicating Down syndrome, a prenatal diagnosis of
Down syndrome, or any other reason to believe that
the fetus has Down syndrome (Decl. of Lori Williams,
M.S.N., A.P.R.N., ¶ 31).
199. Ms. Williams furthers states that, if Act 619
goes into effect, and LRFP is forced to turn away
these patients, all these patients will have to seek
abortion care out-of-state, as patients do not receive a
Down syndrome diagnosis until after 10 weeks LMP
and thus cannot seek a medication abortion at another
Arkansas provider (Id., ¶ 32). Ms. Williams notes
that, by forcing women to travel out-of-state, Act 619
will cause extreme hardship and delay for many of
LRFP’s patients (Id.). She also notes that many of
LRFP’s patients will be prevented from obtaining an
abortion (Id.).
200. Ms. Williams notes that Dr. Hopkins is the
only doctor who performs abortion care at LRFP who
is a board-certified or board-eligible OBGYN (Decl. of
Lori Williams, M.S.N., A.P.R.N., ¶¶ 34-35).
201. On April 2, 2019, LRFP sent a letter to all
OBGYNs listed on the Arkansas medical-board licensure list describing LRFP and soliciting interest in
providing care at the clinic (Id., ¶ 36). LRFP received
no responses (Id.).
202. This letter states that LRFP is looking for a
part-time, board-certified OBGYN to contract with
LRFP to provide abortion services (Dkt. No. 2-1, at

82a
404). The letter also states that LRFP sees patients
three days a week, malpractice insurance would be
paid by LRFP, and that the compensation for services
is generous and based upon the number of procedures
completed per day (Id.).
203. Furthermore, Ms. Williams has raised the
need for a board-certified or board-eligible OBGYN
with numerous professionals at the National Abortion
Federation (“NAF”), and on April 1, 2019, she submitted a request to a NAF program that matches abortion
providers with clinics around the country (Decl. of Lori
Williams, M.S.N., A.P.R.N., ¶ 37). Through those
efforts, LRFP came into contact with two physicians
who expressed preliminary interest in a position at
LRFP, but neither lives in Arkansas or is licensed to
practice in Arkansas (Id.).
204. Ms. Williams also notes that there are
protestors outside the clinic nearly every day and
that the “harassment and intimidation is immediately
apparent to any prospective physician or staff member
(Id., ¶ 39). Furthermore, medical residents who receive
abortion training at LRFP “frequently express concern
about driving in their own vehicles to the clinic
and wearing scrubs that identify them as medical
providers.” (Id.).
205. Third-party vendors have refused to do
business with LRFP because LRFP provides abortion
care (Decl. of Lori Williams, M.S.N., A.P.R.N., ¶ 40).
Ms. Williams relates an instance where an oxygen
supplier ceased to do business with LRFP after antiabortion activists informed the supplier that LRFP
provides abortion care (Id.).
206. Anti-abortion activists mailed Ms. Williams’
photograph and a letter to 800 of her neighbors and

83a
went door-to-door in her neighborhood, informing
members of her community that she is involved in
abortion care (Id., ¶ 41).
207. In addition to LRFP’s efforts to comply with
the OBGYN requirement, LRFP has sent letters to
Arkansas OBGYNs on at least two other occasions
to solicit interest in assisting LRFP to provide abortion
care or in joining the staff in various capacities
(Id., ¶ 42).
208. LRFP sent a letter in early 2015 to all
Arkansas OBGYNs listed in the medical-society
directory but received no response except from Dr.
Cathey (Decl. of Lori Williams, M.S.N., A.P.R.N., ¶ 42;
Dkt. No. 2-1, at 405-06). LRFP again sent a letter on
January 18, 2016, to all Arkansas OBGYNs listed on
the medical board licensure list, but they received no
response (Decl. of Lori Williams, M.S.N., A.P.R.N.,
¶ 42; Dkt. No. 2-1, at 407).
209. While Dr. Browne and Dr. Hopkins have
agreed to provide limited care at LRFP, LRFP has
not identified any board-certified or board-eligible
OBGYN who is available to provide care between
August 12 and October 20, 2019, the next week that
Dr. Hopkins can provide care at LRFP (Decl. of Lori
Williams, M.S.N., A.P.R.N., ¶ 47).
210. According to Ms. Williams, if Dr. Browne and
Dr. Hopkins provide care at LRFP under the OBGYN
requirement, they will spend the first of their three
days at the clinic satisfying the state-manded informedconsent requirements which will need to occur at least
72 hours before any procedure (Id., ¶ 48). Dr. Tvedten
would not be able to continue working at the clinic only
to obtain patient informed consents, as LRFP cannot
afford to keep him on staff for such a limited role (Id.,

84a
¶ 48). LRFP cannot charge patients for the initial visit
at that visit (Id.). Dr. Browne and Dr. Hopkins would
then need to spend their second and third days at
LRFP performing procedures (Decl. of Lori Williams,
M.S.N., A.P.R.N., ¶ 48).
211. Ms. Williams states that LRFP would not be
an economically viable medical practice if it were able
to provide patient care only three days a week everyother month, or even three days a week every month
(Id., ¶ 49). Even if LRFP could come up with the funds
to pay staff to provide care only three days every other
or each month, Ms. Williams states that this would
keep LRFP from retaining the highly trained and
skilled staff that it needs to operate the clinic (Id., ¶ 50).
212. Plaintiffs present the declaration of Brandon
J. Hill, Ph.D., the chief executive officer of PPGP (Dkt.
No. 32; Decl. of Brandon J. Hill, Ph.D.). Dr. Hill states
that, due to increasing problems with a landlord,
including managing protester presence in the immediate vicinity of PPAEO Fayetteville’s facility and the
resultant concerns about patient and staff safety,
PPAEO has ceased offering abortions at PPAEO
Fayetteville (Id., ¶ 4). Dr. Hill states that an antiabortion “crisis pregnancy center” organization began
parking its van in a lot immediately adjacent to the
one used for the PPAEO Fayetteville health center
(Id., ¶ 3). Dr. Hill states that “[s]taff and patients were
alarmed and distressed by the van’s presence, and
[they] were also concerned about medically inaccurate
information being directed at patients.” (Id.). Dr.
Hill states that they also feared that increased
protester visibility could lead to security issues (Decl.
of Brandon J. Hill, Ph.D., ¶ 3). Dr. Hill further states
that the relocation was necessary given the arson at
one of PPGP’s Missouri health centers less than

85a
six months ago (Id.). He also notes that PPAEO
Fayetteville’s lease expired at the end of July 2019 (Id.).
213. Dr. Hill states that PPAEO Fayetteville
ceased providing abortions in anticipation of the
health center closing so that PPAEO Fayetteville
could schedule follow-up visits for all of its medication
abortion patients prior to the health center closing
(Id., ¶ 4). He also avers that his staff is working diligently to find a new location for PPAEO Fayetteville
(Decl. of Brandon J. Hill, Ph.D., ¶ 5). Specifically, he
states that, through a realtor, PPGP has contacted
dozens of landlords, management companies, and
property owners, but they have been unable to confirm
a lease that is move-in ready or that would require
only minor modifications to meet their needs (Id.).
214. Dr. Hill states that there are several “live
possibilities” and that he is confident they will be able
to secure a location, but he confirms that there “will be
a gap in time when [they] are unable to provide
services.” (Id., ¶ 6).
215. Plaintiffs also present the supplemental
declaration of Brandon J. Hill, Ph.D., (Dkt. No. 62, at
1-3; Supp. Decl. of Brandon J. Hill, Ph.D.). Dr. Hill
states that PPGP is currently working to open a new
health center in Little Rock in August 2019 (Id., ¶ 2).
PPGP is seeking a new location due to size constraints
at its current facility, and PPGP has purchased a
property for its new facility (Id., ¶ 4). PPGP will not,
however, be able to provide surgical abortions at
the new facility or provide care for more medication
abortion patients due to the “capacities of [its]
providers . . . .” (Id., ¶ 6).
216. Plaintiffs also present the affidavit of
Christopher Attig, an individual who lives in Little

86a
Rock, Arkansas, and who has a son with Down
syndrome (Dkt. No. 63; Decl. of Christopher Attig). Mr.
Attig opines that Act 619 does “nothing to honor,
protect, or help my son and other people diagnosed
with Down syndrome.” (Id., ¶ 5). Instead, Mr. Attig
believes that Act 619 “uses my son and other children
diagnosed with Down syndrome as political tools to
criminalize and restrict abortion.” (Id.). He further
states that children with Down syndrome require
special support that “can be very expensive and
difficult to find,” and in his opinion “the lack of accessible and affordable medical services and therapies
needed to support a child diagnosed with Down syndrome” is one of the factors that influences a woman’s
decision to abort a pregnancy when Down syndrome is
indicated (Id., ¶ 6).
217. Defendants present various declarations from
other cases not before the Court. Ms. Ashleigh Moon
filed an affidavit in Planned Parenthood of Indiana
and Kentucky, et al. v. Commissioner, Indiana State
Department of Health, et al., 1:16-cv-763-TWP-DML
(S.D. Ind.), and defendants have filed that declaration
here (Dkt. No. 45-1, at 53-55). Ms. Moon avers that she
had a difficult pregnancy and that she was advised by
her physicians to have an abortion and told that
her child would suffer from genetic abnormalities (Id.,
¶¶ 1-14). Ms. Moon states that her child was born
premature, survived, and is “genetically perfect.” (Id.,
¶¶ 14-15).
218. Defendants also present the declaration of
Michele Mazelin, which was filed in Planned
Parenthood of Indiana and Kentucky, et al. v. Commissioner, Indiana State Department of Health, et al.,
1:16-cv-763-TWP-DML (S.D. Ind.) (Dkt. No. 45-1, at
57-59). Ms. Mazelin avers that she was pregnant with

87a
twins and that she was pressured by a treating
physician to have amniocentesis (Id., ¶ 5).
219. Defendants present the declaration of
Steven E. Calvin, M.D., which was filed in Planned
Parenthood of Indiana and Kentucky, et al. v.
Commissioner, Indiana State Department of Health, et
al., 1:16-cv-763-TWP-DML (S.D. Ind.) (Dkt. No. 45-1,
at 61-68; Decl. of Steven E Calvin, M.D.). Dr. Calvin
avers that women have described to him that they
have felt pressure to undergo prenatal screening and
to have an abortion if Down syndrome is detected (Id.,
¶ 20). Dr. Calvin also states that “[a] fetus at 10 weeks
and later has arms, legs, and a head” and is not
confusable with medical material that may be the
product of surgery (Id., ¶ 26).
220. Defendants present the affidavit of Ashley K.
Fernandes, M.D., Ph.D., which was filed in PretermCleveland, et al. v. Lance Himes, Director, et al., 1:18cv-109 (S.D. Ohio) (Dkt. No. 45-2, at 2-12; Decl. of
Ashley K. Fernandes, M.D., Ph.D.). Dr. Fernandes is a
physician who resides and practices medicine in Ohio.
Dr. Fernandes avers that genetic counselors and
physicians are biased against “unborn persons with
DS . . . .” (Id., ¶ 8).
221. Defendants present the declarations of Kelly
Kuhns, Susan Scheid, Susan Gill, and Jaclyn Keough,
which were filed in Preterm-Cleveland, et al. v. Lance
Himes, Director, et al., 1:18-cv-109 (S.D. Ohio) (Dkt.
No. 45-2, at 26-40). Each of these individuals has a
child with Down syndrome. These individuals’ affidavits appear to indicate that they live in Ohio, though
it is not entirely clear where Ms. Scheid, Ms. Gill, and
Ms. Keough reside.

88a
222. Defendants present the declaration of Dennis
M. Sullivan, M.D., which was filed in PretermCleveland, et al. v. Lance Himes, Director, et al., 1:18cv-109 (S.D. Ohio) (Dkt. No. 45-3, at 89-98; Decl. of
Dennis M. Sullivan, M.D.). Dr. Sullivan opines that
the medical profession is biased to prefer abortions
after a diagnosis of Down syndrome (Id., ¶ 15). Dr.
Sullivan is a professor at Cedarville University, in
Cedarville, Ohio (Id., ¶ 1).
223. Defendants present the declaration of Robin
Lynn Treptow, Ph.D., which was filed in PretermCleveland, et al. v. Lance Himes, Director, et al., 1:18cv-109 (S.D. Ohio) (Dkt. No. 46-1, at 2-4; Decl. of Robin
Lynn Treptow, Ph.D.). Dr. Treptow has a son with
Down syndrome, and she states that medical professionals have a bias against individuals with Down
syndrome (Id., ¶¶ 2,6). Dr. Treptow is an adjunct professor in Arlington, Virginia (Id., ¶ 1).
224. Defendants also present the affidavit of Allan
Parker, the president of The Justice Foundation (Dkt.
No. 49-1, at 1-3). Attached to Mr. Parker’s declaration
are fifteen affidavits from Arkansas women. Each of
these affiants states that she regrets her abortion
(Dkt. No. 49-1, at 4-27). The abortions in question
occurred between 1981 and 2003 (Id.).
225. Defendants also present the declaration of
Millie Lace, the founder and director of Concepts of
Truth, Inc. (“Concepts”) an organization based in
Wynne, Arkansas, with satellite offices in Ohio and
New Jersey (Dkt. No. 49-2; Decl. of Millie Lace). Ms.
Lace avers that Concepts is a non-profit organization
that provides counseling for pregnant women (Id.,
¶ 3). Ms. Lace states that she had an abortion in
approximately 1979 on the advice of her physician,
which caused her both physical and psychological pain

89a
(Id., ¶¶ 6, 8). Ms. Lace further states that “Concepts
informs women of the truth that an abortion
terminates the life of a whole living human being,” and
she avers that “[f]ollowing the counseling that Concepts provides, about 85% of all of the women who
originally thought they wanted to have an abortion
change their minds or otherwise decide to carry their
baby to full term and birth.” (Id., ¶ 15). Ms. Lace also
states that Concepts provides counseling to women
who have had abortions, and she reports that
“between 65% and 75% of the women report that they
felt they were misled by the abortion clinic and that
their decisions were uninformed and in many ways
pressured or coerced.” (Id., ¶ 16).
226. Defendants present the declaration of Mischa
Martin, the Director of the Division of Children and
Family Services (“DCFS”) at the Arkansas Department of Human Services (“DHS”) (Dkt. No. 49-3; Decl.
of Mischa Martin). Ms. Martin states that the
Arkansas Safe Haven law allows a mother to give up
custody of any baby up to 30 days told at any hospital
emergency room or law enforcement agency without
facing prosecution for endangering or abandoning a
child (Id., ¶ 2). Ms. Martin explains that, once a baby
is given up under the Safe Have law, DCFS places the
baby with an “adoptive home.” (Id., ¶ 5). Ms. Martin
further explains the process for screening prospective
adoptive parents (Id., ¶ 8).
227. Defendants also present the affidavit of
Kristie Hayes, the Program Administrator for the
Income Support Group within the Arkansas Department of Human Services (Dkt. No. 49-4; Decl. of
Kristie Hayes). Ms. Hayes states that DHS provides
“Limited Pregnant Women Medicaid,” “Full Pregnant
Women Medicaid,” “Unborn Child Medicaid Coverage,”

90a
and “Newborn Medicaid.” (Id., ¶¶ 2-6). Ms. Hays also
explains that the ARKids First Program covers children in households up to 142% or 211% of the federal
poverty level (Id., ¶ 7). Ms. Hayes states that for
families raising a child with Down syndrome, the child
is eligible for ARKids and The Tax Equity and Fiscal
Responsibility Act (“TEFRA”) Medicaid program (Id.,
¶ 9). She also points out that families with children
who have Down syndrome may be eligible for Supplemental Security Income (“SSI”) or Developmental
Disabilities Services (Decl. of Kristie Hayes, ¶¶ 10-11).
228. Defendants also present the declaration of
Mary Silfies (Dkt. No. 49-5, at 1-3; Decl. of Mary
Silfies). She is “part of a sidewalk prayer ministry
group that often goes” to LRFP on Wednesdays and
Fridays, if LRFP is open (Id., ¶ 1). She states that
every participant “is required to sign a Statement of
Peace, outlining the behavior that is expected,” and
she further states that her group does “not engage in
any behavior that would be considered harassing.”
(Id., ¶¶ 2-3). Ms. Silfies states that LRFP has installed
water sprinklers to discourage her group (Id., ¶ 4).
229. Ms. Silfies states that “[i]t is not unusual to
observe ambulances being called” to LRFP, and she
attaches a spreadsheet that she received in response
to filing a Freedom of Information Act request with
Little Rock’s ambulance service (Decl. of Mary Silfies,
¶ 5). This spreadsheet appears to show 64 instances
since 1999 when an ambulance has been called to
LRFP’s address (Dkt. No. 49-5, at 4-5). Ms. Silfies
states that the three ambulance calls to LRFP in 2019
were all made on days when Dr. Tvedten was working
(Id., ¶ 7). She says that she knows this because
she was on the sidewalk when the ambulances were
called, she recognizes Dr. Tvedten, and she makes “a

91a
personal note of who the abortionist is each time I am
there.” (Id.).
230. Defendants present the declaration of Kathi
Aultman, M.D. (Dkt. No. 49-6, at 1-24; Decl. of Kathi
Aultman, M.D.). Dr. Aultman is a Fellow of the
American College of Obstetricians and Gynecologists
(Id., ¶ 1). Dr. Aultman describes the requirements for
board certification for OBGYNs, including a four-year
specialized residency (Id., ¶ 12). Dr. Aultman states
that “[p]eer-reviewed studies demonstrate that board
certified physicians are better doctors.” (Id., ¶ 17). She
points to studies that purport to show that boardcertified physicians are less likely to be disciplined by
state medical boards (Id. (citing Rebecca Lipner, et al.,
Specialty Certification Status, Performance Ratings,
and Disciplinary Actions of Internal Medicine Residents, 91 Academic Medicine 376 (2016); Michael R.
Peabody, et al., The Relationship Between Board
Certification and Disciplinary Actions Against BoardEligible Family Physicians, 94 Academic Medicine 847
(2019) (reviewing the likelihood of discipline for boardcertified family physicians); Neal D. Kohatsu, et al.,
Characteristics Associated With Physician Discipline:
A Case-Control Study, 164 Arch. Internal Medicine
653 (2004))). She also points to studies that show
that physicians who have been in practice longer may
be more likely to provide poor care (Id., ¶ 19 (citing
Niteesh Choudry, et al., Systematic review: The
relationship between clinical experience and quality
of health care, 142 Annals of Internal Medicine
269 (2005))).
231. Dr. Aultman describes ABOG’s “maintenance
of certification” (“MOC”) process, wherein boardcertified physicians engage in continuing professional
development (Id., ¶¶ 22-23 (citing Christine K.

92a
Cassell, Professionalism And Accountability: The Role
of Specialty Board Certification, 119 Trans. of the Am.
Clinical and Climatological Ass’n 295, 297 (2008))).
232. Dr. Aultman also states that medication abortions are riskier than aspiration abortions, and she
states that “medication abortion patients are likely to
require surgical follow-up treatment for retained
products or bleeding.” (Id., ¶ 27).6 She also states that
all OBGYNs are trained to evacuate the uterus in the
first and second trimesters (Id., ¶ 28 (citing Jessica
Bienstock, et al., The Obstetrics and Gynecology
Milestone Project at iv (2015), available at http://www.
acgme.org/Portals/0/PDFs/Milestones/ObstetricsandG
ynecologyMilestones.pdf (noting that the milestones
discussed are designed as targets, not as requirements, and that the graduation decisions are “the
purview of the residency program director”))).
233. Dr. Aultman opines that “[c]omplications
from abortion are significantly under-reported.” (Id.,
¶ 29). She states that this is because some states do
not report their data and because “women are often
ashamed to tell anyone that they had an abortion . . . .”
(Id.). Dr. Aultman also says there is no support for the
statement that abortion is less risky than childbirth
(Id., ¶ 31 (citing Byron Calhoun, Systematic Review:
The maternal mortality myth in the context of legalized
abortion, 80 The Linacre Quarterly 264 (2013)
(arguing that abortion-related deaths are underreported and positing a connection between abortion and
suicide, cancer, and substance abuse))). She also
asserts that the low mortality and morbidity rates for

6

Dr. Aultman’s citation for this proposition is found on a
private website that cannot be accessed without a subscription.

93a
early abortions masks the risk associated with
abortions at 21 weeks LMP or greater (Id., ¶¶ 33-34).
234. Dr. Aultman states that, according to the
FDA, there have been 22 deaths “associated with the
administration of Mifepristone.” (Id., ¶ 46).
235. Defendants also present the rebuttal
declaration of Dr. Aultman (Dkt. No. 73; Rebuttal
Decl. of Kathi Aultman, M.D.). Dr. Aultman has
reviewed the “17 affidavits and declarations . . . in the
record of this case from women who have been hurt by
abortion.” (Id., ¶ 3). Dr. Aultman states that these
affidavits and declarations are “consistent with the
experiences of the women I have encountered in my
work as a physician and advocate for women and their
health issues.” (Id.).
236. Dr. Aultman relates an incident where she
provided gynecologic care to a young woman, and she
states that that the young woman claimed that she
suffered adverse psychological effects after aborting
her pregnancy (Id., ¶ 5).
237. Dr. Aultman also states that she provided
care to a woman who came to see her “for continuous
spotting and bleeding several months following an
abortion.” (Rebuttal Decl. of Kathi Aultman, M.D.,
¶ 6). Dr. Aultman avers that she learned that the
young woman “was given vaginal medication” and
“was instructed to sit on the toilet and push.” (Id.). Ms.
Aultman states that she further learned that the
young woman then “delivered a 20+ week baby boy
into the toilet” and that the “baby drowned in the toilet
water.” (Id.).
238. Dr. Aultman claims that there is “no
mechanism for recording or reporting” medical or
psychological complications of abortions (Id., ¶ 7). She

94a
also states that physicians fear being subjected to
litigation for delivering babies with congenital abnormalities and that this is why “many young women feel
pressure to abort babies with the potential for such
abnormalities.” (Rebuttal Decl. of Kathi Aultman,
M.D., ¶ 8).
239. Attached to Dr. Aultman’s rebuttal declaration is a certified criminal record for Dr. Tvedten in the
case of State v. Thomas Harold Tvedten (Id., ¶ 10).
According to this record, Dr. Tvedten was convicted of
second-degree criminal mischief for an event that
occurred on May 22, 1987. At the hearing, Dr. Tvedten
testified that this charge was the result of breaking
the camera of an individual who was photographing
an abortion clinic (Dkt. No. 84, at 175:19-23).
240. Also attached to Dr. Aultman’s rebuttal
declaration is a disciplinary report for Dr. Tvedten
from the Arkansas State Medical Board (Dkt. No. 73,
at 270-72). Per this report, Dr. Tvedten’s medical
license was suspended for three months in 1983 and
that his Drug Enforcement Agency registration was
suspended for fifteen months, ending in 1984.
241. Defendants present a letter written by Dr.
Tvedten to the Arkansas State Medical Board (Dkt.
No. 103-1). In this letter, Dr. Tvedten states that he
was pulled over and charged with “Driving Under the
Influence of Alcohol.” (Id., at 1). He also notes that this
is the first such charge that he ever received (Id.). This
letter has the year “2008” stamped on it and is
addressed to the Arkansas State Medical Board. The
Court finds that this letter has little relevance to any
claim or defense in this case given that Dr. Tvedten
continues to practice medicine with the apparent
approval of the Arkansas State Medical Board.

95a
242. Defendants also present an incident report in
which an individual reported that Dr. Tvedten walked
into her office and stated that he was “going to get” the
individual’s son and that the son was “going to lose
something.” (Id., at 2). The incident report is dated
April 28, 1998, and there is no record evidence that
shows the report ever led to a formal charge against
Dr. Tvedten. The Court finds that this incident report
has little relevance to any claim or defense in this case
given that Dr. Tvedten continues to practice medicine
with the apparent approval of the Arkansas State
Medical Board.
243. Dr. Aultman also states that “comparing
mortality statistics to maternal mortality statistics is
not an apples-to-apples comparison” and that an
OBGYN “can handle common complications of abortion that an ordinary licensed physician cannot, such
as life threatening hemorrhage or injury to internal
organs that might require an abdominal surgery to
repair.” (Rebuttal Decl. of Kathi Aultman, M.D.,
¶¶ 13-14). The Court also notes that Dr. Aultman did
not testify at the July 22, 2019, hearing.
244. Defendants also present the declaration of
Donna J. Harrison, M.D. (Dkt. No. 49-7, at 1-22; Decl.
of Donna J. Harrison, M.D.). Dr. Harrison is certified
by the ABOG and is the Executive Director of the
American Association of Pro-Life Obstetricians and
Gynecologists (“AAPLOG”) (Id., ¶ 3).
245. Dr. Harrison explains the efficacy of fetal
screening and diagnostic tests. She explains that, out
of 10,000 general population women whose pregnancies are screened using cell-free DNA screening, 30 of
those women will test positive for Down syndrome,
while in fact only 10 of them are positive for Down
syndrome (Id., ¶ 19 (citing Am. Coll. of Obstetricians

96a
and Gynecologists, Committee Opinion No. 640 (Sept.
2015), https://www.ncbi.nlm.nih.gov/pubmed/262877
91)). In a high-risk population, out of 10,000 women
tested, 119 of those women will test positive, while in
fact only 99 of them are in fact positive for Down
syndrome (Id., ¶ 20).
246. Dr. Harrison further asserts that women who
receive a false positive on a screening test “may be
pressured to act on the basis of a positive screening
test which is wrong.” (Decl. of Donna J. Harrison,
M.D., ¶ 32).
247. Dr. Harrison explains that screening tests,
the results of which are not available until 12 weeks
LMP, “do not answer the question” of whether Down
syndrome is indicated (Id., ¶ 34). Dr. Harrison avers
that the diagnostic tests, which occur after a positive
screening test, carry risks of complications (Id., ¶¶ 3537). Dr. Harrison further avers that amniocentesis “is
done around 18-20 weeks.” (Id., ¶ 38). She avers that,
at 22 weeks LMP, “[t]he immediate risk of maternal
mortality from an abortion at 22 weeks is roughly
equal to the risk of death from live birth.” (Decl. of
Donna J. Harrison, M.D., ¶ 38 (citing L. Bartlett, Risk
factors for legal induced abortion-related mortality in
the United States, 103 Obstetrics & Gynecology 729
(2004) (noting that abortions performed in the second
trimester were significantly riskier than first trimester abortions))).
248. Dr. Harrison further states that “[t]here is
also an increased psychological risk for mothers who
abort.” (Id., ¶ 41 (citing David C. Reardon, The abortion and mental health controversy: A comprehensive
literature review of common ground agreements, disagreements, actionable recommendations, and research
opportunities, 6 SAGE Open Medicine 1, 8 (2018)

97a
(finding that “it is impossible to conduct research in
this field in a manner that can definitely identify the
extent of any mental illnesses following abortion,
much less than the proportion of disorders that can be
reliably attributed solely to abortion itself.”))).
249. Dr. Harrison opines that “[t]he grisly reality
is that abortion of human beings with Down syndrome
is driven by a sector of society that doesn’t want
disabled people to be part of society.” (Id., ¶ 43).
250. Dr. Harrison further states that “[w]ith
specialized medical care some fetuses can survive
outside the womb by 22 weeks with survival rates as
high as 40% in some medical centers.” (Id., ¶ 56).
251. At the July 22, 2019, hearing, Dr. Harrison
testified. During her testimony, she explained that it
has been approximately 20 years since she had a
clinical OBGYN practice where she was paid to see
and treat patients (Dkt. No. 84, at 240:20-25). She also
testified that it has been a similar amount of time
since she performed a gynecological surgery or a
dilation and curettage procedure, which is a procedure
that is similar to the procedure used in a first
trimester abortion (Id., at 238:19-25, 239:1-9).
252. Dr. Harrison also testified that she was twice
sued for medical malpractice when she was a practicing OBGYN and that she is still a board-certified
OBGYN (Id., at 240:9). She also stated that she
remains a board-certified OBGYN even though she
has not had an active clinical practice for 20 years (Id.,
at 240:16-20).
253. When asked if she would provide abortion
care in Arkansas, Dr. Harrison testified that, as a
board-certified OBGYN, if she were to go back into a
surgical practice, she would take additional surgical

98a
training (Dkt. No. 84, at 241:9-21). Specifically, she
testified that if she were to go back into surgical
practice, she would spend approximately six months
updating her skills (Id.).
254. Dr. Harrison also testified that, since 2000,
she has focused her professional activities on AAPLOG
(Id., at 243:9). Dr. Harrison testified that it is
AAPLOG’s position that elective abortions are not
medical care (Id., at 244:15-17). She also testified that
she is a scholar at the Charlotte Lozier Institute, a
part of the Susan B. Anthony List, which she stated is
an organization dedicated to electing candidates and
pursuing policies that will reduce and end abortion
(Dkt. No. 84, at 247:1-7).
255. Dr. Harrison also testified that, in her
opinion, ACOG is a pro-abortion organization (Id., at
248:13-17).
256. When questioned about testimony she
provided in other cases, Dr. Harrison stated that she
was unaware that other courts had concluded that her
opinions were at odds with scientific evidence (Id., at
252:15-16).
257. Defendants also present the supplemental
declaration of Dr. Harrison (Dkt. No. 103-5; Supp.
Decl. Donna J. Harrison, M.D.). In her supplemental
declaration, Dr. Harrison attaches a list of 162 studies
which report allegedly report the association between
induced abortion and preterm birth in subsequent
pregnancies (Id., ¶ 3).
258. Defendants also present the declaration of
Tumulesh K.S. Solanky, Ph.D. (Dkt. No. 49-8, at 1-25;
Decl. of Tumulesh K.S. Solanky, Ph.D.). Dr. Solanky’s
declaration discusses Dr. Lindo’s conclusions and
findings, and Dr. Solanky disagrees with Dr. Lindo’s

99a
projections regarding the likely reduction in abortions
resulting from the closing of PPAEO Fayetteville (Id.,
¶¶ 8-17). Dr. Solanky testified at the July 22, 2019,
hearing.
259. Dr. Solanky’s declaration does not contest Dr.
Lindo’s projections of LRFP and PPAEO Little Rock’s
capacity to provide abortions if the OBGYN
requirement goes into effect, but he does state that Dr.
Lindo’s “supplemental declaration has assumed that
the maximum capacity of clinics/physicians is simply
the maximum number of abortions performed” and
that “[t]his is a rather biased assumption.” (Id., ¶ 54).
260. Dr. Solanky does contest Dr. Lindo’s estimate
of a “17-27%” reduction in abortions due to the cessation of medication abortions in Arkansas in 2018 (Id.,
¶ 10). Dr. Solanky asserts that Dr. Lindo incorrectly
“assume[s] that if there [was] any reduction in
abortions in 2018, then it must have been caused by
[the contracted physician requirement].” (Id., ¶ 39).
261. Dr. Solanky also asserts that “there appears
to be no correlation between the numbers of clinics and
abortion rates.” (Id., ¶ 46).
262. Dr. Lindo presents a rebuttal declaration to
respond to Dr. Solanky’s assertions (Dkt. No. 62-2, at
1-6; Rebuttal Decl. of Jason Lindo, Ph.D.). Dr. Lindo
takes issue with Dr. Solanky’s assertion that Dr. Lindo
incorrectly calculates the maximum capacity of abortion providers; according to Dr. Lindo, Dr. Solanky
provides no justification for his criticism, and he
argues that Dr. Solanky proposes no alternative
capacity-calculation methodology or capacity estimates (Id., ¶ 3). Further, Dr. Lindo points out that Dr.
Solanky does not respond to the fact that Dr. Lindo’s
capacity estimates likely overestimate the abortion

100a
providers’ capacity to provide abortions if the
challenged Acts go into effect (Id.).
263. Dr. Lindo also takes issue with defendants’
assertion that Dr. Hopkins can conduct 525 surgical
abortions annually (Id., ¶ 6). Dr. Lindo points out that
it is unlikely that LRFP will remain open if Dr.
Hopkins is the only abortion provider, and he also
points out that it is highly improbable that Dr.
Hopkins could spend three days a week providing
abortions, as LRFP cannot afford to hire a physician
for the sole purpose of obtaining patient consents
(Rebuttal Decl. of Jason Lindo, Ph.D., ¶ 6). Dr. Lindo
also points out that D&E abortions are often two-day
procedures that are more time-consuming to perform
(Id.). Dr. Lindo further explains that he understands
that LRFP can provide 20-25 abortions a day under
current conditions, not in a scenario in which Dr.
Hopkins is the only physician providing surgical
abortions (Id.). Finally, Dr. Lindo points out that
defendants assume that all patients who will need
surgical abortion care would be able to obtain that
care in the one week when Dr. Hopkins is in Arkansas,
which will occur once every two months (Id.).
264. Defendants also present a supplemental
declaration from Dr. Solanky (Dkt. No. 103-8; Supp.
Decl. of Tumulesh K. S. Solanky). Dr. Solanky states
that he has been provided with the data that Dr. Lindo
used to create his estimates (Id., ¶ 1). Dr. Solanky
opines that Dr. Lindo’s capacity estimates for LRFP
and PPAEO Little Rock do “not take into account the
trend of declining number of Arkansas resident
abortions.” (Id., ¶ 7). Dr. Solanky further states that
abortions decrease by approximately three percent per
year (Id.).

101a
265. To determine to state of residence for each
abortion performed from 2016 to 2018, Dr. Solanky
used the county of residence reported in the spreadsheets; Dr. Solanky notes that, because the names of
Arkansas counties are shared by counties in surrounding states, there is the possibility that his estimate of
the number of Arkansas resident abortions in 2018 is
incorrect (Supp. Decl. of Tumulesh K. S. Solanky, ¶ 10
n.3). Dr. Solanky notes that the data indicates that
PPAEO provided 215 out-of-state abortions and 2,272
Arkansas resident abortions; he also notes that
LRFP provided 877 out-of-state abortions and 6,133
Arkansas resident abortions (Id., ¶ 10). Dr. Solanky
concluded that these combined data sets show that
8,405 total Arkansas resident abortions occurred and
that, if divided by three, the average number of
Arkansas resident abortions “comes to 2,802 Arkansas
resident abortions per year for the three years.” (Id.).
Dr. Solanky noted that Dr. Lindo’s declaration states
that there were 2,779 Arkansas resident abortions on
average, and he also notes that he cannot “determine
why this discrepancy in Arkansas resident abortion
exists.” (Id.).
266. Dr. Solanky’s declaration relied upon data
which was filed under seal with the Court (Dkt. No.
105). This data indicates that the vast majority of
abortions in Arkansas were conducted by PPAEO and
LRFP, though less than half a dozen were performed
by others.
267. Defendants also present the declaration of
Judy McGruder, who lives in Fort Smith, Arkansas
(Dkt. No. 49-10, at 1-3; Decl. of Judy McGruder). Ms.
McGruder avers that she aborted a pregnancy in 2000
at LRFP (Id., ¶ 4). Ms. McGruder previously received
amniocentesis and was informed that her child would

102a
have Down syndrome (Id., ¶ 3). Ms. McGruder regrets
her abortion (Id., ¶ 11). Ms. McGruder offered
testimony consistent with her affidavit at the July 22,
2019, hearing (Dkt. No. 84, at 273-78).
268. Under Arkansas law, only a physician licensed
to practice medicine in the State of Arkansas may provide abortion care. See Ark. Code Ann. § 5-61-101(a).
269. The Arkansas Medical Practices Act and
Regulations expressly state that “[n]o person shall be
granted a license to practice medicine in the State of
Arkansas unless he or she . . . is of good moral character and has not been guilty of acts constituting
unprofessional conduct . . . .” See Ark. Code Ann.
§ 17-95-403(b).
270. The Arkansas Medical Practices Act and
Regulations permit the Arkansas Medical Board to
suspend or revoke a license for immoral or unprofessional conduct. Ark. Code Ann. § 17-99-307(2) (“The
Arkansas State Medical Board, after due notice and
hearing, may revoke, suspend, or refuse to renew any
license or permit or place on probation or otherwise
reprimand a licensee or permit holder or deny a license
to an applicant who . . . is in judgment of the board,
guilty of immoral or unprofessional conduct.”).
271. The Arkansas Medical Board may refuse to
grant, impose certain enumerated penalties, or revoke
the medical license of any physician involved in any
felony listed under [Arkansas Code Annotated] § 17-2102.” Ark. Code Ann. § 17-95-409. Arkansas Code
Annotated § 17-2-102, which was enacted in 2019,
includes a list of 36 categories of felony offenses and
specifically provides that convictions in Arkansas,
other states, and federal court shall be considered.

103a
272. To maintain an active license to practice
medicine in the State of Arkansas, there are continuing medical education requirements that may be
enforced through license suspension or revocation. See
Ark. Code Ann. § 17-80-104 (empowering regulatory
boards of the professions or occupations classified by
the law of the State of Arkansas as professions of the
healing arts and for whom the General Assembly has
established regulatory boards empowered to license
persons to practice to adopt rules requiring the
continuing education of the persons licensed by the
board); Ark. Admin. Code 060.00.1-17 (requiring a
person who holds an active license to practice
medicine in the State of Arkansas shall complete 20
credit hours per year of continuing medical education,
stating that “Fifty (50%) percent of said hours shall be
in subjects pertaining to the physician’s primary area
of practice . . . .”).
273. Any claim or filing of a lawsuit alleging
malpractice against a physician licensed to practice
medicine and surgery in the State of Arkansas must
be reported to the Arkansas State Medical Board
within ten days after receipt or notification or the
licensed physician may face discipline up to and
including revocation, suspension, or probation or
monetary fines. See Ark. Code Ann. § 17-95-103; Ark.
Admin. Code 060.00.1-23.
274. Arkansas licensed physicians are subject to
being audited (Dkt. No. 84, at 15:16-16:5).
275. Any Arkansas physician who performs an
abortion must “obtain the correct informed consent
from their patients” or risk sanction by the Arkansas
Medical Board. Ark. Admin. Code 060.00.1-26 (describing the consent required and the circumstances under
which it is required and permitting the Arkansas

104a
Medical Board to revoke or suspend a medical license
or impose other sanctions if the Board determines
there has been a violation).
276. Any Arkansas physician who provides an
abortion-inducing drug for the purpose of inducing an
abortion is currently required to report any known
adverse events associated with medication abortions.
Ark. Code Ann. § 20-16-1505 (“If a physician provides
an abortion-inducing drug . . . and if the physician
knows that the woman who uses the abortion-inducing
drug for the purposes of inducing an abortion experiences an adverse event, the physician shall provide a
written report of the adverse event within three (3)
days of the event to the United States Food and Drug
Administration . . . and to the Arkansas State Medical
Board”); see Ark. Admin. Code 060.00.1-36 (requiring
reporting to the Arkansas State Medical Board in the
same circumstances).
277. Additionally, any woman in Arkansas seeking
an abortion must be evaluated via a medical history, a
physical examination, counseling, and laboratory
tests. See Ark. Admin. Code 007.05.2-8(A).
278. Arkansas abortion facilities shall have written procedures for emergency transfer of a patient to
an acute care facility. See Ark. Admin. Code 007.05.28(B). Arkansas general abortion facilities, which
provide surgical abortions or both medication and
surgical abortions, shall be within 30 minutes of a
hospital which provides gynecological or surgical services. See Ark. Admin. Code 007.05.2-4(C); Ark.
Admin. Code 007-05-2.3(J) (defining general abortion
facility). Arkansas abortion facilities providing abortions must have various medical devices available to
assist in the event of complications. See Ark. Admin.
Code 007.05.2-8(C), (E). Finally, Arkansas abortion

105a
facilities must have a certain number of qualified
personnel available to provide direct patient care. See
Ark. Admin. Code 007.05.2-7.
279. Arkansas abortion facilities must satisfy a
variety of ongoing obligations to educate staff about
best practices to assess their own services. See Ark.
Admin. Code 007.05.2-10; 007.05.2-5; 007.05-6(F),(G);
007.05.2-7(D).
280. Furthermore, “[e]ach induced termination of
pregnancy which occurs in [Arkansas] regardless of
the length of gestation shall be reported to the
[Division of Vital Records] within five (5) days by the
person in charge of the institute in which the induced
termination of pregnancy was performed.” Ark. Code
Ann. § 20-18-603(b)(1). If “the induced termination of
pregnancy was performed outside an institution, the
attending physician shall prepare and file the report.”
Ark. Code Ann. § 20-18-603(b)(2).
281. The Court held a hearing on plaintiff’s motion
for temporary restraining order and/or preliminary
injunction on July 22, 2019 (Dkt. No. 78). At the
hearing, plaintiffs called five witnesses: Dr. Hopkins,
Dr. Prine, Ms. Williams, Dr. Lindo, and Dr. Tvedten.
Defendants called four witnesses: Dr. Cathey, Dr.
Harrison, Dr. Solanky, and Ms. McGruder.
III. CONCLUSIONS OF LAW
When determining whether to grant a motion for a
preliminary injunction, this Court considers: (1) the
movant’s likelihood of success on the merits; (2) the
threat of irreparable harm to the movant; (3) the
balance between the harm to the movant and the
injury that granting an injunction would cause other
interested parties; and (4) the public interest. Kroupa
v. Nielsen, 731 F.3d 813, 818 (8th Cir. 2013) (quoting

106a
Dataphase Sys. Inc. v. CL Sys., 640 F.2d 109, 113 (8th
Cir. 1981)). Preliminary injunctive relief is an extraordinary remedy, and the party seeking such relief
bears the burden of establishing the four Dataphase
factors. Watkins Inc. v. Lewis, 346 F.3d 841, 844 (8th
Cir. 2003). The focus is on “whether the balance of the
equities so favors the movant that justice requires the
court to intervene to preserve the status quo until the
merits are determined.” Id. “Although no single factor
is determinative when balancing the equities,” a lack
of irreparable harm is sufficient ground for denying a
temporary restraining order. Aswegan v. Henry, 981
F.2d 313, 314 (8th Cir. 1992).
The Court examines the Dataphase factors as
applied to plaintiffs’ request for a preliminary injunction. See Dataphase, 640 F.2d at 113. Under Dataphase,
no one factor is determinative. Id. The Eighth Circuit
revised the Dataphase test when applied to challenges
to laws passed through the democratic process. Those
laws are entitled to a “higher degree of deference.”
Planned Parenthood Minn., N.D., S.D. v. Rounds, 530
F.3d 725, 732 (8th Cir. 2008). In such cases, it is never
sufficient for the moving party to establish that there
is a “fair chance” of success. Instead, the appropriate
standard, and threshold showing that must be made
by the movant, is “likely to prevail on the merits.” Id.
Only if the movant has demonstrated that it is likely
to prevail on the merits should the Court consider the
remaining factors. Id.
A. Analysis Of Standing
Defendants challenge plaintiffs’ standing. For the
reasons discussed below, the Court concludes that,
based upon the record evidence before the Court at
this stage of the proceeding, plaintiffs generally have
standing on behalf of themselves and their patients,

107a
with the exception of standing to challenge the
application of Act 619 to post-viability abortions.
1. Article III Standing
To establish Article III standing, a plaintiff must
satisfy three requirements: “First, the plaintiff must
have suffered an injury in fact—an invasion of a
legally protected interest which is (a) concrete and
particularized, and (b) actual or imminent, not conjectural or hypothetical. Second, there must be a causal
connection between the injury and the conduct complained of—the injury has to be fairly . . . trace[able]
to the challenged action of the defendant, and not . . .
th[e] result [of] the independent action of some third
party not before the court. Third, it must be likely, as
opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560 (1992) (internal quotes
and citations omitted).
Defendants assert that plaintiffs cannot assert
facial challenges on behalf of their “hypothetical
future patients.” (Dkt. No. 103, at 68). Under a longestablished rule, however, it is “appropriate to allow a
physician to assert the rights of women patients as
against governmental interference with the abortion
decision.” Singleton v. Wulff, 428 U.S. 106, 118 (1976);
see Whole Woman’s Health v. Hellerstedt, 136 S. Ct.
2292, 2296 (2016) (deciding physicians’ and clinics’ 42
U.S.C. § 1983 action against abortion restrictions on
behalf of themselves and their patients). There are
many cases recognizing that an abortion provider may
sue to enjoin, as violations of the United States
Constitution or federal law through 42 U.S.C. § 1983,
state laws that restrict abortion. “These cases emphasize not the harm to the abortion clinic of making
abortions very difficult to obtain legally, though that

108a
might be an alternative ground for recognizing a
clinic’s standing, but rather ‘the confidential nature of
the physician-patient relationship and the difficulty
for patients of directly vindicating their rights without
compromising their privacy,’ as a result of which ‘the
Supreme Court has entertained both broad facial challenges and pre-enforcement as-applied challenges to
abortion laws brought by physicians on behalf of their
patients.’” Planned Parenthood of Wisconsin, Inc. v.
Schimel, 806 F.3d 908, 910 (7th Cir. 2015) (quoting
Isaacson v. Horne, 716 F.3d 1213, 1221 (9th Cir. 2013)).
Further, the United States Supreme Court held in
Doe v. Bolton, 410 U.S. 179, 188 (1973), that abortion
doctors have first-party standing to challenge laws
limiting abortion when, as in Doe and the current
case, the doctors are subject to penalties for violation
of the laws. See Planned Parenthood of Se. Pennsylvania v. Casey, 505 U.S. 833, 903-04, 909 (1992) (plurality opinion); Planned Parenthood of Central Missouri
v. Danforth, 428 U.S. 52, 62 (1976); Schimel, 806 F.3d
at 911.
Defendants point to Kowalski v. Tesmer, 543 U.S.
125, 129 (2004), and assert that this case stands for
the proposition that third-party standing has been
approved only when the litigant asserts rights of
known claimants, not hypothetical ones. This argument is unconvincing, as Kowalski cites Doe and
explicitly distinguishes third-party standing in the
abortion context. 543 U.S. at 130.
Defendants also assert that plaintiffs’ lack standing
because “there is a clear conflict between Plaintiffs
and their patients . . . .” (Dkt. No. 103, at 32).
Defendants claim that this presents a conflict of
interest between providers and patients which precludes third-party standing. Elk Grove Unified Sch.

109a
Dist. v. Newdow, 542 U.S. 1, 15 (2004); see also
Kowalski, 543 U.S. at 135 (Thomas, J., concurring)
(noting that third-party standing is disallowed when
the litigants “may have very different interests
from the individuals whose rights they are raising”);
Canfield Aviation, Inc. v. Nat’l Transp. Safety Bd.,
854 F.2d 745, 748 (5th Cir. 1988) (“[C]ourts must be
sure . . . that the litigant and the person whose rights
he asserts have interests which are aligned.”).
This argument could be made with respect to any
abortion regulation that purports to advance a valid
state interest, but courts have repeatedly allowed
abortion providers to challenge such laws, determining that the providers’ and women’s interests are
aligned and not adverse. See, e.g., Bellotti v. Baird, 443
U.S. 622, 627 n.5 (1979) (holding that a physician
plaintiff had standing to raise his minor patients’
claims to determine whether a parental consent law
should be upheld to protect the alleged vulnerability of
minors); Charles v. Carey, 627 F.2d 772, 779 n.10 (7th
Cir. 1980) (rejecting the state’s claim of conflict of
interest in a challenge to a counseling law designed to
“protect women from abusive medical practices”). This
argument has not defeated a providers’ standing to
challenge contraception restrictions. See Carey v.
Population Servs. Int’l, 431 U.S. 678, 683-84, 690
(1977) (granting third-party standing where the government defended a contraception restriction based on
its interest in protecting health); Eisenstadt v. Baird,
405 U.S. 438, 445-46, 450 (1972) (allowing a plaintiff
to raise the rights of others seeking contraception
where the government defended a restriction as “regulating the distribution of potentially harmful articles”).
Furthermore, to the extent there is record evidence
in this case that women who have had abortions regret

110a
those abortions or felt pressured into obtaining an
abortion, although the Court is sympathetic, the Court
is unconvinced that such record evidence demonstrates a conflict of interest between physicians and
patients. Arkansas currently mandates pre-abortion
counseling with informed consent, Ark. Admin. Code
§ 007.05.2-7 (“prior to the abortion, the patient shall
be counseled regarding the abortion procedure, alternatives to abortion, informed consent, medical risks
associated with the procedure, potential post-abortion
complications, community resources and family planning” and “documentation of counseling shall be
included in the patient’s medical record . . . .”), and
imposes a 48-hour, soon to be 72-hour,7 waiting period
between an initial consultation and an abortion. To
the extent there is record evidence that women who
have had abortions experience regret or felt pressured
into obtaining an abortion, that record evidence
demonstrates the women describe pressure from
sources that are not abortion providers, including but
not limited to family members, spouses, and personal
circumstances, and that evidence spans a significant
time period during which laws and regulations governing abortion care in Arkansas were different from the
current laws and regulations.
Defendants maintain that, because there is no allegation of a “hinderance” preventing plaintiffs’ patients
7

On April 20, 2019, Arkansas enacted a new law requiring a
72-hour waiting period between a woman’s consultation with a
doctor concerning a possible abortion and any abortion procedure,
except where it “will cause substantial and irreversible impairment of a major bodily function.” 2019 Ark. Acts 801, to be codified at Ark. Code Ann. §§ 20-16-1109, -1703(b), -1706. This law
goes into effect on July 24, 2019. There is no record evidence that
any party has challenged this new law.

111a
from bringing their own suits, plaintiffs lack standing.
This argument fails because the Supreme Court in
Singleton states that the “hindrance” prong of the
third-party standing doctrine is satisfied in abortion
cases. 428 U.S. at 117.
At this stage, defendants also argue that LRFP
specifically lacks standing to challenge Act 700’s
OBGYN requirement because it creates “no legal
impediment to [its] employment of qualified abortion
practitioners.” (Dkt. No. 103, at 37). The Court is
unconvinced by this argument: the Supreme Court in
Hellerstedt allowed clinics to challenge a surgicalcenter requirement where the cost of complying
with that requirement was $1.5 to $3 million per
clinic. Hellerstedt, 136 S. Ct. at 2302-03. That LRFP
employs abortion providers who would otherwise
meet Act 700’s OBGYN requirement does not bar
standing; instead, that fact is taken into account in
this Court’s analysis of the burden of Act 700 under
the Hellerstedt test.
With respect to defendants’ argument that plaintiffs
have not made sufficient efforts to comply with the
OBGYN requirement, defendants are essentially arguing that the alleged constitutional injury to women
seeking abortions in Arkansas—that in a large fraction of the cases in which Act 700’s OBGYN requirement is relevant, it will purportedly operate as a
substantial obstacle to a woman’s choice to undergo
an abortion—is not caused by defendants, but by
plaintiffs. To establish standing, the injury must be
“fairly traceable” to the defendant’s conduct. Lexmark
Intern., Inc. v. Static Control Components, 572 U.S.
118, 125 (2014). The record evidence at this stage
indicates that plaintiffs have attempted to comply
with the OBGYN requirement and have in fact been

112a
able to find some board-certified OBGYNs to provide
some abortion care in Arkansas. Some record evidence
also shows, however, that those board-certified
OBGYNs cannot provide enough abortion care to
satisfy the need for abortion care under the relevant
inquiry. The Court is satisfied at this stage of the
proceedings based on the record evidence before it that
Act 700’s OBGYN requirement—and not plaintiffs’
failure to attempt to comply with Act 700’s OBGYN
requirement—is the proximate cause of the alleged
harm. Accordingly, the Court finds that the record
evidence at this stage of the proceeding demonstrates
that plaintiffs’ injuries are “fairly traceable” to Act
700’s OBGYN requirement and that plaintiffs have
Article III standing.
The Court does conclude that, based on this record
evidence, for purposes of challenging Act 619, because
post-viability abortions are not performed in Arkansas
currently, plaintiffs lack standing to challenge Act 619
as applied to post-viability abortions on the record
currently before the Court. Therefore, the Court need
not examine whether Act 619 is constitutional as
applied to post-viability abortions at this stage of the
proceedings. For these reasons, the Court restricts its
examination of Act 619 as applied to the types of previability abortions the record evidence indicates are
performed in Arkansas.
2. 42 U.S.C. § 1983 Standing
Defendants also contend that plaintiffs cannot
assert third-party rights under 42 U.S.C. § 1983
because, defendants claim, § 1983 extends only to
litigants who assert their own rights. There is no
language in the statute that supports this argument.
See 42 U.S.C. § 1983 (providing in pertinent part,
“Every person who, under color of any statute,

113a
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in
equity, or other proper proceeding for redress . . . .”).
This Court agrees with the reasoning of the Seventh
Circuit Court of Appeals on this point and rejects
defendants’ argument regarding standing under
§ 1983. See Planned Parenthood of Wisconsin, Inc. v.
Van Hollen, 738 F.3d 786, 794-95 (7th Cir. 2013) (“Van
Hollen III”). The Supreme Court has repeatedly
allowed abortion providers to raise the rights of their
patients in cases brought under § 1983, and this Court
will do the same. See, e.g., Hellerstedt, 136 S. Ct. 2292;
Gonzales v. Carhart, 550 U.S. 124, 168 (2007); Ayotte
v. Planned Parenthood of N. New England, 546
U.S. 320, 324-25 (2006) (noting that plaintiffs raised
patients’ claims in suit under 42 U.S.C. § 1983);
Bellotti, 428 U.S. at 136 (same).
3. Standing To Challenge Acts’ Private
Rights Of Action
Defendants also contend that plaintiffs lack standing to challenge the Acts’ “private rights of action
because any injury to Plaintiffs is not ‘fairly traceable’
to the Defendants.” (Dkt. No. 103, at 35). Acts 493 and
619 both contain private rights of action that allow
women who have obtained abortions to bring actions
against an abortion provider. See Act 493, § 1, to be
codified at Ark. Code Ann. § 20-16-2006(d); Act 619,
§ 1, to be codified at Ark. Code Ann. § 20-16-2005(b)(1).
Specifically, defendants argue that, since these Acts
provide for “enforcement only through private actions

114a
for damages,” this Court lacks jurisdiction over any
claim against governmental actors who have no authority to enforce the private rights of action in the Acts.
The Court concludes that plaintiffs do have standing
to challenge the Acts because each of the challenged
Acts provide for criminal prosecution, civil penalties,
and professional sanctions enforceable by the State.
See Act 493, § 1, to be codified at Ark. Code Ann. § 2016-2006(a)-(e); Act 619, § 1, to be codified at Ark. Code
Ann. § 20-16-2005(a)-(d); Act 700, § 1, to be codified
at Ark. Code Ann. § 20-16-605(b). The case cited
by defendants, Digital Recognition Network, Inc. v.
Hutchinson, 803 F.3d 952, 957-58 (8th Cir. 2015), is
inapposite to the present matter because there the
attorney general and governor lacked authority to
enforce the challenged statute. 803 F.3d at 958. Here,
the challenged Acts do grant the State authority to
impose criminal, civil, and professional sanctions upon
abortion providers. See, e.g., Casey, 505 U.S. at 887-88
(majority opinion) (noting, as to spousal notification
law the Court struck down, that “[a] physician who
performs an abortion” for a married woman without
spousal notice “will have his or her license revoked,
and is liable to the husband for damages”). The private
rights of action present in the challenged Acts do not
deprive this Court of jurisdiction to address the
constitutionality of the Acts.
B. Facial Versus As-Applied Challenges
Constitutional challenges to these Acts may be
deemed “facial” or “as-applied” challenges. Facial challenges to statutes affecting abortions may succeed
only if a plaintiff can show that “in a large fraction of
the cases in which [the law] is relevant, it will operate
as a substantial obstacle to a woman’s choice to
undergo an abortion.” Casey, 505 U.S. at 895 (majority

115a
opinion); see Hellerstedt, 136 S. Ct. at 2318 (striking
down an admitting privileges requirement because the
law “provides few, if any, health benefits for women”
and “poses a substantial obstacle to women seeking
abortions”); Planned Parenthood of Arkansas &
Eastern Oklahoma v. Jegley, 864 F.3d 953, 959 (8th
Cir. 2017) (“[I]n order to sustain a facial challenge and
grant a preliminary injunction, the district court was
required to make a finding that the Act’s contractphysician requirement is an undue burden for a large
fraction of women seeking medication abortions in
Arkansas.”); id. at 690 n.9 (“The question here . . . is
whether the contract-physician requirement’s benefits
are substantially outweighed by the burdens it
imposes on a large fraction of women seeking medication abortion in Arkansas.”); see also Planned
Parenthood Minn., N.D., S.D. v. Rounds, 653 F.3d 662,
667-68 (8th Cir. 2011), vacated in part on reh’g en banc
sub nom. Planned Parenthood Minn., N.D., S.D. v.
Rounds, 662 F.3d 1072 (8th Cir. 2011) and in part on
reh’g en banc sub nom. Planned Parenthood Minn.,
N.D., S.D. v. Rounds, 686 F.3d 889 (8th Cir. 2012); see
also Rounds, 530 F.3d at 733 n.8 (“Rounds cases”). In
Gonzales, the Supreme Court stated that, while the
plaintiffs had failed to satisfy the “large fraction” test
under Casey and were not entitled to facial relief, the
challenged law would be open “to a proper as-applied
challenge in a discrete case.” 550 U.S. at 168.
Having recognized this distinction in the types of
challenges that may be brought, the Court also notes
that the distinction between facial and as-applied
challenges is not always apparent. See Hellerstedt, 136
S. Ct. at 2307 (“Nothing prevents this Court from
awarding facial relief as the appropriate remedy for
petitioners’ as-applied claims.”); see also Richard R.
Fallon, Jr., Fact and Fiction about Facial Challenges,

116a
99 Cal. L. Rev. 915, 922 (2011). For the reasons set
forth below, at this stage of the proceeding and on the
record evidence before it, the Court concludes that
plaintiffs are likely to prevail on the merits of their
claims that they are entitled to facial relief against
Acts 493, 619, and 700.
C. Law Directed At Pre-Viability Abortions
“[I]t is a constitutional liberty of the woman to have
some freedom to terminate her pregnancy.” Casey, 505
U.S. at 869. This right is grounded in the right to
privacy rooted in the Fourteenth Amendment’s concept of personal liberty, which was found to be “broad
enough to encompass a woman’s decision whether or
not to terminate her pregnancy.” Roe v. Wade, 410 U.S.
113, 153 (1973). This right is not “unqualified” and
is balanced “against important state interests in
regulation,” eventually drawing a line between a
woman’s privacy right and the State’s interest in
protecting the potential life of a fetus at viability. Roe,
410 U.S. at 154. Part of Roe’s essential holding is “a
recognition of the right of the woman to choose to
terminate a pregnancy before viability and to obtain it
without undue interference from the State. Before
viability, the State’s interests are not strong enough to
support a prohibition of abortion or the imposition of a
substantial obstacle to the woman’s effective right to
elect the procedure.” Casey, 505 U.S. at 846. “A State
may not prohibit any woman from making the
ultimate decision to terminate her pregnancy before
viability.” Id. at 879.
The Supreme Court in Gonzales acknowledged that:
[T]he State, from the inception of the pregnancy, maintains its own regulatory interest
in protecting the life of the fetus that may

117a
become a child, [and this premise] cannot be
set at naught by interpreting Casey’s requirement of a health exception so it becomes
tantamount to allowing a doctor to choose the
abortion method he or she might prefer.
Where it has a rational basis to act, and it
does not impose an undue burden, the State
may use its regulatory power to bar certain
procedures and substitute others, all in furtherance of its legitimate interests in regulating the medical profession in order to promote
respect for life, including life of the unborn.
550 U.S. at 158. The Court acknowledges that the
state may, in a valid exercise of its police power,
regulate abortion. The state’s police power is, however,
limited where a protected liberty interest is at stake.
Casey, 505 U.S. at 851 (majority opinion). “The State’s
interest in regulating abortion previability is
considerably weaker than postviability.” Stenberg v.
Carhart, 530 U.S. 914, 930 (2000) (citing Casey, 505
U.S. at 870 (majority opinion)).
Although some argued that the Supreme Court’s
decision in Gonzales, in which the Court chose to
“assume” Casey’s principles for purposes of its opinion,
may have signaled the Court’s willingness to reevaluate abortion jurisprudence, see Gonzales, 550 U.S. at
145-46, more recently, in Hellerstedt, the Supreme
Court observed that viability is the “relevant point at
which a State may begin limiting women’s access to
abortion for reasons unrelated to maternal health.”
136 S. Ct. at 2320 (quoting Casey, 505 U.S. at 878
(plurality opinion)). The Court acknowledges that the
state can impose regulations aimed at ensuring a
thoughtful and informed choice, but only if such
regulations do not unduly burden the right to choose.

118a
Casey, 505 U.S. at 872. Generally, the state has the
burden of demonstrating a link between the legislation it enacts and what it contends are the state’s
interests. See Akron v. Akron Center for Reproductive
Health, Inc., 462 U.S. 416, 430 (1983), overruled on
other grounds by Casey, 505 U.S. 833 (describing the
burden as that of the state).
The Eighth Circuit Court of Appeals has previously
examined arguments and record evidence related to
viability and the State’s ability to restrict abortion
before viability. See Edwards v. Beck, 786 F.3d 1113,
1119 (8th Cir. 2015) (per curiam); MKB Management
Corp. v. Stenehjem, 795 F.3d 768 (8th Cir. 2015). The
court explained that prohibitions on abortions previability, even when they contain limited exceptions,
are per se unconstitutional under binding Supreme
Court precedent. Edwards, 786 F.3d at 1117; MKB
Mgmt., 795 F.3d at 771. In Edwards, the court
invalidated a prior Arkansas law that prohibited
nearly all abortions starting at 12 weeks LMP,
explaining that “a State may not prohibit any woman
from making the ultimate decision to terminate her
pregnancy before viability.” Edwards, 786 F.3d at
1117 (quoting Casey, 505 U.S. at 879).
In MKB Management, the court like the Supreme
Court in Gonzales assumed the principles of Casey,
which this Court cites. MKB Mgmt., 795 F.3d at 772
(quoting Gonzales, 550 U.S. at 146 (alteration in
original) (citations omitted) (quoting Casey, 505 U.S.
at 879, 878, and 877 (plurality opinion)). Further, the
MKB Management court acknowledged that, just as
the court is bound by the Supreme Court’s assumption
of the principles announced in Casey, the court is also
bound by the Supreme Court’s “statement that
viability is the time ‘when, in the judgment of the

119a
attending physician on the particular facts of the case
before him, there is a reasonable likelihood of the
fetus’ sustained survival outside the womb, with or
without artificial support.’” MKB Mgmt., 795 F.3d at
772-73 (quoting and citing Colautti v. Franklin, 439
U.S. 379, 388 (1979)); see also Casey, 505 U.S. at 870
(plurality opinion) (“[T]he concept of viability . . . is the
time at which there is a realistic possibility of maintaining and nourishing a life outside the womb . . . .”);
Roe, 410 U.S. at 160, 163 (stating that a fetus becomes
viable when it is “potentially able to live outside the
mother’s womb, albeit with artificial aid” and that
viability is the point at which the fetus “presumably
has the capability of meaningful life outside the
mother’s womb”). Further, this Court observes that
the Supreme Court has expressly determined that a
state may not “proclaim one of the elements entering
into the ascertainment of viability—be it weeks of
gestation or fetal weight or any other single factor—as
the determinant of when the State has a compelling
interest in the life or health of the fetus. Viability is
the critical point.” Colautti, 439 U.S. at 388-89.
The Eighth Circuit does not stand alone in following
controlling Supreme Court precedent when it comes
to prohibitions on pre-viability abortions. Laws that
restrict pre-viability abortions have consistently
been deemed unconstitutional in courts across the
United States. See Planned Parenthood of Indiana &
Kentucky, Inc. v. Comm’r, Indiana State Dep’t of
Health, 265 F. Supp. 3d 859, 866 (S.D. Ind. 2017), aff’d
sub nom. 888 F.3d 300 (7th Cir. 2018), reh’g en banc
granted, judgment vacated, 727 F. App’x 208 (7th Cir.
2018), vacated, 917 F.3d 532 (7th Cir. 2018), and cert.
granted in part, judgment rev’d on other grounds
sub nom. Box v. Planned Parenthood of Indiana &
Kentucky, Inc., 139 S. Ct. 1780 (2019) (holding state

120a
law unconstitutional because it prohibited abortions
prior to viability if the abortion was sought for a
particular purpose, including solely because of the sex
of the fetus, solely because the fetus has been
diagnosed with or has a potential diagnosis of any
other disability, or solely because of the race, color,
national origin, or ancestry of the fetus); MKB Mgmt.,
795 F. 3d at 744; McCormack v. Herzog, 788 F.3d 1017,
1029 (9th Cir. 2015) (holding state law unconstitutional because it prohibited abortions 20 or more
weeks postfertilization, regardless of fetus attaining
viability); Isaacson, 716 F.3d at 1217 (same); Women’s
Med. Prof’l Corp. v. Voinovich, 130 F.3d 187, 201 (6th
Cir. 1997) (striking down ban on most common
procedure used to provide abortion in the second
trimester); Jane L. v. Bangerter, 102 F.3d 1112, 1114,
1117-18 (10th Cir. 1996) (holding state law unconstitutional because it prohibited abortions 20 or more
weeks gestational age); Sojourner T. v. Edwards, 974
F.2d 27, 29, 31 (5th Cir. 1992) (holding state law
unconstitutional because it prohibited all abortions
with few exceptions); Guam Soc’y of Obstetricians &
Gynecologists v. Ada, 962 F.2d 1366, 1368-69 (9th Cir.
1992) (same); Jackson Women’s Health Org. v. Dobbs,
379 F. Supp. 3d 549 (S.D. Miss. May 24, 2019)
(preliminarily enjoining ban on abortion starting
when cardiac activity is detectable), appeal docketed,
Case No. 19-60455 (5th Cir. June 24, 2019); EMW
Women’s Surgical Ctr. v. Meier, 373 F. Supp. 3d 807
(W.D. Ky. May 10, 2019) (holding state law unconstitutional that required performance of a fetal-demise
procedure prior to evacuation phase of a dilation and
evacuation abortion procedure), appeal docketed,
Case No. 19-5516 (6th Cir. May 15, 2019); Bryant v.
Woodall, 363 F. Supp. 3d 611, 630-32 (M.D. N.C. 2019)
(holding state law unconstitutional when it prohibited

121a
most abortions after 20 weeks of pregnancy), appeal
docketed, Case No. 19-1685 (4th Cir. June 26, 2019);
Jackson Women’s Health Org. v. Currier, 349 F. Supp.
3d 536, 540 (S.D. Miss. 2018) (holding state law
unconstitutional because it prohibited abortions after
15 weeks gestation except in medical emergency or in
case of severe fetal abnormality), appeal docketed,
Case No. 18-60868 (5th Cir. Dec. 17, 2018); PretermCleveland v. Hines, 294 F. Supp. 3d 746, 755 (S.D.
Ohio 2018), appeal argued Case No. 18-3329 (6th
Cir. Jan. 30, 2019) (granting preliminary injunction
motion regarding constitutionality of state law prohibiting abortions based off fetal indication of Down
syndrome), appeal docketed, Case No. 18-3329 (6th
Cir. April 12, 2018).
Based on record evidence, “[i]t is commonly accepted
in the field of OBGYN that a normally developing fetus
will not attain viability until at least 24 weeks LMP.
However, not all fetuses attain viability even at that
stage, due to a variety of factors, such as renal
agenesis (absence of kidneys), anencephaly (profound
neural tube defect), and hydrocephaly (where the skull
is filled with fluid).” (Decl. of Frederick W. Hopkins,
M.D., M.P.H., ¶ 29); see also Casey, 505 U.S. at 860
(viability is weeks after 18 weeks). Defendants at this
stage have come forward with no reliable, generally
accepted medical or scientific record evidence to refute
this. At this stage of the proceeding, defendants point
this Court to no record evidence directed to the issue
of viability. The Court acknowledges its review of the
first declaration of Dr. Harrison, the Executive
Director of AAPLOG, submitted by defendants. She
avers that only with specialized care can some fetus
survive outside of the womb by 22 weeks, and even
then the survival rate is only “as high as 40% in some
medical centers.” (Decl. of Donna J. Harrison, M.D.,

122a
¶ 56). Dr. Harrison cites no source material or scientific studies in support of this assertion at this stage of
the litigation. Even if the Court were willing to reconsider established precedent on fetal viability, it would
not do so on this record at this stage of the proceeding.
Based on record evidence, only the following types of
abortion care are available in Arkansas currently:
medication abortions which are available only up to 10
weeks LMP; aspiration surgical procedures, performed
until approximately 13 weeks LMP; and D&E surgical
procedures, which are performed until 21.6 weeks
LMP (Decl. of Jason Lindo, Ph.D. ¶ 11). As a result,
the Court determines that Acts 493 and 619 implicate
this analysis of laws directed at pre-viability abortions.
1. Analysis Of Act 493
Act 493 of 2019 amends Arkansas Code Title 20,
Chapter 15 to add an additional Subchapter 20 that
bans abortion “if the probable gestational age of the
unborn human being is determined to be greater than
18 weeks,” as measured from the first day of a
woman’s last menstrual period in nearly all cases (“Act
493”). See Act 493, to be codified at Ark. Code Ann.
§ 20-16-2004(b). Act 493 specifically prohibits a person
from “intentionally or knowingly” performing, inducing, or attempting to perform or induce an abortion, if
the probable gestational age is determined “to be
greater than eighteen (18) weeks’ gestation,” as
measured “from the first day of the last menstrual
period of the pregnant woman.” Ark. Code Ann. §§ 2016-2004(b); 20-16-2003(9).
Act 493 includes two exceptions: (1) in the case of a
“medical emergency,” narrowly defined as “a condition
that, on the basis of the physician’s good faith clinical
judgment, necessitates an abortion to preserve the life

123a
of the pregnant woman whose life is endangered by a
physical [condition] . . . or when the condition of the
pregnancy will create a serious risk of substantial and
irreversible impairment of a major bodily function,”
Arkansas Code Annotated §§ 20-16-2004(b); 20-162003(6), (7); and (2) where the pregnancy is the
result of rape or incest, as defined by Arkansas Code,
Arkansas Code Annotated § 20-16-2004(b).
A violation of Act 493 constitutes a Class D felony,
which is punishable by up to six years in prison and a
fine of up to $10,000.00. Ark. Code Ann. §§ 5-4-201, 401, 20-16-2006(a)(1). Any physician who violates Act
493 also is subject to mandatory license suspension or
revocation by the Arkansas State Medical Board. Ark.
Code Ann. § 20-16-2006(b).
For the following reasons, the Court concludes that,
at this stage of the proceedings and on the record
evidence currently before the Court, plaintiffs are
likely to prevail on their argument that Act 493
unconstitutionally restricts pre-viability abortions
and, therefore, is facially unconstitutional.
a. Act 493: Analysis Of State’s Asserted
Interest
As part of evaluating the benefits of a regulation,
this Court must evaluate the Arkansas legislature’s
findings when enacting the regulation. The Arkansas
legislature, when enacting Act 493, included legislative findings and intent (Dkt. No. 2-1, at 6-9).
In Hellerstedt, the Supreme Court clarified that
arguments “that legislatures, and not courts, must
resolve questions of medical uncertainty is also
inconsistent with this Court’s case law.” 136 S. Ct. at
2310. Instead, the Supreme Court, “when determining
the constitutionality of laws regulating abortion

124a
procedures, has placed considerable weight upon evidence and argument presented in judicial proceedings.” Id. The Supreme Court, citing its Casey, 505
U.S. 833, and Gonzales, 550 U.S. 124, decisions,
reaffirmed that a court reviews legislative fact finding
under a “deferential standard” but “must not ‘place
dispositive weight’” on those findings. Hellerstedt, 136
S. Ct. at 2310 (citing and quoting Gonzales, 550 U.S.
at 165). The Court stated that the “Court retains an
independent constitutional duty to review factual
findings where constitutional rights are at stake.” Id.
(emphasis in original) (quoting Gonzales, 550 U.S. at
165). Where record evidence contradicts some legislative findings, uncritical deference to the legislative
factual findings is inappropriate. Id.
The Arkansas legislature made several legislative
findings when enacting Act 493; the Court examines
them to determine whether they conflict with the
Court’s findings. The Court has given the legislature’s
findings careful consideration. Here, based on the
record evidence presented, binding legal precedent,
and the Supreme Court’s Hellerstedt majority opinion,
the Court determines that plaintiffs are likely to
prevail on their argument that deference to the
Arkansas legislature’s factual findings would be
inappropriate. Specifically, to the extent the State
recites findings regarding prenatal development of a
fetus, those findings contradict binding Supreme
Court precedent with respect to how viability is to be
determined as explained in this Order. See Act 493,
§ 1, to be codified at Ark. Code Ann. § 20-16-2002
(a)(2)(A) to (F) (reciting purported milestones in fetal
development that do not equate with viability as
defined by the Eighth Circuit and Supreme Court).
Because the legislative findings and any asserted
State interest consistent with those findings are

125a
inconsistent with binding legal precedent related to
this Court’s examination of abortion laws and
viability, and because at this stage of the proceeding
the Court concludes that there is no competent record
evidence presented by defendants to permit this Court
to re-evaluate this precedent, the Court finds that
plaintiffs are likely to prevail on their argument that
this Court should reject the Arkansas legislature’s
findings and the State’s asserted interest on this basis
as unconstitutional. MKB Mgmt., 795 F.3d at 773
(quoting and citing Colautti, 439 U.S. at 388; see also
Casey, 505 U.S. at 870 (plurality opinion) (“[T]he
concept of viability . . . is the time at which there is a
realistic possibility of maintaining and nourishing a
life outside the womb . . . .”); Roe, 410 U.S. at 160, 163
(stating that a fetus becomes viable when it is
“potentially able to live outside the mother’s womb,
albeit with artificial aid” and that viability is the point
at which the fetus “presumably has the capability of
meaningful life outside the mother’s womb”)); (Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 29; Decl. of
Donna J. Harrison, M.D., ¶ 56).
To the extent the State recites legislative findings
purportedly drawn from Casey and Roe, plaintiffs are
likely to prevail on the argument that those findings
fail to account for controlling Eighth Circuit and
Supreme Court precedent as related to pre-viability
abortion prohibitions. See Act 493, § 1, to be codified
at Ark. Code Ann. § 20-16-2002(a)(3) (reciting purported holdings from Casey and Roe that disregard
binding precedent related to pre-viability abortions).
To the extent the State recites legislative findings
that call into question the safety of abortion, these
findings at this stage of the litigation and on the record
evidence currently before the Court appear to be

126a
simply “incorrect.” Gonzales, 550 U.S. at 165. The
evidence in this case, which is examined in more detail
in subsequent sections of this Order, and in the prior
cases cited by this Court including Hellerstedt, makes
clear, at least at this stage of the proceeding, that
plaintiffs are likely to prevail on their argument that
the procedures are remarkably safe. On these matters,
deference to the Arkansas legislature’s factual findings would be inappropriate. Gonzales, 550 U.S. at
165. Having resolved this, the Court turns to analyze
the constitutionality of Act 493.
b. Act 493: Analysis Of Claimed Burden
Because Act 493 prohibits nearly all abortions
before viability, despite its limited exceptions, plaintiffs are likely to prevail on their argument that Act
493 is facially unconstitutional under controlling precedent. Edwards, 786 F.3d at 1117; MKB Mgmt., 795
F.3d at 771. It is the view of the Court that the undue
burden test does not apply to its analysis of Act 493.
Plaintiffs are likely to prevail on their argument that
Act 493 prohibits pre-viability abortions past 18 weeks
LMP, which the Supreme Court has clearly held is a
prohibition that cannot be imposed by the State.
Casey, 505 U.S. at 879. This Court is not alone in
refusing to apply the undue burden standard when
presented with state laws that unconditionally eliminate the right to abort a nonviable fetus for a defined
class of women. See Isaacson, 716 F.3d 1225 (finding
undue burden analysis to “have no place where” state
is “forbidding certain women from choosing previability abortions”).
The narrow exceptions to Act 493 do not change the
constitutional analysis or this Court’s determination
at this stage of the proceeding. See, e.g., Casey, 505
U.S. at 879 (“Regardless of whether exceptions are

127a
made for particular circumstances, a State may not
prohibit any woman from making the ultimate decision to terminate her pregnancy before viability.”);
Edwards, 786 F.3d at 1117 (same); Isaacson, 716 F.3d
at 1227-28 (holding that “while a health exception is
necessary to save an otherwise constitutional postviability abortion ban from challenge, it cannot save
an unconstitutional prohibition on the exercise of a
woman’s right to choose to terminate her pregnancy
before viability.”).8
For all of these reasons, the Court grants plaintiffs’ motion for preliminary injunction and enjoins
Act 493 at this stage of the proceeding as facially
unconstitutional.
2. Analysis Of Act 619
Act 619 amends Arkansas Code Title 20, Chapter 16
to add an additional Subchapter 20 that prohibits a
physician from intentionally performing or attempting
to perform an abortion “with the knowledge” that a
pregnant woman is seeking an abortion “solely on the
basis” of: (1) a test “indicating” Down syndrome; (2) a
prenatal diagnosis of Down syndrome; or (3) “[a]ny
other reason to believe” the “unborn child” has Down
syndrome. Act 619, § 1, to be codified at Ark. Code
Ann. § 20-16-2003.
Act 619 defines “unborn child” as “offspring of
human beings form conception until birth.” Act 619,
§ 1, to be codified at Ark. Code Ann. § 20-16-2002(4).

8

In this Court’s temporary restraining order, although the
Court determined Hellerstedt did not apply to this type of previability restriction, the Court engaged in that alternative
analysis. The Court declines to do so now and has made no factual
findings on this record doing so.

128a
Ark. Code Ann. § 60-16-2002(4). The Court will use
this term when discussing Act 619. However, because
this definition is inconsistent with binding legal
precedent related to this Court’s examination of
abortion laws and viability, and because there is no
competent record evidence presented by defendants at
this stage of the proceeding to permit this Court to reevaluate this precedent, the Court concludes that
plaintiffs are likely to prevail on their argument that
the Arkansas legislature’s definition is unconstitutional. MKB Mgmt., 795 F.3d at 772-73 (quoting and
citing Colautti, 439 U.S. at 388); see also Casey, 505
U.S. at 870 (plurality opinion) (“[T]he concept of
viability . . . is the time at which there is a realistic
possibility of maintaining and nourishing a life outside
the womb . . . .”); Roe, 410 U.S. at 160, 163 (stating that
a fetus becomes viable when it is “potentially able to
live outside the mother’s womb, albeit with artificial
aid” and that viability is the point at which the
fetus “presumably has the capability of meaningful
life outside the mother’s womb”). Further, Act 619’s
prohibition applies to all abortions throughout the
period of pregnancy, both pre-viability and postviability, with the legislature including a severability
provision. Act 619, § 1, to be codified at Ark. Code Ann.
§ 20-16-2003(c).
The Act requires physicians, prior to performing the
abortion, to ask the pregnant woman if she is aware of
any test results, prenatal diagnosis, or any other
evidence that the unborn child may have Down syndrome. Act 619, § 1, to be codified at Ark. Code Ann.
§ 20-16-2003(b)(1). If the pregnant woman knows of
such evidence, the physician who is performing the
abortion must inform the woman of the prohibition of
abortions solely on the basis of Down syndrome and
request the woman’s medical records to determine the

129a
possibility of any previous abortions relevant to
evidence of a possible Down syndrome diagnosis. Act
619, § 1, to be codified at Ark. Code Ann. § 20-162003(b)(2)(A)-(B). After request of the medical records,
the physician is prohibited from performing the
abortion for fourteen days. Act 619, § 1, to be codified
at Ark. Code Ann. § 20-16-2003(b)(3).
Act 619 exempts a physician if he or she acts to: (1)
necessarily save the life or preserve the health of the
“unborn child” or pregnant woman, Act 619, § 1, to be
codified at Arkansas Code Annotated § 20-162002(1)(B)(i); (2) remove a dead “unborn child” caused
by spontaneous abortion or ectopic pregnancy, Ark.
Code Ann. § 20-16-2002(1)(B)(ii); or (3) when the
pregnancy resulted from rape or incest, id. § 20-162003(d). Violation of Act 619 constitutes a Class D
felony, which is punishable by up to six years in prison
and a fine up to $10,000.00. Ark. Code Ann. §§ 5-4201,-401; Act 619, § 1, to be codified at § 20-16-2004.
In addition, Act 619 requires that the Arkansas State
Medical Board revoke the license of a physician who
violates its mandate, Act 619, § 20-16-2005(c), and
makes that physician liable in a civil action for actual
and punitive damages to “any woman who receives an
abortion in violation of [Act 619] . . . , the parent or
legal guardian of the woman if the woman is an
[unemancipated] minor, or the legal guardian of the
woman if the woman has been adjudicated incompetent,” Arkansas Code Annotated § 20-16-2004(b)(1)-(2).
Act 619 exempts women from having abortions in
violation of the Act from criminal prosecution and civil
liability. Act 619, § 1, to be codified at Ark. Code Ann.
§ 20-16-2006(a). Specifically, in criminal proceedings,
the woman who receives or attempts to receive an
abortion in violation of the Act “is entitled to all rights,

130a
protections, and notifications afforded to crime
victims.” Act 619, § 1, to be codified at Ark. Code Ann.
§ 20-16-2006(b). Further, in civil proceedings, “the
anonymity of the woman who receives or attempts to
receive the abortion in violation of this subchapter
shall be preserved from public disclosure unless she
gives her consent to disclosure.” Act 619, § 1, to be
codified at Ark. Code Ann. § 20-16-2006(c).
For the following reasons, the Court concludes that,
on the record evidence at this stage of the litigation,
plaintiffs are likely to prevail on their argument that
Act 619 unconstitutionally restricts pre-viability
abortions and, therefore, is facially unconstitutional.
a. Act 619: Severability
The prohibition in Act 619 applies to nearly all
abortions with limited exceptions throughout the
period of pregnancy, both pre-viability and postviability, with the legislature including a severability
provision. Act 619, § 1, to be codified at Ark. Code Ann.
§ 20-16-2003(c). When confronting a constitutional
flaw in a statute, a federal court must “try not to
nullify more of a legislature’s work than is necessary.”
Ayotte, 546 U.S. at 329. It is preferable “to enjoin only
the unconstitutional applications of a statute while
leaving other applications in force, or to sever its
problematic portions while leaving the remainder
intact.” Id. (citations omitted). Severability is a matter
of state law. See Russell v. Burris, 146 F.3d 563, 573
(8th Cir. 1998). Under Arkansas law, “an act may be
unconstitutional in part and yet be valid as to the
remainder.” Ex Parte Levy, 163 S.W.2d 529 (1942). In
determining whether a constitutionally invalid
portion of a legislative enactment is fatal to the
entire legislation, the Supreme Court of Arkansas
looks to “(1) whether a single purpose is meant to be

131a
accomplished by the act; and (2) whether the sections
of the act are interrelated and dependent upon each
other.” U.S. Term Limits, Inc. v. Hill, 872 S.W.2d 349,
357 (1994). Applying this standard, the Court satisfies
itself that, under the law, an examination of Act 619
with respect to pre-viability and post-viability abortion would be warranted.
Based on record evidence, however, only the following types of abortion care are available in Arkansas
currently: medication abortions which are available
only up to 10 weeks LMP, aspiration surgical procedures, performed until approximately 13 weeks LMP,
and dilation and evacuation D&E surgical procedures,
which are performed until 21.6 weeks LMP (Decl. of
Jason Lindo, Ph.D. ¶ 11).
Furthermore, based on record evidence, “[i]t is
commonly accepted in the field of OBGYN that a
normally developing fetus will not attain viability
until at least 24 weeks LMP. However, not all fetuses
attain viability even at that stage, due to a variety of
factors, such as renal agenesis (absence of kidneys),
anencephaly (profound neural tube defect), and
hydrocephaly (where the skull is filled with fluid).”
(Decl. of Frederick W. Hopkins, M.D., M.P.H., ¶ 29).
Even Dr. Harrison, the Executive Director of AAPLOG,
avers that only with specialized care can some fetus
survive outside of the womb by 22 weeks, and even
then the survival rate is only “as high as 40% in some
medical centers.” (Decl. of Donna J. Harrison, M.D.,
¶ 56). Dr. Harrison cites no source material or scientific studies in support of this assertion at this stage of
the litigation.9
9

As discussed previously in the section on Article III standing,
since the record evidence shows that post-viability abortions are

132a
b. Act 619: Analysis of State’s Asserted
Interest
In this case, the Arkansas legislature made no
findings regarding an identified set of perceived
problems with the current method of care for abortion
patients that Act 619 is intended to address. There is
no record evidence of the number of women who
receive a fetal diagnosis of Down syndrome and then
opt to abort or carry a pregnancy to term in Arkansas.
There is no record evidence of the number of children
born in Arkansas over time with Down syndrome.
Further, the Arkansas legislature made no findings
that Act 619 would solve such problems or do much to
solve such problems, if such problems even existed.
See Casey, 505 U.S. at 845-46 (majority opinion).
The Court acknowledges that defendants have
included record evidence of women who have had
abortions claiming to regret those abortions or claiming to have felt pressured into obtaining an abortion,
specifically in circumstances involving alleged
diagnosis of Down syndrome (see Dkt. No. 49-1, at 427; Decl. of Judy McGruder, ¶ 11). However, current
law makes clear that, before viability, “the State’s
interests are not strong enough to support a prohibition of abortion or the imposition of a substantial
obstacle to the woman’s effective right to elect the
procedure.” Casey, 505 U.S. at 845-46; see MKB
Mgmt., 795 F.3d at 772.
Currently, with respect to abortion providers like
plaintiffs, Arkansas mandates pre-abortion counseling
not performed in Arkansas, the Court will not examine whether
Act 619 is constitutional as applied to post-viability abortions at
this stage of the proceedings. Plaintiffs do not challenge this
determination (Dkt. No. 104, at 3 n.2).

133a
with informed consent, Ark. Admin. Code § 007.05.2-7
(“prior to the abortion, the patient shall be counseled
regarding the abortion procedure, alternatives to
abortion, informed consent, medical risks associated
with the procedure, potential post-abortion complications, community resources and family planning” and
“documentation of counseling shall be included in the
patient’s medical record . . . .”), and imposes a 48-hour,
soon to be 72-hour,10 waiting period between an initial
consultation and an abortion. However, undisputed
record evidence confirms that abortion providers like
plaintiffs typically do not provide the genetic testing
or counseling with respect to Down syndrome that the
Arkansas legislature intends to address with Act 619
(Decl. of Lori Williams, M.S.N., A.P.R.N., ¶ 29).
Record evidence demonstrates that other medical
providers, usually a woman’s family practice doctor or
treating OBGYN, provide genetic testing and initial
counseling and then refer a woman to a genetic
counselor or maternal-fetal specialist for further
testing or counseling based on the circumstances (Id.,
¶ 29). As an initial matter, there is no record evidence
that genetic tests during pregnancy are mandatory in
Arkansas. Further, there is no record evidence that
Arkansas has taken steps to regulate the speech of
relevant medical providers on this issue to ensure a
thoughtful and informed choice and to advance the
10

On April 20, 2019, Arkansas enacted a new law requiring a
72-hour waiting period between a woman’s consultation with a
doctor concerning a possible abortion and any abortion procedure,
except where it “will cause substantial and irreversible impairment of a major bodily function.” 2019 Ark. Acts 801, to be
codified at Ark. Code Ann. §§ 20-16-1109, -1703(b), -1706. This
law goes into effect on July 24, 2019. There is no record evidence
that any party has challenged this new law.

134a
State’s asserted interest. Instead, the Arkansas legislature moved to prohibit abortion on this basis with
Act 619.
To the extent the Arkansas legislature intends to
move the point of viability to conception through Act
619, this effort is inconsistent with binding legal
precedent related to this Court’s examination of abortion laws and viability, and because there is no competent record evidence at this stage of the litigation
presented by defendants to permit this Court to reevaluate this precedent, the Court determines that
plaintiffs are likely to prevail on their argument that
the Arkansas legislature’s effort to move the point of
viability to conception through Act 619 is unconstitutional. MKB Mgmt., 795 F.3d at 772-73 (quoting and
citing Colautti, 439 U.S. at 388); see Casey, 505 U.S. at
870 (plurality opinion) (“[T]he concept of viability . . .
is the time at which there is a realistic possibility
of maintaining and nourishing a life outside the
womb . . . .”); Roe, 410 U.S. at 160, 163 (stating that a
fetus becomes viable when it is “potentially able to live
outside the mother’s womb, albeit with artificial aid”
and that viability is the point at which the fetus
“presumably has the capability of meaningful life
outside the mother’s womb”).
Based on this, the Court concludes that, at this stage
of the proceeding and on the record evidence before it,
plaintiffs are likely to prevail on their argument that
Act 619 impacts pre-viability abortions when the
State’s interests are not strong enough to support a
prohibition of abortion.
c. Act 619: Analysis of Claimed Burdens
Recently, two courts have considered provisions
similar, although not identical to, Act 619. In Planned

135a
Parenthood of Indiana and Kentucky, Inc. v. Commissioner of Indiana State Department of Health, 888 F.3d
300, 306 (7th Cir. 2018), reh’g en banc granted,
judgment vacated, 727 F. App’x 208 (7th Cir. 2018),
vacated, 917 F.3d 532 (7th Cir. 2018), and cert. granted
in part, judgment rev’d on other grounds sub nom. Box
v. Planned Parenthood of Indiana & Kentucky, Inc.,
139 S. Ct. 1780 (2019), the Seventh Circuit held
unconstitutional a law prohibiting abortion because
the law prohibited abortions prior to viability if the
abortion was sought for a particular purpose,
including solely because of the sex of the fetus, solely
because the fetus has been diagnosed or has a
potential diagnosis of any other disability, or solely
because of the race, color, national origin, or ancestry
of the fetus. In Preterm-Cleveland, 294 F. Supp. at 755,
the district court enjoined a law that prohibited
abortions sought in whole or in part on the basis of a
Down syndrome diagnosis.
Act 619 as applied to pre-viability abortions performed in Arkansas attempts to accomplish what the
Supreme Court has held impermissible. Plaintiffs are
likely to prevail on their argument that Act 619 is
unconstitutional on its face as applied to pre-viability
abortions performed in Arkansas because it clearly
violates well-established Eighth Circuit and Supreme
Court precedent holding that a woman may terminate
her pregnancy prior to viability, and that the State
may not prohibit a woman from exercising that right
solely upon the basis on which a woman makes her
decision. See Casey, 505 U.S. at 870. Before viability,
“the State’s interests are not strong enough to support
a prohibition of abortion.” Planned Parenthood of
Indiana & Kentucky, Inc., 265 F. Supp. 3d at 867
(quoting Casey, 505 U.S. at 869 (“[a]t a later point in
fetal development,”—namely viability—“the State’s

136a
interest in life has sufficient force so that the right of
the woman to terminate the pregnancy can be
restricted.”)). It is the view of the Court that the undue
burden test does not apply to its analysis of Act 619.
Act 619 prohibits abortions prior to viability if the
abortion is sought solely based on some indication,
whether by diagnosis or any reason to believe, the
fetus has Down syndrome. Act 619, § 1, to be codified
at § 20-16-2003. Based on the record evidence before
the Court at this stage of the proceeding, plaintiffs are
likely to prevail on their argument that the Act is an
absolute prohibition on certain abortions prior to
viability which the Supreme Court has clearly held
cannot be imposed by the State. Casey, 505 U.S. at 879
(plurality opinion). This Court is not alone in refusing
to apply the undue burden standard when presented
with state laws that unconditionally eliminate the
right to abort a nonviable fetus for a defined class of
women. See Isaacson, 716 F.3d at 1225 (finding undue
burden analysis to “have no place where state is
forbidding women from choosing pre-viability abortions”); Himes, 294 F. Supp. 3d at 754 (finding
state law prohibiting pre-viability abortions based on
Down syndrome diagnosis unconstitutional infringement rather than appropriate law to apply undue
burden test).
The narrow exceptions to Act 619 do not change the
constitutional analysis or this Court’s determination
at this stage of the proceeding. See, e.g., Casey, 505
U.S. at 879 (“Regardless of whether exceptions are
made for particular circumstances, a State may not
prohibit any woman from making the ultimate
decision to terminate her pregnancy before viability.”);
Edwards, 786 F.3d at 1117 (same); Isaacson, 716 F.3d
at 1227-28 (holding that “while a health exception is
necessary to save an otherwise constitutional post-

137a
viability abortion ban from challenge, it cannot save
an unconstitutional prohibition on the exercise of a
woman’s right to choose to terminate her pregnancy
before viability.”).11
For all of these reasons, the Court grants plaintiffs’
motion for preliminary injunction and enjoins Act 619
at this stage as facially unconstitutional.
D. Analysis Of Act 700
Act 700 of 2019, Ark. Code Ann. § 20-16-605,
provides that “[a] person shall not perform or induce
an abortion unless that person is a physician licensed
to practice medicine in the State of Arkansas and is
board-certified or board-eligible in obstetrics and
gynecology.” Ark. Code Ann. § 20-16-605(a).12 Act 700
11

In this Court’s temporary restraining order, although the
Court determined Hellerstedt did not apply to this type of previability restriction, the Court engaged in that alternative analysis. The Court declines to do so now and has made no factual
findings on this record doing so.
12

Further, Section 2 of Act 700 purports to alter the definition
of “viable fetus” to: “‘Viability’ means the state of fetal development when, in the judgment of the physician based on the
particular facts of the case before him or her and in light of the
most advanced medical technology and information available to
him or her, there is a reasonable likelihood of sustained survival
of the unborn child outside the body of the mother, with or
without artificial life support.” Ark. Code Ann. § 20-16-702(3).
This language comports with controlling Eighth Circuit and
Supreme Court precedent with respect to “viability.” See MKB
Mgmt., 795 F.3d at 772-73 (quoting and citing Colautti, 439 U.S.
388; see also Casey, 505 U.S. at 870 (plurality opinion) (“[T]he
concept of viability . . . is the time at which there is a realistic
possibility of maintaining and nourishing a life outside the
womb . . . .”); Roe, 410 U.S. at 160, 163 (stating that a fetus
becomes viable when it is “potentially able to live outside the
mother’s womb, albeit with artificial aid” and that viability is the

138a
makes a violation of this requirement a Class D felony
and subjects the person to revocation, suspension, or
nonrenewal of the professional license of an abortion
facility or physician. Ark. Code Ann. § 20-16-605(b). A
Class D felony in Arkansas is punishable by up to
six years in prison and a fine of up to $10,000.00. Ark.
Code Ann. §§ 5-4-201, -401.
Before the enactment of Act 700, the law in
Arkansas already required that only a physician
licensed to practice medicine in the State of Arkansas
may provide abortion care. Ark. Code Ann. § 5-61101(a). As a result, plaintiffs challenge that portion of
Act 700 that requires the physician to also be boardcertified or board-eligible in OBGYN. Ark. Code Ann.
§ 20-16-605(a).
For the reasons discussed below, at this stage of the
proceeding and based upon the record evidence before
it, the Court finds that plaintiffs have demonstrated
that they are likely to prevail in showing that Act 700’s
OBGYN agreement confers little, if any, benefit upon
women in the context of abortion care in Arkansas.
Federal constitutional protection of reproductive
rights is based on the liberty interest derived from the
due process clause of the Fourteenth Amendment.
Casey, 505 U.S. at 846 (majority opinion). The United
States Supreme Court, when recognizing this right,
stated:
We forthwith acknowledge our awareness of
the sensitive and emotional nature of the
abortion controversy, of the vigorous opposing
views, even among physicians, and of the
point at which the fetus “presumably has the capability of
meaningful life outside the mother’s womb”)). Plaintiffs do not
purport to challenge this portion of Act 700.

139a
deep and seemingly absolute convictions that
the subject inspires. One’s philosophy, one’s
experiences, one’s exposure to the raw edges
of human existence, one’s religious training,
one’s attitudes toward life and family and
their values, and the moral standards one
establishes and seeks to observe, are all likely
to influence and to color one’s thinking and
conclusions about abortion.
In addition, population growth, pollution,
poverty, and racial overtones tend to complicate and not to simplify the problem.
Roe, 410 U.S. at 116.
Unless and until Roe is overruled by the United
States Supreme Court, to determine whether a state
statute is unconstitutional and violates substantive
due process rights in this context, the Court applies
the “undue burden” standard developed in Casey, 505
U.S. at 876-79 (plurality opinion), and Hellerstedt, 136
S. Ct. at 2309-11. This Court is bound to follow Eighth
Circuit and Supreme Court precedent.
This Court acknowledges the appeal of defendants’
“commonsense argument” that board-certification or
board-eligibility in OBGYN must confer some benefit
upon women seeking abortions in Arkansas. After a
critical examination of the record evidence to date, the
Court ultimately rejects that argument at least at this
preliminary stage of the litigation and determines that
plaintiffs are likely to prevail on their argument that
“there [is] no significant health-related problem” Act
700 “help[s] to cure”; nor is it “more effective than preexisting [state] law” in furthering defendants’ asserted
interests. Hellerstedt, 136 S. Ct. at 2311, 2314.

140a
This finding, by itself, may be enough to conclude
that the OBGYN requirement unduly burdens the
right to an abortion. See Jackson Women’s Health
Organization v. Currier, 320 F. Supp. 3d 828, 841 n.9
(S.D. Miss. 2018) (“Jackson IV”). The Court notes,
however, that the Eighth Circuit’s decision in Jegley,
864 F.3d at 958-60, appears to require this Court to
weigh benefits and burdens, even in the absence of
any record evidence showing benefits caused by Act
700’s OBGYN requirement. Furthermore, while Dr.
Ho has withdrawn from the motion for temporary
restraining order and/or preliminary injunction, the
Court will treat the present request for a preliminary
injunction as a facial challenge to the OBGYN requirement’s enforcement against all abortion providers in
Arkansas, given the record evidence at this stage of
the proceedings.
In the sections that follow, the Court applies the
undue burden test from Casey and Hellerstedt. First,
the Court examines the benefits, if any, attributable to
the OBGYN requirement. Second, the Court examines
LRFP and PPAEO Little Rock’s attempts to comply
with the OBGYN requirement. Third, the Court considers whether the availability of out-of-state abortion
clinics is relevant to the undue burden analysis.
Fourth, the Court considers the burdens imposed by
the OBGYN requirement. Finally, the Court weighs
the benefits and burdens of the OBGYN requirement
in order to determine if the OBGYN requirement
places an unconstitutional “undue burden” on women.
1. Act 700: Due Process Claim
The Court first turns to examine the benefits, if any,
of Act 700’s OBGYN requirement. At the outset of
this analysis, the Court acknowledges several matters. First, it is settled law that a state may enact

141a
regulations “to foster the health of a woman seeking
abortion” or “to further the State’s interest in fetal
life,” provided that those regulations do not impose an
“undue burden” on the woman’s decision. Casey, 505
U.S. at 877-78 (plurality opinion). The relevant
question before the Court is whether Act 700’s
OBGYN requirement provides the asserted benefits
as compared to the prior law. See Hellerstedt, 136 S.
Ct. at 2311 (“We have found nothing in Texas’
record evidence that shows that, compared to the prior
law, . . . the new law advanced Texas’ legitimate
interest in protecting women’s health.”); id. at 2314
(“The record contains nothing to suggest that [the
challenged law] would be more effective than preexisting Texas law . . . .”) (emphasis added). Therefore,
the specific question at this juncture is whether
requiring abortion providers in Arkansas to comply
with Act 700’s OBGYN requirement that the physician
providing the abortion be board-certified or boardeligible in OBGYN furthers a legitimate interest of the
state, as compared to Arkansas’ pre-existing laws and
regulations affecting abortions.
a. Examining Alleged Health-Related
Problems With Medication Or
Surgical Abortion In Arkansas
In Hellerstedt, the Supreme Court examined a
statute that did not set forth any legislative findings.
Id. at 2310. Specifically, the Supreme Court examined
H.B.2’s requirement that a “physician performing or
inducing an abortion . . . must, on the date the abortion
is performed or induced, have active admitting privileges at a hospital that . . . is located not further than
30 miles from the location at which the abortion is
performed or induced.” 136 S. Ct. at 2310 (citing Tex.
Health & Safety Code. Ann. § 171.0031(a)). The prior

142a
Texas law required doctors who provided abortions to
“have admitting privileges or have a working arrangement with a physician who ha[d] admitting privileges
at a local hospital in order to ensure the necessary
back up for medical complications.” Id. (citing 25 Tex.
Admin. Code, § 139.56 (2009)); see 33 Tex. Reg. 1093
(Dec. 19, 2018) (to be codified at 25 Tex. Admin Code
§ 139.56).13 H.B.2 imposed an admitting privileges
requirement on physicians performing both medication and surgical abortions.
When considering H.B.2’s admitting privileges
requirement, defendants argued, and in Hellerstedt
the Supreme Court recognized, that “[t]he purpose
of the admitting-privileges requirement is to help
ensure that women have easy access to a hospital
should complications arise during an abortion procedure.” 136 S. Ct. at 2311. The district court “found that
it brought about no such health-related benefit,” determining that “[t]he great weight of the evidence
demonstrate[d] that, before the act’s passage, abortion
in Texas was extremely safe with particularly low
rates of serious complications and virtually no death
occurring on account of the procedure.” Id. (citing
Whole Woman’s Health v. Lakey, 46 F. Supp. 3d 673,
684 (W.D. Tex. 2014)). It was on this basis, as noted by
13

It is important to note that Texas has a law that prohibits
hospitals from discriminating against a physician applying for
privileges based on that physician’s status as an abortion
provider or views as to abortion. See Tex. Occ. Code § 103.002(b).
This type of statute in effect protects physicians who perform
abortions from targeted discrimination when applying for admitting privileges. See, e.g., Whole Woman’s Health v. Cole, 790 F.3d
563, 596 n.44 (5th Cir. 2015); Abbott II, 748 F.3d at 598 n.13. As
other courts have observed, the situation is different in states
without such laws. See, e.g., June Med. Servs. LLC v. Kliebert,
158 F. Supp. 3d 473, 501 (M.D. La. 2016) (“Kliebert I”).

143a
the Supreme Court in Hellerstedt, that the district
court determined “there was no significant healthrelated problem that the new law helped to cure.” Id.
According to Hellerstedt, this conclusion was based
on, among other things:


“A collection of at least five peer-reviewed
studies on abortion complications in the
first trimester, showing that the highest
rate of major complications—including
those complications requiring hospital
admission—was less than one-quarter
of 1%.”



“Figures in three peer-reviewed studies
showing that the highest complication
rate found for the much rarer second
trimester abortion was less than one-half
of 1% (0.45% or about 1 out of about 200).”



“Expert testimony to the effect that
complications rarely require hospital
admission, much less immediate transfer
to a hospital from an outpatient clinic. Id.,
at 266-267 (citing a study of complications
occurring within six weeks after 54,911
abortions that had been paid for by the feefor-service California Medicaid Program
finding that the incidence of complications
was 2.1%, the incidence of complications
requiring hospital admission was 0.23%,
and that of the 54,911 abortion patients
included in the study, only 15 required
immediate transfer to the hospital on the
day of the abortion).”



“Expert testimony stating that ‘it is
extremely unlikely that a patient will

144a
experience a serious complication at the
clinic that requires emergent hospitalization’ and ‘in the rare case in which [one
does], the quality of care that the patient
receives is not affected by whether the
abortion provider has admitting privileges
at the hospital.’”


“Expert testimony stating that in respect
to surgical abortion patients who do suffer
complications requiring hospitalization,
most of those complications occur in the
days after the abortion, not on the spot.”



“Expert testimony stating that a delay
before the onset of complications is also
expected for medical abortions, as ‘abortifacient drugs take time to exert their
effects, and thus the abortion itself almost
always occurs after the patient has left the
abortion facility.’”



“Some experts added that, if a patient
needs a hospital in the day or week following her abortion, she will likely seek
medical attention at the hospital nearest
her home.”

Hellerstedt, 136 S. Ct. at 2311 (internal record
citations omitted).
The Supreme Court in Hellerstedt reviewed medication and surgical abortion statistics and research to
reach its conclusion and noted that, “when directly
asked at oral argument whether Texas knew of a
single instance in which the new requirement would
have helped even one woman obtain better treatment,
Texas admitted that there was no evidence in the
record of such a case.” Id. at 2311-12. The Supreme

145a
Court observed: “This answer is consistent with the
findings of the other Federal District Courts that have
considered the health benefits of other States’ similar
admitting-privileges laws.” Id. at 2312 (citing Planned
Parenthood of Wis., Inc. v. Van Hollen, 94 F. Supp. 3d
949, 953 (W.D. Wis. 2015) (“Van Hollen IV”), aff’d sub
nom Schimel, 806 F.3d 908; Planned Parenthood Se.,
Inc. v. Strange, 33 F. Supp. 3d 1330, 1378 (M.D. Ala.
2014 (“Strange III”)).
The Eighth Circuit has determined that Hellerstedt
requires the Court to “weigh the state’s ‘asserted
benefits’” on the record before it. Comprehensive
Health of Planned Parenthood Great Plains v. Hawley,
903 F.3d 750, 758 (8th Cir. 2018) (vacating and reversing Missouri district court that relied on Hellerstedt’s
analysis of the purported benefits of the Texas law
without examining record evidence specific as to
Missouri). As a result, this Court will examine the
record before it. The record evidence before the
Court at this stage of the proceeding leads the Court
to conclude that plaintiffs are likely to prevail on the
argument that there is “no significant health-related
problem” intended to be addressed by Act 700.
Hellerstedt, 136 S. Ct. at 2311.
Plaintiffs present scientific record evidence that is
generally accepted in the medical community that
“[l]egal abortion is one of the safest medical procedures
available in the United States.” (Dkt. No. 4, at 5; Decl.
of Frederick W. Hopkins, M.D., M.P.H., ¶ 21; Decl. of
Linda W. Prine, M.D., ¶ 26; Decl. of Stephanie Ho,
M.D., ¶ 16). This scientific record evidence includes
the National Academy Consensus Study Report, prepared by the National Academy of Sciences, Engineering, and Medicine which Congress established to
provide objective advice on matters relating to science

146a
and technology. The National Academy Consensus
Study Report “determined that the risks associated
with medication abortion are similar to those associated with over-the-counter anti-inflammatory drugs
such as ibuprofen” and that “the risks associated with
surgical abortion are extremely low, with the risk of
complications being in the 0-to-5% range.” (Dkt. No. 4,
at 5-6 (citing National Academy Consensus Study
Report, at 11, 74-75)). Record evidence supports that
legal abortion is significantly safer for a woman than
carrying a pregnancy to term and giving birth (Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 28; Decl. of
Lori Williams, M.S.N., A.P.R.N., ¶ 9; see National
Academy Consensus Study Report, at 75).
14

Having carefully considered at this preliminary
stage the record evidence before it, the Court determines that the record evidence defendants rely on in
an effort to refute this is lacking. The Court has examined Dr. Aultman’s declarations and the materials
she cites.
The defendants also assert that “[a]bortion is a
dangerous business” by claiming and citing as support
for that proposition that LRFP has called an ambulance for a patient 64 times in 20 years of providing
abortion care, claiming “an average of 3.2 calls a year.”
(Dkt. No. 103, at 1, citing Decl. of Mary Silfies). First,
defendants present no record evidence regarding why
these ambulances were called to LRFP (Decl. of Mary
Silfies, ¶ 5). Instead, defendants cite this number and
presumably ask the Court to infer that these calls
were for patients and related to abortion care or in
some way reflect on care purportedly provided by one
14

Our Reputation, http://www.nationalacademies.org/about/
reputation/index.html (last visited August 5, 2019).

147a
abortion provider in particular who is neither boardcertified, board-eligible, nor an OBGYN—Dr. Tvedten
(Dkt. No. 103, at 46). For reasons the Court will
explain, the Court declines to make these inferences.
Second, even if this Court were to assume that this
total number of ambulance calls relates in some way
to abortion patients and the provision of abortion care,
this purported complication rate is consistent with
what is reflected in the literature that complication
rates for abortion care are exceedingly low. Given the
number of abortion procedures performed at LRFP
each year, even if the Court makes defendants’
assumption that the total number of ambulance calls
relates in some way to abortion patients and the
provision of abortion care, this evidence is consistent
with the findings of the Supreme Court in Hellerstedt
regarding these procedures; it does not refute such
evidence. Between May 1, 2016, and April 30, 2019,
LRFP provided 7,010 abortions (Decl. of Jason Lindo,
Ph.D., ¶ 15), and called an ambulance according to
defendants ten times, if defendants’ record evidence is
accepted at this stage (Dkt. No. 49-5, at 5). That
equates to a 0.14%15 complication rate requiring hospital transfers; this supports and does not detract from
the notion that the risks associated with abortion care
are extremely low (Dkt. No. 61, at 37).
However, the Court does not have to make assumptions because there is record evidence addressing
this point. Ms. Williams testified at the July 22, 2019,
hearing that LRFP tracks the number of times each
year it transfers a patient to a local hospital for care
(Dkt. No. 84, at 85:18-20). Since January 2017, LRFP
has transferred a patient to a local hospital for care
15

10/7,010=0.0014.

148a
five times total; three of the entries for this period
have no drop off address (Id., at 85:21-86:9). Ms.
Williams addressed defendants’ assumption regarding
the total number of ambulance calls with respect to the
record LRFP maintains (Id., at 86:10-87:11). Ms.
Williams was subject to cross examination on this
point. Utilizing the record evidence, the Court calculates an even lower rate of 0.07%16 for complications
requiring hospital transfers for this period.
In their most recent filing, plaintiffs give defendants
the benefit of the doubt regarding the three ambulance
calls listed with no drop off address, acknowledging
one of these entries is a duplicate entry for January
2018 (Decl. of Mary Silfies, ¶ 5). Even with this, and
even assuming seven ambulance calls during this
period, the transfer rate equates to 0.09%17 which is
lower than what the record evidence demonstrates is
commonly understood as the rate of complications for
abortion care. In fact, all these calculations comport
with a determination that the rate of complications
requiring hospital transfers for abortions performed at
LRFP is lower than what the record evidence demonstrates are the commonly accepted complication rates
for abortion care, with “1% to 3%” for minor complications and “one every few hundred” for major complications (Dkt. No. 84, at 18:1-8).
In Dr. Aultman’s “rebuttal declaration,” she raises
issues with respect to Dr. Tvedten’s prior conviction
for second degree criminal mischief in 1987 and a
temporary, brief license suspension and suspension of
his ability to prescribe certain medications for a brief
period of time in the early 1980s in response to an
16

5/7,010=0.0007.

17

7/7,010=0.0009.

149a
incident (Rebuttal Decl. of Kathi Aultman, M.D.,
¶ 10).18 The incident regarding criminal mischief
relates to Dr. Tvedten, after requesting that an individual stop photographing without their consent
women attempting to enter an abortion clinic, breaking the camera of the individual. Dr. Tvedten was
questioned about this at the July 22, 2019, hearing
and relayed that he was required to purchase the
18

In a recent filing, defendants also present a letter from Dr.
Tvedten to the Arkansas Medical Board in which he admits to a
driving under the influence conviction (Dkt. No. 103-1, at 1). They
also present an accusation that Dr. Tvedten threatened an
individual in a rental dispute (Id., at 2). Finally, defendants
present an undated handwritten note with respect to alleged
conduct by Dr. Tvedten (Dkt. No. 103-1, at 3). Plaintiffs object
to these documents as not properly authenticated because the
documents are unaccompanied by any certification explaining
from where the documents were obtained (Dkt. No. 107, at 6 n.6
(citing Fed. R. Evid. 902)). Further, plaintiffs point out that
defendants redacted the purported complainant’s name from the
second document, which plaintiffs claim further undermines its
probative value.
Although defendants attach these documents to their filing,
defendants provide to the Court no affidavit or other record
evidence to aid the Court in evaluating the documents. Dr.
Tvedten testified at the July 22, 2019, hearing, and defendants
had the opportunity to present these documents during his cross
examination. Defendants chose not to do so. Two of the documents defendants attach are over ten years old, with one dating
from 2008 and the other from 1998, and the third is undated
based on this Court’s review. There is no indication from these
documents what occurred, if anything, as a result of these
alleged events in terms of investigations or actions taken by the
Arkansas State Medical Board. Moreover, defendants make no
argument and offer no record evidence as to why Act 700’s
OBGYN requirement advances defendants’ asserted interests
here over the Arkansas State Medical Board’s ability to address
these incidents and advance defendants’ asserted interests. As a
result, the Court finds these documents of little probative value.

150a
individual a new camera (Dkt. No. 84, at 175:15-25).
As an initial matter, defendants’ efforts to cast doubt
on Dr. Tvedten’s competence as an abortion provider
through this type of evidence fall short. There is record
evidence that Dr. Tvedten is a competent, highly
skilled practitioner who regularly trains others and
receives referrals from other medical professionals due
to his skilled abortion care (Dkt. No. 84, at 16:12-18;
176:2-17; 177:15-23; 203:15-17; 204:4-5). To the extent
defendants attempt to imply that Dr. Tvedten is unfit
to practice medicine, the Court notes that Dr. Tvedten
remains an Arkansas-licensed physician, subject to
all laws and regulations, and defendants have not
presented any competent record evidence to support
that serious allegation. Further, even if such an implication were warranted, defendants offer no record
evidence to explain why Act 700’s OBGYN requirement is more effective than pre-existing Arkansas
laws and regulations in furthering defendants’
asserted interests.
The Court notes that Dr. Harrison has filed a supplemental declaration in which she cites 162 scientific
articles that she claims show a link between prior
abortions and “preterm” births (Supp. Decl. Donna J.
Harrison, M.D., ¶ 3). The Court examines these
articles, infra, in this Order. See Section III.D.1.c. Dr.
Harrison’s supplemental declaration and the articles
she cites do not support an assertion that legal
abortion is an unsafe medical procedure.
Having examined all record evidence at this stage of
the proceedings, the Court determines that plaintiffs
are likely to prevail on the question of whether legal
abortion is one of the safest medical procedures
available in the United States and in Arkansas and on
the point that Act 700 provides no benefit if intended

151a
to address a medical safety problem with legal abortion in Arkansas that on this record does not exist.19

19

In its temporary restraining order, this Court observed that
this comports with concessions reportedly made by the lead
sponsor of Act 700 (Dkt. No. 83, at 101-02). In support of their
argument on this point, plaintiffs cited to material not a part of
the record evidence (Dkt. No. 4 at 37-38 (citing S.B. 448 Floor
Debate; Dkt. No. 4, at 31, n. 94 (quoting S.B. 448 Hearing
Testimony)). Plaintiffs have not supplemented the record with
this evidence at this stage of the proceeding, and the Court is not
aware of the public availability of such evidence. As a result, the
Court makes no finding of fact with respect to this.
Regardless, the arguments made by plaintiffs based on this
type of evidence were not, and are not, dispositive of the issues
with respect to Act 700. Plaintiffs argued that “[t]his rationale is
dispositive under Eighth Circuit authority: If a ‘requirement
serves no purpose other than to make abortions more difficult, it
strikes at the heart of a protected right, and is an unconstitutional burden on that right.’” (Dkt. No. 4, at 47 (citing Planned
Parenthood of Greater Iowa, Inc. v. Atchison, 126 F.3d 1042, 1049
(8th Cir. 1997)). Further, plaintiffs contended that statements by
“the sponsors and supporters of the legislation as to its central
purpose” may be considered, even if “statements on the floor by
legislators are not always the most persuasive indicia of legislative intent.” (Dkt. No. 61, at 35 (quoting United States v. Dean,
647 F.2d 779, 787 n.15 (8th Cir. 1981); see also Perkins v. City of
W. Helena, Ark., 675 F.2d 201, 213 (8th Cir. 1982) (“The
legislative or administrative history is relevant to the issue of
discriminatory intent, especially where, as here, there are contemporary statements of members of the decisionmaking body.”)).
Although defendants did not attempt to distinguish Atchison,
and although these allegations coupled with evidence that
Arkansas has enacted more than 25 laws regulating abortion
access in the State, including 12 enacted in 2019 alone (Dkt. No.
4, at 28, n.70, n.71), gave the Court pause with respect to the
purpose of Act 700, the Court did not find these matters dispositive and examined Act 700 by applying the undue burden analysis from Hellerstedt.

152a
b. Examining Efforts To Establish A
“Floor Of Care”
The Court next turns to examine whether, even if
there is no significant health-related problem with
legal abortion in the United States or in Arkansas
that Act 700 is intended to address, there is
nonetheless a benefit from Act 700. The Eighth Circuit
in at least one prior decision stemming from a challenge to an Arkansas abortion statute—Section
1504(d) of Arkansas Act 577 requiring that Arkansas
abortion facilities providing medication abortions
must “have a signed contract with a physician who
agrees to handle complications” and who has “active
admitting privileges and gynecological/surgical privileges at a hospital designated to handle any
emergencies associated with the use or ingestion of the
abortion-inducing drug,” Ark. Code Ann. § 20-161504(d)(1),(2) (“Section 1504(d) of Arkansas Act
577”)—suggested that this Court should consider
whether the statute might be intended to set a “floor
of care,” such as was present in Texas and examined
by the Supreme Court in Hellerstedt. See Jegley, 864
F.3d at 960 n.9; see also Comprehensive Health of
Planned Parenthood Great Plains, 903 F.3d at 758
(vacating and remanding, in part, for the district court
to consider whether a “hospital relationship requirement” was a valid exercise of Missouri’s “inherent
‘police power’” or “legitimate interest in seeing to it
that abortion, like any other medical procedure, is
performed under circumstances that insure maximum
safety for the patient”) (internal citations omitted).
The Eighth Circuit suggested that, under the circumstances presented in Jegley, a “legal floor” would
prevent an abortion provider from, in the future,
reducing continuity-of-care practices and thus “would
constitute a benefit.” 864 F.3d at 960 n.9.

153a
The Court examines cases from other jurisdictions
that compare the benefit of an abortion restriction
against a purportedly pre-existing “floor of care.”20
(i) Examining Wisconsin Law
In Schimel, a case cited by the Supreme Court in
Hellerstedt, the district court and Seventh Circuit
examined a Wisconsin statute that required every
doctor who performed abortions to have admitting
privileges at a hospital within a 30-mile radius of
each clinic at which the doctor performed abortions,
with the law being signed on a Friday and compliance
required by the following Sunday. 806 F.3d at 911. The
district court granted a temporary restraining order,
Planned Parenthood of Wisconsin, Inc. v. Van Hollen,
963 F. Supp. 2d 858 (W.D. Wis. 2013) (“Van Hollen I”),
and a preliminary injunction, Planned Parenthood
of Wisconsin, Inc. v. Van Hollen, No. 13-cv-465-WMC,
2013 WL 3989238 (W.D. Wis. Aug. 2, 2013) (“Van
Hollen II”). The Seventh Circuit affirmed the entry
of the preliminary injunction. Van Hollen III, 738 F.3d
at 799. The district court then conducted a full trial,
resulting in the district court imposing a permanent
injunction against enforcement of the statute.
20

In addition to the cases examined here, the Court also notes
that Oklahoma struck down an admitting privileges law. Burns
v. Cline, 387 P.3d 348, 354 (Okla. 2016) (holding that, in the light
of Hellerstedt, Oklahoma’s admitting privileges law “creates a
constitutionally impermissible hurdle for women who seek lawful
abortions.”). Tennessee, after Hellerstedt, agreed not to enforce
an admitting privileges law that was being challenged. See
Adams & Boyle P.C., et al. v. Herbert Slaterly, et al., Case No.
3:15-cv-00705, Dkt. No. 60, at 2-3 (M.D. Tenn. April 14, 2017)
(agreeing to enjoin permanently enforcement of, among other
things, an admitting-privileges statute that was “similar to the
provision[] struck down in [Hellerstedt] . . . .”).

154a
Defendants then appealed, arguing that “the statute
protects the health of women who experience complications from an abortion.” Schimel, 806 F.3d at 910.
On appeal, the Seventh Circuit determined that, for
the proposed statute to be justified, there had to be
“reason to believe that the health of women who have
abortions is endangered if their abortion doctors don’t
have admitting privileges.” Id. at 912. The Seventh
Circuit affirmed the district court and found that
“there is no reason to believe that.” Id. The Seventh
Circuit observed:
A woman who experiences complications from
an abortion (either while still at the clinic
where the abortion was performed or at home
afterward) will go to the nearest hospital,
which will treat her regardless of whether her
abortion doctor has admitting privileges. As
pointed out in a brief filed by the American
College of Obstetricians and Gynecologists,
the American Medical Association, and the
Wisconsin Medical Society, “it is accepted
medical practice for the hospital-based physicians to take over the care of a patient and
whether the abortion provider has admitting
privileges has no impact on the course of the
patient’s treatment.” As Dr. Serdar Bulum,
the expert witness appointed in this case by
the district court judge under Fed. R. Evid.
706, testified, the most important factor would
not be admitting privileges, but whether
there was a transfer agreement between the
clinic and the hospital. As we’ve said, abortion doctors in Wisconsin are required to have
such transfer agreements . . . . The treating
doctor at the hospital probably would want to

155a
consult with the doctor who had performed
the abortion, but for such a consultation the
abortion doctor would not need admitting
privileges.
Schimel, 806 F.3d at 912 (citing the requirement in
Wis. Admin. Code Med. § 11.04(1)(g) for abortion
clinics to adopt transfer protocols intended to assure
prompt hospitalization of any abortion patient who
experiences complications serious enough to require
hospitalization) (emphasis in original). There is no
mention in Schimel of any “floor of care” other than
the transfer agreement requirement. There is no
mention of any admitting privileges requirement,
other than the requirement challenged and enjoined
by the court.
The Schimel Court further concluded based on
record evidence presented and cited by the court that
“complications from abortion are both rare and rarely
dangerous—a fact that further attenuates the need for
abortion doctors to have admitting privileges.” Id. at
912 (citing record studies and evidence). The court
observed that abortion clinics uniquely among outpatient providers of medical services in Wisconsin were
required to adopt transfer protocols. Id. at 913. The
court observed that defendants “presented no other
evidence of complications from abortions in Wisconsin
that were not handled adequately by the hospitals in
the state.” Id. The court rejected the argument that
such admitting privileges within 30 miles of a clinic
were required to ensure the “Good Housekeeping Seal
of Approval” on doctors. Schimel, 806 F.3d at 915.
Further, the court rejected the argument that admitting privileges improved continuity-of-care. Id. (“But
nothing in the statute requires an abortion doctor who

156a
has admitting privileges to care for a patient who has
complications from an abortion . . . .”).
(ii)

Examining Alabama Law

Alabama’s statute requiring abortion providers to
obtain staff privileges at a local hospital has a long
history, which this Court examined in Jegley.21 In
Strange III, the other case cited by the Supreme Court
in Hellerstedt, the district court examined an Alabama
law requiring “every doctor performing abortions in
Alabama to ‘have staff privileges at an acute care
hospital within the same standard metropolitan
statistical area as the facility is located that permit
him or her to perform dilation and cutterage, laparotomy procedures, hysterectomy, and any other procedures reasonably necessary to treat abortion-related
complications.’” 33 F. Supp. 3d at 1336. A clinic
administrator who knowingly and willfully operated
an abortion clinic with doctors who did not have such
privileges faced felony criminal liability, and the State
of Alabama could revoke the clinic’s license for
violations of the law. Id.
Relevant to the issue of an established “floor of
care,” prior to the challenged law, to be qualified to
21

Alabama’s staff privileges law was declared to restrict
unconstitutionally the rights of women seeking abortions in
Alabama. Planned Parenthood Se., Inc. v. Strange, 33 F. Supp. 3d
1381 (M.D. Ala. 2014) (“Strange IV”) (supplementing liability
opinion with evidentiary findings); Strange III, 33 F. Supp. 3d at
1378 (finding that the staffing privileges requirement was
unconstitutional as applied to plaintiffs); Strange II, 9 F. Supp.
3d at 1276 (summary judgment opinion laying the foundation for
the application of the undue-burden test); Planned Parenthood
Se., Inc. v. Bentley, 951 F. Supp. 2d 1280, 1290 (M.D. Ala. 2013)
(“Strange I”) (temporarily enjoining the enforcement of the staff
privileges requirement).

157a
perform an abortion in Alabama, the physician had
to either “have completed a residency or fellowship
that included abortion training;” had to “maintain
admitting privileges at a United States hospital that
allow[ed] her to perform abortions at that hospital;” or
had to “provide verification from a disinterested,
properly trained physician that she has sufficient skill
at performing abortions.” Planned Parenthood Se.,
Inc. v. Strange, 9 F. Supp. 3d 1272, 1276 (M.D. Ala.
2014) (“Strange II”). The pre-existing regulations in
Alabama also included other specific provisions,
including requiring the physician to remain at the
clinic until the last patient left; providing the patient,
after she leaves the clinic, with access to a 24-hour
answering service that would immediately refer calls
about complications to a qualified nurse, nurse
practitioner, physician assistant, or physician; and to
record every such call. Id. at 1276. Further, the law
also required that each abortion clinic “have a
physician on staff who has admitting privileges at a
local hospital or to maintain a written contract with a
‘covering physician.’” Id. at 1277. The then in-effect
regulations required the covering physician to “have
admitting privileges that permit her to perform
‘dilation and curettage, laparotomy procedures, hysterectomy, and any other procedures necessary to
treat abortion-related complications’ at a hospital
within the same metropolitan statistical area as the
clinic” and that the affiliated doctor with admitting
privileges be available “for 72 hours after the
procedure to treat any complications that may arise”
when performing abortions. Id.
In Strange III, the State argued that the staffprivileges requirement had two “strong justifications,”
both related to an interest in protecting women’s
health. 33 F. Supp. 3d at 1341. First, the State argued

158a
the requirement ensured proper care for complications, and second, the State argued the requirement
had a secondary benefit of “‘credentialing’ high quality
doctors.” Id. In regard to continuity-of-care, the district court identified this concept as “the goal of
ensuring that a patient receives high-quality care not
only during a certain procedure but also after it,
including treatment of complications and any necessary follow-up care” but conceded from the evidence
“this is a somewhat elusive concept.” Id. at 1363.
According to the Strange III court, three models
emerged for ensuring continuity-of-care. There, the
court termed these the first model, the second model,
and the third model, also referring to the third model
as the “country-doctor model.” Id. at 1364-65. According to the court, the first model relies upon the 24-hour
telephone access to a doctor or nurse at the abortion
clinic at any time. 33 F. Supp. 3d at 1364. Under this
model, the doctor or nurse may give instructions for inhome treatment, schedule the woman for a follow-up
visit at the clinic, or, if appropriate, direct the woman
to the nearest emergency room to be assessed immediately or treated. Id. If a patient needs to be transferred
directly to a hospital from the clinic, which the court
found is an admittedly rare circumstance, the abortion
doctor should communicate with the emergency room
doctor to provide continuity-of-care. Id. at 1364-65.
Under the second model, there is a covering physician or a doctor with admitting privileges. Id. at 1365.
The court recognized that the baseline of Alabama’s
law regulating abortion providers at the time fell
under this model. 33 F. Supp. 3d at 1365. Under this
model, the doctor who performs the procedure may
arrange for a covering doctor to provide follow-up care
for any complications that may arise after the

159a
procedure. Even under this procedure, however, if it is
an urgent situation, the record evidence in Strange III
established that it was more important for a patient to
go to the nearest emergency room than to be treated
by the initial doctor or covering physician. Id.
The third model or “country-doctor” approach required the physician who performed the initial procedure to provide consistently most care for complications that may arise, rather than relying on a covering
physician, a transfer agreement, or the emergency
room. Id. A specialist may need to be brought in for
certain treatments, but the original doctor would handle nearly all complications. Id. The State argued, and
the court agreed, that the challenged admitting privileges law fell into this category. 33 F. Supp. 3d at 1365.
Based on the evidence presented, the court determined that the third model advocated by the State fell
“outside that range of disagreement” within the
medical community regarding the appropriate model
of complication care for minor surgeries and
medication-based procedures, like early term abortion.
Id. at 1364. In making this determination, the Strange
III court recognized this about the nature and
treatment of abortion complications:
Most complications from such [early term]
abortions closely resemble the complications
from early-term miscarriages. The common
complications from miscarriages, as well as
medication and early-term surgical abortions,
are bleeding, infection, and cramps. These
complications sometimes arise because fetal
tissue remains in the uterus or because the
cervix fails to close fully after the fetal
tissue is expelled. The treatment for these

160a
complications is the same, regardless of how
the pregnancy ended.
In extremely rare instances, other complications may arise which could not occur from a
miscarriage. In the case of a medication
abortion, an allergic reaction to the abortion
drugs was the only possibility suggested by
the evidence in this case. For a surgical
abortion, it is possible that an instrument
may perforate or lacerate the uterus.
Most complications from early-term abortions
do not require hospital treatment. Most
minor complications which arise during the
course of an early-term surgical abortion are
treated at the abortion clinic before the
patient is discharged. Moreover, as discussed
above, most complications that arise after a
patient has been discharged are best treated
with over-the-phone instructions, prescription medication from a pharmacy, or a followup visit to the abortion clinic. However, even
when hospital care is unnecessary, patients
will sometimes seek emergency-room treatment without first contacting the provider.
Indeed, in some cases, the woman may not be
suffering from any complication at all, but
may simply need reassurance.
For the majority of complications which do
require hospitalization, the appropriate treatment may include intravenous antibiotics or
a further dilation and curettage to empty the
uterus completely. The staff-privileges provision requires all abortion doctors to have
local-hospital privileges that allow them to
perform two specific, additional gynecological

161a
procedures: hysterectomy and laparotomy.
Rare circumstances, such as a suspected
uterine perforation, may require a laparotomy or the similar but less invasive laparoscopy, each of which involves examining the
uterus or cervix and repairing any damage.
In certain other extreme situations, a hysterectomy, or removal of the uterus, may be
necessary. It is extremely rare that either a
hysterectomy or laparotomy would be necessary following an abortion, even a later-term
abortion. Indeed, with approximately 9,000
abortions performed in Alabama each year, in
most years not a single early-term abortion in
the State would require either procedure.
Id. at 1365-66 (emphasis in original).
The Strange III court determined that the initialscreening aspect of the credentialing function provided
negligible benefit, as compared to Alabama’s preexisting law. 33 F. Supp. 3d at 1373. Further, the court
determined that it was “left with the speculative assertion that hospital oversight, through staff privileges,
would actually ensure that the physicians and clinics”
would provide high-quality care and be an “effective
supplement to the Department of Public Health
oversight.” Id. at 1376. The court concluded that, to
determine whether a regulatory decision grounded in
such speculation would be an acceptable use of the
State’s police powers, the court was required to engage
in the balancing test applied to abortion regulations.
Id. As a result of engaging in that balancing test, the
Strange III court concluded that, “[i]n the light of the
severity of the obstacles presented by the requirement
and the weakness of the State’s justifications,”
the “obstacles imposed by Alabama’s staff-privileges

162a
requirement are ‘more significant than is warranted
by the State’s justifications for the regulation.’” Id. at
1378. The case was decided by the Honorable Myron
H. Thompson.22
Later, in 2015, a licensed abortion clinic and doctor
brought a challenge against an Alabama health officer
claiming that Alabama’s “floor of care” regulation—
that to perform abortions a doctor had to have
admitting privileges at a local hospital or the clinic
had to contract with a covering physician who had
such privileges—was unconstitutional as applied to
the clinic and doctor. W. Ala. Women’s Ctr. v.
Williamson, 120 F. Supp. 3d 1296, 1303, 1303 (M.D.
Ala. 2015). This case also was assigned to Judge
Thompson. The challenged regulation had been in
effect since 2007. Id. at 1300. It would have been
superseded by the admitting privileges requirement
challenged and struck down by Judge Thompson in
Strange III. Id. at 1300-01.
Five abortion clinics operated in Alabama at the
time of Williamson, a case that followed Strange III.
Two clinics had physicians on staff who had local
admitting privileges, and three operated by having a
contract with a covering physician. Those three clinics
that operated by having a contract with a covering
physician sued to enjoin the admitting privileges law
as applied to the three clinics. Id. at 1301.
22

Defendants appealed Judge Thompson’s ruling in Strange
III. On July 15, 2016, on the grounds that “Alabama’s law is
identical in all relevant respects to the law at issue in
[Hellerstedt],” defendants moved to dismiss the appeal because
they no longer had a “good faith argument that the law is
constitutional under controlling precedent.” Planned Parenthood
Se., Inc., et al., v. Luther Strange, et al., No. 16-11867, at 6 (11th
Cir. 2016, July 15, 2016).

163a
Until December 2014, the clinic in Tuscaloosa
complied with Alabama’s “floor of care” regulation by
having a doctor on staff with local admitting privileges. Id. That doctor retired in December 2014. Id.
The Tuscaloosa clinic hired a replacement doctor, but
that doctor lacked local admitting privileges. 120 F.
Supp. 3d at 1301. Further, the Tuscaloosa clinic could
not find a covering physician willing to contract with
it. As a result, it brought an as applied challenge to
Alabama’s “floor of care” regulation. Id. at 1301-02.
The Tuscaloosa clinic operated for 20 years, providing reproductive health services, including abortions,
birth control, treatment for sexually transmitted
infections, pregnancy counseling, and referral for
adoption. Id. at 1302. By 2013, 40% of all abortions in
Alabama took place at the Tuscaloosa clinic, far more
than any other clinic in the state. In fact, during that
time, the Tuscaloosa clinic performed almost two and
a half times more abortions than the next Alabama
clinic. Id. Further, about 80% of abortion procedures
performed there were performed prior to 10 weeks
postfertilization, with almost 96% of abortion procedures being performed before 16 weeks postfertilization. About 4% of abortions were performed midsecond trimester. 120 F. Supp. 3d at 1302. It was only
one of two clinics in Alabama that performed abortions
throughout the first 20 weeks postfertilization, and it
provided around 75% of Alabama’s mid-secondtrimester abortions. Id.
During its 20 years of operation, the Tuscaloosa
clinic had never been placed on probation, suspended,
or revoked for failure to meet any safety regulation. Id.
Further, during the most recent five-year period, less
than one-tenth of 1% of its patients were transferred
to a hospital for observation or complication. Id. The

164a
clinic had never been closed for failing to treat its
patients. 120 F. Supp. 3d at 1302.
After its long-time doctor retired, the clinic hired Dr.
Parker, a replacement doctor who was board-certified
in OBGYN with subspecialty training in family planning, contraception, and abortion. Id. at 1303. He had
over 20 years of experience in women’s health, was on
the faculty of Northwestern School of Medicine, and
held admitting privileges there. Id. He performed
abortions in a number of states, including Alabama
and Mississippi, and when hired was providing
abortions at the Montgomery clinic. Id. This doctor
attempted to obtain admitting privileges himself in
Tuscaloosa. 120 F. Supp. 3d at 1303. He was unable to
do so because the hospital there required him to
perform a number of hysterectomies and laparotomies,
but according to the court “the reality is that, because
Dr. Parker is a full-time abortion provider and because
complications from abortions are so rare, he would
never be able to do the required amount of procedures.” Id. The record evidence indicated that, of the
estimated 10,000 abortions Dr. Parker performed in
the three years prior on women up to 20 weeks
postfertilization, only two were transferred to the
hospital, and one was transferred for observation only.
Id. Dr. Parker had never had a patient who needed a
hysterectomy from an abortion complication. Id.
Dr. Parker made a good faith effort to work with the
hospital board, offering to perform the requisite
number of procedures on other patients; he could not
satisfy the requirement by performing the procedure
on his own patients, because his own patients would
not need them due to the low complication rate from
abortion. 120 F. Supp. 3d at 1303. Record evidence
indicated that an agreement appeared to be reached to

165a
satisfy the hospital board’s requirement in this way,
but that agreement never materialized and instead
quickly fell apart. Id. The hospital board reiterated its
demand that Dr. Parker satisfy the required procedures by performing them on his own patients. Id. As
the court recognized, this was “an impossible task for
a full-time abortion provider . . . given the low number
of complications from abortion.” Id.
Dr. Parker and the Tuscaloosa clinic then attempted
to contract with a covering physician instead. 120 F.
Supp. 3d at 1304. None of the physicians in the area
agreed to contract, some citing anti-abortion views or
the fear of reputational harm. Id. Dr. Parker and the
Tuscaloosa clinic then applied for a waiver, citing Dr.
Parker’s safety record and the clinic’s policies and
procedures in place if complications were to arise,
including a 24-hour hotline and a protocol for the clinic
to communicate with any treating physicians at
emergency rooms. Id. The request for waiver was
denied. Id.
The court enjoined enforcement of Alabama’s “floor
of care” regulation as applied to the Tuscaloosa clinic,
concluding that plaintiffs had a substantial likelihood
of success on their argument that the Alabama “floor
of care” regulation would have imposed an undue
burden on a woman’s right to choose to have an
abortion in violation of the Due Process Clause of the
Fourteenth Amendment. 120 F. Supp. 3d at 1306-07.
The court first examined the burdens. Id. at 1307-12.
The court then turned to examine the justifications for
the challenged regulation. Id. at 1312.
Alabama justified the challenged regulation by
claiming that the regulation was “meant to ensure
that women who obtain abortions receive adequate
complication-related care” and do so “by authorizing

166a
two alternative models for continuity of care.” Id. at
1312. The court then analyzed the three possible
models for continuity-of-care first articulated in
Strange III. Id. at 1312-13. Plaintiffs argued that the
Tuscaloosa clinic’s protocol was sufficient to ensure
adequate continuity-of-care and that requiring the
clinic to contract with a covering physician would not
benefit patient health in any meaningful way. 120 F.
Supp. 3d at 1313. Plaintiffs argued this based on Dr.
Parker’s “extraordinary safety record” and the clinic’s
emergency-care protocol which it claimed was as
effective at ensuring high-quality continuing of care as
the covering physician model. Id.
The court reaffirmed its determination that
“complications from early-term abortions which are
the vast majority of the procedures performed at the
[Tuscaloosa clinic] are ‘vanishingly rare.’” Id. at 1314.
The court cited statistics that only 0.89% of first
trimester abortions cause any complication of any kind
and that only 0.05% of first trimester abortions cause
a complication that requires hospital-based care. Id.
The court concluded that “clinics do not make frequent
use of their covering physicians because the procedures they perform are extremely safe and because,
where possible, the clinics themselves provide
complication care.” 120 F. Supp. 3d at 1314 (citing
Strange III, 33 F. Supp. 3d at 1370 n.23).
Further, the court observed:
Moreover, when a complication requires hospital admission, the regulation itself does not
guarantee that a clinic patient would ever be
seen by the covering physician, even if the
Center were to contract with one. First, the
regulation itself does not actually require a
clinic to make use of the covering physician in

167a
the case of any complication: to comply with
the regulation, a clinic need only maintain a
contract promising the covering physician’s
availability. Second, if a patient who
experiences complications lives outside the
Tuscaloosa area—as do at least some of the
Center’s patients—the fact that the Center
might have a contract with a covering physician who could admit her to the Tuscaloosa
hospital is unlikely to affect her complicationrelated care in any way, as she will (and
should) seek emergency care closer to home.
Id. (emphasis in original).
In the case of a patient transferred directly from the
clinic to the hospital, the clinic was already required
to “alert 911 and the hospital to the pending transfer;
to provide the hospital’s emergency department with
necessary information about the patient’s case; and to
send a copy of the patient’s medical records to the
hospital along with the patient.” Id. The emergency
room doctor and staff, along with a hospital specialist,
might examine the patient. Id. at 1314-15. The clinic
would “communicate directly with the hospital and Dr.
Parker would be available for consultation with the
hospital’s physicians at any time during the patient’s
course of treatment.” 120 F. Supp. 3d at 1315.
If a contracted physician relationship existed, the
court acknowledged the likely scenario that Dr. Parker
would contact that contracted doctor at the soonest
possible point in the process, that contracted doctor
would meet the patient at the hospital to assume care,
and that contracted doctor would in theory have a
relationship with Dr. Parker. Id. Although, as the
court observed, because complications from abortion
procedures are rare, it is unclear whether Dr. Parker

168a
would actually be in regular communication or have a
relationship with the contracted physician. Id.
The court also noted that, if there were a contracted
physician and if that contracted physician had staff
privileges at the hospital nearest to the patient, then
Dr. Parker and clinic staff might notify the contracted
physician so that she could admit the patient to the
hospital herself. Id. However, as the court determined,
nothing in Alabama’s regulation required Dr. Parker
and the clinic staff to do so. 120 F. Supp. 3d at 1315.
Even if Dr. Parker and the clinic staff notified the
contracted physician, the court determined that “there
is no guarantee that the covering physician will reach
the hospital to admit the patient before the patient is
assessed or treated by the emergency-room physicians; that the covering physician will be any more
knowledgeable about the patient or her condition than
would be the hospital physician; or that the covering
physician will be any more qualified to treat the
patient than would be the hospital physicians.” Id.
Further, the court determined that, because Dr.
Parker and clinic staff continue to advocate for the
patient directly with the hospital and provide consultation as necessary, the patient has an advocate for
her care even after a transfer to the hospital. Id.
The court also concluded the clinic’s policies ensured
that patients received adequate continuity-of-care
after discharge from the clinic. Id. The court determined that the current practice required that Dr.
Parker be accessible for at least 72-hours following
any procedure. 120 F. Supp. 3d at 1315 “[P]atients are
provided 24-hour telephone access to the Center’s
medical staff.” Id. The court found that the patient
could speak to a nurse or to Dr. Parker. Id. If the
patient needed to be assessed immediately, the court

169a
noted that the nurse or Dr. Parker could advise the
patient to go to the nearest hospital. Id. Further, the
nurse or Dr. Parker could call the hospital ahead to
provide any pertinent information about the patient or
provide his contact information to the patient to
provide to the hospital along with the request that the
patient ask the hospital to contact Dr. Parker. 120 F.
Supp. 3d at 1315. As a result of this benefits analysis,
when weighed against the burdens of the regulation,
the court enjoined the regulation as applied to Dr.
Parker and the Tuscaloosa clinic. Id. at 1320.
(iii) Examining Louisiana Law
Likewise, in Kliebert I, the district court examined
Louisiana’s Act 620 which required every doctor who
performed abortions in Louisiana to have “active
admitting privileges” at a hospital within 30 miles of
the facility where the abortions were performed. 158
F. Supp. 3d at 484. The district court, given the
controlling law of the Fifth Circuit at that time,
applied rational basis review to determine whether
Act 620 was rationally related to a legitimate state
interest. Id. at 485.
In Kliebert I, doctors performing abortions at
Louisiana’s abortion clinics could not comply with the
admitting privileges law, despite being given time to
attempt to do so. Id. at 506-07. The court observed
that there was no state or federal statute governing
the rules for granting or denying hospital admitting
privileges in Louisiana and that the process and rules
varied from hospital to hospital. Id. at 491-92. Further,
the court determined there was “no Louisiana statute
which prohibits a Louisiana hospital or those individuals charged with credentialing responsibilities from
deciding an application for admitting privileges
based on the applicant’s status as an abortion

170a
provider,” regardless of the provider’s competency. 158
F. Supp. 3d at 495. In addition, Louisiana had no
maximum time period within which applications had
to be acted upon, so a hospital could effectively deny
an application for admitting privileges by failing to act
on it, without expressing the true reasons or any
reasons for doing so. Id. at 533.
Based on record evidence, the court determined that
Louisiana’s abortion providers were not given
privileges or given only limited privileges that did not
meet the statutory requirement. See id. at 489. The
resulting effect was an undue burden on the right of a
large fraction of Louisiana women to an abortion,
based on the record evidence. Id. at 533. As a result,
the court determined Louisiana’s Act 620 was facially
unconstitutional. Id.
The Fifth Circuit Court of Appeals granted a stay of
the district court’s injunction pending appeal. 814 F.3d
319 (5th Cir. 2016). The Supreme Court vacated the
stay entered by the Fifth Circuit, effectively reinstating the district court’s injunction. 136 S. Ct. 1354
(2016). After remand, the district court conducted a
bench trial and held that the requirement placed an
undue burden on women’s due process right to choose
an abortion, permanently enjoining enforcement of the
active admitting privileges requirement. 250 F. Supp.
3d 27 (M.D. La. 2017). The Fifth Circuit determined
that the admitting privileges requirement did not
impose a substantial obstacle in the path of a large
fraction of all women seeking abortions in Louisiana.
905 F.3d 787, 815 (5th Cir. 2018). The Supreme Court
stayed the mandate of the Fifth Circuit, pending
timely filing and disposition of a petition for a writ of
certiorari. 139 S. Ct. 663 (2019). Petitions for writ of

171a
certiorari have been docketed, but the Supreme Court
has not made a determination yet.
(iv) Examining Mississippi Law
In Jackson Women’s Health Organization v. Currier,
878 F. Supp. 2d 714 (S.D. Miss. 2012), (“Jackson II”),
the district court first examined Mississippi’s House
Bill 1390 (“H.B. 1390”) in a challenge brought by an
abortion clinic and physicians associated with it; H.B.
1390 required physicians to have admitting and
staff privileges at a local hospital and to be boardcertified in OBGYN. Defendants cite certain of these
decisions in its response to plaintiffs’ current motion.
In Jackson, plaintiffs initially sought and obtained a
temporary restraining order to block the effective date
of H.B. 1390. Jackson Women’s Health Org. v. Currier,
Case No. 3:12-cv-436-DPJ-FKB, 2012 WL 2510953
(S.D. Miss. July 1, 2012) (“Jackson I”). Then, the court
examined whether to grant a preliminary injunction.
878 F. Supp. 2d at 714. At the time H.B. 1390 was
enacted, only one doctor had admitting and staff
privileges, and he had a regular, private practice and
did not provide the majority of abortions. Id. at 715.
Instead, the two doctors who provided the majority of
the clinic’s services did not have admitting or staff
privileges, though they had actively been seeking
them since the passage of H.B. 1390. Id. The district
court analyzed the relevant factors for granting
injunctive relief, and the district court granted the
motion for preliminary injunction in part. The court
determined that “if these two doctors stop performing
abortions for non-speculative fear of prosecution, it
would create an ‘undue burden’ and irreparable
harm.” Id. at 717-18. The district court permitted H.B.
1390 to take effect but determined that plaintiffs not
be subject to the risk of criminal or civil penalties at

172a
the time the injunction issued or in the future for
operating without the relevant privileges during the
administrative process. 878 F. Supp. 2d at 720.
After plaintiffs “unsuccessfully exhausted all available avenues to comply with” H.B. 1390, the State of
Mississippi indicated that it would revoke the clinic’s
license following a hearing. 940 F. Supp. 2d 416, 417
(S.D. Miss. 2013) (“Jackson III”), order clarified, 2013
WL 12122002 (S.D. Miss. Aug. 13, 2013),23 affirmed as
modified, 760 F.3d 448 (5th Cir. 2014). The district
court observed that, “[a]t all relevant times,” the
plaintiff clinic “has been the only abortion clinic in the
State of Mississippi, and only one of its doctors holds
admitting privileges. That doctor ha[d] a separate,
private OB/GYN practice and provide[d] only minimal
care at the [c]linic. The two doctors providing the vast
majority of the [c]linic’s abortions lacked admitting or
staff privileges when the Act passed.” Id. at 417-18.
Plaintiffs reported that the two doctors who provided the majority of care at the clinic had applied for
privileges at every local hospital. Id. at 418. “Two
hospitals refused to provide applications, and all
others rejected the doctors’ applications because they
perform[ed] elective abortions.” Id. As a result, the
State of Mississippi intended to close the clinic,
according to the district court. Id. Plaintiffs requested
only that the district court “enjoin all forms of
enforcement of the Admitting Privileges Requirement”
23

The district court was asked in a Federal Rule of Civil
Procedure 52(b) motion to clarify its preliminary injunction order
with respect to a determination regarding whether H.B. 1390 was
an “unnecessary” health regulation; the court granted the motion
in part to clarify its prior ruling, but as defendants had not
argued initially that the regulation was “necessary,” the court
offered no analysis on that point. 2013 WL 12122002, at *2.

173a
of H.B. 1390. 940 F. Supp. 2d at 418. The district court
granted plaintiffs’ motion and enjoined the Admitting
Privileges Requirement of H.B. 1390. Id. at 424.
The Fifth Circuit affirmed and enjoined the requirement that “[a]ll physicians associated with the
abortion facility must have admitting privileges at a
local hospital and staff privileges to replace local
hospital on-staff physicians.” 760 F.3d at 450. Prior to
H.B. 1390’s enactment, Mississippi law required that
“abortion facilities have only a transfer agreement
with a local hospital, a written agreement for backup
care with a physician with admitting privileges, and
at least one affiliated doctor with admitting
privileges.” Id. (citation omitted). Because the record
evidence supported that the doctors performing
abortions at Mississippi’s only abortion clinic in
Jackson could not comply with the admitting privileges law, despite being given time to attempt to do
so, the record indicated the only abortion clinic in
Mississippi would close. Id. at 450-53. The district
court, and the Fifth Circuit, determined plaintiffs met
the undue burden requirement in the as-applied
challenge and enjoined enforcement of the law. Id. at
455, 459. According to the Fifth Circuit, both the
district court and the Fifth Circuit applied rational
basis review to the proposed regulation as then
required by controlling Fifth Circuit precedent; the
Supreme Court in Hellerstedt later rejected that lower
level of scrutiny for abortion regulations. 760 F.3d at
455, 459.
In 2018, plaintiffs filed an action seeking an order
declaring the OBGYN requirement of H.B. 1390
facially unconstitutional and requesting clarification
of the district court’s prior order with respect to
admitting privileges, seeking to have the district

174a
court’s injunction applied statewide and not only to
plaintiffs. Jackson IV, 320 F. Supp. 3d at 832. The
district court modified its injunction to reflect that
H.B. 1390’s admitting privileges requirement was
enjoined statewide but denied the request to declare
the OBGYN requirement unconstitutional. Id. at 84142. According to the district court,”[t]o make that
claim, Plaintiffs must show that the law creates a substantial obstacle to the right to choose for a large fraction of women for whom the law is relevant. Yet since
the law was enacted, the number of abortions Plaintiffs perform[ed] ha[d] increased by 17%.” Id. at 832.
For purposes of this Court’s analysis at this stage,
the Court focuses on the benefits of the OBGYN
requirement the Jackson IV district court identified
and those it rejected. Id. at 837-38. The district court,
based on the record evidence before it, determined that
defendants had “shown that the ob-gyn requirement
provides some benefit to women’s health in that it
ensures that physicians performing abortions in
Mississippi abortion clinics are specialists in women’s
healthcare who are trained to perform abortions or
their equivalents.” 320 F. Supp. 3d at 837. However,
as the district court explained, that finding alone did
not satisfy the Hellerstedt inquiry. Id. Instead, the
district court was required to assess whether “the new
law advance[s the state’s] legitimate interest in
protecting women’s health” “compared to prior law.”
Id. (quoting Hellerstedt, 136 S. Ct. at 2311). Further,
the district court observed that H.B. 1390 permitted
board-eligible physicians to perform abortions, not just
board-certified doctors. Id.
Having examined those factors, the district court
concluded that “the ob-gyn requirement produces no
benefit to Mississippi women as compared to prior

175a
law.” 320 F. Supp. 3d at 838. Specifically, the district
court explained that, “[u]nder prior Mississippi law,
all physicians associated with an abortion facility
must have either ‘completed a residency in family
medicine, with strong rotation through OB/GYN,’
‘completed a residency in obstetrics and gynecology,’
or had ‘at least one year of postgraduate training in a
training facility with an approved residency program
and an additional year of obstetrics/gynecology residency.’” Id. at 837 (quoting Miss. Code R. § 15-16-1:
44.1.5(24)). Further, based on record evidence “board
eligibility requires graduation in good standing from
an ob-gyn residency program, but it does not require
the experience necessary to sit for the American Board
of Obstetrics and Gynecology oral exam or actually
passing that exam.” Id. As a result, the district court
determined that defendants failed to explain how
these board-eligibility requirements were more effective than pre-existing Mississippi law that already
required substantial training in OBGYN. Id. (citing
Hellerstedt, 136 S. Ct. at 2314).
The district court then turned to examine the
burdens plaintiffs contended H.B. 1390’s OBGYN
requirement imposed and rejected plaintiffs’ arguments. 320 F. Supp. 3d at 838-840. As a result, as the
district court observed, it was “left with a challenged
law that provide[d] no demonstrated benefit compared
to prior law, but which place[d] no substantial
obstacles in the path of a large fraction of women to
whom it is relevant.” Id. at 841 & n.9 (discussing
difficulties the district court observed in applying
Hellerstedt). As a result, the district court therefore
declined to enjoin Mississippi’s OBGYN requirement.
Id. at 841-42.

176a
(v) Arkansas “Floor of Care” Under
Act 700
The Court turns now to examine the concept of a
“floor of care” with respect to the challenge to Act 700.
Before the enactment of Act 700, the law in Arkansas
already required that only a physician licensed to
practice medicine in the State of Arkansas may
provide abortion care. Ark. Code Ann. § 5-61-101(a).
Plaintiffs confirm that their point with respect to
Act 700 is that the State already has robust and
sufficient oversight relating to abortion providers, and
there is little difference between the requirements
that must be satisfied to maintain an active OBGYN
certification and those that apply currently to
physicians who practice medicine and provide abortion
care in Arkansas. Requiring abortion providers to be
licensed medical doctors in the State of Arkansas
ensures regulation of the profession by the Arkansas
State Medical Board. See Ark. Admin. Code 0600.00.116 (“the Arkansas State Medical Board may revoke or
suspend a license if the practitioner is grossly negligent and becomes physically incompetent to practice
medicine to such an extent as to endanger the
public.”). The Arkansas State Medical Board’s “mission is to protect the public and act as [the public’s]
advocate by effectively regulating the practices of
Medical Doctors” and others subject to its rule. See
Arkansas State Medical Board, https://www.armed
icalboard.org/About.as px (last visited August 5, 2019).
Specifically, the following provisions currently exist in
Arkansas law and regulations as relevant here:


The Arkansas Medical Practices Act and
Regulations expressly state that “[n]o person shall be granted a license to practice
medicine in the State of Arkansas unless

177a
he or she . . . is of good moral character
and has not been guilty of acts constituting unprofessional conduct . . . .” See Ark.
Code Ann. § 17-95-403(b).


The Arkansas Medical Practices Act and
Regulations permit the Arkansas Medical
Board to suspend or revoke a license for
immoral or unprofessional conduct. Ark.
Code Ann. § 17-99-307(2) (“The Arkansas
State Medical Board, after due notice and
hearing, may revoke, suspend, or refuse
to renew any license or permit or place
on probation or otherwise reprimand a
licensee or permit holder or deny a license
to an applicant who . . . is in judgment of
the board, guilty of immoral or unprofessional conduct.”).



The Arkansas Medical Board may refuse
to grant, impose certain enumerated penalties, or revoke the medical license of any
physician involved in any felony listed
under Arkansas Code Annotated § 17-2102. Ark. Code Ann. § 17-95-409. Arkansas
Code Annotated § 17-2-102, which was
enacted in 2019, includes a list of 36
categories of felony offenses and specifically provides that convictions in Arkansas,
other states, and federal court shall be
considered.



To maintain an active license to practice
medicine in the State of Arkansas, there
are continuing medical education requirements that may be enforced through
license suspension or revocation. See
Ark. Code Ann. § 17-80-104 (empowering

178a
regulatory boards of the professions or
occupations classified by the law of the
State of Arkansas as professions of the
healing arts and for whom the General
Assembly has established regulatory
boards empowered to license persons to
practice to adopt rules requiring the continuing education of the persons licensed
by the board); Ark. Admin. Code 060.00.117 (requiring a person who holds an active
license to practice medicine in the State of
Arkansas to complete 20 credit hours per
year of continuing medical education,
stating that “Fifty (50%) percent of said
hours shall be in subjects pertaining to the
physician’s primary area of practice . . . .”).


Any claim or filing of a lawsuit alleging
malpractice against a physician licensed
to practice medicine and surgery in the
State of Arkansas must be reported to the
Arkansas State Medical Board within ten
days after receipt or notification or the
licensed physician may face discipline up
to and including revocation, suspension,
or probation or monetary fines. See Ark.
Code Ann. § 17-95-103; Ark. Admin. Code
060.00.1-23.



Arkansas licensed physicians are subject
to being audited with respect to credentialing (Dkt. No. 84, at 15:16-16:5).



Any Arkansas physician who performs
an abortion must “obtain the correct
informed consent from their patients” or
risk sanction by the Arkansas Medical
Board. Ark. Admin. Code 060.00.1-26

179a
(describing the consent required and the
circumstances under which it is required
and permitting the Arkansas Medical
Board to revoke or suspend a medical
license or impose other sanctions if the
Board determines there has been a
violation).


Any Arkansas physician who provides an
abortion-inducing drug for the purpose of
inducing an abortion is currently required
to report any known adverse events associated with medication abortions. Ark.
Code Ann. § 20-16-1505 (“If a physician
provides an abortion-inducing drug . . .
and if the physician knows that the
woman who uses the abortion-inducing
drug for the purposes of inducing an
abortion experiences an adverse event, the
physician shall provide a written report of
the adverse event within three (3) days of
the event to the United States Food and
Drug Administration . . . and to the
Arkansas State Medical Board”); see also
Ark. Admin. Code 060.00.1-36 (requiring
reporting to the Arkansas State Medical
Board in the same circumstances).



Any facility or physician who performs an
abortion must report it to the Arkansas
Division of Vital Records. Ark. Code Ann.
§§ 20-18-603(b)(1), (b)(2).

In addition, in its findings of fact, the Court found
that there are pre-existing rules and regulations in
Arkansas that currently govern abortion providers. To
summarize these findings, by regulation and statute
in Arkansas:



180a
Only a physician licensed to practice
medicine in the State of Arkansas may
provide abortion care under existing law,
see Ark. Code Ann. § 5-61-101(a);



Any woman in Arkansas seeking an abortion must be evaluated via a medical
history, a physical examination, counseling, and laboratory tests, see Ark. Admin.
Code 007.05.2-8(A);



Arkansas abortion facilities shall have
written procedures for emergency transfer
of a patient to an acute care facility, see
Ark. Admin. Code 007.05.2-8(B);



Arkansas general abortion facilities,
which provide surgical abortions or both
medication and surgical abortions, shall
be within 30 minutes of a hospital which
provides gynecological or surgical services, see Ark. Admin. Code 007.05.2-4(C);
Ark. Admin. Code 007.05.2.3(J)(defining
general abortion facility);



Arkansas abortion facilities providing
abortions must have various medical
devices available to assist in the event
of complications, see Ark. Admin. Code
007.05.2-8(C), (E);



Arkansas abortion facilities must have a
certain number of qualified personnel
available to provide direct patient care, see
Ark. Admin. Code 007.05.2-7; and



Arkansas abortion facilities must satisfy a
variety of ongoing obligations to educate
staff about best practices to assess their

181a
own services, see Ark. Admin. Code
007.05.1-10; 007.05.2-5; 007.05.2-6(F),(G);
007.05.2-7(D).


Arkansas abortion facilities are subject to
annual, as well as other unannounced,
inspections (Dkt. No. 84, at 84:25-85:8).

This list is not exhaustive, given the number of
regulations enacted by the State of Arkansas (Dkt. No.
4, at 18).
To the extent it could be argued that Act 700’s
OBGYN requirement sets a “floor of care” for private
abortion providers in Arkansas, the Court observes
record evidence makes clear that there are few private
abortion providers in Arkansas. Further, current laws
and regulations apply to these private abortion
providers, too. The State of Arkansas currently
requires any physician who performs an abortion,
along with being licensed to practice medicine in
Arkansas, to “obtain the correct informed consent
from their patients” or risk sanction by the Arkansas
Medical Board. Ark. Admin. Code 060.00.1-26
(describing the consent required and permitting the
Arkansas Medical Board to revoke or suspend a
medical license or impose other sanctions if the Board
determines there has been a violation). Further, all
parties agree that the State of Arkansas currently
collects data on abortions provided and that record
evidence demonstrates here that LRFP, PPAEO
Fayetteville, and PPAEO Little Rock together provided the vast majority of abortion care in the state
during 2018, providing nearly all abortions performed
in 2018, and fewer than half a dozen abortions were
provided in 2018 by others (Dkt. No. 103, at 47 (citing
Defendants’ Sealed Exhibit 1, filed July 31, 2019)).
Arkansas law requires that any facility in which more

182a
than 10 abortions are performed each month be
licensed as an “abortion facility” and comply with
Arkansas laws and regulations governing abortion
care. See Ark. Code Ann. § 20-9-302; Ark. Admin. Code
007.05.2-1, et seq.
Further, currently Arkansas abortion facilities
providing medication abortions must “have a signed
contract with a physician who agrees to handle complications” and who has “active admitting privileges
and gynecological/surgical privileges at a hospital
designated to handle any emergencies associated with
the use or ingestion of the abortion-inducing drug.”
Ark. Code Ann. § 20-16-1504(d)(1),(2). Section 1504(d)
of Arkansas Act 577 was the subject of a previous
constitutional challenge. See Planned Parenthood of
Arkansas & Eastern Oklahoma v. Jegley, Case No.
4:15-cv-00784-KGB, 2016 WL 6211310 (E.D. Ark.
March 14, 2016), vacated and remanded 864 F.3d 953
(8th Cir. 2017), on remand to 2018 WL 3029104 (E.D.
Ark. June 18, 2018) (granting renewed motion for
temporary restraining order and enjoining the
enforcement of Section 1504(d) of Arkansas Act 577);
2018 WL 3816925 (E.D. Ark. July 2, 2018) (granting
renewed motion for preliminary injunction but
permitting defendants to enforce Section 1504(d) of
Arkansas Act 577 against medication abortion providers subject to the Act only to the extent that abortion
providers must make an effort to comply with Section
1504(d) by continuing to seek a contracted physician,
preliminarily enjoining defendants from imposing any
civil or criminal penalties for continuing to perform
medication abortion while abortion providers subject
to the Act continue in their efforts to comply with
Section 1504(d); and ordering plaintiffs to report to the
Court every 30 days on their efforts to comply with
Section 1504(d)). In the related Jegley case, this Court

183a
examined carefully these same types of arguments
with respect to Section 1504(d) of Arkansas Act 577
that required only medication abortion providers to
contract with an admitting physician.
The Court examined the purported benefit of Section 1504(d) of Arkansas Act 577 and concluded that
the contracted physician requirement did little, if
anything, to advance Arkansas’ interest in protecting
women’s health. Jegley, 2018 WL 3816925, at *45.
Then, the Court proceeded to analyze the burdens
based on record evidence presented at that stage of the
proceedings. Id., at *51-67. Ultimately, the Court
concluded in Jegley that “plaintiffs demonstrated that
Section 1504(d) is facially unconstitutional because it
places a ‘substantial obstacle to a woman’s choice’ to
terminate a pregnancy before viability in ‘a large
fraction of the cases in which” it “is relevant.’” Jegley,
2018 WL 3815925, at *68-69 (quoting Hellerstedt, 136
S. Ct. 2313 (quoting Casey, 505 U.S. at 895 (majority
opinion))). This Court did not alter its analysis of the
regulation, nor did the Eighth Circuit review this
Court’s most recent analysis of the regulation or issue
an opinion with respect to the merits of it. Instead,
plaintiffs in Jegley submitted a status report
indicating that they complied, and the parties filed a
“Joint Motion to Vacate Preliminary Injunction and
Dismiss Appeal,” which the Eighth Circuit granted
(Jegley, Case No. 4:15-cv-00784-KGB, Dkt. No. 171).
That is the result of the Jegley case, and where the
case stands today.
As a result of this outcome in Jegley, currently the
“floor of care” in Arkansas differs for medication
abortion and surgical abortion as a result of Section
1504(d) of Arkansas Act 577. The Arkansas legislature
did not add the contracted physician requirement to

184a
surgical abortion providers. Instead, the Arkansas
legislature enacted Act 700 to require that only
physicians who are board-certified or board-eligible
OBGYNs perform any abortion—medication or
surgical—in Arkansas.
2. Act 700: Analysis Of Alleged Benefits
Defendants assert three goals are purportedly
advanced by Act 700: (1) protecting mothers’ health
and safety; (2) protecting the medical profession; and
(3) protecting vulnerable groups (Dkt. No. 103, at 70).
Again, the relevant question before the Court is
whether Act 700’s OBGYN requirement provides the
asserted benefits as compared to the prior law. See
Hellerstedt, 136 S. Ct. at 2311 (“We have found nothing in Texas’ record evidence that shows that, compared to the prior law, . . . the new law advanced Texas’
legitimate interest in protecting women’s health.”); id.
at 2314 (“The record contains nothing to suggest that
[the challenged law] would be more effective than preexisting Texas law . . . .”) (emphasis added). As a result,
the Court analyzes the alleged benefits of Act 700 in
comparison to prior Arkansas law and regulation.
Even if this Court were inclined to agree that
defendants under the circumstances have presented
the interests they identify, the Court concludes that
plaintiffs are likely to prevail on their argument that
Act 700 fails to advance those interests more effectively than pre-existing Arkansas law and regulation
because, based on the record evidence before this
Court at this stage of the proceedings, Act 700 provides no discernable benefit in the light of the realities
of abortion care, training, and practice in Arkansas
and across the county.

185a
For the reasons explained, the Court determines at
this stage that plaintiffs are likely to prevail on their
argument that legal abortion is one of the safest
medical procedures available in the United States and
in Arkansas and that Act 700 provides no benefit if
intended to address a medical safety problem with
legal abortion in Arkansas that, on this record evidence, does not exist. The Court has already examined
the record evidence regarding the safety of, and low
complication rates for, legal abortion in Arkansas. To
the extent defendants claim Act 700 protects a
woman’s health and safety, defendants submit no
record evidence to support a claim that a boardcertified or board-eligible OBGYN will provide care
that leads to a lower complication rate than other
clinicians. Dr. Aultman makes no such claim and cites
no such study (see generally Decl. of Kathi Aultman,
M.D.). In fact, record evidence presented by plaintiffs
demonstrates that no peer-reviewed medical literature exists demonstrating that board-eligible or
board-certified OBGYNs are more competent to
provide abortion care (Dkt. No. 84, 63:6-15 (Dr. Prine’s
testimony); 28:10-20 (Dr. Hopkins’ testimony); Dkt.
No. 44-1, at 99 (Dr. Prine deposition testimony)
(“There is no evidence that those letters after somebody’s name convey any difference in clinical outcomes, there’s just not.”)).
As an initial matter, there is record evidence that
the ACOG has recognized that clinicians from many
medical specialties can provide safe abortion care and
that requiring board-certification in OBGYN is “medically unnecessary” and “designed to reduce access
to abortion.” (Decl. of Frederick W. Hopkins, M.D.,
M.P.H., ¶ 38 n.14; Decl. of Linda W. Prine, M.D., ¶ 21,
n.4 (quoting The Am. Coll. of Obstetricians and
Gynecologists, Increasing Access to Abortion (ACOG

186a
Committee Opinion No. 613), available at https://
www.ncbi.nlm.nih.gov/pubmed/25437742)). The President of the AAFP likewise adopted in 2014 a resolution
opposing laws that “impose[d] on abortion providers
unnecessary requirements that infringe on the
practice of evidence-based medicine.” (Decl. of Linda
W. Prine, M.D., ¶ 22 (quoting Am. Acad. of Family
Physicians, Resolution No. 10001, Oppose Targeted
Regulation Against Abortion Providers (TRAAP laws),
http://www.aafp.org/about/constituencies/resources/p
ast-ncsc/2014.html)). In November 2014, ACOG’s
Committee on Health Care for Underserved Women
issued a Committee Opinion emphasizing that “[s]afe,
legal abortion is a necessary component of women’s
health care.” The Am. Coll. of Obstetricians and Gynecologists, Increasing Access to Abortion (ACOG
Committee Opinion No. 613), available at https://
www.ncbi.nlm.nih.gov/pubmed/25437742. Consistent
with that, the Committee Opinion states that ACOG
recommends “expand[ing] the pool of first-trimester
medication and aspiration abortion providers to
appropriately trained and credentialed advanced
practice clinicians in accordance with individual state
licensing requirements.” Id.
According to publicly available information, ACOG
“is the specialty’s premier professional membership
organization dedicated to the improvement of women’s
health. With more than 58,000 members, the College
is a 501(c)(6) organization and its activities include
producing the College’s practice guidelines and other
educational material.” The Am. Coll. of Obstetricians
and Gynecologists, About Us, https://www.acog.org/
About-ACOG/About-Us (last visited August 5, 2019).
According to publicly available information, the AAFP
is a national association of family doctors with over
131,400 physician and student members. Am. Acad. of

187a
Family Physicians, https://www.aafpcareerlink.org/
(last visited August 5, 2019). In determining whether
regulations actually further women’s health, the
Supreme Court has repeatedly looked at the generally
accepted standards for medicine set by the nation’s
major health organizations. See, e.g., Simopoulos v.
Virginia, 462 U.S. 506, 517 (1983) (considering ACOG
and other standards). The positions taken by the
ACOG and the AAFP are consistent with other record
evidence before this Court at this stage of the
proceedings, including record evidence regarding
recommendations from the NAF, a professional
association of abortion providers and the leading
organization offering accredited medical education to
healthcare professionals in all aspects of abortion care,
and the American Public Health Association (Decl. of
Linda W. Prine, M.D., ¶¶ 23, 24).
The Court notes that defendants make no argument
in their filings at this stage to refute or undercut these
representations regarding the positions taken by the
ACOG, the AAFP, or any of the other medical professional associations cited. Dr. Aultman, who offers
expert opinions on behalf of defendants in her
declaration but who did not testify at the July 22,
2019, hearing, is a Fellow of the ACOG (Decl. of Kathi
Aultman, M.D., ¶ 2). She does not criticize the ACOG
in her declaration (see generally Decl. of Kathi
Aultman, M.D.). The Court acknowledges that Dr.
Harrison, who offers expert opinions on behalf defendants in her declaration that seem confined to Act 610
and who did testify at the July 22, 2019, hearing was
critical in her hearing testimony of the ACOG (Dkt.
No. 84, at 248:6-24). However, defendants cite the
Court to no contrary consensus evidence specific to
abortion care.

188a
The Court notes that Dr. Harrison has filed a
supplemental declaration in which she cites 162
scientific articles that she claims show a link between
prior abortions and “preterm” births (Supp. Decl.
Donna J. Harrison, M.D., ¶ 3). The Court understands
that Dr. Harrison likely did this in response to cross
examination regarding a cite she previously included
in her declaration in support of this claim (Dkt. No. 84,
at 259:10-267:24). First, the Court notes that more
than half of these articles now cited by Dr. Harrison
were published over 20 years ago. Second, the Court
observes that many of the more recent articles focus
on populations from other countries. Third, while Dr.
Harrison has not pointed the Court to any language in
any particular study as supporting her position, the
Court observes that a 2015 meta-analysis cited by Dr.
Harrison concluded that women with a prior dilatation
and curettage (“D&C”) procedure are at a greater risk
for preterm births in comparison to women without a
prior dilation and curettage. M. Lemmers, et al.,
Dilatation and curettage increases the risk of subsequent preterm birth: a systematic review and metaanalysis, 31 Human Reproduction 34, 40 (2016). The
same study, however, noted that “[t]here were several
possible confounding factors, such as maternal age,
smoking status, use of alcohol, BMI, socio-economic
status, residence, co-habitation status, inter pregnancy intervals and season of conception” that may
not have been controlled for in the analysis. Id.
Accordingly, this study concluded that a “systematic
review demonstrates that D&C for miscarriage or
termination of pregnancy [is] associated with an
increased risk of subsequent preterm birth.” Id. at 43
(emphasis added). The study also concluded that “[t]he
mechanism as to how D&C might increase the risk for
preterm birth remains speculative.” Id. The Court

189a
concludes that this study, which reviewed multiple
other scientific studies, does not undermine the proof
before the Court that abortions are a safe procedure.
At most, this study indicates a correlation between
certain types of surgical abortions and later preterm
births, not any causal relationship between prior abortions and preterm births. Regardless, Dr. Harrison
fails to explain how, even if her cited studies show a
causal relationship between abortions and preterm
births, the board-certified or board-eligible OBGYN
requirement would reduce such a risk.
Plaintiffs assert that “[t]raining, rather than
specialty, determines competence to provide abortion
care . . . .” (Decl. of Linda W. Prine, M.D., ¶¶ 18-20;
Decl. of Frederick W. Hopkins, M.D., M.P.H., ¶¶ 3537; Dkt. Nos. 44-1, at 113-14; 84, at 24:19-25:12; 25:1925; 55:14-22; 56:3-13; 62:8-12; 65:22-25; 66:1-12;
171:10-13; 241:9-21). Record evidence supports plaintiffs’ assertion on this point. The record evidence
shows that, across the nation, roughly one-third of
abortion providers come from specialties other than
OBGYN (Decl. of Linda W. Prine, M.D., ¶ 20). Record
evidence is that abortion care is safely provided
around the country up to at least 22 weeks LMP by
non-OBGYN providers; record evidence before the
Court is that abortion is only available in Arkansas at
LRFP up to 21.6 weeks LMP (Decl. of Linda W. Prine,
M.D., ¶ 20; Decl. of Frederick W. Hopkins, M.D.,
M.P.H., ¶¶ 35-37; Dkt. No. 84, at 21:9-22:5). Further,
record evidence establishes that medical schools and
teaching hospitals around the country routinely use
non-OBGYN faculty members to train residents and
fellows in the provision of abortion care (Decl. of Linda
W. Prine, M.D., ¶ 20; Decl. of Frederick W. Hopkins,
M.D., M.P.H., ¶¶ 35-37).

190a
None of defendants’ expert witnesses refute this
record evidence regarding medical schools and teaching hospitals using non-OBGYN faculty members
to train residents and fellows in the provision of
abortion care. Based on the record evidence at this
stage of the proceeding, the two expert witnesses cited
by defendants in support of this requirement have no
experience in teaching abortion practitioners or
training OBGYN residents or fellows themselves.
Neither Dr. Aultman— who did not testify at the
hearing—nor Dr. Harrison cite to this type of
experience (see Decl. of Kathi Aultman, M.D.; Rebuttal
Decl. of Kathi Aultman, M.D.; Decl. of Donna J.
Harrison, M.D.). Instead, Dr. Aultman appears to
have reviewed websites and literature to prepare her
declaration, rather than relying upon her experience.
At this stage of the proceeding, on the record evidence
before it, the Court finds this evidence unpersuasive,
especially when compared to the testimonies of Dr.
Hopkins, Dr. Prine, Dr. Tvedten, and Dr. Cathey with
respect to teaching abortion practitioners and training
OBGYN residents and fellows (see Dkt. No. 84, at
24:15-25; 25:4-12; 25:22-25; 26:5-17; 27:18-25; 50:1323; 55:17-23; 56:3-7; 57:5; 62:8-12; 66:3-8; 181:10-14;
202:19-24; 203:1-5).
Perhaps more importantly, there is no record evidence that competence in abortion care is a prerequisite for becoming a board-certified or board-eligible
OBGYN (Decl. of Linda W. Prine, M.D., ¶ 21, n.4; Decl.
of Frederick W. Hopkins, M.D., M.P.H., ¶¶ 35-37; Dkt.
No. 84, at 24:1-18). Defendants assert that board
certification in OBGYN currently “requires training”
to perform procedures “that are functionally identical
to surgical abortions, such as suction dilation and
curettage” (Dkt. No. 103, at 7 (citing Decl. of Kathi
Aultman, M.D.)). However, the record supports that

191a
OBGYN residents can opt out of any abortion training
(Decl. of Linda W. Prine, M.D., ¶ 21 n.4; Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 38 n.14; Decl.
of Janet Cathey, M.D., ¶ 13), and many board-certified
OBGYNs have never even observed an abortion (Decl.
of Linda W. Prine, M.D., 21 n.4; Decl. of Frederick W.
Hopkins, M.D., M.P.H., 38 n.14). Training in OBGYN
does not entail training to competence in abortion care
or training in all aspects of abortion care. Instead, the
record evidence is that practitioners must specifically
seek out this training. Further, there is no record
evidence that OBGYN board certification requires
demonstrated skill in providing abortion care, competence in abortion care, or specific continuing education
in abortion care. At the hearing, Dr. Hopkins stated
that OBGYNs are not necessarily comfortable or
competent to provide abortion care (Dkt. No. 84, at
24:19-25:12; 27:16-28:9). Furthermore, the National
Academy Consensus Study Report, cited by Dr. Prine,
states that “trained physicians, OB/GYNs, family
medicine physicians and other physicians and APCs,
physician assistants, certified nurse midwives, and
nurse practitioners, can provide medication and
aspiration abortions safely and effectively.” National
Academy Consensus Study Report, at 14.
In Jackson IV, the district court in Mississippi noted
that Mississippi law at that time required that “all
physicians associated with an abortion facility must
have either ‘completed a residency in family medicine,
with strong rotation through OB/GYN,’ ‘completed a
residency in obstetrics and gynecology,’ or had ‘at least
one year of postgraduate training in a training facility
with an approved residency program and an additional year of obstetrics/gynecology residency.’” 320 F.
Supp. 3d at 837 (quoting Miss. Code R. § 15-16-1:
44.1.5(24)). Those requirements seem to be related to

192a
and a “better fit” with defendants’ asserted interests
here than a board-certified or board-eligible OBGYN
requirement for all abortion providers, especially
considering the record evidence presented.
Defendants cite to a study about the value of board
certification generally, but the Court concludes that is
of little, if any, value because that study does not focus
on abortion care or advance an argument that the
board-eligible or board-certified OBGYN requirement
improves patient care in the abortion setting (Dkt. No.
44-1, at 70-80). Defendants also cite to Dr. Prine’s
testimony that she became board-certified “because it
is standard” or “expected in the modern era.” (Dkt. No.
103, at 5). Dr. Prine, who provides abortion care,
teaches, and trains others to provide abortion care is
board-certified in Family Medicine, not OBGYN (Decl.
of Linda W. Prine, ¶ 1). Even Dr. Prine could not
satisfy Act 700’s OBGYN requirement in Arkansas.
Defendants fail to explain how her general statement
in a deposition given in the context of Jackson IV
advances defendants’ arguments with respect to
OBGYN board-certification or board-eligibility and
abortion care.
Further, a study about board-certification generally
does nothing to address the value of boardcertification eligibility, which Act 700 permits for
abortion providers. Act 700 permits doctors who
are merely eligible for OBGYN board certification to
provide abortion care, but defendants do not
explain how eligibility for OBGYN board certification
advances defendants’ claimed interests over existing
Arkansas laws and regulations. The Court also notes
that Dr. Horton was board-eligible for approximately
eight years, but he never became board-certified
because he never obtained the necessary case list.

193a
There is record evidence that the necessary case list
must come from three broad fields in OBGYN and that
the cases have to be handled as an independent
provider, not as a junior resident (Dkt. No. 84, at
23:10-25). Dr. Horton states that board eligibility or
certification is not relevant to the competent provision
of abortion care (Decl. of Thomas Russell Horton, Jr.,
M.D., ¶ 22).
Defendants claim that Arkansas women “deserve
better” than doctors with “just a minimally certified
medical license” to perform abortion care (Dkt. No.
103, at 42). Defendants rely on Dr. Aultman’s declaration and statements taken from the ABOG website
regarding the requirements for board-certification and
board-eligible OBGYNs in making these arguments.
Dr. Aultman’s declaration does not explain how the
OBGYN requirement increases patient safety relative
to Arkansas’ existing abortion regulations, including
the requirement that only Arkansas-licensed physicians may provide abortions. See Ark. Code Ann.
§ 5-61-101(a). Nowhere in the record evidence
presented to the Court do defendants explain why Act
700 advances their asserted interests more effectively
than pre-existing Arkansas laws and regulations.
For example, Dr. Aultman opines that the OBGYN
requirement is associated with benefits to patient care
because the certifying examination of the ABOG
requires a candidate to demonstrate good moral and
ethical character (Rebuttal Decl. of Kathi Aultman,
M.D., ¶ 9). The Arkansas Medical Practices Act and
Regulations contain such a requirement already, see
Arkansas Code Annotated § 17-95-403(b), and permit
the Arkansas State Medical Board to revoke, suspend,
or refuse to renew any license of an individual who, in
the judgment of the Board, is guilty of immoral or

194a
unprofessional conduct, Arkansas Code Annotated
§ 17-99-307(2). Dr. Aultman opines that boardcertified OBGYNs must disclose “criminal and
disciplinary history” to ABOG (Rebuttal Decl. of Kathi
Aultman, M.D., ¶ 9). Current Arkansas law permits
the Arkansas Medical Board to consider past criminal
conduct when granting or revoking medical licenses
of physicians. See Ark. Code Ann. § 17-95-409. Dr.
Aultman opines that board-certified OBGYNs must
meet certain continuing-education requirements to
remain board-certified (Rebuttal Decl. of Kathi
Aultman, M.D., ¶ 22). Under Arkansas law, to
maintain an active license to practice medicine in the
State of Arkansas, there are continuing medical
education requirements that may be enforced through
license suspension or revocation. See Ark. Admin.
Code 060.00.1-17 (requiring a person who holds an
active license to practice medicine in the State of
Arkansas shall complete 20 credit hours per year
of continuing medical education, stating that “Fifty
(50%) percent of said hours shall be in subjects pertaining to the physician’s primary area of practice . . . .”).
There is record evidence that the credentials of
Arkansas physicians can be audited. Defendants make
no argument as to why any of these current
requirements or any of the other Arkansas laws and
regulations is insufficient or why the board-certified or
board-eligible OBGYN requirements would be better
suited to address defendants’ asserted interests in the
light of current Arkansas law. Dr. Aultman does not
offer such opinions, and defendants submit no other
record evidence on this point for the Court’s consideration. Instead, defendants rely on decisions from
Mississippi and Louisiana to assert the OBGYN
requirement does more than pre-existing Arkansas
law to further defendants’ asserted interests (Dkt. No.

195a
103, at 45-46). Without record evidence specific to
Arkansas, defendants’ argument is not convincing.
Defendants include record evidence and argument
about unqualified providers operating in other states
(Dkt. No. 103, at 2, 45-46). There is no record evidence
that supports defendants’ argument that there are
unqualified abortion providers operating in Arkansas.
Further, the record evidence is that under Arkansas
law and current Arkansas regulation, defendants
already have the ability to monitor and take corrective
action to address an unqualified provider. Among
other requirements in Arkansas, an abortion provider
must be a licensed physician in Arkansas, obtain
required precise consent from the patient for the
procedure, keep a record that consent has been
obtained, and report any abortion provided to the
State. See Ark. Code Ann. § 5-61-101(a); Ark. Code
Ann. §§ 20-18-603(b)(1), (b)(2); Ark. Admin. Code
060.00.1-26. Failure to comply with these requirements permits the State to act. Defendants offer no
record evidence to explain what Act 700 provides that
advances defendants’ asserted interests over preexisting laws and regulations like these in Arkansas.
To the extent defendants assert an interest in
benefitting “the medical profession by ensuring that
practitioners are accountable” for keeping their
professional knowledge and skills up to date (Dkt. No.
103, at 8-12, 41), the historical overview offered by
defendants is not specific to Arkansas licensed medical
providers, Arkansas abortion care, or the realities of
abortion care training and education currently as
evidenced by this record. Act 700 does not encourage
physicians to “continue to develop their knowledge
and skills,” (Dkt. No. 103, at 44), because there is no
record evidence of a requirement that an abortion

196a
provider continue to develop his or her knowledge or
skills with respect to abortion care to maintain
OBGYN board certification or board eligibility. Record
evidence supports that most aspects of abortion care
are not covered by OBGYN board certification or board
eligibility training. Record evidence also demonstrates
that existing regulations for Arkansas licensed medical providers and Arkansas abortion facilities and
their staff implement a floor of care as to these
requirements. See Ark. Admin. Code 060.00.1-16;
060.00.1-17; 060.00.1-23 (regarding Arkansas licensed
medical providers); Ark. Admin. Code 007.05.1-10;
007.05.2-5; 007.05.-6(F),(G); 007.05.2-7(D) (regarding
Arkansas abortion facilities). In particular, the Court
notes that Arkansas regulations require abortion
providers to provide “annual in-service education
programs for professional staff” and provide “current
nursing literature and reference materials.” Ark.
Admin. Code. 007.05.2-7(D). Again, defendants present no record evidence as to why any of these current
requirements is insufficient or why the board-certified
or board-eligible OBGYN requirements would be
better suited to address defendants’ asserted interests
in the light of current Arkansas law.
Further, even if the Court assumes that a boardcertified or board-eligible OBGYN will receive training
on procedures such as suction dilation and curettage
and that such training is correlated to the competent
provision of surgical abortions, which is the limited
argument defendants make with respect to training
correlated to Act 700, there is no record evidence that
board-certified or board-eligible OBGYNs with such
training will be competent to provide abortion care;
plaintiffs’ witnesses uniformly describe the need to
seek such training on abortion care outside of and in
addition to most residency programs. Also, there is no

197a
record evidence that such training is relevant to the
provision of medication abortion, which is not analogous to “suction dilation and curettage” identified
by defendants.
Defendants argue that medication abortion is more
likely to involve complications than surgical abortion
(Dkt. No. 103, at 42). To the extent defendants rely on
Dr. Aultman’s declaration to support this claim, her
declaration is a survey of data that is not Arkansas
specific and does not clearly indicate the protocol used
to administer the medication abortion in the case
studies she recites (see Decl. of Kathi Aultman, M.D.;
Rebuttal Decl. of Kathi Aultman, M.D.). To the extent
defendants purport to rely on legislative findings cited
in Section 1504(d) of Arkansas Act 577 (see Dkt. No.
103, at 42 (citing Arkansas Code Annotated § 20-161502(a)(18))), the Court examined and rejected, at
least at the temporary restraining order and preliminary injunction stage, those findings in Jegley. See
Jegley, 2018 WL 3816925, at *24-25.
There is record evidence that the National Academy
Consensus Study Report “determined that the
risks associated with medication abortion are similar
to those associated with over-the-counter antiinflammatory drugs such as ibuprofen” and that “the
risks associated with surgical abortion are extremely
low, with the risk of complications being in the 0-to5% range.” (National Academy Consensus Study
Report at 11, 74-75). Dr. Hopkins presented testimony
at the July 22, 2019, hearing with respect to complication rates that does not support defendants’ assertions regarding alleged complications, and he was
subject to cross examination by defendants on these
points (Dkt. No. 84, at 17:13-22:5). Further, there is
record evidence regarding how Arkansas abortion

198a
providers administer medication abortion, and the
effectiveness of such procedures (Decl. of Stephanie A.
Ho, M.D., ¶¶ 14-19).
Moreover, Arkansas law requires medication
abortion providers to report to the State and to the
Arkansas Medical Board any adverse events associated with medication abortions. Ark. Code Ann. § 2016-1505; Ark. Admin. Code § 060.00.1-36. Defendants
offer no such record evidence. This requirement
substantially undercuts arguments made by defendants that such complications are underreported;
defendants suggest underreporting as a way to explain
a lack of evidence of complications (Decl. of Kathi
Aultman, M.D., ¶¶ 27, 29). Even if the Court accepts
defendants’ contentions regarding alleged complications from abortion, defendants do not explain how Act
700 would change that or how Act 700 would address
that contention in any more meaningful way than the
current Arkansas laws and regulations or the
contracted physician requirement for medication
abortion providers.
Currently, there is record evidence that plaintiffs
comply with the contracted physician requirement for
medication abortion providers. At the July 22, 2019,
hearing, Dr. Tvedten testified that, although LRFP
has “a signed contract with a physician who agrees to
handle complications” and who has “active admitting
privileges and gynecological/surgical privileges at a
hospital designated to handle any emergencies
associated with the use or ingestion of the abortioninducing drug,” Arkansas Code Annotated § 20-161504(d)(1),(2), LRFP has “so far not required her
services.” (Dkt. No. 84, at 192:20-21). There is no
record evidence that any LRFP patient or doctor
has called on the contracted physician at any point

199a
nor is there any record evidence that the contracted
physician has been involved in providing abortion
patient care.
Defendants now claim that “even practitioners who
intend to provide only medication abortion should be
competent to perform surgical abortions because, as
noted, surgical follow-up is often necessary to deal
with complications.” (Dkt. No. 103, at 43). The weight
of record evidence at this stage does not support
defendants’ argument. There is record evidence from
the July 22, 2019, hearing that the most common
potential complications with abortion are bleeding,
infection, and retained products meaning the abortion
is not completed (Dkt. No. 84, at 17:16-23). There is
record evidence that minor complications may happen
in one to three percent of cases, and those complications usually are managed in the clinic (Dkt. No. 84,
at 17:24-18:8). There is record evidence that major
complications occur much less frequently, more on the
order of one out of every few hundred procedures (Id.).
Dr. Hopkins states that “[a]ny clinician with adequate
training in abortion care can safely and effectively
handle” the most common abortion complications,
even though such complications are rare (Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 38). In the
event a significant complication does arise from an
abortion, which the record evidence indicates is rare,
Dr. Hopkins states that an abortion provider would
transfer or direct the patient to the nearest hospital to
receive the required care (Id., ¶ 39). If the complication
is retained tissue following a medication abortion, Dr.
Hopkins states that ACOG Practice Bulletin 143
states that the abortion provider should be trained in
surgical abortion “or should be able to refer to a
clinician trained in surgical abortion.” (Id.).

200a
Defendants again claim continuity of care or
“patient abandonment,” (Dkt. No. 103, at 43), a claim
this Court rejected in Jegley given current regulations
governing abortion providers in Arkansas and the care
they are required to provide post-abortion. See, e.g.,
Jegley, 2018 WL 3816925 at *39-40; see also Ark.
Admin. Code 007.05.2-7 (mandating patients have
access to 24-hour telephone consultation with either a
registered nurse or physician associated with the
abortion facility and mandating assessment by a
registered nurse for counseling needs post-abortion
and specifying written instructions for post-abortion
care that shall be given at discharge); Ark. Admin.
Code 007.05.2-8 (setting out the method for adopting
such instructions for post-abortion care); Ark. Admin.
Code 007.05.2-9 (requiring abortion providers to document that each patient has received these instructions
and mandating the Arkansas Department of Health
ensure compliance with the regulation). Defendants
claim the current contracted physician requirement
might result in a contracted physician “geographically
too far away to provide continuity of care” as a reason
to support Act 700’s constitutionality (Dkt. No. 103, at
43). Defendants in fact suggested in questioning that
the contracted physician requirement could be met by
a physician who resides out of state. See, e.g., Jegley,
2018 WL 3816925, at *37. The Court cited this as one
reason, among many, to reject as medically unnecessary and unconstitutional the current contracted physician requirement for medication abortion providers.
See, e.g., id., at *37-38.24

24

Certain arguments made by defendants with respect to the
purported ability to comply with Act 700’s OBGYN requirement
give this Court pause in examining defendants’ claimed interest
in continuity of care or avoiding patient abandonment. Here,

201a
To the extent defendants contend that the OBGYN
requirement brings the regulations governing abortion providers closer to existing regulations for hospitals or birthing centers that are required to administer
medication under the supervision of a licensed pharmacist, plaintiffs maintain that Arkansas law already
requires abortion providers to dispense medication
abortion under the supervision of a licensed pharmacist (Dkt. No. 61, at 32-33 (citing Ark. Admin Code
007.05.2-11(A)(2)). There is no record evidence that
OBGYN board certification, or OBGYN board certification eligibility, advances defendants’ asserted
interest in protecting the health and safety of pregnant women with respect to medication abortion over
the existing laws and regulations in Arkansas.
Citing to a “comprehensive meta-analysis of the
literature on physician capability over the course of a
career,” as defendants do in this case, does little to
persuade the Court when there is no indication this
“meta-analysis” is OBGYN or abortion provider
specific and no indication that this evidence relates
specifically to Arkansas (Dkt. No. 103, at 8). Further,
even Dr. Harrison, who is a board-certified OBGYN
and has held such certification continuously since
1993, but who has not practiced medicine in a clinical

defendants assert that one of the ways in which Arkansas
providers could comply with Act 700’s OBGYN requirement
would be to have someone other than the abortion provider
conduct all counseling with the patient (Dkt. No. 84, at 45:547:10; 80:18-81:11). Defendants seem to suggest that the abortion
provider should provide as many abortion procedures as possible
within the working day. This argument from defendants seems
at odds with a stated interest in continuity of care or avoiding
patient abandonment.

202a
setting in approximately 20 years,25 admitted in her
testimony on cross examination at the July 22, 2019,
hearing that despite her status as a board-certified
OBGYN she would not attempt to offer abortion care
with her current skill set having not recently provided
any care (Dkt. No. 84, at 241:9-21). This type of record
evidence from defendants’ own expert witness significantly undercuts the argument that Act 700 is a
“commonsense” method to increase physician competency as physicians gain more years of practice (Dkt.
No. 103, at 43).
Defendants also make an argument that Act 700
imposes specific requirements on abortion providers
“to address the fact that mothers seeking abortions
‘are less likely to litigate medical malpractice claims.’”
(Dkt. No. 103, at 44 (citing Tucson Woman’s Clinic v.
Eden, 379 F.3d 531, 545 (9th Cir. 2004)). The record
evidence demonstrates that current regulations exist
to address the concerns they raise; complaints may be
lodged with the Arkansas State Medical Board
which has regulatory authority to address such
complaints. See Ark. Admin. Code 060.00.1-16;
060.00.1-17; 060.00.1-23 (regarding Arkansas licensed
medical providers). Even malpractice allegations must
be reported to the Arkansas State Medical Board. Any
25

During her hearing testimony on July 22, 2019, Dr.
Harrison admitted to typographical errors in the opening paragraphs of her Declaration (Dkt. No. 84, at 239:17-240:9). She
completed her residency training in OBGYN between 1986 and
1990, not 2000 (Decl. of Donna J. Harrison, M.D., ¶ 1), and she
joined a multispecialty group in an underserved area of Michigan
in 1993, not 2003 (Id., ¶ 1; Supp. Decl. Donna J. Harrison, M.D.).
She has not been involved directly with patient care since approximately 2000. Dr. Harrison, like Dr. Tvedten, settled out of court
two lawsuits alleging medical malpractice while she was engaged
in patient care.

203a
claim or filing of a lawsuit alleging malpractice
against a physician licensed to practice medicine and
surgery in the State of Arkansas must be reported to
the Arkansas State Medical Board within ten days
after receipt or notification or the licensed physician
may face discipline up to and including revocation,
suspension, or probation or monetary fines. See Ark.
Admin. Code 060.00.1-23. To suggest that patients
must have a method outside of a malpractice lawsuit
to ensure competence as a reason to justify Act 700
overlooks the Arkansas licensure requirement and the
role of the Arkansas State Medical Board in that
process. Defendants fail to address why current
regulations are insufficient or why a board-certified or
board-eligible OBGYN requirement better serves
these claimed interests.
This type of analysis that the Court engages in here
goes directly to the degree to which the restriction is
over-inclusive or under-inclusive, see, e.g., Hellerstedt,
136 S. Ct. at 2315, and the existence of alternative,
less burdensome means to achieve the state’s goal,
including whether the law more effectively advances
the state’s interest compared to prior law. See, e.g.,
Hellerstedt, 136 S. Ct. at 2311, 2314.
As a result of the foregoing, this Court concludes at
this preliminary stage of the litigation that plaintiffs
are likely to prevail on their argument that “there [is]
no significant health-related problem” Act 700 “help[s]
to cure”; nor is it “more effective than pre-existing
[state] law” in advancing defendants’ asserted interests. Hellerstedt, 136 S. Ct. at 2311, 2314.

204a
3. Act 700: Inability To Comply With the
OBGYN Requirement
Before turning to analyze the burdens allegedly
imposed by the OBGYN requirement, the Court will
first address defendants’ argument that any such
burdens are the result of plaintiffs’ own actions or
omissions rather than the OBGYN requirement. Casey
requires a contextualized inquiry into how an abortion
restriction interacts with facts on the ground, not only
on the law’s direct effects. 505 U.S. at 887-895
(majority opinion); see Planned Parenthood Arizona,
Inc. v. Humble, 753 F.3d 905, 915 (9th Cir. 2014). In
Casey, the Supreme Court struck down Pennsylvania’s
husband notification requirement as creating an
undue burden, finding that, due to the fact that
“millions of women in this country . . . are victims
of regular physical and psychological abuse at the
hands of their husbands,” a “significant number of
women who fear for their safety and the safety of
their children are likely to be deterred from procuring
an abortion as surely as if the Commonwealth had
outlawed abortion in all cases.” 505 U.S. at 894
(majority opinion). There, the State of Pennsylvania
did not cause spousal abuse, but such abuse was
the background context against which the Court
measured the burdens created by the husband notification provision. Accordingly, at this stage of the
litigation, the Court rejects defendants’ argument that
the Court cannot assess burdens that the State has not
directly caused.
Defendants argue that the qualifying OBGYNs who
have agreed to provide care at LRFP and PPAEO
Little Rock have chosen “to arbitrarily limit the hours
they work.” (Dkt. No. 103, at 47). They argue also that
Dr. Cathey, Dr. Hopkins, and Dr. Browne have limited

205a
their own availability, so therefore any burden that
accrues to women seeking abortions in Arkansas as a
result of the OBGYN requirement is the result of those
self-imposed limitations (Id., at 48). Further, defendants claim that plaintiffs made no attempt to locate
alternative providers (Id., at 49). Defendants point out
that plaintiffs are not limited to board-certified or
board-eligible OBGYNs in Arkansas and that there
are currently over 51,673 board-certified OBGYNs in
the United States who could obtain a medical license
in Arkansas (Id.). Defendants concede that “Arkansas
alone has 294 board-certified physicians in Obstetrics
and Gynecology.” (Id., at 6). Defendants maintain that
any incidents of stigma or harassment relating to
abortion care providers are “anecdotal” and, even if
such stigma or harassment makes it more difficult for
abortion providers to hire a qualifying practitioner,
that this obstacle is not caused by the State (Id., at 49).
Defendants also point out that Dr. Tvedten’s 2015
letter expressed how he finds his practice as “very
lucrative and gratifying,” and they argue that Dr.
Tvedten’s letter belies his assertions of “stigma and
harassment.” (Id.). In their earlier response filed
in this case, defendants argued that the economic
renumeration of acting as an abortion provider “will
quickly and certainly attract a qualified provider of
surgical abortion to the state.” (Dkt. No. 43, at 59).
The weight of the record evidence, at least at this
preliminary stage of the litigation, does not support
defendants’ arguments. Dr. Cathey avers that three
and a half days of abortion care per week is the maximum she can provide, given her personal and professional obligations (Decl. of Janet Cathey, M.D., ¶ 8).
She is currently providing three days of care a week
for eight to ten hours a day, so her alleged availability
has increased from her current schedule. She alleges

206a
that she has a physical injury that continues to produce physical limitations, and she has other professional obligations—including Social Security disability consultations and transgender patients—that
prevent her from increasing her provision of abortion
care (Id.). The record evidence also indicates that Dr.
Rodgers is semi-retired due in part to health issues
that prevent him from providing patient care for long
hours or multiple days a week (Id.). The Court finds
that these representations are credible and do not
represent “self-imposed limitations” but are instead
reasonable professional limitations that prevent Dr.
Cathey and Dr. Rodgers from providing additional
abortion care.
Similarly, the record evidence shows that Dr.
Browne and Dr. Hopkins have not self-imposed limitations on their ability to provide abortion care in Little
Rock. Dr. Browne lives in the State of Washington and
is employed in that state (Decl. of Charlie Browne,
M.D., ¶ 1). He previously provided abortion care at
LRFP but ceased doing so because the travel time was
disruptive professionally and due to harassment from
protestors he suffered while working at LRFP (Id., ¶¶
9-10). Dr. Browne has agreed to provide abortion care
for LRFP but only for two to three days in July 2019
(Id., ¶ 14). He cannot offer more help to LRFP due to
his professional and personal obligations in Seattle,
Washington (Id.). As for Dr. Hopkins, he lives in
California and travels to Arkansas to provide abortion
care at LRFP approximately once every two months
for “three to four days every other month.” (Decl. of
Frederick W. Hopkins, M.D., M.P.H., ¶ 44). He states
that he is unable to visit Arkansas more frequently
due to his clinical and teaching positions in California
and because of the personal danger he believes exists
as a result of providing abortions in Arkansas (Id.,

207a
¶¶ 48, 49, 51). Dr. Hopkins testified that “[i]t’s not
about the money for me” and that he could not move
to Arkansas because he would have to give up his
entire career (Dkt. No. 84, at 37:2-4). Dr. Hopkins
noted that he would not be willing to relocate, even if
offered a million dollars by LRFP (Id., 37:6-8). As with
Dr. Cathey and Dr. Rodgers, the record evidence here
indicates that the limitations preventing Dr. Browne
and Dr. Hopkins from providing additional abortion
care are not “self-imposed” but instead are the
understandable result of the logistical difficulties
posed by working in Arkansas while living in
California or Washington state. See, e.g., Strange III,
33 F. Supp. 3d at 1343-47 (declining to assume that
physicians who provided abortion in Alabama but
who did not reside in Alabama—and who would
have had to “sacrifice access to the variety of medical
opportunities[] available” and their personal obligations in their home states to move to there—
could upturn their lives and existing practices to
lessen burdens imposed by the challenged admitting
privileges requirement).
The record evidence also belies any claim that
plaintiffs did not attempt to contact alternative qualifying providers. Defendants argue that there are 294
board-certified OBGYNs in Arkansas (Dkt. No. 103, at
6). The record evidence indicates that, after Act 700
was passed, LRFP sent a letter to each board-certified
OBGYN listed on the Arkansas Medical Board’s licensure list, in which LRFP stated that it was seeking
a part-time, board-certified OBGYN to see patients
three days a week (Decl. of Lori Williams, M.S.N.,
A.P.R.N., ¶ 36). The letter also noted that the compensation was “generous.” (Id.). Ms. Williams testified
that she received no responses to that letter (Dkt. No.
84, at 87:20-21). Additionally, Ms. Williams submitted

208a
a request to a national organization that matches
abortion providers with clinics, and through these
efforts two physicians expressed preliminary interest,
though neither was able to accept because they are
not licensed to practice medicine in Arkansas (Decl. of
Lori Williams, M.S.N., A.P.R.N., ¶ 37). Ms. Williams
testified that she contacted the board-certified and
board-eligible OBGYNs who have previously provided
abortion care at LRFP (Dkt. No. 84, at 88:12-18). Ms.
Williams also posted a job posting via the Physicians
for Reproductive Health leadership, the Ryan Residency, and the Family Planning Fellowship (Id., at
89). Ms. Williams also testified that she has talked at
national meetings with other providers (Id.). Indeed,
Dr. Browne and Dr. Hopkins have agreed to work for
LRFP as a result of these outreach efforts. Further, as
described by Dr. Hopkins, it is understandable that
qualifying physicians might have qualms about
moving to Arkansas to provide abortion care, given the
number of statutes and regulations recently enacted
to regulate the provision of abortion care and the
uncertainty surrounding the ability of any provider to
offer such care in the future. Defendants have presented no record evidence to refute the record evidence
which shows LRFP’s efforts to comply with Act 700.
Based upon this record evidence, the Court concludes
that plaintiffs have made reasonable efforts to comply
with the OBGYN requirement.
The Court also concludes that the record evidence
indicates that the harassment and stigma faced by
abortion providers in Arkansas is an obstacle to compliance with the OBGYN requirement. Like the
benefit analysis, the rule articulated in Casey
requires the Court to look to the context of the OBGYN
requirement to assess the burdens imposed. Here,
multiple abortion providers have offered record

209a
evidence regarding their personal experiences with
harassment and stigma in Arkansas: Dr. Browne
testified that the harassment and stigma he experienced in Arkansas was “far more prevalent and
aggressive” than any other he had experienced (Decl.
of Charlie Browne, M.D., ¶ 12). Dr. Horton testified
that each day protestors block the entrance to LRFP
and that he has been the subject of bomb threats in
nearby Memphis, Tennessee (Decl. of Thomas Russell
Horton, Jr., M.D., ¶¶ 26-27). Ms. Williams testified
that medical students fear to drive their own vehicles
or wear clothing identifying themselves as medical
professionals when they come to LRFP for medical
training (Decl. of Lori Williams, M.S.N., A.P.R.N.,
¶ 39). Ms. Williams also states that anti-abortion
advocates have targeted her personally by sending a
letter with her name, address, and picture to several
hundred of her neighbors (Id., ¶ 41). Dr. Tvedten and
Ms. Williams offered testimony consistent with these
declarations at the July 22, 2019, hearing. While it
is true that defendants have not caused the harassment described in the record, established precedent
requires the Court to consider the context of the
OBGYN requirement while assessing the burdens
imposed by it.
Additionally, the Court is not convinced that Dr.
Tvedten’s description of the positive aspects of acting
as an abortion provider negates the record evidence
relating to the harassment and stigma faced by
abortion providers. While Dr. Tvedten described the
positive aspects of providing abortion care in a letter
designed to encourage others to join his practice, the
Court does not view these descriptions as minimizing
the risks of performing abortion care in Arkansas,
which include, as demonstrated by the record

210a
evidence, risks to the professional reputation and
physical safety of abortion providers.
For all these reasons, the Court finds that, based on
the record evidence before it at this stage of the
litigation, LRFP and PPAEO Little Rock are likely to
prevail on their claim that they are unable to comply
with the OBGYN requirement beyond the extent to
which they have already done so.
4. Act 700: Considering
Doctors And Clinics

Out-Of-State

In Jegley, this Court declined to consider the
availability of abortions at out-of-state clinics when
determining if the contracted physician requirement
imposes an undue burden on women seeking medication abortions in Arkansas. Other federal courts have
held that States may not outsource their duty to
protect the constitutional rights of their citizens.
Jackson Women’s Health Org. v. Currier, 760 F.3d 448,
457 (5th Cir. 2014), cert denied, 136 S. Ct. 2536 (2016)
(holding that the undue-burden analysis “focuses
solely on the effects within the regulating state”); see
Schimel, 806 F.3d at 918 (rejecting argument that the
availability of second-trimester abortions in Chicago
could justify the closure of Wisconsin’s only abortion
clinic); see also Strange III, 33 F. Supp. 3d at 1360-61
(even if out-of-state providers were considered, 80 mile
distance to out-of-state clinic means the “threshold
difficulties related to losing an abortion clinic in her
home city” still present a burden).
This Court’s reluctance to consider out-of-state
abortion providers in this analysis finds additional
support in State of Missouri ex rel. Gaines v. Canada,
305 U.S. 337 (1938). There, the Supreme Court held
that the University of Missouri law school could not

211a
deny Lloyd Gaines admission to the school on the basis
of his race, even though the University offered him a
stipend to use at a law school in an adjacent state. Id.
at 342. The Supreme Court reasoned that:
[T]he obligation of the State to give the
protection of equal laws can be performed
only where its laws operate, that is, within its
own jurisdiction . . . . That obligation is
imposed by the Constitution upon the States
severally as governmental entities,— each
responsible for its own laws establishing the
rights and duties of persons within its borders. It is an obligation the burden of which
cannot be cast by one State upon another, and
no state can be excused from performance by
what another State may do or fail to do. That
separate responsibility of each State within
its own sphere is of the essence of statehood
maintained under our dual system.
Id. at 350.
While Gaines was an equal protection case—here
the Court analyzes a due process claim— the Court
finds that its logic applies here. See Currier, 760 F.3d
448, 457 (citing Gaines for the proposition that
Mississippi could not rely upon neighboring states to
reduce the undue burden placed on women by abortion
restrictions). Further, the text of the Due Process
Clause is clear: no “State” shall “deprive any person
of life, liberty, or property, without due process of
law . . . .” U.S. Const. amend. XIV, § 1. This constitutional command is directed at the States, and “no State
can be excused from performance by what another
state may do or fail to do.” Gaines, 305 U.S. at 350.

212a
The Court acknowledges that the Supreme Court
did not explicitly address whether out-of-state
abortion facilities should be considered in the undue
burden analysis. See Hellerstedt, 136 S. Ct. at 2304.
Prior to the Supreme Court’s ruling in Hellerstedt, the
Fifth Circuit reversed the district court’s finding that
abortion restrictions were unconstitutional as-applied
to the El Paso clinic because women in El Paso could
and did use abortion providers in nearby New Mexico.
Specifically, the Fifth Circuit noted that, if the El
Paso clinic closed, there was an abortion facility
“approximately twelve miles away in Santa Teresa,
New Mexico,” and that “independent of the actions of
the State,” “Texas women regularly choose to have an
abortion in New Mexico.” See Cole, 790 F.3d at 596-97
(emphasis in original). Still, rather than upholding the
Fifth Circuit’s decision, the Supreme Court reversed
the Fifth Circuit’s decision and found that the same
statute at issue in Cole was facially unconstitutional
because it imposed an undue burden on women seeking abortions in Texas. Hellerstedt, 136 S. Ct. at 2318.
Given the legal authorities reviewed by this Court
and the possibility that a neighboring state might
unilaterally alter access to abortion, the Court
declines to consider out-of-state abortion providers in
this analysis. Defendants themselves assert that the
closest out-of-state abortion providers are found in
Memphis, Tennessee; Jackson, Mississippi; Shreveport,
Louisiana; Dallas/Fort Worth, Texas; and Tulsa,
Oklahoma (Dkt. No. 103, at 58-59). Defendants assert
that these providers are found within 150 miles of
Arkansas’ borders, and Dr. Lindo testified that the
Memphis clinic is a 300-mile round trip from Little
Rock (Dkt. No. 84, at 163:9-14). This Court infers that,
if the availability of an out-of-state abortion provider
within 12 miles of the Texas border was not enough in

213a
Hellerstedt to ameliorate the burdens imposed by
Texas’ surgical-center requirement, then the distances
at issue in this case to out-of-state abortion providers
will not relieve any undue burden created by the
OBGYN requirement.
5. Act 700: Burdens Imposed By The
OBGYN Requirement
The Court will first analyze whether the burdens
created by the OBGYN requirement entitle plaintiffs
to facial relief. Plaintiffs argue that they are entitled
to facial relief because, if the OBGYN requirement
goes into effect, the number of abortions provided by
LRFP and PPAEO Little Rock will be drastically
reduced, preventing women who would have otherwise
obtained abortions at those facilities from obtaining
abortions at all. Plaintiffs may prevail on a facial
challenge to an abortion regulation if they “demonstrat[e] that ‘in a large fraction of the cases in which
[the law] is relevant, it will operate as a substantial
obstacle to a woman’s choice to undergo an abortion.’”
Jegley, 864 F.3d at 958 (citing Casey, 505 U.S. at 89495 (majority opinion)). The Eighth Circuit also articulated the test for facial relief against an abortion
restriction as “whether the [OBGYN] requirement’s
benefits are substantially outweighed by the burdens
it imposes on a large fraction of women seeking medication abortion in Arkansas.” Id. at 960 n.9 (emphasis
added). Furthermore, “[n]othing prevents this Court
from awarding facial relief as the appropriate remedy
for [plaintiffs’] as-applied claims.” Hellerstedt, 136 S.
Ct. at 2307. There is record evidence that, if the
OBGYN requirement goes into effect, LRFP will be
forced to offer fewer abortions than they can in the
absence of the OBGYN requirement. There is also
record evidence that, at this time, PPAEO Fayetteville

214a
offers no abortion care, so LRFP and PPAEO Little
Rock are the only abortion clinics in the State of
Arkansas. There is also record evidence that a very
small number (less than half a dozen) of abortions a
year are provided by others in Arkansas.26 In sum,
plaintiffs argue that since the OBGYN requirement
will reduce the number of abortions that can be
provided by LRFP and PPAEO Little Rock, the
OBGYN requirement is facially unconstitutional.
To evaluate the burdens imposed by the OBGYN
requirement, the Court must first define the group
of women whose burdens must be analyzed. See
Hellerstedt, 136 S. Ct. at 2320 (“[T]he relevant denominator is ‘those [women] for whom [the provision] is
an actual rather than an irrelevant restriction.’”)
(quoting Casey, 505 U.S. at 895 (majority opinion)). In
Hellerstedt, the Supreme Court reaffirmed that a law
creates an undue burden when it places a “substantial
obstacle to a woman’s choice” in “a large fraction of the
cases in which” it “is relevant.” 136 S. Ct. at 2313
(quoting Casey, 505 U.S. at 895 (majority opinion)); see
Jegley, 864 F.3d at 958 (“[B]ecause the contractphysician requirement only applies to medicationabortion providers, the ‘relevant denominator’ here is
women seeking medication abortions in Arkansas.”).
In their original brief-in-support of their motion for a
temporary restraining order/preliminary injunction,
plaintiffs appear to argue that the “relevant denominator” in this case is “women who seek abortion care
26

There is no record evidence that this number is expected to
increase. The Court also notes that Arkansas requires any facility
in which 10 or more abortions are performed per month must be
licensed as an “abortion facility” and must comply with the regulations and restrictions governing abortion care. Ark. Code Ann.
§ 20-9-302; Ark. Admin. Code 007.05.2-1 et seq.

215a
in Arkansas . . . .” (Dkt. No. 4, at 42). Defendants
assert that the “relevant denominator” is “all Arkansas
women seeking abortions . . . .” (Dkt. No. 103, at 63).
Defendants also argue that the Court should not
include women who would otherwise seek abortions at
PPAEO Fayetteville in the numerator (Id.).
At this stage of the proceeding, the Court will
consider all women seeking abortions in Arkansas as
the “relevant denominator” of the “large fraction”
test.27 There is no support in the precedents for
excluding out-of-state residents from the “relevant
denominator.” See Hellerstedt, 136 S. Ct. at 2320
(“Here, as in Casey, the relevant denominator is ‘those
[women] for whom [the provision] is an actual rather
than an irrelevant restriction.”); Jegley, 864 F.3d at
958 (“[B]ecause the contract-physician requirement
only applies to medication-abortion providers, the
‘relevant denominator’ here is women seeking medication abortions in Arkansas.”). This position also finds
support under the Privileges and Immunities Clause
of the Constitution, which the Supreme Court has held
prevents states from restricting abortion access to outof-state residents. See Doe, 410 U.S. at 200 (“Just as
the Privileges and Immunity Clause . . . protects
persons who enter other States to ply their trade, . . .
so must it protect persons who enter Georgia seeking
the medical services that are available there.”). The
Court sees no contradiction in including out-of-state
residents in the large fraction calculation and excluding out-of-state clinics from the burden analysis.
27

The Court used Arkansas women seeking abortions as the
relevant denominator in its temporary restraining order. After
reviewing the parties’ briefings and the relevant precedents, the
Court is convinced that out-of-state residents should not be
excluded from the relevant denominator of the large fraction test.

216a
These holdings derive from two different constitutional sources. In short, the State is barred by the Due
Process Clause from denying substantive due process
to its citizens and is barred by the Privileges and
Immunities Clause from denying out-of-state residents the same rights afforded to Arkansas citizens.
The Court also declines to exclude those women who
would seek abortions from PPAEO Fayetteville from
the numerator of the large fraction calculation. As
discussed, this Court’s analysis must consider the
facts on the ground, Casey, 505 U.S. at 887-895
(majority opinion), and it is undisputed that PPAEO
Fayetteville is not providing abortions. Despite
defendants’ arguments to the contrary, there is no
record evidence that the closure of PPAEO Fayetteville
was a “voluntary decision”; instead, the only record
evidence before the Court regarding the reasons for
the closure of that facility are found in Dr. Hill’s
declaration, where he averred that PPAEO Fayetteville
is currently unable to offer abortion services because
security concerns led PPAEO Fayetteville to seek a
new location that has not yet materialized (Decl. of
Brandon J. Hill, Ph.D., ¶¶ 3-4). Dr. Hill also stated
that he is confident that PPAEO Fayetteville will find
a new location, but his declaration makes it clear that
the cessation of services by PPAEO Fayetteville is a
result of anti-abortion security concerns rather than a
voluntary decision by PPAEO Fayetteville. Accordingly, to the extent women who seek abortions at
PPAEO Fayetteville are included in the denominator
of this Court’s “large fraction” calculations, they will
also be included in the numerator.
The Court next turns to examine the “large fraction”
test. The Eighth Circuit has expressed skepticism that
4.8 to 6.0% is sufficient to qualify as a “large fraction.”

217a
Jegley, 864 F.3d at 959 n.8 (citing Cincinnati Women’s
Servs., Inc. v. Taft, 468 F.3d 361, 374 (6th Cir. 2006)).
The Eighth Circuit reversed and remanded this
Court’s prior preliminary injunction in Jegley, determining that, “in order to sustain a facial challenge and
grant a preliminary injunction,” this Court is “required
to make a finding that the Act’s contract-physician
requirement is an undue burden for a large fraction of
women” for whom the Act is relevant. Id. at 959
(emphasis added). The Eighth Circuit addressed the
“large fraction” test articulated in Casey in Planned
Parenthood, Sioux Falls Clinic v. Miller, 63 F.3d 1452,
1462-63 & n.10 (8th Cir. 1995) (Arnold, J.), cert. denied
sub nom., 116 S. Ct. 1582 (1996) (finding that plaintiff
had “shown that a large fraction of minors seeking previability abortions would be unduly burdened by
South Dakota’s parental notice status, despite its
abuse exception,” in part because “[r]oughly eighteen
per cent. of South Dakota’s minors live in single parent
homes” and thus could not “simply notify her other
parent”). At least one other district court has examined the “large fraction” test and undue burden
analysis the Eighth Circuit applied in Miller. See
Planned Parenthood Minnesota, North Dakota, South
Dakota v. Daugaard, 799 F. Supp. 2d 1048 (D. S.D.
2011) (Schreier, J.) (noting that “[i]f the plurality opinion in Casey intended ‘large fraction’ to mean a majority, it would have said majority” and referencing the
18% language used by the Eighth Circuit in Miller).
The Court now turns to analyze and attempt to
quantify, based upon the record evidence at this stage
of the proceedings, the burdens imposed by the
OBGYN requirement.

218a
a. Act 700: Effective Ban On Surgical
Abortions
First, the Court finds that every Arkansas woman
in seeking a surgical abortion in Arkansas faces a
burden due to the OBGYN requirement. The record
evidence indicates that LRFP is the only abortion
provider in the state that currently provides surgical
abortions and that, if LRFP is forced to close as a
result of the OBGYN requirement, no other surgical
abortion provider will exist in Arkansas. The Court
also acknowledges record evidence that some women
have a strong preference for surgical abortions “because
it requires fewer visits to the clinic, and thus is
associated with a lower burden in terms of funding and
time.” (Decl. of Lori Williams, M.S.N., A.P.R.N., ¶ 15).
Defendants point to a finding by the Sixth Circuit
that “the Supreme Court has not articulated any rule
that would suggest that the right to choose abortion”
articulated in Casey “encompasses the right to choose
a particular abortion method.” Planned Parenthood
Southwest Ohio Region v. DeWine, 696 F.3d 490, 51415 (6th Cir. 2012) (emphasis in original).
The Court acknowledges that, under the holding in
DeWine, the unavailability of a certain method of abortion does not, by itself, create a substantial obstacle to
a woman’s right to have an abortion if other methods
of pre-viability abortion remain available. Regardless,
the Court finds that the record evidence does support
an inference that a lack of surgical abortion in
Arkansas would present some burden to those women
who prefer surgical abortions over medication abortions and for whom surgical abortion maybe a better
or the only option for reasons supported by this record.
Thus, the Court concludes that, if the OBGYN requirement effectively ends surgical abortions in Arkansas,

219a
the OBGYN requirement burdens those women who
are seeking surgical abortions in Arkansas. Indeed,
given that the record evidence indicates that 2,212
surgical abortions are currently provided by LRFP
annually, if each of these abortions is no longer available, then a large fraction of women for whom the
OBGYN requirement is relevant will face a substantial obstacle to their right to an abortion.
The Court also acknowledges the record evidence
that, in spite of the OBGYN requirement, LRFP may
continue to provide surgical abortions. While the
parties dispute the number of surgical abortions that
LRFP will be able to continue providing—Dr. Lindo
asserts that Dr. Hopkins can provide 252 surgical
abortions annually, while defendants assert that he
can provide up to 525 annually—there is no dispute
that the number of surgical abortions provided by
LRFP will be less than the 2,212 total surgical
abortions currently provided by LRFP or the 1,927
Arkansas women who, on average, received surgical
abortions (Decl. of Jason Lindo, Ph.D., ¶ 61).
Even if this burden, by itself, does not render the
OBGYN requirement a “‘substantial obstacle in the
path of a woman’s choice’ in ‘a large fraction of the
cases in which’ it ‘is relevant’” Hellerstedt, 136 S. Ct.
at 2313 (citing Casey, 505 U.S. at 895 (majority
opinion)), the Court will not discount it as some
evidence of burden. To make the ultimate “substantial
obstacle” determination, the burden imposed by the
total or partial elimination of surgical abortions “must
be taken together with other[]” burdens caused by
the OBGYN requirement and weighed against “any
health benefit” to determine if an “undue burden”
exists. Id. at 2313.

220a
b. Act 700: Reduction In Abortions Due
To The OBGYN Requirement
The record evidence before the Court demonstrates
that PPAEO Fayetteville is currently not offering
abortion care. The record evidence also indicates that,
currently, LRFP offers both surgical and medication
abortions and that PPAEO Little Rock only offers
medication abortions. Dr. Lindo explains that, currently, 3,167 abortions are performed annually in
Arkansas, including Arkansas residents and nonresidents (Supp. Decl. of Jason Lindo, Ph.D., ¶ 10).28
Dr. Lindo also explains that the Little Rock clinics
perform 2,614 abortions annually, including nonresidents (Id., ¶ 8). He also avers that, on average over
the past three years, 2,779 Arkansas residents obtain
abortions in Arkansas each year (Id., ¶ 51).29 The
28

Dr. Solanky argues that Dr. Lindo overestimates the number of abortions that will occur in the future in Arkansas since
the number of abortions in Arkansas has decreased by three percent per year, on average. Dr. Solanky has not, however, offered
a counter proposal for the number of abortions that will occur
annually in Arkansas in the future (see Supp. Decl. Tumulesh K.
S. Solanky, Ph.D., ¶ 16). Furthermore, Dr. Solanky’s declaration
states that 9,497 abortions have occurred in Arkansas from May
3, 2016, to May 1, 2019 (Id., ¶ 12 (Table 2)). Divided by three, this
equals 3,165. Since Dr. Solanky’s data appears nearly identical
to Dr. Lindo’s and because Dr. Solanky has not proposed an
alternative figure, the Court declines to disregard Dr. Lindo’s
estimate of the total number of abortions that occur annually
in Arkansas.
29

Dr. Solanky estimates that approximately 2,802 Arkansas
women seek abortions in Arkansas per year, on average (Supp.
Decl. of Tumulesh K. S. Solanky, ¶ 10). Dr. Lindo estimates that
2,779 Arkansas women seek abortions per year (Decl. of Jason
Lindo, Ph.D., ¶ 51). Dr. Solanky states that his estimate was
derived by viewing county-level data, and he notes that when an
abortion is attributed to a county with a name that exists in

221a
record evidence also indicates that, on average, 1,927
Arkansas women seek surgical abortions in Arkansas
annually (Id., ¶ 61). While there is no direct record
evidence indicating how many Arkansas women
sought medication abortions on average over the past
three years, the Court infers that 85230 Arkansas
residents sought medication abortions in Arkansas on
average over the past three years.
Plaintiffs have presented record evidence that, if the
OBGYN requirement goes into effect, LRFP will either
be forced to close or to offer far fewer abortions than it
currently does. Specifically, Dr. Lindo avers that,
regardless of whether the OBGYN requirement forces
LRFP to close, Dr. Rodgers and Dr. Cathey will be able
to provide 956 abortions annually at PPAEO Little
Rock (Id., ¶ 9). Dr. Lindo estimates Dr. Rodgers’
capacity to provide medication abortions based upon
the maximum number of abortions he provided in any
given month over the past three years. Dr. Lindo
estimates Dr. Cathey’s capacity similarly and adds
17% to her capacity due to her plan to expand the
multiple states, that abortion has been counted as an Arkansas
resident abortion (Supp. Decl. of Tumulesh K. S. Solanky, ¶ 10
n.3). This estimate likely inflated Dr. Solanky’s estimate of the
number of Arkansas resident abortions. Given that Dr. Lindo’s
estimate is only 23 less than Dr. Solanky’s, and given that Dr.
Solanky’s methodology likely resulted in an inflated estimate, the
Court will use Dr. Lindo’s estimate in its calculations here. Even
if the Court were to use Dr. Solanky’s estimated total, the
Court’s ultimate conclusions would not be affected. Similarly, Dr.
Solanky argues that Dr. Lindo’s estimate for the number of
abortions that occur each year is too high because abortion rates
have fallen by approximately three percent per year; again, even
if true, such a minor reduction in abortion rates would not change
this Court’s ultimate conclusions.
30

2,779-1,927=852.

222a
number of days she provides services from 3 to 3.5
days per week. These estimates are consistent with
the record evidence (Decl. of Jason Lindo, Ph.D.,
¶ 14(b); Decl. of Janet Cathey, M.D., ¶ 8; Dkt. No. 84,
at 204:20-23). Based upon this data, Dr. Lindo
estimates that, if the OBGYN requirement goes into
effect, Dr. Rodgers can provide 480 medication abortions annually and that Dr. Cathey can provide 476
medication abortions annually (Decl. of Jason Lindo,
Ph.D., ¶ 50). The Court notes that, since these estimates are based upon the maximum number of
abortions each of these physicians has provided in the
past, these estimates likely overestimate each providers’ capacity due to the assumption that each provider
will provide abortion care at his or her maximum rate
over a sustained period.
If LRFP can remain open with the OBGYN requirement in effect, then Dr. Lindo projects that Dr.
Hopkins will be able to provide 252 surgical abortions
at LRFP. Dr. Lindo generated this number based upon
the fact that, according to Dr. Lindo, the most women
that Dr. Hopkins has served in any given day at LRFP
since 2017 is 21, and therefore Dr. Hopkins will likely
serve 42 women every other month, if he spends a
business week at LRFP during which he does
informed-consent appointments one day a week and
provides abortions the other two days (Decl. of Jason
Lindo, Ph.D., ¶ 49). Under Dr. Lindo’s projections,
these 25231 annual surgical abortions will be the only
abortions available at LRFP (Id.).
Defendants argue that Dr. Lindo “wrongly assumes
that the maximum number of abortions actually
performed in a single day equals the maximum
31

42*6=252.

223a
capacity . . . .” (Dkt. No. 103, at 54). This is incorrect:
as stated above, Dr. Lindo’s projections are based upon
the past numbers of abortions provided by the
physicians at LRFP and PPAEO Little Rock, and his
projections are based upon the providers’ histories of
providing abortions, not upon the capacity of a given
facility. Defendants also point to Dr. Lindo’s declaration as proof that “one provider in a single, three-hour
period per week could provide at least 624 abortions
per year.” (Id., at 56). But the declaration that defendants are referencing—Dr. Lindo’s declaration—is
specifically referencing Dr. Paulson’s capacity to
provide medication abortions at PPAEO Fayetteville,
and in that declaration Dr. Lindo specifically states
that, since he lacks any historical data on Dr.
Paulson’s capacity to provide medication abortions, he
is relying on PPAEO Fayetteville’s representation that
Dr. Paulson will be able to provide abortions to a
maximum of 12 patients each week (Decl. of Jason
Lindo, Ph.D., ¶ 49(c)). Thus, given that this projection
is specific to Dr. Paulson’s particular situation, the
Court declines to assume that all abortion providers
could provide up to 624 medication abortions in a
given year.
Defendants also argue that plaintiffs have understated Dr. Hopkins’ capacity to perform surgical abortions; by defendants’ estimate, Dr. Hopkins should be
capable of providing 525 surgical abortions annually
(Dkt. No. 103, at 64). To reach this conclusion,
defendants point to Ms. Williams’ declaration that
LRFP can safely and effectively “provide abortion care
up to approximately 20-25 women per day . . . .” (Decl.
of Lori Williams, M.S.N., A.P.R.N., ¶ 17). Defendants
next argue that, if Dr. Hopkins “continues his practice
of providing 25 surgical abortions at LRFP an average
of 3.5 days a week every-other month, then he will

224a
perform 525 surgical abortions a year (25 abortions x
3.5 days x 6 time = 525 abortions per year).” (Id.).32 Yet
this seemingly simple calculation misrepresents the
record: Ms. Williams testified that Dr. Hopkins has
provided only six percent of LRFP’s abortion care, and
Dr. Lindo used this data to calculate Dr. Hopkins’
capacity to provide abortions at 252 per year. Ms.
Williams did not aver that Dr. Hopkins currently
provides 25 abortions per day. Further, construing Ms.
Williams’ statement reasonably, the Court understands her position to be that LRFP can currently
provide 25 abortions a day based upon its current
providers. The Court does not understand her statement to be that one abortion provider can provide 25
abortions a day at LRFP. Additionally, to the extent
defendants point to Dr. Lindo’s testimony at the
hearing regarding Dr. Hopkins’ hypothetical capacity
to provide abortions, the Court discounts such
32

At the hearing, defendants presented evidence that the
maximum number of daily abortions Dr. Hopkins ever provided
at LRFP was 28 in April 2018, not 21. Under the formulation
suggested by defendants above, if Dr. Hopkins were to provide 28
abortions a day for three and a half days every other month, he
would perform a total of 588 surgical abortions annually. The
assertion that Dr. Hopkins can perform a total of 28 abortions a
day is questionable given the other record evidence currently
before the Court. Even if the Court were to accept it as true, it
does not substantially alter the Court’s calculations, which are
detailed below. In any event, based upon submissions from the
parties, it appears that plaintiffs inadvertently provided defendants with Excel sheets that were merged, resulting in a double
count of the number of abortions in April 2018 (Dkt. No. 82).
Plaintiffs have even provided the Court with copies of the Excel
sheets provided to Dr. Lindo and to Dr. Solanky, which illustrate
the April 2018 error (Dkt. Nos. 99, 100, 101, 102). In sum,
defendants have presented no proof that the Dr. Lindo relied
upon erroneous data.

225a
testimony because Dr. Hopkins was available for
questioning regarding his availability, and hypothetical questions that directly contradict record evidence
regarding Dr. Hopkins’ availability are not convincing
to this Court. The uncontradicted record evidence is
that Dr. Hopkins is only available one week, every
other month, to provide abortion care for three to four
days during that week.
With these preliminary points addressed, the Court
turns to analyze the number of women who record
evidence at this preliminary stage indicates plaintiffs
likely will be able to demonstrate will be forced to
forego an abortion due to the OBGYN requirement.
Based upon the record evidence, if the OBGYN
requirement goes into effect and LRFP closes, then
plaintiffs likely will be able to demonstrate that the
only abortions offered in Arkansas will be medication
abortions at PPAEO Little Rock, and the record
evidence indicates that Dr. Rodgers and Dr. Cathey—
the only board-certified OBGYNs providing care at
PPAEO Little Rock—can provide up to 956
medication abortions annually (Supp. Decl. of Jason
Lindo, Ph.D., ¶ 11). Accordingly, if those 956 medication abortions are the only abortions available in
Arkansas, then of the 3,167 women (including nonresidents) who seek abortions in Arkansas annually,
2,21133 (or 70%34) of those women will not be able to
receive abortions if LRFP closes.35 The Court notes
33

3,167-956=2,211.

34

2,211/3,167=70%.

35

Alternatively, out of the 2,614 women (including nonresidents of Arkansas) who seek abortions in Little Rock annually, 1,658 (2,614-956=1,658) (or 63%) of them will not be able to
receive abortions in Arkansas if LRFP closes and PPAEO Little
Rock is the only abortion provider left in Arkansas.

226a
that this calculation assumes without any record
evidence presented for the Court’s consideration that
any woman denied a surgical abortion could instead
receive a medication abortion.
Even if the OBGYN requirement does not force
LRFP to close entirely, the record evidence at this
stage shows that Dr. Hopkins will be the only physician capable of providing abortions at LRFP under the
OBGYN requirement. Further, the record evidence at
this stage shows that, based upon his prior ability to
provide abortions, Dr. Hopkins will be able to provide
only 252 abortions per year at LRFP. Accordingly, in
conjunction with the 956 medication abortions that
Dr. Rodgers and Dr. Cathey will be able to provide, the
total number of abortions that will be available in
Arkansas if LRFP remains open is 1,20836 with Dr.
Hopkins providing abortion care at his current maximum capacity to provide such care. Accordingly, of the
3,167 women (including non-residents) who annually
seek abortions in Arkansas, 1,95937 (or 62%38) of them
will not be able to obtain an abortion in Arkansas.39
While the Court is not convinced that any of the
record evidence supports defendants’ assertion that
Dr. Hopkins can perform 525 surgical abortions a
year, the Court will consider this unfounded asser36

956+252=1,208.

37

3,167-1,208=1,959.

38

1,959/3,167=62%.

39

Alternatively, of the 2,614 women (including non-residents
of Arkansas) who annually seek abortions in Little Rock (rather
than statewide), 1,406 (2,614-1,208=1,406) (or 54%) of them will
not be able to obtain an abortion in Arkansas if Dr. Hopkins can
provide 252 abortions annually in addition to the 956 abortions
provided by PPAEO Little Rock.

227a
tion’s effect upon the calculations above. If, as defendants assert, Dr. Hopkins is able to conduct 525 surgical
abortions a year, then the total number of abortions
available at LRFP and PPAEO Little Rock would be
1,481.40 Therefore, of the 3,167 women who annually
seek abortions in Arkansas, 1,68641 (or 53%42) of them
will not be able to obtain an abortion in Arkansas, if
the Court accepts defendants’ assertions about Dr.
Hopkins’ capacity.43
The Court notes that these estimates assume that
every woman who would otherwise have sought an
abortion would be able to continue seeking an abortion
even if her driving distances increase. In other words,
the Court’s estimates here assume that increased
driving distances would have no effect upon the
number of women who will be able to obtain an
abortion. Both sides include record evidence on this
point, but the Court specifically for purposes of its
analysis here makes no findings regarding the number
of abortions that will not occur as a result of increased
driving distances. As a result of this assumption, the
Court’s estimates likely underestimate the number of
women who will be unable to obtain an abortion as a
result of the OBGYN requirement.
The Court is also aware of the language in Casey
stating that “the incidental effect of making it more
difficult or more expensive to procure an abortion” is
40

956+525=1,481.

41

3,167-1,481=1,686.

42

1,695/3,167=53%.

43

Alternatively, of the 2,614 women who annually seek abortions in Little Rock, 1,133 (or 43%) of them will not be able to
obtain an abortion in Arkansas, if the Court accepts defendants’
assertion about Dr. Hopkins’ capacity.

228a
in and of itself not enough to meet the substantial
obstacle requirement. 505 U.S. at 874. While lengthy
travel “do[es] not always constitute an ‘undue burden,’” such travel is a “legitimate burden” that, depending upon the particular facts of the case, can ultimately contribute to a determination that a statute
creates an undue burden. See Schimel, 806 F.3d at 919
(noting that requiring women to travel 90 miles is a
burden on women seeking abortions and a particular
burden on low-income women); Van Hollen III, 738
F.3d at 796 (noting that a 400 mile trip for two
required appointments is a “nontrivial burden on
the financially strapped and others who have
difficulty traveling long distances to obtain an abortion, such as those who already have children”);
Planned Parenthood of Indiana and Kentucky Inc. v.
Commissioner, Indiana State Dep’t of Health, 273
F. Supp. 3d 1013, 1037 (S.D. Ind. 2017) (citing
Hellerstedt, 136 S. Ct. 2313), aff’d, 896 F.3d 809 (7th
Cir. 2017), petition for writ of certiorari filed, No. 181019 (U.S. Feb. 4, 2019). Evidence that increased
travel distances lead to decreases in the abortion rate
has been accepted by several federal courts. See
Schimel, 806 F.3d at 919 (noting that “18 to 24 percent
of women who would need to travel to Chicago or the
surrounding area [from Wisconsin] would be unable to
make the trip.”); Strange III, 33 F. Supp. 3d at 135660 (crediting statistical evidence that increased travel
distance led to decreased abortion rates, particularly
for urban women who are forced to travel more than
50 miles to an abortion clinic); see also Kliebert II, 250
F. Supp. 3d at 83 (crediting evidence that “[i]ntercity
travel for low-income women presents a number of
significant hurdles” and that “with just one or two
providers remaining, many more women will be forced

229a
to travel significant distances to reach a clinic, which
also imposes a substantial burden.”).
In sum, using the number of women who seek
abortions in Arkansas as the denominator of the large
fraction calculation, the record evidence indicates if
Act 700’s OBGYN requirement goes into effect, that
anywhere from 70-53% of women who wish to have an
abortion in Arkansas will be unable to obtain an
abortion in Arkansas. Per Hellerstedt, the Court
considers these burdens cumulatively to determine
if a large fraction of women seeking abortions in
Arkansas face a “substantial obstacle in the path of
[their] choice.” 136 S. Ct. at 2312, 2313 (noting that
different burdens—driving distance and clinic
closings—should be considered together). Applying
the “large fraction” test from Hellerstedt, Casey, and
Jegley, considering all of the burdens presented in the
record evidence at this stage of the proceedings and
the controlling precedents, the Court finds that, for a
large fraction of women for whom the OBGYN requirement is an actual restriction, the OBGYN requirement
“places a ‘substantial obstacle in the path of a woman’s
choice.’” Hellerstedt, 136 S. Ct. at 2312 (citing Casey,
505 U.S. at 877 (plurality opinion)).
6. Act 700: Weighing The Benefits And
Burdens
Having considered separately the benefits and burdens of the OBGYN requirement, the Court must next
resolve the ultimate question of whether the OBGYN
requirement creates an undue burden. Challenges to
statutes affecting abortions may succeed only if a
plaintiff can show that “in a large fraction of the cases
in which [the law] is relevant, it will operate as a
substantial obstacle to a woman’s choice to undergo an
abortion.” Casey, 505 U.S. at 895 (majority opinion);

230a
see Hellerstedt, 136 S. Ct. at 2318 (striking down an
admitting privileges requirement because the law
“provides few, if any, health benefits for women” and
“poses a substantial obstacle to women seeking abortions”); see also Jegley, 864 F.3d at 959 (“[I]n order to
sustain a facial challenge and grant a preliminary
injunction, the district court was required to make a
finding that the Act’s contract-physician requirement
is an undue burden for a large fraction of women
seeking medication abortions in Arkansas.”); id. at
690 n. 9 (“The question here . . . is whether the
contract-physician requirement’s benefits are substantially outweighed by the burdens it imposes on a
large fraction of women seeking medication abortion
in Arkansas.”).
Regarding the benefit of the OBGYN requirement,
analyzing the record evidence currently before the
Court at this stage of the litigation, and binding and
persuasive legal precedents, this Court concludes at
this stage that plaintiffs are likely to prevail on their
argument that the OBGYN requirement confers little
if any benefit on those women who are affected by it
and does little to further defendants’ asserted
interests. See Hellerstedt, 136 S. Ct. at 2318 (striking
down an admitting privileges requirement because
the law “provides few, if any, health benefits for
women” and “poses a substantial obstacle to women
seeking abortions”).
Regarding burdens, considered cumulatively, the
record evidence at this stage of the litigation demonstrates that plaintiffs are likely to prevail on the
merits of their claim that the OBGYN requirement,
given plaintiffs’ limited ability to comply with it,
substantially burdens a large fraction of women
seeking abortions in Arkansas which is the group for

231a
whom the law is relevant. See Casey, 505 U.S. at 895
(majority opinion) (holding that the undue burden
analysis looks “to those for whom [the challenged law]
is an actual rather than an irrelevant restriction.”).
Weighing the benefits and burdens, given the
foregoing evidence in the record currently before the
Court at this stage of the litigation and given binding
and persuasive legal precedents, the Court determines
that Act 700’s OBGYN requirement, given plaintiffs’
limited ability to comply with it, imposes substantial
burdens on a large fraction of women seeking abortions in Arkansas that “substantially outweigh[]” any
state interest or any benefits to those women. Jegley,
864 F.3d at 960 n.9; see Hellerstedt, 136 S. Ct. at 2318
(striking down an admitting privileges requirement
because the law “provides few, if any, health benefits
for women” and “poses a substantial obstacle to
women seeking abortions”); Van Hollen III, 738 F.3d
at 798 (“The feebler the medical grounds, the likelier
the burden, even if slight, to be ‘undue’ in the sense of
disproportionate or gratuitous.”) (emphasis added);
West Alabama Women’s Ctr. v. Miller, 299 F. Supp. 3d
1244, 1286 (M.D. Ala. 2017) (noting fetal demise law
was passed in pursuit of legitimate goals, but those
goals were not sufficient to justify “such a substantial
obstacle to the constitutionally protected right to
terminate a pregnancy before viability”); Planned
Parenthood of Indiana and Kentucky, Inc., 273 F.
Supp. at 1039 (noting undue burden where law
required ultrasound viewing a day before an abortion
rather than the day of the abortion because this
change provided little to no benefit when measured
against prior law). In other words, the Court concludes
that, based upon the limited record before it at
this stage of the litigation, plaintiffs are likely to
prevail on their argument that requiring abortion

232a
providers to be board-certified or board-eligible
OBGYNs presents a substantial undue burden for a
large fraction of women seeking abortions in Arkansas,
with little to no benefit to those women or to
defendants’ asserted interests.
Plaintiffs have shown that “in a large fraction of the
cases in which [the OBGYN requirement] is relevant,
it will operate as a substantial obstacle to a woman’s
choice to undergo an abortion.” Casey, 505 U.S. at 895
(majority opinion); see Hellerstedt, 136 S. Ct. at 2318
(striking down an admitting privileges requirement
because the law “provides few, if any, health benefits
for women” and “poses a substantial obstacle to women
seeking abortions”). Because Act 700’s OBGYN requirement likely does not “confer[] benefits sufficient to
justify the burdens upon access [to abortion] that [it]
imposes,” Hellerstedt, 136 S. Ct. at 2301, the Court
finds that plaintiffs are likely to prevail on the merits
of their due process challenge that Act 700’s OBGYN
requirement is facially unconstitutional.
7. Act 700: Equal Protection Challenge
For the reasons discussed elsewhere in this Order,
the Court finds that plaintiffs are likely to prevail on
their due process claims. Accordingly, the Court will
not, at this time, consider whether plaintiffs are likely
to prevail on their claims under the Equal Protection
Clause of the Fourteenth Amendment.
E. Irreparable Harm
A plaintiff seeking a preliminary injunction must
establish that the claimant is “likely to suffer irreparable harm in the absence of preliminary relief.” Winter
v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20 (2008).
The deprivation of constitutional rights “unquestiona-

233a
bly constitutes irreparable injury.” Elrod v. Burns, 427
U.S. 347, 373 (1976); Planned Parenthood of Minn.,
Inc. v. Citizens for Cmty. Action, 558 F.2d 861, 867 (8th
Cir. 1977) (same).
Plaintiffs allege that the enactment and enforcement of Acts 493, 619, and 700 will inflict irreparable,
tangible injuries on plaintiffs’ patients by forcing them
to delay access to abortion care or remain pregnant
against their will. Plaintiffs also argue that the
abortion providers will suffer irreparable harm to
their professional reputations if they are forced to
cease providing desired medical services and that
LRFP will be irreparably harmed by being forced to
close or reduce its hours of operations (Dkt. No. 61, at
52-53). Defendants argue that the OBGYN requirement does not prevent any woman from deciding
whether to have an abortion at any stage of pregnancy
and that there is no evidence that Acts 493 or 619 will
prevent any women from obtaining an abortion (Dkt.
No. 103, at , 84, 95). Defendants also assert that an
injunction would cause irreparable harm to the State
if it is not allowed to enforce the duly elected statutes
enacted by the Arkansas legislature (Id., at 96).
For now, this Court finds, based on the state of the
record before the Court at this stage of the proceeding,
that Acts 493, 619, and 700 cause ongoing and
imminent irreparable harm to the plaintiffs and their
patients. As detailed above, the record at this stage of
the proceeding indicates that Acts 493 and 619
unconstitutionally prohibit pre-viability abortions.
Additionally, the record at this stage of the proceeding
indicates that Act 700’s OBGYN requirement imposes
an undue burden on the right of women in Arkansas
to seek an abortion. The harms to women who are
unable to obtain abortion care as a result of Acts 493,

234a
619, and 700 are irreparable. See Roe, 410 U.S. at 153
(describing “[s]pecific and direct harm” from forced
childbirth). Furthermore, the State has no interest in
enforcing laws that are unconstitutional, and therefore, since plaintiffs have demonstrated at least at this
preliminary stage and on the record currently before
the Court that they are likely to prevail on the issue of
whether Acts 493, 619, and 700 are unconstitutional,
an injunction preventing the State from enforcing Acts
493, 619, and 700 does not irreparably harm the State.
See Hispanic Interest Coal. of Ala. v. Governor of Ala.,
691 F.3d 1236, 1249 (11th Cir. 2012). Since the record
at this stage of the proceedings indicates that women
seeking abortions in Arkansas face an imminent
threat to their constitutional rights, the Court concludes that they will suffer irreparable harm without
injunctive relief.
F. Balance Of Equities And The Public Interest
Plaintiffs argue that they and their patients
“unquestionably face far greater irreparable harm if
the challenged requirements take effect” than “Defendants face if the laws’ enforcement is enjoined . . . .”
(Dkt. No. 4, at 65). Plaintiffs point out that if the Court
grants injunctive relief, the immediate result will be
the maintenance of the status quo, i.e., “the availability of safe and effective abortion care.” (Id.). Defendants, however, argue that the “status quo is that duly
enacted laws take effect without interventions of
courts” and that the public interest weighs against
injunctive relief because the public has an interest in
seeing the laws enforced and protecting patient health
(Dkt. No. 103, at 97).
The Court must examine this case in the context of
the relative injuries to the parties and to the public.
Dataphase, 640 F.2d at 114. The Eighth Circuit has

235a
stated that “whether the grant of a preliminary
injunction furthers the public interest . . . is largely
dependent on the likelihood of success on the merits
because the protection of constitutional rights is
always in the public interest.” Rounds, 530 F.3d at
752. After balancing the relative injuries and the
equities, while evaluating the limited record before it,
the Court finds that the enforcement of Acts 493, 619,
and 700 at least at this stage would result in greater
irreparable harm to plaintiffs and their patients than
to the State. Accordingly, at this stage of the proceeding, the Court finds that the threat of irreparable
harm to plaintiffs, and the public interest, outweighs
the immediate interests and potential injuries to
defendants.
G. Security
Under Federal Rule of Civil Procedure 65(c), a
district court may grant a preliminary injunction “only
if the movant gives security in an amount that the
court considers proper to pay the costs and damages
sustained by any party found to have been wrongfully
enjoined or restrained.” Fed. R. Civ. P. 65(c). In these
proceedings, defendants have neither requested security in the event this Court grants a preliminary
injunction nor have they presented any evidence that
they will be financially harmed if they are wrongfully
enjoined. For these reasons, the Court declines to
require security from plaintiffs.
H. Scope Of Injunction
The Court notes that in the related case, Jegley, the
Court’s renewed preliminary injunction order required
plaintiffs in that case to report to the Court every 30
days on their efforts to comply with the contracted
physician requirement. The Court declines to attach a

236a
similar requirement to this preliminary injunction for
the following reasons. In Jegley, the record evidence at
the preliminary injunction stage indicated that the
contracted physician requirement conferred little if
any benefit to the women who were affected by it.
Jegley, 2018 WL 3816925, at *68. The record evidence
also indicated that a large fraction of women affected
by the contracted physician requirement were substantially burdened, id., though the percentage of
women affected by the contracted physician requirement as calculated by the Court was smaller than the
percentage of women who will not be able to obtain an
abortion if the OBGYN requirement takes effect,
based on current record evidence. Additionally, this
Court found in Jegley that it had “lingering questions
regarding PPAEO’s efforts to comply with the
contracted physician requirement . . . .” Id. at *49.
Reviewing the record evidence here, unlike in Jegley
where Arkansas physicians submitted affidavits,
defendants present no affidavits from any individual
regarding the difference between the requirements
to satisfy the board-certified or board-eligible OBGYN
requirement of Act 700 and the Arkansas laws
and regulations currently in place that apply to
Arkansas-licensed physicians who provide abortions.
Dr. Aultman and Dr. Harrison’s declarations are
generalized and provide the Court with no basis to
determine how the OBGYN requirement provides any
benefits over and above existing law or regulations in
Arkansas. Dr. Aultman did not appear at the July 22,
2019, hearing. Indeed, Dr. Harrison’s testimony
offered at the July 22, 2019, hearing suggests that, as
a board-certified OBGYN, she would not feel comfortable providing abortions without at least six months of
additional training in abortion care (Dkt. No. 84, at
241:9-21).

237a
Similarly, the record evidence indicates that the
effect of the OBGYN requirement will be to reduce
significantly the number of abortions that can be provided in Arkansas. Furthermore, as discussed above,
the Court concludes that Dr. Lindo and Dr. Solanky’s
estimates regarding the number of abortions in
Arkansas are not substantively different. Defendants
have presented no record evidence that plaintiffs are
able to provide more abortions than represented in
their testimony or in Dr. Lindo’s estimates.
Finally, record evidence shows that plaintiffs have
made good faith attempts to comply with the OBGYN
requirement and that their attempts have been, in
part, successful, as demonstrated by Dr. Cathey’s commitment to provide an additional half day of abortion
care and Dr. Hopkins and Dr. Browne’s agreements to
provide increased abortion care in Arkansas. Defendants have presented no record evidence that plaintiffs
have somehow misrepresented their attempts to comply with the OBGYN requirement or have somehow
failed to pursue diligently additional leads.
For all of these reasons, the Court will not require
plaintiffs to attempt to comply with the OBGYN
requirement.
IV. CONCLUSION
For the foregoing reasons, the Court determines
that plaintiffs have met their initial burden for the
issuance of a preliminary injunction. Therefore, the
Court grants plaintiffs’ request for a preliminary
injunction (Dkt. No. 2). The Court hereby orders that
defendants, and all those acting in concert with them,
including their employees, agents, and successors in
office, are preliminarily enjoined from enforcing Act
493 of 2019, Act 619 of 2019, and Act 700 of 2019.

238a
Further, defendants are enjoined from failing to notify
immediately all state officials responsible for enforcing
the requirements of Act 493 of 2019, Act 619 of 2019,
and Act 700 of 2019, about the existence and requirements of this preliminary injunction. This preliminary
injunction remains in effect until further order from
this Court. No party is barred from seeking modified
or additional relief.
The Court enters this Order on Tuesday, August 6,
2019, at 5:00 p.m.
/s/ Kristine G. Baker
Kristine G. Baker
United States District Judge

239a
APPENDIX C
Title
Ark. Code Ann. 20-16-2101
This subchapter shall be known and may be cited as
the “Down Syndrome Discrimination by Abortion
Prohibition Act”.

240a
Definitions
Ark. Code Ann. 20-16-2102
As used in this subchapter:
(1)(A) “Abortion” means the act of using or prescribing
any instrument, medicine, drug, or any other substance, device, or means with the intent to terminate
the clinically diagnosable pregnancy of a woman, with
knowledge that the termination by any of those means
will with reasonable likelihood cause the death of the
unborn child.
(B) An act under subdivision (1)(A) of this section
is not an abortion if the act is performed with the
intent to:
(i) Save the life or preserve the health of the
unborn child or the pregnant woman;
(ii) Remove a dead unborn child caused by
spontaneous abortion; or
(iii) Remove an ectopic pregnancy;
(2) “Down Syndrome” means a chromosome disorder
associated with either:
(A) An extra copy of the chromosome 21, in whole
or in part; or
(B) An effective trisomy for chromosome 21;
(3) “Physician” means a person licensed to practice
medicine in this state, including a medical doctor and
a doctor of osteopathy; and
(4) “Unborn child” means the offspring of human
beings from conception until birth.

241a
Prohibition – Down Syndrome
Ark. Code Ann. 20-16-2103
(a) A physician shall not intentionally perform or
attempt to perform an abortion with the knowledge
that a pregnant woman is seeking an abortion solely
on the basis of:
(1) A test result indicating Down Syndrome in an
unborn child;
(2) A prenatal diagnosis of Down Syndrome in an
unborn child; or
(3) Any other reason to believe that an unborn
child has Down Syndrome.
(b)(1) Before performing an abortion, the physician
performing the abortion shall ask the pregnant
woman if she is aware of any test results, prenatal
diagnosis, or any other evidence that the unborn child
may have Down Syndrome.
(2) If the pregnant woman knows of any test
results, prenatal diagnosis, or any other evidence
that the unborn child may have Down Syndrome, the
physician who is performing the abortion shall:
(A) Inform the pregnant woman of the prohibition of abortion contained in subsection (a) of this
section; and
(B) Request the medical records of the pregnant woman relevant to determining whether
she has previously aborted an unborn child or
children after she became aware of any test results,
prenatal diagnosis, or any other evidence that the
unborn child may have had Down Syndrome.

242a
(3) When the physician performing the abortion is
required to request the medical records of the pregnant women under subdivision (b)(2)(B) of this section,
the physician shall not perform an abortion until the
physician spends at least fourteen (14) days to obtain
the medical records described in subdivision (b)(2)(B)
of this section.
(c) If this section is held invalid as applied to the
period of pregnancy prior to viability, then this section
shall remain applicable to the period of pregnancy
subsequent to viability.
(d) This section does not apply to an abortion performed on a pregnant woman if the pregnancy is the
result of rape or incest.

243a
Criminal penalties
Ark. Code Ann. 20-16-2104
A physician or other person who knowingly performs or attempts to perform an abortion prohibited
by this subchapter is guilty of a Class D felony.

244a
Civil penalties and professional sanctions
Ark. Code Ann. 20-16-2105
(a)(1) A physician who knowingly violates this subchapter is liable for damages and shall have his or her
medical license revoked as applicable.
(2) The physician may also be enjoined from future
acts prohibited by this subchapter.
(b)(1) A woman who receives an abortion in violation
of this subchapter without being informed of the
prohibition of abortion for the purposes of aborting an
unborn child diagnosed with Down Syndrome, the
parent or legal guardian of the woman if the woman
is a minor who is not emancipated, or the legal guardian of the woman if the woman has been adjudicated
incompetent, may commence a civil action for any
reckless violation of this subchapter and may seek
both actual and punitive damages.
(2) Damages may include without limitation:
(A) Money damages for any psychological and physical injuries occasioned by the violation of this
subchapter; and
(B) Statutory damages equal to ten (10) times the
cost of the abortion performed in violation of
this subchapter.
(c) A physician or other person who performs an
abortion in violation of this subchapter shall be
considered to have engaged in unprofessional conduct
and his or her license to provide healthcare services in
this state shall be revoked by the Arkansas State
Medical Board.

245a
(d)(1) A cause of action for injunctive relief against
any physician or other person who has knowingly
violated this subchapter may be maintained by:
(A) A person who is the spouse, parent, guardian, or
current or former licensed healthcare provider of the
woman who receives or attempts to receive an abortion
in violation of this subchapter; or
(B) The Attorney General.
(2) The injunction shall prevent the physician or other
person from performing further abortions in violation
of this subchapter.

246a
Exclusion of liability for a woman who
undergoes prohibited abortion
Ark. Code Ann. 20-16-2106
(a) A woman who receives or attempts to receive an
abortion in violation of this subchapter shall not be
prosecuted under this subchapter for conspiracy to
violate this subchapter or otherwise be held criminally
or civilly liable for any violation of this subchapter.
(b) In a criminal proceeding or action brought under
this subchapter, a woman who receives or attempts to
receive an abortion in violation of this subchapter is
entitled to all rights, protections, and notifications
afforded to crime victims.
(c)(1) In a civil proceeding or action brought under
this subchapter, the anonymity of the woman who
receives or attempts to receive the abortion in violation of this subchapter shall be preserved from public
disclosure unless she gives her consent to disclosure.
(2) A court of competent jurisdiction, upon motion
or sua sponte, shall issue orders to the parties,
witnesses, and counsel and direct the sealing of the
record and exclusion of individuals from the courtroom
or hearing room to the extent necessary to safeguard
the identity of the woman from public disclosure.

247a
Right of intervention
Ark. Code Ann. 20-16-2107
The General Assembly by joint resolution may
appoint one (1) or more of its members who sponsored
or cosponsored this subchapter in his or her official
capacity to intervene as a matter of right in any case
in which the constitutionality of this law is challenged.

